APPENDIX

1a
APPENDIX A
UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-1328
SUHAIL NAJIM ABDULLAH AL SHIMARI; SALAH
HASAN NUSAIF JASIM AL-EJAILI; ASA’AD
HAMZA HANFOOSH AL-ZUBA’E,
Plaintiffs – Appellees,
and
TAHA YASEEN ARRAQ RASHID; SA’AD HAMZA
HANTOOSH AL-ZUBA’E,
Plaintiffs,
v.
CACI PREMIER TECHNOLOGY, INC.,
Defendant and Third-Party Plaintiff – Appellant,
and
TIMOTHY DUGAN; CACI INTERNATIONAL, INC.;
L-3 SERVICES, INC.,
Defendants,
v.
UNITED STATES OF AMERICA; JOHN DOES 1-60,
Third-Party Defendants.

2a
------------------------UNITED STATES OF AMERICA,
Amicus Curiae,
THE CENTER FOR JUSTICE AND ACCOUNTABILITY; RETIRED MILITARY OFFICERS; EARTHRIGHTS INTERNATIONAL,
Amici Supporting Appellee.

Appeal from the United States District Court for the
Eastern District of Virginia, at Alexandria. Leonie M.
Brinkema, District Judge. (1:08-cv-00827-LMB-JFA)

Argued: July 10, 2019

Decided: August 23, 2019

Before FLOYD, THACKER, and QUATTLEBAUM,
Circuit Judges.

Dismissed by unpublished opinion. Judge Floyd
wrote the opinion, in which Judge Thacker joined in
full. Judge Quattlebaum wrote a separate opinion
concurring in the judgment.

ARGUED: John Frederick O’Connor, STEPTOE &
JOHNSON LLP, Washington, D.C., for Appellant.
Baher Azmy, CENTER FOR CONSTITUTIONAL
RIGHTS, New York, New York, for Appellees. H.
Thomas Byron, III, UNITED STATES DEPARTMENT OF JUSTICE, Washington, D.C., for Amicus

3a
Curiae. ON BRIEF: Linda C. Bailey, Molly B. Fox,
STEPTOE & JOHNSON LLP, Washington, D.C.; William D. Dolan, III, LAW OFFICES OF WILLIAM D.
DOLAN, III, PC, Tysons Corner, Virginia, for Appellant. Katherine Gallagher, CENTER FOR CONSTITUTIONAL RIGHTS, New York, New York; Jeena
Shah, CUNY SCHOOL OF LAW, Long Island City,
New York; Peter A. Nelson, Matthew Funk, Jared S.
Buszin, Jeffrey C. Skinner, PATTERSON BELKNAP
WEBB & TYLER LLP, New York, New York; Shereef
Hadi Akeel, AKEEL & VALENTINE, P.C., Troy,
Michigan, for Appellees. Joseph H. Hunt, Assistant
Attorney General, Mark B. Stern, Civil Division,
UNITED STATES DEPARTMENT OF JUSTICE,
Washington, D.C.; G. Zachary Terwilliger, United
States Attorney, OFFICE OF THE UNITED STATES
ATTORNEY, Alexandria, Virginia, for Amicus Curiae
United States of America. Daniel McLaughlin, Carmen Cheung, Elzbieta T. Matthew, THE CENTER
FOR JUSTICE & ACCOUNTABILITY, San Francisco, California, for Amicus The Center for Justice &
Accountability. Lawrence S. Lustberg, GIBBONS
P.C., Newark, New Jersey, for Amicus Retired Military Officers. Marco B. Simons, Michelle C. Harrison,
EARTHRIGHTS INTERNATIONAL, Washington,
D.C., for Amicus EarthRights International.
Unpublished opinions are not binding precedent in
this circuit.

4a
FLOYD, Circuit Judge:
Plaintiffs are Iraqi citizens who allege that they
were tortured while detained at Abu Ghraib. Defendant CACI Premier Technology, Inc. (CACI) is a U.S.
government contractor that provided civilian interrogators at Abu Ghraib. Plaintiffs allege that CACI interrogators abused them—or conspired in or aided
and abetted their abuse—in ways amounting to torture and other war crimes. In this interlocutory appeal, CACI asks us to reverse the district court’s order
denying it derivative sovereign immunity.
We dismiss because we lack jurisdiction. This
conclusion follows from the reasoning of a prior en
banc decision in which we dismissed CACI’s interlocutory appeal from the district court’s denial of similar
defenses. Al Shimari v. CACI Int’l, Inc., 679 F.3d 205,
213 (4th Cir. 2012) (en banc). As relevant here, we
explained that “fully developed rulings” denying “sovereign immunity (or derivative claims thereof) may
not” be immediately appealable. Al Shimari, 679 F.3d
at 217 n.3. Indeed, we have never held, and the
United States government does not argue, that a denial of sovereign immunity or derivative sovereign immunity is immediately reviewable on interlocutory
appeal.
But even if a denial of derivative sovereign immunity may be immediately appealable, our review is
barred here because there remain continuing disputes

5a
of material fact with respect to CACI’s derivative sovereign immunity defenses.* See id. at 221 (distinguishing between the interlocutory appealability of
immunity denials premised on “fact-based” versus
“abstract” issues of law and noting that only the latter
supply a proper foundation for immediate appeal).
Below, the district court concluded that even if the
United States were entitled to sovereign immunity, “it
is not at all clear that CACI would be extended the
same immunity” due to continuing factual disputes regarding whether CACI violated the law or its contract.
Al Shimari v. CACI Premier Tech., Inc., 368 F. Supp.
3d 935, 970 (E.D. Va. 2019). The district court also
denied CACI’s motion for summary judgment on
plaintiffs’ ATS claims based on evidence showing “material issues of fact that are in dispute,” J.A. 2238–50,
and these factual disputes are substantially related, if
not identical, to the elements of CACI’s derivative sovereign immunity defense. Given these continuing factual disputes, this appeal does not turn on an abstract
question of law and is not properly before us.
For these reasons, this appeal is
DISMISSED.

*

Even if we assumed that our jurisdiction would permit us to
determine whether CACI would be entitled to derivative sovereign immunity if the plaintiffs succeeded in proving their factual
allegations, we would not, and do not, have jurisdiction over a
claim that the plaintiffs have not presented enough evidence to
prove their version of events. Id. at 221.

6a
QUATTLEBAUM, Circuit Judge, concurring in judgment:
The order appealed involves important issues
with potentially far-reaching implications. Despite
that, our precedent compels me to join the judgment
of the Court. In Al Shimari v. CACI International,
Inc., our Court, sitting en banc, determined that the
only potential basis for interlocutory appeal here
would be an appeal from an order on derivative sovereign immunity that involves an abstract issue of law.
Al Shimari v. CACI Int’l., Inc., 679 F.3d 205, 220–22
(4th Cir. 2012) (en banc). CACI insists we have such
a situation and argues plaintiffs present no evidence
representatives of CACI engaged in any of the alleged
improper conduct as to these plaintiffs. But from my
review of the record, I cannot reach that conclusion as
a matter of law. Therefore, I agree the requirements
for us to exercise appellate jurisdiction for an interlocutory appeal are lacking.
However, I write separately because in contrast to
the majority’s reading of the case, Al-Shimari explicitly held that the denial of derivative sovereign immunity may be appealable if the appeal involves an
“abstract issue of law” or a “purely legal question.”
679 F.3d at 221–22. We as a panel do not have the
authority to alter that previous conclusion.
Yet despite this disagreement, being bound by our
precedent, I concur with the majority’s judgment. But
I do so only reluctantly. Our narrow interpretation of
the collateral order doctrine in this case has taken us
down a dangerous road. This proceeding has allowed
discovery into sensitive military judgments and wartime activities. It has also opened the door to an order

7a
that the United States has no sovereign immunity for
claims that our military activities violated international norms—whatever those are. These may seem
like minor inconveniences given the conduct at issue
has been uniformly condemned and because the defendant here is a private contractor. But while we
have no jurisdiction to address them now, the implications from these proceedings are potentially quite
significant. We will see whether this case progresses
to a point where we have jurisdiction to address the
important questions it raises.

8a
APPENDIX B
PUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 15-1831
SUHAIL NAJIM ABDULLAH AL SHIMARI; TAHA
YASEEN ARRAQ RASHID; SALAH HASAN NUSAIF AL-EJAILI; ASA’AD HAMZA HANFOOSH ALZUBA’E,
Plaintiffs – Appellants,
and
SA’AD HAMZA HANTOOSH AL-ZUBA’E,
Plaintiff,
v.
CACI PREMIER TECHNOLOGY, INC.,
Defendant – Appellee,
and
TIMOTHY DUGAN; CACI INTERNATIONAL, INC.;
L-3 SERVICES, INC.,
Defendants.
---------------------------------------PROFESSORS OF CONSTITUTIONAL LAW AND
FEDERAL COURTS; JUAN E. MENDEZ, U.N. SPECIAL RAPPORTEUR ON TORTURE; RETIRED

9a
MILITARY OFFICERS; AMERICAN CIVIL LIBERTIES UNION FOUNDATION, AMNESTY INTERNATIONAL, AND HUMAN RIGHTS WATCH; ALBERTO MORA, FORMER GENERAL COUNSEL,
U.S. DEPARTMENT OF THE NAVY; ABUKAR HASSAN AHMED, DR. JUAN ROMAGOZA ARCE, ZITA
CABELLO, AZIZ MOHAMED DERIA, CARLOS
MAURICIO, GLORIA REYES, OSCAR REYES, CECILIA SANTOS MORAN, ZENAIDA VELASQUEZ,
AND BASHE ABDI YOUSUF,
Amici Supporting Appellants,
PROFESSIONAL SERVICES COUNCIL – THE
VOICE OF THE GOVERNMENT SERVICES INDUSTRY; COALITION FOR GOVERNMENT PROCUREMENT; KBR, INC.,
Amici Supporting Appellee.

Appeal from the United States District Court for the
Eastern District of Virginia, at Alexandria. Gerald
Bruce Lee, District Judge. (1:08-cv-00827-GBL-JFA)

Argued: May 12, 2016

Decided: October 21, 2016

Before KEENAN, FLOYD, and THACKER, Circuit
Judges.

Vacated and remanded by published opinion. Judge
Keenan wrote the opinion, in which Judge Floyd and

10a
Judge Thacker joined. Judge Floyd wrote a separate
concurring opinion.

ARGUED: Baher Azmy, CENTER FOR CONSTITUTIONAL RIGHTS, New York, New York, for Appellants. John Frederick O’Connor, Jr., STEPTOE &
JOHNSON, LLP, Washington, D.C., for Appellee. ON
BRIEF: Katherine Gallagher, CENTER FOR CONSTITUTIONAL RIGHTS, New York, New York; Robert P. LoBue, PATTERSON BELKNAP WEBB & TYLER LLP, New York, New York; Shereef Hadi Akeel,
AKEEL & VALENTINE, P.C., Troy, Michigan; Jeena
Shah, CONSTITUTIONAL RIGHTS & INTERNATIONAL HUMAN RIGHTS CLINIC, Newark, New
Jersey, for Appellants. Stephen I. Vladeck, Washington, D.C.; Charles S. Barquist, Los Angeles, California, Betre M. Gizaw, MORRISON & FOERSTER LLP,
Washington, D.C., for Amici Professors of Constitutional Law and Federal Courts. Eric L. Lewis, A.
Katherine Toomey, James P. Davenport, Waleed Nassar, LEWIS BAACH PLLC, Washington, D.C.;
Melissa Hooper, HUMAN RIGHTS FIRST, New York,
New York, for Amici Retired Military Officers. Dror
Ladin, Hina Shamsi, AMERICAN CIVIL LIBERTIES
UNION FOUNDATION, New York, New York, for
Amici American Civil Liberties Union Foundation,
Amnesty International, and Human Rights Watch.
George M. Clarke, III, BAKER & MCKENZIE LLP,
Washington, D.C.; Alberto Mora, Carr Center For Human Rights Policy, HARVARD KENNEDY SCHOOL,
Cambridge, Massachusetts, for Amicus Alberto Mora.
William J. Aceves, CALIFORNIA WESTERN
SCHOOL OF LAW, San Diego, California; Deena R.
Hurwitz, International Human Rights Law Clinic,

11a
AMERICAN UNIVERSITY, Washington, D.C., for
Amicus Juan E. Mendez. L. Kathleen Roberts,
Nushin Sarkarati, THE CENTER FOR JUSTICE &
ACCOUNTABILITY, San Francisco, California; Michael E. Tigar, Oriental, North Carolina; Ali A.
Beydoun, UNROW HUMAN RIGHTS IMPACT LITIGATION CLINIC, Washington, D.C., for Amici Abukar Hassan Ahmed, Dr. Juan Romagoza Arce, Zita
Cabello, Aziz Mohamed Deria, Carlos Mauricio, Gloria Reyes, Oscar Reyes, Cecilia Santos Moran,
Zenaida Velasquez, and Bashe Abdi Yousuf. Lawrence S. Ebner, Lisa N. Himes, Tami Lyn Azorsky,
Jessica C. Abrahams, DENTONS US LLP, Washington, D.C., for Amici Professional Services Council-The
Voice of the Government Services Industry, and Coalition for Government Procurement. Raymond B.
Biagini, Daniel L. Russell Jr., Herbert L. Fenster,
COVINGTON & BURLING LLP, Washington, D.C.,
for Amicus KBR, Incorporated.

12a
BARBARA MILANO KEENAN, Circuit Judge:
Suhail Al Shimari, Taha Rashid, Salah Al-Ejaili,
and Asa’ad Al-Zuba’e (the plaintiffs), four Iraqi nationals, alleged that they were abused while detained
in the custody of the United States Army at Abu
Ghraib prison, located near Baghdad, Iraq, in 2003
and 2004. They were detained beginning in the fall of
2003, and ultimately were released without being
charged with a crime. In 2008, they filed this civil action against CACI Premier Technology, Inc. (CACI),
which provided contract interrogation services for the
military at the time of the alleged mistreatment.
In their third amended complaint, the plaintiffs
alleged pursuant to the Alien Tort Statute (ATS), 28
U.S.C. § 1350, that CACI employees committed acts
involving torture and war crimes, and cruel, inhuman,
or degrading treatment. The plaintiffs also asserted
various tort claims under the common law, including
assault and battery, sexual assault and battery, and
intentional infliction of emotional distress.
This case is before this Court for the fourth time.
In our most recent decision, we remanded the case to
the district court to conduct jurisdictional discovery on
the issue whether the political question doctrine
barred the plaintiffs’ claims. On remand, after reopening discovery, the district court dismissed the
plaintiffs’ complaint on the ground that it presented a
non-justiciable political question. The court based its
decision on three grounds: (1) that the military exercised direct control over interrogation operations at
Abu Ghraib; (2) that adjudication of the plaintiffs’
claims would require the court improperly to question
sensitive military judgments; and (3) that the court

13a
lacked any judicially manageable standards to resolve
the plaintiffs’ claims.
The plaintiffs once again appeal. Upon our review, we conclude that the district court erred in its
analysis by failing to determine whether the military
exercised actual control over any of CACI’s alleged
conduct. We hold that conduct by CACI employees
that was unlawful when committed is justiciable, irrespective whether that conduct occurred under the
actual control of the military. We further hold that
acts committed by CACI employees are shielded from
judicial review under the political question doctrine if
they were not unlawful when committed and occurred
under the actual control of the military or involved
sensitive military judgments.
We therefore vacate the district court’s judgment.
We remand the case for the district court to re-examine its subject matter jurisdiction under the political
question doctrine in accordance with the above holdings.
I.
We recounted the circumstances underlying the
plaintiffs’ complaint and the complicated procedural
history of this case at length in our previous opinion,
Al Shimari v. CACI Premier Tech., Inc., 758 F.3d 516
(4th Cir. 2014) (Al Shimari III). We will review here
only the facts relevant to the present appeal.
Following the invasion of Iraq in 2003, the United
States took control of Abu Ghraib prison (Abu
Ghraib), a facility located near Baghdad, Iraq that
previously was under the control of Saddam Hussein.
Upon assuming control of the facility, the United
States military used the prison to detain criminals,

14a
enemies of the provisional government, and other persons held for interrogation related to intelligence
gathering. Due to a shortage of military interrogators, the United States government entered into a contract with CACI to provide additional interrogation
services at Abu Ghraib.
As documented in a later investigation conducted
by the United States Department of Defense, “numerous incidents of sadistic, blatant, and wanton criminal
abuses were inflicted on several detainees” at Abu
Ghraib between October and December 2003. Al
Shimari III, 758 F.3d at 521 (citing Maj. Gen. Antonio
M. Taguba, Article 15-6 Investigation of the 800th
Military Police Brigade 16 (2004) (Taguba Report)).
Department of Defense investigators concluded that
CACI interrogators as well as military personnel engaged in such abusive conduct. Id. (citing Taguba Report at 48 and Maj. Gen. George R. Fay, Article 15-6
Investigation of the Abu Ghraib Detention Facility
and 205th Military Intelligence Brigade 7-8, 84, 8687, 89, 116-17, 132-35 (2004)). Numerous service
members were disciplined administratively or punished under military law by court martial for conduct
related to these acts. Some service members received
significant terms of imprisonment for their role in
these offenses.
The plaintiffs alleged in their complaint that
CACI interrogators entered into a conspiracy with
low-ranking military police officials to commit abusive
acts on the plaintiffs, in order to “soften up” the detainees so that they would be more responsive during
later interrogations. The plaintiffs further alleged
that they were victims of a wide range of mistreatment, including being beaten, choked, “subjected to

15a
electric shocks,” “repeatedly shot in the head with a
taser gun,” “forcibly subjected to sexual acts,” subjected to sensory deprivation, placed in stress positions for extended periods of time, deprived of food,
water, and sleep, threatened with unleashed dogs and
death, and forced to wear women’s underwear.
Additionally, the plaintiffs alleged that CACI interrogators “instigated, directed, participated in, encouraged, and aided and abetted conduct towards detainees that clearly violated the Geneva Conventions,
the Army Field Manual, and the laws of the United
States.” According to the plaintiffs, most of these acts
of abuse occurred during the nighttime shift at the
prison, in order to reduce the likelihood that nonparticipants would learn of this conduct. The plaintiffs
contend that these acts of abuse were possible because
of a “command vacuum” at Abu Ghraib, caused by the
failure of military leaders to exercise effective oversight over CACI interrogators and military police.
CACI moved to dismiss the plaintiffs’ complaint
on several grounds, including the political question
doctrine, federal preemption, derivative sovereign immunity, and lack of subject matter jurisdiction under
the ATS. The district court denied the defendants’
motion, holding in part that the plaintiffs’ claims did
not present a political question. Nevertheless, the
court concluded that it lacked jurisdiction over the
plaintiffs’ ATS claims, because CACI was a private
party rather than a governmental actor, and opined
that those claims could only proceed under diversity
or federal question jurisdiction.
On appeal, a panel of this Court concluded that
the plaintiffs’ claims were preempted by federal law

16a
under the Supreme Court’s decision in Boyle v. United
Technologies Corp., 487 U.S. 500 (1988). Al Shimari
v. CACI Int’l, Inc., 658 F.3d 413 (4th Cir. 2011) (Al
Shimari I), vacated, 679 F.3d 205 (4th Cir. 2012) (en
banc). On rehearing en banc, this Court vacated the
panel decision and dismissed CACI’s appeal as interlocutory. Al Shimari v. CACI Int’l, Inc., 679 F.3d 205
(4th Cir. 2012) (en banc) (Al Shimari II).
On remand from Al Shimari II, the district court
reinstated the plaintiffs’ ATS claims, but dismissed
without prejudice the plaintiffs’ claims alleging a conspiracy between CACI and the military.1 The district
court dismissed as barred by the statute of limitations
the common law claims brought by all the plaintiffs
except Al Shimari. In response, the plaintiffs filed a
third amended complaint to supplement their allegations of conspiracy, limit their common law claims to
Al Shimari, and name CACI as the only defendant.
The third amended complaint (the complaint) is the
complaint at issue in this appeal.
In April 2013, shortly after the third amended
complaint was filed, the deadline for discovery on the
merits of the plaintiffs’ claims expired. The same
week, the Supreme Court issued its decision in Kiobel
v. Royal Dutch Petroleum Co., 133 S. Ct. 1659 (2013),
which imposed certain limitations on extraterritorial
application of the ATS. Relying on Kiobel, the district
court dismissed the plaintiffs’ ATS claims, because
the underlying conduct occurred exclusively in Iraq.
The district court also dismissed Al Shimari’s common
1

The court also dismissed with prejudice the plaintiffs’ claims
against the parent company of CACI, CACI International, and
the conspiracy claims against individual CACI employees.

17a
law tort claims under Federal Rule of Civil Procedure
12(b)(6), holding that Iraqi law did not permit imposition of liability on CACI.
On appeal from that decision, in Al Shimari III we
concluded that the district court had jurisdiction over
the plaintiffs’ ATS claims under the Supreme Court’s
reasoning in Kiobel. 758 F.3d 516 (4th Cir. 2014). Although CACI also argued that the case should be dismissed pursuant to the political question doctrine, we
declined to decide the political question issue based on
the limited appellate record available at the time. Instead, we vacated the district court’s order dismissing
the ATS and common law claims, and remanded the
entire case for the district court to develop the factual
record regarding the extent of the military’s control
over CACI interrogators and whether CACI’s intended defenses raised any political issues. Id. at 53637.
On remand from Al Shimari III, the district court
reopened the record for jurisdictional discovery on the
issue of the political question doctrine, although it appears that minimal, if any, additional discovery was
taken.2 As noted above, following the reopened discovery period, the district court dismissed all the
plaintiffs’ claims under Federal Rule of Civil Procedure 12(b)(1) on the ground that they presented a
non-justiciable political question. The plaintiffs now
appeal the district court’s dismissal of their complaint
on this ground.

2

Notably, after eight years of litigation, to date only one of the
plaintiffs has been deposed in this case, because the United
States government has not allowed the plaintiffs to enter the
United States.

18a
II.
The plaintiffs contend that the district court erred
in dismissing their complaint as non-justiciable under
the political question doctrine. They first assert that
the district court erred in finding that the military
had direct control over formal interrogations at Abu
Ghraib prison, and in failing to evaluate whether the
military actually exercised such control during related
activities that occurred outside the formal interrogation process. In the plaintiffs’ view, we are not presented with a political question, because a “command
vacuum” existed at Abu Ghraib in which the military
did not exercise actual control over the conduct of the
military police and the CACI interrogators.
The plaintiffs also argue that their claims would
not require the courts to evaluate sensitive military
judgments because the claims challenge the legality,
rather than the reasonableness, of CACI’s conduct.
Separately, the plaintiffs assert that the district court
erred in concluding that it lacked manageable standards for resolving their claims.
In response, CACI contends that the district court
properly concluded that this case presents a political
question. According to CACI, the district court’s finding that the military exercised control over interrogation operations at Abu Ghraib ends the issue of justiciability in this case. CACI also maintains that the
district court correctly held that the case is non-justiciable because judicial review of the interrogation tactics used would require a court to question sensitive
military judgments. Finally, CACI asserts that the

19a
district court correctly concluded that it lacked manageable standards for resolving the plaintiffs’ claims.
We disagree with CACI’s arguments.
III.
In reviewing a district court’s dismissal of a claim
for lack of jurisdiction under Federal Rule of Civil Procedure 12(b)(1), we review the court’s factual findings
for clear error and its legal conclusions de novo. In re
KBR, Inc., Burn Pit Litig., 744 F.3d 326, 333 (4th Cir.
2014). We may consider the plaintiffs’ pleadings as
“mere evidence” on the question of jurisdiction, and
may also consider evidence outside the pleadings
without converting the motion to dismiss into a motion for summary judgment. Id.
The district court is authorized to resolve factual
disputes in evaluating its subject matter jurisdiction.
United States ex rel. Vuyyuru v. Jadhav, 555 F.3d
337, 348 (4th Cir. 2009); Williams v. United States, 50
F.3d 299, 304 (4th Cir. 1995); Adams v. Bain, 697 F.2d
1213, 1219 (4th Cir. 1982). However, “when the jurisdictional facts and the facts central to a tort claim are
inextricably intertwined,” the district court ordinarily
should withhold a determination regarding subject
matter jurisdiction and proceed to the merits of the
case. Kerns v. United States, 585 F.3d 187, 193 (4th
Cir. 2009).
A.
The political question doctrine derives from the
principle of separation of powers, and deprives courts
of jurisdiction over “controversies which revolve
around policy choices and value determinations constitutionally committed” to Congress or, as alleged in
this case, to the executive branch. Japan Whaling

20a
Ass’n v. Am. Cetacean Soc’y, 478 U.S. 221, 230 (1986).
This doctrine is a “narrow exception” to the judiciary’s
general obligation to decide cases properly brought before the courts. Zivotofsky v. Clinton, 132 S. Ct. 1421,
1427 (2012). Although most military decisions are
committed exclusively to the executive branch, a
claim is not shielded from judicial review merely because it arose from action taken under orders of the
military. Burn Pit, 744 F.3d at 334; see also Japan
Whaling, 478 U.S. at 229-30 (“[I]t is error to suppose
that every case or controversy which touches foreign
relations lies beyond judicial cognizance.”) (quoting
Baker v. Carr, 369 U.S. 186, 211 (1962)) (internal quotation marks omitted).
The Supreme Court established a six-factor test in
Baker v. Carr, 369 U.S. 186 (1962) (the Baker factors),
to aid courts in determining whether a case presents
a political question. These factors ask whether there
is: “(1) a textually demonstrable constitutional commitment of the issue to a coordinate political department, (2) a lack of judicially discoverable and manageable standards for resolving the issue, (3) the impossibility of deciding the issue without an initial policy
determination of a kind clearly for nonjudicial discretion, (4) the impossibility of a court’s undertaking independent resolution of the issue without expressing
lack of the respect due coordinate branches of government, (5) an unusual need for unquestioning adherence to a political decision already made, or (6) the potentiality of embarrassment from multifarious pronouncements by various departments on one question.” Burn Pit, 744 F.3d at 334 (citing Baker, 369
U.S. at 217) (internal quotations and alterations omitted).

21a
In Taylor v. Kellogg Brown & Root Services, Inc.,
658 F.3d 402 (4th Cir. 2011), we considered the proper
application of the Baker factors to cases involving the
civil liability of a government contractor in a negligence case. We distilled the Baker factors into two
questions for consideration in determining whether a
court has subject matter jurisdiction in a suit against
a government contractor. We first asked “whether the
government contractor was under the ‘plenary’ or ‘direct’ control of the military” (direct control). Al
Shimari III, 758 F.3d at 533 (quoting Taylor, 658 F.3d
at 411). Second, we asked whether “national defense
interests were ‘closely intertwined’ with military decisions governing the contractor’s conduct, such that a
decision on the merits of the claim ‘would require the
judiciary to question actual, sensitive judgments
made by the military.’” Id. at 533-34 (quoting Taylor,
658 F.3d at 411). An affirmative response to either of
the two Taylor factors, namely, the fact of direct control or the need to question sensitive military judgments, generally triggers application of the political
question doctrine. Id.
The plaintiff in Taylor, a Marine who suffered injuries resulting from an electrical shock sustained on
a military base in Iraq, asserted a negligence claim
against a government contractor based on the contractor’s activation of a generator while the plaintiff was
performing work on a wiring box. 658 F.3d at 403-04.
We concluded that because the contractor intended to
assert as a defense that the military was contributorily negligent, the district court would be forced to
“question actual, sensitive judgments made by the
military.” Id. at 411-12 (internal quotation marks
omitted). We therefore held that the political question

22a
doctrine deprived the court of jurisdiction to consider
the plaintiff’s negligence claim. Id. at 412.
Our holding in Taylor reflected our concern that
when national defense interests are at stake, courts
must carefully assess the extent to which these interests may be implicated in any litigation of a plaintiff’s
claims involving the conduct of a military contractor.
Taylor, 658 F.3d at 409-10. We give this question particular attention because courts are ill-equipped to
evaluate discretionary operational decisions made by,
or at the direction of, the military on the battlefield.
See generally Carmichael v. Kellogg, Brown & Root
Servs., Inc., 572 F.3d 1271 (11th Cir. 2009).
B.
The present case requires us to examine the factors and related considerations discussed in Taylor.
However, because Taylor was a negligence case and
the present case involves allegations of intentional
acts, we frame our analysis in accordance with that
distinction.
i.
As stated above, the first Taylor factor asks
whether the acts occurred while the government contractor was under the direct control of the military.
Taylor, 658 F.3d at 411. In Al Shimari III, we also
described this factor in terms of “the extent to which
military personnel actually exercised control” over the
contractor’s acts. Al Shimari III, 758 F.3d at 535. In
the present case, after considering this first Taylor
factor, the district court credited the evidence that the
military maintained formal control over the interro-

23a
gations, and concluded that the case presented a political question depriving the court of subject matter
jurisdiction.
In the district court, the evidence regarding the
military’s control over the CACI interrogators proceeded on parallel tracks, with evidence demonstrating formal military control presented alongside evidence showing that the military failed to exercise actual control over the interrogators. With regard to formal control, the record shows that the military was in
charge of the official command structure at Abu
Ghraib and instituted procedures governing the interrogation process. For example, in September and October 2003, military leadership located in Baghdad issued two memoranda establishing the particularized
rules of engagement for interrogations (IROEs) conducted at Abu Ghraib, which authorized the use of
several, specific interrogation techniques. 3 In addition, all interrogators were required to submit interrogation plans to the military chain of command for
advance approval. These plans specified the interrogation methods that the particular interrogators intended to employ and included requests for separate
approval of more aggressive tactics, if necessary.
Other evidence in the record, however, indicated
that the military failed to exercise actual control over
the work conducted by the CACI interrogators. In one

3

We observe that the September 2003 IROE memorandum
authorized aggressive interrogation tactics to be used under certain conditions, including the use of stress positions and “sleep
management.” The later, superseding memorandum removed
these tactics.

24a
government report, an investigator unequivocally concluded that military leaders at Abu Ghraib “failed to
supervise subordinates or provide direct oversight” of
the mission, and that the “lack of command presence,
particularly at night, was clear.”4 Lt. Gen. Anthony
R. Jones, AR 15-6 Investigation of the Abu Ghraib
Prison and 205th Military Intelligence Brigade 1137
(2004). The same report emphasized that interrogation operations were “plagued by a lack of an organizational chain of command presence and by a lack of
proper actions to establish standards and training” by
senior leadership. Id. Additional evidence in the record also indicates that CACI interrogators ordered
low-level military personnel to mistreat detainees.
This evidence supported the plaintiffs’ contention that
the formal command authority held by the military
did not translate into actual control of day-to-day interrogation operations.
The above evidence of a “command vacuum” raises
the question whether the military exercised actual
control over any interrogation-related activities during which the challenged conduct occurred. Also,

4

Generally, investigative government reports of this nature
are admissible as an exception to the rule against hearsay under
Federal Rule of Evidence 803(8)(A)(iii).

25a
through operation of the Army Field Manual 5 and
IROEs, the military may have expressly prohibited
the use of certain interrogation methods, but failed to
enforce these prohibitions in practice.
Rather than addressing the issue of actual control, the district court began and ended its analysis by
drawing conclusions based on the evidence of formal
control. This approach failed to address the full scope
of review that the district court needed to conduct on
remand. We explained in Al Shimari III that the record was inconclusive “regarding the extent to which
military personnel actually exercised control over
CACI employees in their performance of their interrogation functions.” Al Shimari III, 758 F.3d at 535. We
further observed that we were “unable to determine
the extent to which the military controlled the conduct
of the CACI interrogators outside the context of required interrogations, which is particularly concerning given the plaintiffs’ allegations that ‘[m]ost of the
5

The United States Department of the Army Field Manual 3452, Intelligence Interrogation (Sept. 28, 1992) (the Field Manual
or Manual), in effect at the time of the alleged events in this case,
states that interrogations must occur within the “constraints” of
the Uniform Code of Military Justice as well as the Geneva Conventions. Id. preface at iv-v. The Manual expressly prohibits
“[p]hysical or mental torture and coercion,” defining “torture” as
“the infliction of intense pain to body or mind to extract a confession or information, or for sadistic pleasure.” Id. at 1-8. The
Manual also lists examples of prohibited practices, including
some of the techniques challenged in this case, such as electric
shocks, food deprivation, “[a]ny form of beating,” “[f]orcing an individual to stand, sit, or kneel in abnormal positions for prolonged periods of time,” mock executions, and “[a]bnormal sleep
deprivation.” Id. The Field Manual cautions that any “[s]uch
illegal acts are not authorized and will not be condoned” by the
military. Id.

26a
abuse’ occurred at night, and that the abuse was intended to ‘soften up’ the detainees for later interrogations.” Id. at 536.
We thus asked the district court to consider
whether the military actually controlled the CACI interrogators’ job performance, including any activities
that occurred outside the formal interrogation process. The first Taylor factor is not satisfied by merely
examining the directives issued by the military for
conducting interrogation sessions, or by reviewing
any particular interrogation plans that the military
command approved in advance. Instead, the concept
of direct control encompasses not only the requirements that were set in place in advance of the interrogations, but also what actually occurred in practice
during those interrogations and related activities.
In examining the issue of direct control, when a
contractor engages in a lawful action under the actual
control of the military, we will consider the contractor’s action to be a “de facto military decision[ ]”
shielded from judicial review under the political question doctrine. Taylor, 658 F.3d at 410. However, the
military cannot lawfully exercise its authority by directing a contractor to engage in unlawful activity.
Thus, when a contractor has engaged in unlawful conduct, irrespective of the nature of control exercised by
the military, the contractor cannot claim protection
under the political question doctrine. The district
court failed to draw this important distinction. Accordingly, we conclude that a contractor’s acts may be
shielded from judicial review under the first prong of
Taylor only to the extent that those acts (1) were committed under actual control of the military; and (2)
were not unlawful.

27a
ii.
We turn now to consider the district court’s treatment of the second Taylor factor, which asks whether
a decision on the merits of the claim would require the
court to “question actual, sensitive judgments made
by the military.” Al Shimari III, 758 F.3d at 533-34
(quoting Taylor, 658 F.3d at 411). The district court
concluded that the plaintiffs’ claims were non-justiciable under this second Taylor factor. The court explained that it was unequipped to evaluate whether
the use of certain “extreme interrogation measures in
the theatre of war” was appropriate or justified. In
the court’s view, adjudicating the plaintiffs’ claims
would impinge on the military’s authority to select interrogation strategies and rules of engagement. Debates existing within the executive branch at that
time regarding the propriety of certain aggressive interrogation tactics reinforced the court’s conclusion.
We conclude that the above analysis that the district court conducted was incomplete. In addressing
the second Taylor factor, the district court erred in
failing to draw a distinction between unlawful conduct
and discretionary acts that were not unlawful when
committed.
The commission of unlawful acts is not based on
“military expertise and judgment,” and is not a function committed to a coordinate branch of government.
See Carmichael, 572 F.3d at 1282 (emphasis omitted).
To the contrary, Congress has established criminal
penalties for commission of acts constituting torture
and war crimes. See 18 U.S.C. §§ 2340A, 2441.
Therefore, to the extent that the plaintiffs’ claims rest

28a
on allegations of unlawful conduct in violation of settled international law or criminal law then applicable
to the CACI employees, those claims fall outside the
protection of the political question doctrine. On remand, the district court must first segregate such justiciable claims in its analysis before proceeding to determine whether any claims alleging conduct that was
not unlawful implicated sensitive military judgments
under the second prong of Taylor.
iii.
In reaching this conclusion, we emphasize the
long-standing principle that courts are competent to
engage in the traditional judicial exercise of determining whether particular conduct complied with applicable law. See El-Shifa Pharm. Indus. Co. v. United
States, 607 F.3d 836, 842 (D.C. Cir. 2010) (en banc)
(majority opinion) (“[T]hat a case may involve the conduct of the nation’s foreign affairs does not necessarily
prevent a court from determining whether the Executive has exceeded the scope of prescribed statutory authority or failed to obey the prohibition of a statute or
treaty.”); cf. Gilligan v. Morgan, 413 U.S. 1, 11-12
(1973) (“[W]e neither hold nor imply that the conduct
of the National Guard is always beyond judicial review or that there may not be accountability in a judicial forum for violations of law for specific unlawful
conduct by military personnel.”) (emphasis added).
Accordingly, when a military contractor acts contrary
to settled international law or applicable criminal law,
the separation of powers rationale underlying the political question doctrine does not shield the contractor’s actions from judicial review. See Baker, 369 U.S.
at 217.

29a
For the same reasons, this principle generally renders justiciable claims against a government contractor alleging a statutory violation. See El-Shifa, 607
F.3d at 851 (Ginsburg, J., concurring in the judgment). The adjudication of such a claim requires a
court only to engage in the traditional judicial function of “say[ing] what the law is,” and of determining
how that law applies to the facts of a particular case,
rather than passing judgment on a discretionary policy choice. Burn Pit, 744 F.3d at 334 (quoting Marbury v. Madison, 5 U.S. (1 Cranch) 137, 177 (1803)).
The Supreme Court likewise has explained that
the political question doctrine does not strip courts of
their authority to construe treaties and agreements
entered into by the executive branch, despite the potential political implications of judicial review. Japan
Whaling, 478 U.S. at 230. Courts thus retain the ability to apply traditional rules of statutory interpretation to the facts presented in a particular case. Id.
Conducting a “textual, structural, and historical” examination of a statute or treaty “is what courts do”
and typically is not barred by the political question
doctrine. Zivotofsky, 132 S. Ct. at 1427, 1430; see also
El-Shifa, 607 F.3d at 856 (Kavanaugh, J., concurring

30a
in the judgment) (“The Supreme Court has never applied the political question doctrine in a case involving
alleged statutory violations.”) (emphasis in original).6
iv.
Applying the Taylor factors in accordance with the
above-stated principles, we hold that any conduct of
the CACI employees that occurred under the actual
control of the military or involved sensitive military
judgments, and was not unlawful when committed,
constituted a protected exercise of discretion under
the political question doctrine. Conversely, any acts
of the CACI employees that were unlawful when committed, irrespective whether they occurred under actual control of the military, are subject to judicial review. Thus, the plaintiffs’ claims are justiciable to the
extent that the challenged conduct violated settled international law or the criminal law to which the CACI
employees were subject at the time the conduct occurred.7 Cf. Japan Whaling, 478 U.S. at 230; Hamdi
6
Given the nature of the claims alleged in this case, we are
not presented at this stage of the litigation with “policy choices
and value determinations” embedded within a claim alleging a
violation of customary international law. See El-Shifa, 607 F.3d
at 843-44 (majority opinion) (citation omitted) (holding non-justiciable a claim under the law of nations requiring the court to
determine whether a U.S. military attack was “mistaken and not
justified”).
7

We decline CACI’s invitation to rely on out-of-circuit precedent cited in its letter submitted to the Court after oral argument. These citations are not the proper subject of a submission
pursuant to Federal Rule of Appellate Procedure 28(j). And, in
any event, these authorities only reinforce our view that, when a
plaintiff’s claim challenges a core foreign policy decision made by
the political branches of government, the political question doctrine bars review.

31a
v. Rumsfeld, 542 U.S. 507, 536 (2004) (explaining that
“a state of war is not a blank check for the President”
with respect to individual rights) (opinion of O’Connor, J.).
We remain mindful, however, that this dichotomy
between lawful discretionary acts and unlawful activity will not always be clear when applied to particular
conduct. Although alleged conduct that on its face is
aggravated and criminal in nature, such as sexual assault and beatings, clearly will present a subject for
judicial review unaffected by the political question
doctrine, other conduct may not be capable of such
clear categorization. In instances in which the lawfulness of such conduct was not settled at the time the
conduct occurred, and the conduct occurred under the
actual control of the military or involved sensitive military judgments, that conduct will not be subject to judicial review. Cf. Viet. Ass’n for Victims of Agent Orange v. Dow Chem. Co., 517 F.3d 104, 123 (2d Cir.
2008) (dismissing claims under the ATS because the
plaintiffs did not “ground[ ] their claims arising under
international law in a norm that was universally accepted at the time of the events giving rise to the injuries alleged”). The absence of clear norms of international law or applicable criminal law regarding the
lawfulness of a particular mode of treatment will render that “grey area” conduct non-justiciable under the
political question doctrine, as long as the conduct was
committed under the actual control of the military or
implicated sensitive military judgments.
Here, the plaintiffs alleged pursuant to the ATS
that CACI interrogators engaged in a wide spectrum
of conduct amounting to torture, war crimes, and/or
cruel, inhuman, or degrading treatment, as well as

32a
various torts under the common law. Among other
things, the plaintiffs alleged that they were subjected
to beatings, stress positions, forced nudity, sexual assault, and death threats, in addition to the withholding of food, water, and medical care, sensory deprivation, and exposure to extreme temperatures. Counsel
for CACI conceded at oral argument that at least some
of the most egregious conduct alleged, including sexual assault and beatings, was clearly unlawful, even
though CACI maintains that the plaintiffs cannot
show that CACI interrogators perpetrated any of
these abuses.
We decline to render in the first instance a comprehensive determination of which acts alleged were
unlawful when committed, or whether the plaintiffs
have stated claims to relief that could survive a motion filed under Federal Rule of Civil Procedure
12(b)(6). Nevertheless, as noted above, some of the alleged acts plainly were unlawful at the time they were
committed and will not require extensive consideration by the district court. Accordingly, on remand, the
district court will be required to determine which of
the alleged acts, or constellations of alleged acts, violated settled international law and criminal law governing CACI’s conduct and, therefore, are subject to

33a
judicial review. 8 The district court also will be required to identify any “grey area” conduct that was
committed under the actual control of the military or
involved sensitive military judgments and, thus, is
protected under the political question doctrine.
This “discriminating analysis,” see Baker, 369
U.S. at 211, will require the district court to examine
the evidence regarding the specific conduct to which
the plaintiffs were subjected and the source of any direction under which the acts took place. If disputed
facts are “inextricably intertwined” with the facts underlying the merits of the plaintiffs’ claims, the district court should resolve these disputed jurisdictional
facts along with the intertwined merits issues. See
Kerns, 585 F.3d at 193.

8

As with the ATS claims, to the extent that conduct underlying the common law claims was unlawful, those claims also will
be justiciable. We observe, however, that certain allegations underlying the common law claims may involve conduct that, although tortious under the common law, did not constitute a violation of applicable criminal or international law. A nonconsensual
touching that might constitute battery, or conduct that might
amount to intentional infliction of emotional distress, under the
common law nevertheless may have been an interrogation tactic
that the military lawfully could have authorized. Accordingly,
we express no view on the justiciability of common law claims
alleging conduct that was not unlawful at the time. We leave
this determination to the district court in the first instance.
In the event that the district court determines that any of the
common law claims are justiciable, the court nevertheless may
elect to reinstate its prior order dismissing those claims under
Rule 12(b)(6), which order this Court has not yet reviewed.

34a
C.
Distinct from its holding of non-justiciability under Taylor, the district court separately concluded under the second Baker factor that the case lacked manageable standards for judicial resolution of the plaintiffs’ claims. The court emphasized that its general
lack of expertise in applying international law, and
the difficulty of determining the constraints of such
law, also rendered the case non-justiciable. We disagree with the district court’s conclusion.
Unlike in negligence cases calling into question
military standards of conduct, the district court in the
present case is called upon to interpret statutory
terms and established international norms to resolve
the issues presented by the ATS claims. See Kadic v.
Karadzic, 70 F.3d 232, 249 (2d Cir. 1995) (“[U]niversally recognized norms of international law provide
judicially discoverable and manageable standards for
adjudicating suits brought under the Alien Tort Act.”).
Compare also Carmichael, 572 F.3d at 1287 (“[O]nly
the military was in a position to meaningfully balance
[the] risks [of the mission] in light of its broader strategies and objectives; and only the military possessed
the competence to make the many critical tactical decisions concerning the safest and most efficacious way
to conduct the convoy.”), with Japan Whaling, 478
U.S. at 230 (noting courts’ competency to apply traditional rules of statutory interpretation, even in cases
presenting “political overtones”).
With regard to the present case, the terms “torture” and “war crimes” are defined at length in the
United States Code and in international agreements
to which the United States government has obligated

35a
itself. See, e.g., 18 U.S.C. §§ 2340-2340A (implementing the United States’ obligations as a signatory of the
Convention Against Torture and Other Cruel, Inhuman or Degrading Treatment or Punishment); 18
U.S.C. § 2441 (prescribing criminal penalties under
the United States Code for “war crimes,” including
“grave breaches” of the Geneva Conventions). Courts
also have undertaken the challenge of evaluating
whether particular conduct amounts to torture, war
crimes, or cruel, inhuman, or degrading treatment.
See, e.g., United States v. Belfast, 611 F.3d 783, 828
(11th Cir. 2010) (torture); Kadic, 70 F.3d at 243 (war
crimes and torture); Xuncax v. Gramajo, 886 F. Supp.
162, 187 (D. Mass. 1995) (torture and cruel, inhuman,
or degrading treatment). Likewise, in his common
law claims, Al Shimari has alleged familiar torts
based on long-standing common law principles.
Although the substantive law applicable to the
present claims may be unfamiliar and complicated in
many respects, we cannot conclude that we lack manageable standards for their adjudication justifying invocation of the political question doctrine. In reaching
this conclusion, we agree with the observation that
courts may not “decline to resolve a controversy
within their traditional competence and proper jurisdiction simply because the question is difficult, the
consequences weighty, or the potential real for conflict
with the policy preferences of the political branches.”
Zivotofsky, 132 S. Ct. at 1432 (Sotomayor, J., concurring in part and concurring in the judgment); cf.
Hamdi, 542 U.S. at 536 (“Whatever power the United
States Constitution envisions for the Executive in its
exchanges with other nations or with enemy organizations in times of conflict, it most assuredly envisions

36a
a role for all three branches when individual liberties
are at stake.”) (opinion of O’Connor, J.).
IV.
We recognize that the legal issues presented in
this case are indisputably complex, but we nevertheless cannot abdicate our judicial role in such cases.
Nor will we risk weakening prohibitions under United
States and international law against torture and war
crimes by questioning the justiciability of a case
merely because the case involves the need to define
such terms. The political question doctrine does not
shield from judicial review intentional acts by a government contractor that were unlawful at the time
they were committed.
Accordingly, we vacate the district court’s judgment, and remand this case for further proceedings
consistent with the principles and instructions stated
in this opinion.
VACATED AND REMANDED

37a
FLOYD, Circuit Judge, concurring:
I am pleased to join in Judge Keenan’s fine opinion in this case. I write separately to articulate my
understanding of one aspect of our holding. I agree
that the “dichotomy between lawful discretionary acts
and unlawful activity will not always be clear when
applied to particular conduct.” Ante at 26. In discussing this concept with the term “grey area,” ante at 2628, I do not understand the opinion to suggest that
courts cannot adjudicate close questions of lawfulness
regarding military affairs. Courts can adjudicate such
questions without offending the political question doctrine.
“The nonjusticiability of a political question is primarily a function of the separation of powers” under
our constitutional scheme. Baker v. Carr, 369 U.S.
186, 210 (1962). That scheme does not assign military
decision making to the judiciary and, as a consequence, questions of military policy are not for us to
resolve. But this does not mean that every case touching military affairs is nonjusticiable. In separating
the powers of government, the Constitution assigns to
the judiciary the power to resolve “what the law is.”
Marbury v. Madison, 5 U.S. 137, 177 (1803). Thus although the reasonableness of military conduct may not
be justiciable, the lawfulness of that conduct assuredly is. Cf., e.g., Boumediene v. Bush, 553 U.S. 723
(2008); Hamdan v. Rumsfeld, 548 U.S. 557 (2006).
The precise contours of “what the law is” may be
uncertain until a court evaluates the lawfulness of
specific conduct. For example, despite repeated judicial application of torture laws, see ante at 30, the pre-

38a
cise legal scope of the prohibition on torture is not perfectly defined. There is, in other words, conduct for
which the judiciary has yet to determine the lawfulness: loosely, a grey area.
But this greyness does not render close torture
cases nonjusticiable merely because the alleged torturer was part of the executive branch. While executive officers can declare the military reasonableness of
conduct amounting to torture, it is beyond the power
of even the President to declare such conduct lawful.
The same is true for any other applicable legal prohibition. The fact that the President--let alone a significantly inferior executive officer--opines that certain
conduct is lawful does not determine the actual lawfulness of that conduct. The determination of specific
violations of law is constitutionally committed to the
courts, even if that law touches military affairs. Cf.,
e.g., Gilligan v. Morgan, 413 U.S. 1, 11-12 (1973).
Of course the fact that a claim is justiciable under
the political question doctrine says very little about
that claim’s procedural or substantive merits. Among
other things, a claim may be inadequately alleged,
barred by other jurisdictional doctrines, or ultimately
not proven. “In instances in which the lawfulness of
. . . conduct was not settled at the time the conduct
occurred,” ante at 26, a defendant may be able to avoid
liability through the doctrine of qualified immunity,
the ATS requirement that conduct violate customary
international law, the requirement of Federal Rule of
Civil Procedure 12 that a claim be stated for which relief may be granted, or other applicable law. See, e.g.,
Viet. Ass’n for Victims of Agent Orange v. Dow Chem.
Co., 517 F.3d 104, 123 (2d Cir. 2008) (adjudicating and

39a
dismissing claims brought pursuant to the ATS because the plaintiffs did not allege conduct proscribed
by a sufficiently universal customary international
law norm). However, the judiciary is well equipped to
adjudicate such issues without impermissibly answering political questions.

40a
APPENDIX C
PUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 13-1937
SUHAIL NAJIM ABDULLAH AL SHIMARI; TAHA
YASEEN ARRAQ RASHID; SALAH HASAN NUSAIF AL-EJAILI; ASA’AD HAMZA HANFOOSH ALZUBA’E,
Plaintiffs – Appellants,
v.
CACI PREMIER TECHNOLOGY, INC.; CACI INTERNATIONAL, INC.,
Defendants – Appellees,
and
TIMOTHY DUGAN; L-3 SERVICES, INC.,
Defendants.
---------------------------------------------CIVIL PROCEDURE PROFESSORS; DOLLY
FILARTIGA; ABUKAR HASSAN AHMED; DANIEL
ALVARADO; DR. JUAN ROMAGOZA ARCE; ALDO
CABELLO; ZITA CABELLO; AZIZ MOHAMED
DERIA; NERIS GONZALES; CARLOS MAURICIO;
GLORIA REYES; OSCAR REYES; CECILIA SANTOS MORAN; ZENAIDA VELASQUEZ; BASHE

41a
ABDI YOUSUF; INTERNATIONAL LAW SCHOLARS; WILLIAM R. CASTO; MARTIN S. FLAHERTY;
NASSER HUSSEIN; STANLEY N. KATZ; MICHAEL
LOBBAN; JENNY S. MARTINEZ; RETIRED MILITARY OFFICERS; UNITED NATIONS SPECIAL
RAPPORTEURS ON TORTURE,
Amici Supporting Appellants.
No. 13-2162
SUHAIL NAJIM ABDULLAH AL SHIMARI; TAHA
YASEEN ARRAQ RASHID; SALAH HASAN NUSAIF AL-EJAILI; ASA’AD HAMZA HANFOOSH ALZUBA’E,
Plaintiffs – Appellants,
v.
CACI PREMIER TECHNOLOGY, INC.; CACI INTERNATIONAL, INC.,
Defendants – Appellees,
and
TIMOTHY DUGAN; L-3 SERVICES, INC.,
Defendants.
-------------------------------------------CIVIL PROCEDURE PROFESSORS; DOLLY
FILARTIGA; ABUKAR HASSAN AHMED; DANIEL
ALVARADO; DR. JUAN ROMAGOZA ARCE; ALDO
CABELLO; ZITA CABELLO; AZIZ MOHAMED
DERIA; NERIS GONZALES; CARLOS MAURICIO;
GLORIA REYES; OSCAR REYES; CECILIA SANTOS MORAN; ZENAIDA VELASQUEZ; BASHE

42a
ABDI YOUSEF; INTERNATIONAL LAW SCHOLARS; WILLIAM R. CASTRO; MARTIN S. FLAHERTY; NASSER HUSSEIN; STANLEY N. KATZ;
MICHAEL LOBBAN; JENNY S. MARTINEZ; RETIRED MILITARY OFFICERS; UNITED NATIONS
SPECIAL RAPPORTEURS ON TORTURE,
Amici Supporting Appellants.
Appeals from the United States District Court for the
Eastern District of Virginia, at Alexandria. Gerald
Bruce Lee, District Judge. (1:08-cv-00827-GBL-JFA)
Argued: March 18, 2014

Decided: June 30, 2014

Before KEENAN and FLOYD, Circuit Judges, and
Max O. COGBURN, Jr., United States District Judge
for the Western District of North Carolina, sitting by
designation.
Vacated and remanded by published opinion. Judge
Keenan wrote the opinion, in which Judge Floyd and
Judge Cogburn joined.
ARGUED: Baher Azmy, CENTER FOR CONSTITUTIONAL RIGHTS, New York, New York; Robert P.
LoBue, PATTERSON, BELKNAP, WEBB & TYLER,
New York, New York, for Appellants. Joseph William
Koegel, Jr., STEPTOE & JOHNSON LLP, Washington, D.C., for Appellees. ON BRIEF: Katherine Gallagher, Jeena Shah, CENTER FOR CONSTITUTIONAL RIGHTS, New York, New York; Shereef
Hadi Akeel, AKEEL & VALENTINE, P.C., Troy,

43a
Michigan; George Brent Mickum IV, LAW FIRM OF
GEORGE BRENT MICKUM IV, Bethesda, Maryland,
for Appellants. John F. O’Connor, STEPTOE &
JOHNSON LLP, Washington, D.C., for Appellees. Tyler R. Giannini, Sarah P. Alexander, International
Human Rights Clinic, HARVARD LAW SCHOOL,
Cambridge, Massachusetts, for Amici William R.
Casto, Martin S. Flaherty, Nasser Hussain, Stanley
N. Katz, Michael Lobban, and Jenny S. Martinez. Stephen B. Pershing, THE CHAVERS FIRM, LLC,
Washington, D.C.; Ralph G. Steinhardt, Arin Melissa
Brenner, GEORGE WASHINGTON UNIVERSITY
LAW SCHOOL, Washington, D.C., for Amicus International Law Scholars. Jonathan Hafetz, Rachel Godsil, Jon Romberg, Chelsea Jasnoff, Matthew Mierswa,
Center for Social Justice, SETON HALL UNIVERSITY SCHOOL OF LAW, Newark, New Jersey, for
Amicus Retired Military Officers. L. Kathleen Roberts, Nushin Sarkarati, Scott A. Gilmore, THE CENTER FOR JUSTICE & ACCOUNTABILITY, San
Francisco, California; Ali A. Beydoun, UNROW HUMAN RIGHTS IMPACT LITIGATION CLINIC,
Washington, D.C., for Amici Dolly Filartiga, Abukar
Hassan Ahmed, Daniel Alvarado, Juan Romagoza
Arce, Aldo Cabello, Zita Cabello, Aziz Mohamed
Deria, Neris Gonzales, Carlos Mauricio, Gloria Reyes,
Oscar Reyes, Cecilia Santos Moran, Zenaida Velasquez, and Bashe Abdi. Deena R. Hurwitz, Lauren
Schnyer, Second Year Law Student, Jennifer Tian,
Third Year Law Student, UNIVERSITY OF VIRGINIA SCHOOL OF LAW, Charlottesville, Virginia,
for Amicus United Nations Special Rapporteurs on
Torture. Joshua S. Devore, Agnieszka M. Fryszman,
CHOEN MILSTEIN SELLERS & TOLL PLLC, Wash-

44a
ington, D.C., for Amici Civil Procedure Professors, Erwin Chemerinsky, Helen Hershkoff, Allan Paul Ides,
Stephen I. Vladeck, and Howard M. Wasserman.

45a
BARBARA MILANO KEENAN, Circuit Judge:
In this appeal, we consider whether a federal district court has subject matter jurisdiction to consider
certain civil claims seeking damages against an American corporation for the torture and mistreatment of
foreign nationals at the Abu Ghraib prison in Iraq.1
The primary issue on appeal concerns whether the Alien Tort Statute, 28 U.S.C. § 1350, as interpreted by
the Supreme Court in Kiobel v. Royal Dutch Petroleum Co., 133 S. Ct. 1659 (2013), provides a jurisdictional basis for the plaintiffs’ alleged violations of international law, despite the presumption against extraterritorial application of acts of Congress. We also
address the defendants’ contention that the case presents a “political question” that is inappropriate for
judicial resolution under our decision in Taylor v. Kellogg Brown & Root Services, Inc., 658 F.3d 402 (4th
Cir. 2011).
We conclude that the Supreme Court’s decision in
Kiobel does not foreclose the plaintiffs’ claims under
the Alien Tort Statute, and that the district court
erred in reaching a contrary conclusion. Upon applying the fact-based inquiry articulated by the Supreme
Court in Kiobel, we hold that the plaintiffs’ claims
“touch and concern” the territory of the United States
with sufficient force to displace the presumption
against extraterritorial application of the Alien Tort
Statute. See Kiobel, 133 S. Ct. at 1669. However, we
are unable to determine from the present record

1

Some of the information pertinent to this appeal has been
filed under seal. This Court has avoided reference to sealed documents to the greatest extent possible and has made any necessary redactions to the publicly available version of the opinion.

46a
whether the claims before us present nonjusticiable
political questions. Therefore, we do not reach the additional issue of the district court’s dismissal of the
plaintiffs’ common law claims, and we vacate the district court’s judgment with respect to all the plaintiffs’
claims and remand the case to the district court. We
direct that the district court undertake factual development of the record and analyze its subject matter
jurisdiction in light of our decision in Taylor and the
principles expressed in this opinion.
I.
In 2003, a multi-national force led by the United
States and the United Kingdom invaded Iraq and deposed its sovereign leader, Saddam Hussein. The
United States took control of Abu Ghraib, the site of a
prison facility near Baghdad, and used the prison to
detain various individuals, including criminals, enemies of the provisional government, and other persons
selected for interrogation because they were thought
to possess information regarding Iraqi insurgents.
Due to a shortage of trained military interrogators, the United States hired civilian contractors to interrogate detainees at Abu Ghraib. During the time
period relevant to this civil action, those private interrogators were provided exclusively by CACI Premier
Technology, Inc. (CACI), a corporation domiciled in
the United States. CACI’s corporate headquarters is
located in Virginia, and CACI is a wholly-owned subsidiary of CACI International, Inc. (CACI International), a publicly traded Delaware corporation that
also has corporate headquarters in Virginia.
According to an official investigation commissioned by the United States Department of Defense

47a
(Defense Department), “numerous incidents of sadistic, blatant, and wanton criminal abuses were inflicted on several detainees” at the Abu Ghraib prison
between October and December 2003. MAJ. GEN.
ANTONIO M. TAGUBA, ARTICLE 15-6 INVESTIGATION OF THE 800TH MILITARY POLICE BRIGADE 16 (2004) [hereinafter REPORT OF MAJ.
GEN. TAGUBA]. These atrocities were condemned by
the President of the United States as being “abhorrent” practices that “don’t represent America.” White
House, Press Release, President Bush Meets with Al
Arabiya Television, 2004 WLNR 2540883 (May 5,
2004). Both houses of Congress condemned the
abuses, stating that those acts “contradict[ed] the policies, orders, and laws of the United States and the
United States military,” H.R. Res. 627, 108th Cong.
(2004), and “urg[ing] that all individuals responsible
for such despicable acts be held accountable,” S. Res.
356, 108th Cong. (2004). Investigations conducted by
the Defense Department concluded that CACI interrogators directed or participated in some of the
abuses, along with a number of military personnel.
See REPORT OF MAJ. GEN. TAGUBA 48; MAJ.
GEN. GEORGE R. FAY, ARTICLE 15-6 INVESTIGATION OF THE ABU GHRAIB DETENTION FACILITY AND 205TH MILITARY INTELLIGENCE BRIGADE 7-8, 84, 86-87, 89, 116-17, 132-35 (2004).
The four plaintiffs in this case are foreign nationals who allege that they were tortured and otherwise

48a
mistreated by American civilian and military personnel while detained at Abu Ghraib. 2 Among many
other examples of mistreatment, the plaintiffs describe having been “repeatedly beaten,” “shot in the
leg,” “repeatedly shot in the head with a taser gun,”
“subjected to mock execution,” “threatened with unleashed dogs,” “stripped naked,” “kept in a cage,”
“beaten on [the] genitals with a stick,” “forcibly subjected to sexual acts,” and “forced to watch” the
“rape[ ] [of] a female detainee.” Many of the acts allegedly were perpetrated “during the night shift” in
order to “minimize the risk of detection by nonparticipants” and to “soften up” the detainees for later interrogation.
The plaintiffs allege that CACI employees “instigated, directed, participated in, encouraged, and
aided and abetted conduct towards detainees that
clearly violated the Geneva Conventions, the Army
Field Manual, and the laws of the United States.” In
particular, the plaintiffs allege that in the “command
vacuum at Abu Ghraib,” CACI interrogators operated
with “little to no supervision” and were perceived as
superiors by United States military personnel. Military personnel allegedly carried out orders issued by
the CACI civilian interrogators to “soften up” and “set
conditions” for the abuse of particular detainees, contrary to the terms of CACI’s contract with the United
States government.

2

The record does not contain any evidence that the plaintiffs
were designated “enemy combatants” by the United States government. In fact, Defense Department documents in the record
state that plaintiff Al Shimari “is not an Enemy Combatant in
the Global War on Terror.” (Emphasis in original.)

49a
In that contract, which was executed in August
2003, CACI agreed to provide interrogation-related
services to the military. This contract was not
awarded by the Defense Department or military
sources, but by the Department of the Interior (Interior Department). The contract, which was issued by
an Interior Department contracting officer in Arizona,
authorized CACI to collect payments in excess of $19
million by mailing invoices to Interior Department accounting offices in Colorado.
Under the terms of the Statement of Work (SOW)
governing CACI’s contract with the government,
CACI was obligated to supply interrogation “management and support” and to “function[ ] as resident experts” in interrogation regulations and procedures.
The SOW stated that CACI would “provide Interrogation Support Cells, as directed by military authority,
. . . to assist, supervise, coordinate, and monitor all aspects of interrogation activities.” The SOW further
specified that “[t]he Contractor is responsible for
providing supervision for all contractor personnel.”
The plaintiffs allege that during CACI’s performance of this contract, CACI’s managers failed to hire
suitable interrogators, insufficiently supervised CACI
employees, ignored reports of abuse, and attempted to
“cover up” the misconduct. The plaintiffs further allege that CACI’s site manager at the Abu Ghraib
prison, Daniel Porvaznik, reviewed interrogation reports that “raised concerns of potential abuse” by
CACI employees, established “daily contact with
CACI [ ] in the United States,” and submitted reports
that were reviewed weekly by CACI’s executive team
in the United States “to assess the company’s overall
worldwide business situation.” The plaintiffs also

50a
claim that CACI vice-president Chuck Mudd traveled
“regularly” to Iraq to become familiar with the interrogation operation at Abu Ghraib.
In addition, the plaintiffs allege that, despite troubling reports from CACI employees, CACI management failed to investigate or to report accusations of
wrongdoing and repeatedly denied that any CACI employees had engaged in abusive conduct. Also, according to the complaint, CACI management [Redacted]
The present litigation began with a civil action
filed in June 2008 by plaintiff Suhail Najim Abdullah
Al Shimari (Al Shimari) against CACI, CACI International, former CACI employee Timothy Dugan, and L3 Services, Inc., another government contractor. The
action originally was filed in the Southern District of
Ohio, where defendant Timothy Dugan resided. In
the complaint, Al Shimari alleged claims under the
Alien Tort Statute (ATS), 28 U.S.C. § 1350, including
claims of war crimes, torture, and cruel, inhuman, or
degrading treatment (collectively, the ATS claims).
The complaint also contained numerous common law
claims, including claims of assault and battery, sexual
assault and battery, intentional and negligent infliction of emotional distress, and negligent hiring and
training (collectively, the common law tort claims).
In August 2008, Al Shimari’s action was transferred to the Eastern District of Virginia, where the
corporate headquarters of CACI and CACI International are located. The following month, Al Shimari
submitted an amended complaint that included the
similar claims of three other plaintiffs, namely, Taha
Yaseen Arraq Rashid, Salah Hasan Nusaif Al-Ejaili,

51a
and Asa’ad Hamza Hanfoosh Al-Zuba’e3 (collectively,
the Rashid plaintiffs). The amended complaint also
identified the names of three CACI employees who allegedly “directed and caused some of the most egregious [acts of] torture and abuse at Abu Ghraib,”
which information was based on post-conviction testimony and statements given by military personnel who
had been prosecuted for their misconduct.
In October 2008, the defendants moved to dismiss
the amended complaint on numerous grounds, including the political question doctrine, federal preemption, derivative sovereign immunity, and lack of subject matter jurisdiction under the ATS. The district
court denied the defendants’ motion and held that the
plaintiffs’ allegations did not present a political question. However, the court concluded that it lacked jurisdiction over the plaintiffs’ ATS claims because of
the novelty of asserting such claims against private
parties as opposed to state actors, and indicated that
those claims could only proceed under diversity or federal question jurisdiction rather than under the ATS.
CACI filed an interlocutory appeal of the district
court’s decision.
On appeal, a panel of this Court concluded that
the district court erred in permitting the plaintiffs’
claims to proceed because they were preempted by
federal law under the Supreme Court’s reasoning in
Boyle v. United Technologies Corp., 487 U.S. 500
3

We note that various spellings of the name of one of the plaintiffs, Asa’ad Hamza Hanfoosh Al-Zuba’e, appear in documents
filed with the district court and in the parties’ appellate briefs.
For the purposes of this opinion, we adopt the spelling that appears on the face of the plaintiffs’ third amended complaint and
in the plaintiffs’ opening brief.

52a
(1988). Al Shimari v. CACI Int’l, Inc., 658 F.3d 413
(4th Cir. 2011), vacated, 679 F.3d 205 (4th Cir. 2012)
(en banc). However, after granting the plaintiffs’ petition for rehearing en banc, this Court vacated the
panel’s decision and dismissed the defendants’ interlocutory appeal. See Al Shimari v. CACI Int’l, Inc.,
679 F.3d 205 (4th Cir. 2012) (en banc).
Our en banc decision was based on the conclusion
that we lacked appellate jurisdiction because the district court’s rulings were not appealable under the collateral order doctrine articulated by the Supreme
Court in Cohen v. Beneficial Industrial Loan Corp.,
337 U.S. 541 (1949). See Al Shimari, 679 F.3d at 21213. We observed that a denial of a motion to dismiss
on political question grounds does not itself constitute
an immediately appealable collateral order. Id. at
215. We also explained that we were unable to exercise “pendent” appellate jurisdiction because there
was no independent jurisdictional basis for the appeal. See id. at 210, 224 (rejecting existence of an independent basis for jurisdiction by virtue of the defendants asserting the “law-of-war defense” under
Coleman v. Tennessee, 97 U.S. 509 (1878), and Dow v.
Johnson, 100 U.S. 158 (1879); preemption by the
“combatant activities” exception to the Federal Tort
Claims Act, as recognized by Saleh v. Titan Corp., 580
F.3d 1 (D.C. Cir. 2009); or absolute official immunity
under Mangold v. Analytic Services, Inc., 77 F.3d
1442 (4th Cir. 1996)).
The case was returned to the district court, which
entered a number of orders that are relevant to this
appeal. First, the district court reinstated the plaintiffs’ ATS claims, observing that “a growing body of
law . . . suggests that plaintiffs’ claims . . . are within

53a
the purview of international law.” The court dismissed some of the plaintiffs’ claims as insufficiently
pleaded, but permitted the plaintiffs to amend their
pleadings to allege a conspiracy between CACI and
the United States military. The court also dismissed
the Rashid plaintiffs’ common law tort claims with
prejudice, concluding that Virginia law applied to the
common law claims and that those claims were barred
by the applicable statute of limitations and by a recent
decision of the Supreme Court of Virginia holding that
equitable tolling was unavailable under Virginia law.
The plaintiffs filed a third amended complaint
against CACI only, which contained all four plaintiffs’
ATS claims and only plaintiff Al Shimari’s common
law tort claims. The deadline for discovery in the case
expired in April 2013. However, the record reflects
that only a limited amount of information was obtained during discovery. Three of the four plaintiffs
did not give deposition testimony in the case. Also, no
depositions appear to have been taken of any individuals who served as former interrogators at Abu
Ghraib, including the CACI interrogators who were
identified specifically by the plaintiffs as participants
in the alleged abuse.
Within weeks of the close of discovery, the Supreme Court issued its decision in Kiobel v. Royal
Dutch Petroleum Co., 133 S. Ct. 1659 (2013). In the
majority opinion in that case, the Court discussed limitations on the scope of ATS jurisdiction imposed by a
canon of statutory interpretation known as the presumption against extraterritorial application. Id.
Based on the decision in Kiobel, the district court dismissed all four plaintiffs’ ATS claims, concluding that
the court “lack[ed] ATS jurisdiction over Plaintiffs’

54a
claims because the acts giving rise to their tort claims
occurred exclusively in Iraq, a foreign sovereign.”
The district court also dismissed Al Shimari’s remaining common law tort claims, holding that governing Iraqi law promulgated by the Coalition Provisional Authority (CPA)4 precluded imposition of liability on the defendants, and awarded CACI $13,731.61
in costs as the prevailing party in the civil action. The
plaintiffs timely appealed the district court’s entry of
final judgment with respect to all four plaintiffs’ ATS
and common law claims, as well as the district court’s
taxation of costs against the plaintiffs.
II.
We address CACI’s two challenges to our subject
matter jurisdiction. Because the district court dismissed the plaintiffs’ claims under the ATS for lack of
jurisdiction, we first consider the jurisdictional scope
of the ATS and whether the plaintiffs’ ATS claims fall
within the reach of the statute. Based on our conclusion that the plaintiffs’ ATS claims are within the
statute’s reach, we also address whether those claims
or the plaintiffs’ common law tort claims raise any
nonjusticiable political questions.

4

The CPA was a temporary governing body that was created
by U.S. Army General Tommy Franks, the Commander of Coalition Forces, and recognized by a United Nations Security Council
resolution. See, e.g., U.S. ex rel. DRC, Inc. v. Custer Battles,
LLC, 562 F.3d 295, 297 (4th Cir. 2009). The CPA governed Iraq
from May 2003 to June 2004, when governing authority passed
to the Interim Government of Iraq. Id. at 298.

55a
A.
The plaintiffs seek to impose liability on CACI for
alleged violations of international law, including torture. They assert that the claimed violations fall
within the jurisdictional scope of the ATS, which provides that “[t]he district courts shall have original jurisdiction of any civil action by an alien for a tort only,
committed in violation of the law of nations or a treaty
of the United States.” 28 U.S.C. § 1350. The ATS,
which was created as part of the Judiciary Act of 1789,
enables federal courts to consider a limited category
of claims that are defined by the law of nations. Sosa
v. Alvarez-Machain, 542 U.S. 692, 712, 724-25 (2004).
The international law violations that may be asserted under the ATS must be sufficiently definite in
their content and acceptance among civilized nations
that they reflect “historical paradigms” that were familiar at the time that the ATS was enacted. Id. at
732. Paradigmatic violations of the law of nations
that were “probably on [the] minds” of the drafters of
the ATS include “violation of safe conducts, infringement of the rights of ambassadors, and piracy.” Id. at
715; see also id. at 720. The Supreme Court also has
suggested that the prohibition against torture exemplifies a norm that is “specific, universal, and obligatory.” Kiobel, 133 S. Ct. at 1665 (citation omitted); see
also Filartiga v. Pena-Irala, 630 F.2d 876, 884-87 (2d
Cir. 1980) (holding that “official torture is now prohibited by the law of nations” and that federal courts may
exercise jurisdiction under the ATS concerning such
international violations). Indeed, in the present case,
the district court held that the plaintiffs’ ATS claims

56a
for torture, war crimes, and cruel, inhuman, or degrading treatment alleged sufficiently definite and
universal violations of international law.
We emphasize, however, that we do not have before us the question whether the plaintiffs sufficiently
have stated or established claims under the ATS alleging violations of international law. 5 Instead, we
address our subject matter jurisdiction under the
ATS, and decide whether the district court erred in
holding that the ATS does not provide a cause of action for tortious conduct occurring outside the United
States.
We begin by observing that the ATS is a jurisdictional statute that addresses “the power of the courts
to entertain cases concerned with a certain subject,”
and does not authorize the courts to “mold substantive
law.” Sosa, 542 U.S. at 713-14; see also id. at 712
(stating that “the statute is in terms only jurisdictional”); id. at 717 (comparing the ATS to other grants
of original jurisdiction in the Constitution and the Judiciary Act of 1789); id. at 724 (stating that the ATS
“is a jurisdictional statute creating no new causes of
action”). Thus, the ATS confers jurisdiction on the district courts to consider certain types of tort claims asserted by aliens based on alleged violations of the law
of nations, but does not create any particular causes
of action. See Kiobel, 133 S. Ct. at 1663; Sosa, 542
U.S. at 712.
In Kiobel, the Supreme Court considered
“whether a claim [brought under the ATS] may reach
5

We also do not have before us the question whether a corporation can be held liable for the tortious conduct of its employees
constituting international law violations under the ATS.

57a
conduct occurring in the territory of a foreign sovereign.” 133 S. Ct. at 1664. In that case, Nigerian nationals (the petitioners), who became legal residents
of the United States after being granted political asylum, brought tort claims under the ATS against certain British, Dutch, and Nigerian corporations. Id. at
1662-63. In their complaint, the petitioners contended that the corporate defendants violated the law
of nations by aiding and abetting atrocities committed
by Nigerian military and police forces,6 in providing
those forces with food, transportation, compensation,
and access to property. Id. at 1662-63.
All the atrocities were alleged to have been committed in Nigeria, and it was undisputed that none of
the conduct alleged in the complaint occurred within
the territory of the United States. Id. at 1662-63.
Moreover, none of the defendants had engaged in any
activities in the United States that appeared relevant
to the claimed tortious acts that occurred in Nigeria.
The ATS claims’ only connections to the territory of
the United States consisted of the foreign corporate
defendants’ listings on the New York Stock Exchange
and their affiliation with a public relations office in
New York City. Id. at 1677 (Breyer, J., concurring in
the judgment).
The Supreme Court held that the petitioners’ ATS
claims were barred. Id. at 1669 (majority opinion). In
reaching this conclusion, the Court primarily relied on

6

The petitioners alleged that Nigerian police and military
forces were responsible for “beating, raping, killing, and arresting residents and destroying or looting property.” Kiobel, 133 S.
Ct. at 1662.

58a
the principles underlying an established canon of statutory interpretation, which raises a presumption
against extraterritorial application of acts of Congress
(“the presumption,” or “the presumption against extraterritorial application”). See id. at 1664-65, 1669.
The presumption reflects the “longstanding principle
of American law that legislation of Congress, unless a
contrary intent appears, is meant to apply only within
the territorial jurisdiction of the United States” because “Congress ordinarily legislates with respect to
domestic, not foreign matters.” Morrison v. Nat’l
Austl. Bank Ltd., 561 U.S. 247, 255 (2010) (citations
and internal quotation marks omitted).
The Supreme Court explained that the principles
underlying the presumption restrain courts in their
consideration of causes of action that may be brought
under the ATS. Kiobel, 133 S. Ct. at 1664. Those principles reflect “foreign policy concerns” arising from potential “unintended clashes between our laws and
those of other nations which could result in international discord,” and from “the danger of unwarranted
judicial interference in the conduct of foreign policy.”
Id. (citation omitted).
Under the presumption, “[w]hen a statute gives
no clear indication of an extraterritorial application,
it has none[.]” Id. (quoting Morrison, 561 U.S. at 255).
After considering the text of the ATS, the Court held
in Kiobel that nothing in the statutory language provided a clear indication that the statute was intended
to have extraterritorial reach. Id. at 1669. The Court
concluded that although “Congress, even in a jurisdictional provision, can indicate that it intends federal
law to apply to conduct occurring abroad,” Congress
failed to do so when it enacted the ATS. Id. at 1665.

59a
Thereafter, the Supreme Court held that the “petitioners’ case seeking relief for violations of the law of
nations occurring outside the United States is
barred.” Id. at 1669.
Crucially, however, the Court explained its holding by stating that “[o]n these facts, all the relevant
conduct took place outside the United States.” Id. The
Court elaborated that “even where the claims touch
and concern the territory of the United States, they
must do so with sufficient force to displace the presumption against extraterritorial application.” Id.
And, in a reference to the fact that the petitioners had
not alleged any connection with the territory of the
United States other than the physical presence of the
foreign corporate defendants, the Court explained
that “[c]orporations are often present in many countries, and it would reach too far to say that mere corporate presence suffices.” Id.
We observe that the Supreme Court used the
phrase “relevant conduct” to frame its “touch and concern” inquiry, but never defined that term. Under the
facts presented, there was no need to do so because all
the conduct underlying the petitioners’ claims occurred outside United States territory. We also note
that the Court broadly stated that the “claims,” rather
than the alleged tortious conduct, must touch and concern United States territory with sufficient force, suggesting that courts must consider all the facts that
give rise to ATS claims, including the parties’ identities and their relationship to the causes of action. Id.;
see, e.g., Black’s Law Dictionary 281 (9th ed. 2009)
(defining “claim” as the “aggregate of operative facts
giving rise to a right enforceable by a court”).

60a
The Court’s choice of such broad terminology was
not happenstance, as illustrated by the opinions of
concurring Justices who offered alternative views.
For example, Justice Alito, in a concurring opinion in
which Justice Thomas joined, advocated a “broader”
view of the presumption’s effect on ATS jurisdiction,
which would bar an ATS action “unless the domestic
conduct is sufficient to violate an international law
norm” that is sufficiently definite and accepted among
civilized nations. Kiobel, 133 S. Ct. at 1670 (Alito, J.,
concurring). Under the standard proposed by Justice
Alito, courts could consider only the domestic tortious
conduct of the defendants. Such an analysis is far
more circumscribed than the majority opinion’s requirement that “the claims touch and concern the territory of the United States . . . with sufficient force to
displace the presumption against extraterritorial application.” Id. at 1669 (majority opinion).
The “touch and concern” language set forth in the
majority opinion contemplates that courts will apply
a fact-based analysis to determine whether particular
ATS claims displace the presumption against extraterritorial application. In an opinion concurring in the
judgment, Justice Breyer, with whom Justice Ginsburg, Justice Sotomayor, and Justice Kagan joined,
would have allowed jurisdiction whenever: “(1) the alleged tort occurs on American soil, (2) the defendant
is an American national, or (3) the defendant’s conduct substantially and adversely affects an important
American national interest.” Id. at 1674 (Breyer, J.,
concurring in the judgment). And, as Justice Kennedy
observed in his concurring opinion, the Supreme
Court evidently left unanswered “significant ques-

61a
tions regarding the reach and interpretation of the Alien Tort Statute” that “may require some further elaboration and explanation” of the “proper implementation” of the presumption in cases that are not “covered
. . . by the reasoning and holding of [Kiobel].” Id. at
1669 (Kennedy, J., concurring).
In the present case, the plaintiffs argue that based
on Kiobel, the ATS provides jurisdiction for claims
that “touch and concern” United States territory with
“sufficient force to displace” the presumption. See id.
(majority opinion). The plaintiffs contend that their
claims’ substantial connections to United States territory are sufficient to rebut the presumption.
In response, the defendants argue that, under the
decision in Kiobel, the ATS does not under any circumstances reach tortious conduct occurring abroad.
The defendants maintain that the sole material consideration before us is the fact that the plaintiffs’
claims allege extraterritorial tortious conduct, which
subjects their claims to the same fatal outcome as
those in Kiobel. We disagree with the defendants’ argument, which essentially advances the view expressed by Justices Alito and Thomas in their separate opinion in Kiobel.
Because five justices, including Justice Kennedy,
joined in the majority’s rationale applying the presumption against extraterritorial application, the presumption is part of the calculus that we apply here.
However, the clear implication of the Court’s “touch
and concern” language is that courts should not assume that the presumption categorically bars cases
that manifest a close connection to United States territory. Under the “touch and concern” language, a

62a
fact-based analysis is required in such cases to determine whether courts may exercise jurisdiction over
certain ATS claims. Accordingly, the presumption
against extraterritorial application bars the exercise
of subject matter jurisdiction over the plaintiffs’ ATS
claims unless the “relevant conduct” alleged in the
claims “touch[es] and concern[s] the territory of the
United States with sufficient force to displace the presumption . . . .” 133 S. Ct. at 1669.
In Kiobel, the Court’s observation that all the “relevant conduct” occurred abroad reflected those claims’
extremely attenuated connection to United States territory, which amounted to “mere corporate presence.”
Indeed, the only facts relating to the territory of the
United States were the foreign corporations’ public relations office in New York City and their listings on
the New York Stock Exchange. Because the petitioners in Kiobel were unable to point to any “relevant
conduct” in their claims that occurred in the territory
of the United States, the presumption was conclusive
when applied to the facts presented.
In the present case, however, the issue is not as
easily resolved. The plaintiffs’ claims reflect extensive
“relevant conduct” in United States territory, in contrast to the “mere presence” of foreign corporations
that was deemed insufficient in Kiobel. When a
claim’s substantial ties to United States territory include the performance of a contract executed by a
United States corporation with the United States government, a more nuanced analysis is required to determine whether the presumption has been displaced.
In such cases, it is not sufficient merely to say that
because the actual injuries were inflicted abroad, the

63a
claims do not touch and concern United States territory.
Here, the plaintiffs’ claims allege acts of torture
committed by United States citizens who were employed by an American corporation, CACI, which has
corporate headquarters located in Fairfax County,
Virginia. The alleged torture occurred at a military
facility operated by United States government personnel.
In addition, the employees who allegedly participated in the acts of torture were hired by CACI in the
United States to fulfill the terms of a contract that
CACI executed with the United States Department of
the Interior. The contract between CACI and the Department of the Interior was issued by a government
office in Arizona, and CACI was authorized to collect
payments by mailing invoices to government accounting offices in Colorado. Under the terms of the contract, CACI interrogators were required to obtain security clearances from the United States Department
of Defense.
Finally, the allegations are not confined to the assertion that CACI’s employees participated directly in
acts of torture committed at the Abu Ghraib prison.
The plaintiffs also allege that CACI’s managers located in the United States were aware of reports of
misconduct abroad, attempted to “cover up” the misconduct, and “implicitly, if not expressly, encouraged”
it.
These ties to the territory of the United States are
far greater than those considered recently by the Second Circuit in Balintulo v. Daimler AG, 727 F.3d 174

64a
(2d Cir. 2013). In that case, the Second Circuit declined to extend ATS jurisdiction to claims involving
foreign conduct by South African subsidiaries of
American corporations. See id. at 189-94. The plaintiffs in Balintulo alleged that those corporations
“s[old] cars and computers to the South African government, thus facilitating the apartheid regime’s innumerable race-based depredations and injustices, including rape, torture, and extrajudicial killings.” Id.
at 179-80. Interpreting the holding of Kiobel to stand
for the proposition that “claims under the ATS cannot
be brought for violations of the law of nations occurring within the territory of a sovereign other than the
United States,” id. at 189 (citing Kiobel, 133 S. Ct. at
1662, 1668-69), the Second Circuit construed the
Court’s “touch and concern” language as impacting
the exercise of jurisdiction only “when some of the relevant conduct occurs in the United States.” Id. at 191
(footnote omitted) (emphasis in original); see also
Chowdhury v. Worldtel Bangl. Holding, Ltd., 746 F.3d
42, 45-46, 49-50 (2d Cir. 2014) (applying Kiobel to
foreclose jurisdiction over ATS claims filed by a Bangladeshi plaintiff who allegedly was detained and tortured by the Bangladesh National Police at the direction of his Bangladeshi business partner).
Although the “touch and concern” language in Kiobel may be explained in greater detail in future Supreme Court decisions, we conclude that this language provides current guidance to federal courts
when ATS claims involve substantial ties to United
States territory. We have such a case before us now,
and we cannot decline to consider the Supreme
Court’s guidance simply because it does not state a
precise formula for our analysis.

65a
Applying this guidance, we conclude that the ATS
claims’ connection to the territory of the United States
and CACI’s relevant conduct in the United States require a different result than that reached in Kiobel.
In its decision in Morrison, the Supreme Court emphasized that although the presumption is no “timid
sentinel,” its proper application “often[ ] is not self-evidently dispositive” and “requires further analysis.”
561 U.S. at 266. We have undertaken that analysis
here, employing the “touch and concern” inquiry articulated in Kiobel, by considering a broader range of
facts than the location where the plaintiffs actually
sustained their injuries.
Indeed, we observe that mechanically applying
the presumption to bar these ATS claims would not
advance the purposes of the presumption. A basic
premise of the presumption against extraterritorial
application is that United States courts must be wary
of “international discord” resulting from “unintended
clashes between our laws and those of other nations.”
Kiobel, 133 S. Ct. at 1664 (citation omitted). In the
present case, however, the plaintiffs seek to enforce
the customary law of nations through a jurisdictional
vehicle provided under United States law, the ATS,
rather than a federal statute that itself details conduct to be regulated or enforced. Thus, any substantive norm enforced through an ATS claim necessarily
is recognized by other nations as being actionable.
Moreover, this case does not present any potential
problems associated with bringing foreign nationals
into United States courts to answer for conduct committed abroad, given that the defendants are United
States citizens. Cf. Sexual Minorities Uganda v.
Lively, 960 F. Supp. 2d 304, 322-24 (D. Mass. 2013)

66a
(holding that Kiobel did not bar ATS claims against
an American citizen, in part because “[t]his is not a
case where a foreign national is being hailed into an
unfamiliar court to defend himself”).
We likewise note that further litigation of these
ATS claims will not require “unwarranted judicial interference in the conduct of foreign policy.” Kiobel,
133 S. Ct. at 1664. The political branches already
have indicated that the United States will not tolerate
acts of torture, whether committed by United States
citizens or by foreign nationals.
The plaintiffs do not appear to have access to federal courts under the Torture Victim Protection Act of
1991 (TVPA), presumably because they did not suffer
injury “under actual or apparent authority, or color of
law, of any foreign nation . . . .” Pub. L. No. 102-256,
106 Stat. 73, note following 28 U.S.C. § 1350 (emphasis added). Nevertheless, the TVPA’s broad prohibition against torture reflects Congress’s recognition of
a “distinct interest in preventing the United States
from becoming a safe harbor (free of civil as well as
criminal liability) for a torturer or other common enemy of mankind.” Kiobel, 133 S. Ct. at 1671 (Breyer,
J., concurring in the judgment). This conclusion is reinforced by the fact that Congress has authorized the
imposition of severe criminal penalties for acts of torture committed by United States nationals abroad.
See 18 U.S.C. § 2340A. The Supreme Court certainly
was aware of these civil and criminal statutes when it

67a
articulated its “touch and concern” language in Kiobel.7 See Kiobel, 133 S. Ct. at 1669 (Kennedy, J., concurring) (predicting that “[o]ther cases may arise with
allegations of serious violations of international law
principles protecting persons” that are “covered neither by the TVPA nor by the reasoning and holding of
today’s case”).
We conclude that the plaintiffs’ ATS claims “touch
and concern” the territory of the United States with
sufficient force to displace the presumption against
extraterritorial application based on: (1) CACI’s status as a United States corporation; (2) the United
States citizenship of CACI’s employees, upon whose
conduct the ATS claims are based; (3) the facts in the
record showing that CACI’s contract to perform interrogation services in Iraq was issued in the United
States by the United States Department of the Interior, and that the contract required CACI’s employees
to obtain security clearances from the United States
Department of Defense; (4) the allegations that
CACI’s managers in the United States gave tacit ap-

7

We also note that ATS jurisdiction is not precluded by the
fact that the alleged conduct occurred while the plaintiffs in this
case were detained in the custody of the United States military.
In Rasul v. Bush, the Supreme Court considered this issue with
regard to detainees at Guantanamo Bay, Cuba, where the United
States maintains a Naval Base under a treaty and a long-term
lease with the government of Cuba. See 542 U.S. 466, 471 (2004).
There, briefly addressing the jurisdiction of federal courts to consider the petitioners’ ATS claims, the Court stated that “nothing
. . . categorically excludes aliens detained in military custody
outside the United States from [asserting an ATS claim] in U.S.
courts.” Id. at 484.

68a
proval to the acts of torture committed by CACI employees at the Abu Ghraib prison, attempted to “cover
up” the misconduct, and “implicitly, if not expressly,
encouraged” it; and (5) the expressed intent of Congress, through enactment of the TVPA and 18 U.S.C.
§ 2340A, to provide aliens access to United States
courts and to hold citizens of the United States accountable for acts of torture committed abroad.8 Accordingly, we hold that the district court erred in concluding that it lacked subject matter jurisdiction under the ATS, and we vacate the district court’s judgment dismissing the plaintiffs’ ATS claims on that basis.
B.
Our decision regarding the ATS answers only the
first issue of subject matter jurisdiction presented in
this appeal. We also must consider whether the record before us adequately supports a finding that litigation of the plaintiffs’ ATS claims and common law
tort claims will avoid any “political questions” that
would place those claims outside the jurisdiction of
the federal courts.
The political question doctrine is a “function of the
separation of powers,” and prevents federal courts
from deciding issues that the Constitution assigns to
the political branches, or that the judiciary is ill-

8

Because of our holding that the plaintiffs’ ATS claims “touch
and concern” the territory of the United States with sufficient
force to displace the presumption against extraterritorial application, we need not address the plaintiffs’ alternative argument
that the relevant conduct did not occur within the territory of a
foreign sovereign because the Abu Ghraib prison constituted the
“de facto territory” of the United States.

69a
equipped to address. Baker v. Carr, 369 U.S. 186, 217
(1982); see also Tiffany v. United States, 931 F.2d 271,
276 (4th Cir. 1991) (stating that the constitutional
separation of powers “requires that we examine the
relationship between the judiciary and the coordinate
branches of the federal government cognizant of the
limits upon judicial power”). The Supreme Court has
defined a political question by reference to whether a
case presents any of the following attributes: (1) “a
textually demonstrable constitutional commitment of
the issue to a coordinate political department;” (2) “a
lack of judicially discoverable and manageable standards for resolving it;” (3) “the impossibility of deciding
without an initial policy determination of a kind
clearly for nonjudicial discretion;” (4) “the impossibility of a court’s undertaking independent resolution
without expressing lack of the respect due coordinate
branches of government;” (5) “an unusual need for unquestioning adherence to a political decision already
made;” or (6) “the potentiality of embarrassment from
multifarious pronouncements by various departments
on one question.” Baker, 369 U.S. at 217.
In considering these issues when a defendant
challenges subject matter jurisdiction under Federal
Rule of Civil Procedure 12(b)(1), a court may evaluate
the pleadings as evidence on the issue and may consider other evidence in the record “without converting
the proceeding to one for summary judgment.” Velasco v. Gov’t of Indon., 370 F.3d 392, 398 (4th Cir.
2004) (citation omitted). “However, when the jurisdictional facts are inextricably intertwined with those
central to the merits, the district court should resolve
the relevant factual disputes only after appropriate
discovery.” In re KBR, Inc., Burn Pit Litig., 744 F.3d

70a
326, 334 (4th Cir. 2014) (hereinafter Burn Pit) (quoting Kerns v. United States, 585 F.3d 187, 193 (4th Cir.
2009) (brackets and internal quotation marks omitted)).
We first observe that CACI’s position asserting
the presence of a political question was resolved by the
district court in the plaintiffs’ favor much earlier in
this litigation. In March 2009, before any discovery
had been conducted, CACI challenged the court’s subject matter jurisdiction on political question grounds,
based on the allegations in the complaint.
At that time, the district court analyzed the six
factors set forth by the Supreme Court in Baker solely
by reference to the plaintiffs’ complaint, and rejected
CACI’s jurisdictional challenge. The court concluded
that the case was not “constitutionally committed” to
the executive branch because the case “challenges not
the government itself or the adequacy of official government policies, but the conduct of government contractors carrying on a business for profit.” Next, the
court found that in view of the allegations of a conspiracy between “low-level contractors and military personnel,” the court “could analyze this low-level conspiracy” without questioning the interrogation policies authorized by “top military and government officials.”
The district court further concluded that there
were “judicially discoverable and manageable standards” for evaluating the plaintiffs’ claims, citing other
“extensive” litigation regarding the events at Abu
Ghraib prison, the availability of eyewitness testimony based on courts martial of military personnel,

71a
and the limited nature of any classified discovery material. The court stated that “manageable judicial
standards are readily accessible through the discovery
process,” and that the court “suspect[ed] that the contract [between CACI and the government] details
CACI’s responsibilities in conducting the interrogations, outlines the applicable laws and rules that
CACI personnel are bound by, and sets further restrictions on the type of conduct permitted.”
The district court also noted that the process of reviewing CACI’s conduct would not demonstrate a
“lack of respect” for the political branches, because
“matters are not beyond the reach of the judiciary
simply because they touch upon war or foreign affairs.” The court found that the case could be decided
without the need for policy determinations clearly requiring “nonjudicial discretion,” see Baker, 369 U.S.
at 217, stating that “the policy determination central
to this case has already been made; this country does
not condone torture, especially when committed by its
citizens.” Finally, the court concluded that consideration of the other Baker factors did not render the case
nonjusticiable, and held that the case did not present
a political question barring the exercise of its subject
matter jurisdiction.
Although CACI appealed the district court’s ruling on numerous bases, including justiciability, our
conclusion that we lacked jurisdiction over the interlocutory appeal under the collateral order doctrine returned the case to the district court without a decision
whether the case presented a political question. See
Al Shimari, 679 F.3d at 224. On remand, the district
court dismissed the plaintiffs’ ATS claims for lack of
jurisdiction under Kiobel, and also dismissed the

72a
plaintiffs’ remaining common law tort claims under
Federal Rule of Civil Procedure 12(b)(6).
In this appeal, CACI renews its political question
challenge, contending that the treatment and interrogation of detainees during war is a key component of
national defense considerations that are committed to
the political branches of government. CACI also asserts that there are no judicially discoverable standards for deciding intentional tort claims in the context
of a war zone, and that CACI interrogators were performing a “common mission” with the military and
were acting under direct military command and control. CACI further maintains that most of the alleged
forms of abuse at issue “were approved by the Secretary of Defense and incorporated into rules of engagement by military commanders at Abu Ghraib.”
CACI’s arguments are based on constitutional
considerations and factual assertions that are intertwined in many respects. We begin our consideration
of these arguments by recognizing that “most military
decisions” are matters “solely within the purview of
the executive branch,” Taylor, 658 F.3d at 407 n.9, and
that the Constitution delegates authority over military matters to both the executive and legislative
branches of government. See Burn Pit, 744 F.3d at
334; Lebron v. Rumsfeld, 670 F.3d 540, 548 (4th Cir.
2012).
Nevertheless, the fact that a military contractor
was acting pursuant to “orders of the military does
not, in and of itself, insulate the claim from judicial
review.” Taylor, 658 F.3d at 411. Accordingly, before
declaring such a case “to be nonjusticiable, a court

73a
must undertake ‘a discriminating analysis’ that includes the litigation’s ‘susceptibility to judicial handling in the light of its nature and posture in the specific case, and of the possible consequences of judicial
action.’” Lane v. Halliburton, 529 F.3d 548, 559 (5th
Cir. 2008) (quoting Baker, 369 U.S. at 211-12). Such
an analysis involves a “delicate exercise in constitutional interpretation.” Baker, 369 U.S. at 211.
Importantly, in the present case, more than five
years have elapsed since the district court rendered
its initial determination of justiciability. During the
intervening period, this Court has formulated a test
for considering whether litigation involving the actions of certain types of government contractors is justiciable under the political question doctrine. See
Taylor, 658 F.3d at 411.
In our decision in Taylor, we adapted the Supreme
Court’s analysis in Baker to a particular subset of lawsuits, namely, those brought against government contractors who perform services for the military. See
Burn Pit, 744 F.3d at 334 (observing that Taylor
“adapted Baker to the government contractor context
through a new two-factor test”). The factual record in
Taylor involved a soldier who was performing work on
an electrical box at a military base in Iraq, and was
electrocuted when an employee of a government contractor activated a nearby generator despite an instruction from military personnel not to do so. Taylor,
658 F.3d at 404. When the soldier sued the military
contractor for negligence, the government contractor
claimed that the case presented a nonjusticiable political question. Id.

74a
In analyzing the justiciability of the soldier’s negligence claim, we recognized the need to “carefully assess the relationship” between the military and the
contractor, and to “gauge the degree to which national
defense interests may be implicated in a judicial assessment” of the claim. Id. at 409-10. We distilled the
six Baker factors into two critical components: (1)
whether the government contractor was under the
“plenary” or “direct” control of the military; and (2)
whether national defense interests were “closely intertwined” with military decisions governing the contractor’s conduct, such that a decision on the merits of
the claim “would require the judiciary to question actual, sensitive judgments made by the military.” Id.
at 411 (quotation omitted). We noted that an affirmative answer to either of these questions will signal
the presence of a nonjusticiable political question. See
Burn Pit, 744 F.3d at 335 (stating that under Taylor,
a formal “Baker-style analysis” is not necessary, and
that “if a case satisfies either factor [articulated in
Taylor], it is nonjusticiable under the political question doctrine”).
We further explained in Taylor that, in conducting
this two-part inquiry, a court must “‘look beyond the
complaint, and consider how [the plaintiffs] might
prove [their] claim[s] and how [the contractor] would
defend.” Taylor, 658 F.3d at 409 (quoting Lane, 529
F.3d at 565) (original brackets omitted) (alterations
added) (emphasis in original). This determination requires consideration of the facts alleged in the complaint, facts developed through discovery or otherwise
made a part of the record in the case, and the legal
theories on which the parties will rely to prove their
case.

75a
In Taylor, we stated that “if a military contractor
operates under the plenary control of the military, the
contractor’s decisions may be considered as de facto
military decisions.” 658 F.3d at 410. Based on the
factual record presented in that case, we concluded
that the military did not exercise “direct control” over
the contractor because the record showed that responsibility for the manner in which the job was performed
was delegated to the contractor. Id. at 411. In drawing this conclusion, we relied on the parties’ contract,
which recited that “[t]he contractor shall be responsible for the safety of employees and base camp residents during all contractor operations,” and that “the
contractor shall have exclusive supervisory authority
and responsibility over employees.” Id. at 411.
We contrasted these facts with those reviewed in
Carmichael v. Kellogg, Brown & Root Services, Inc.,
572 F.3d 1271, 1275-79 (11th Cir. 2009), a case in
which the plaintiff had sued a military contractor for
negligence resulting from injuries sustained when the
plaintiff’s husband, a sergeant in the United States
Army, was thrown from a vehicle in a military convoy
that was driven by the contractor’s employee. In deciding whether the case presented a political question,
the Eleventh Circuit observed that there was no indication in the record that the contractor had any role
in making decisions regarding the movement of the
military convoy vehicle. Id. at 1282. Thus, the court
held that the case was nonjusticiable, “[b]ecause the
circumstances under which the accident took place
were so thoroughly pervaded by military judgments
and decisions, [and] it would be impossible to make
any determination regarding [either party’s] negli-

76a
gence without bringing those essential military judgments and decisions under searching judicial scrutiny.” Id. at 1282-83. Because the facts in Taylor did
not manifest such “direct control” over the contractor’s
performance of its duties, we resolved this factor in
the plaintiff’s favor. 658 F.3d at 411.
Since our decision in Taylor, we have clarified that
the critical issue with respect to the question of “plenary” or “direct” control is not whether the military
“exercised some level of oversight” over a contractor’s
activities. Burn Pit, 744 F.3d at 339. Instead, a court
must inquire whether the military clearly “chose how
to carry out these tasks,” rather than giving the contractor discretion to determine the manner in which
the contractual duties would be performed. Id. (emphasis added); see also Harris v. Kellogg Brown &
Root Servs., Inc., 724 F.3d 458, 467 (3d Cir. 2013)
(stating that plenary control does not exist when the
military “merely provides the contractor with general
guidelines that can be satisfied at the contractor’s discretion” because “contractor actions taken within that
discretion do not necessarily implicate unreviewable
military decisions”); McMahon v. Presidential Airways, Inc., 502 F.3d 1331, 1359-61 (11th Cir. 2007)
(holding that a contract for aviation services in Afghanistan did not manifest sufficient military control
to present a political question because the contractor
retained authority over the type of plane, flight path,
and safety of the flight).
The second Taylor factor concerns whether “a decision on the merits . . . would require the judiciary to
question actual, sensitive judgments made by the military.” Taylor, 658 F.3d at 412 (internal quotation
marks omitted). In analyzing this factor, a court must

77a
focus on the manner in which the plaintiffs might attempt to prove their claims, and how the defendants
are likely to defend against those claims. See id. at
409. Addressing this issue in Taylor, we held that a
political question was presented because a military
contractor’s contributory negligence defense to the
plaintiff’s common law negligence claim “would invariably require the Court to decide whether the Marines
made a reasonable decision in seeking to install the
wiring box,” and would oblige the court to evaluate the
reasonableness of military decisions. Id. at 411-12.
By contrast, in Burn Pit we analyzed a military
contractor’s “proximate causation” defense, in which
the contractor maintained that the plaintiffs’ alleged
injuries were caused by military decisions and conduct. 744 F.3d at 340. After examining the record
that the district court considered, we concluded that
the contractor’s causation defense would require an
examination of the reasonableness of military decisions only if the case ultimately proceeded under the
law of a state having a proportional-liability system
that assigns liability based on fault. Id. at 340-41; see
also Harris, 724 F.3d at 463 (holding that the contractor’s assertion that the military was a proximate
cause of the alleged injury did not present a political
question under a joint-and-several liability regime,
and that even if proportional liability applied, the
plaintiffs could proceed on any damages claim that did
not implicate proportional liability); Lane, 529 F.3d at
565-67 (concluding that the assertion of a causation
defense to fraud and negligence claims did not necessarily implicate a political question).

78a
In the present case, however, we do not have a factual record developed by the district court like the records considered in Taylor and in Burn Pit. And, from
our review of the record before us, we are unable to
determine whether a political question exists at this
stage of the litigation.9
With respect to the first Taylor factor, the evidence in the record is inconclusive regarding the extent to which military personnel actually exercised
control over CACI employees in their performance of
their interrogation functions. CACI argues that military control is evidenced by the contract’s stipulation
that CACI would provide services “as directed by military authority.” CACI also cites a deposition in which
a military officer stated that [Redacted] According to
that officer, [Redacted] Finally, a military contracting
officer declared that [Redacted]
The plaintiffs argue in response that there was an
absence of “direct control” by the military over the
manner in which CACI’s contract was to be performed, and that the contract language reflects a
broad grant of discretion to CACI. See Taylor, 658
F.3d at 411. In support of their position, the plaintiffs
point to the contract’s statement that “[t]he Contractor is responsible for providing supervision for all con-

9

We also observe that the United States has not sought to intervene or file an amicus brief with respect to the present appeal.
We note, however, that during earlier proceedings in this case,
the United States represented that “[t]he Court need not resolve
defendants’ political question arguments at this stage of the litigation.” Brief for the United States as Amicus Curiae, Al
Shimari v. CACI Int’l, Inc., 679 F.3d 205 (4th Cir. 2012) (en banc)
(Nos. 09-1335, 10-1891, 10-1921), at 9.

79a
tractor personnel,” and that CACI was required to “supervise, coordinate, and monitor all aspects of interrogation activities.” The plaintiffs also note that the
military officer upon whose testimony CACI relies
[Redacted] Additionally, the record lacks any evidence
whether any of the alleged acts of abuse by CACI personnel ever were ordered, authorized, or approved by
the United States military or by other governmental
authority.
This limited record suggests that, at least for required interrogations, CACI interrogators may have
been under the direct control of the military if they
submitted and executed interrogation plans approved
by the military, and if those interrogation plans detailed particular methods for treating detainees.
However, based on the minimal evidence before us, we
are unable to determine whether the actual content of
any interrogation plans subjected the CACI interrogators to such direct control. We also are unable to determine the extent to which the military controlled
the conduct of the CACI interrogators outside the context of required interrogations, which is particularly
concerning given the plaintiffs’ allegations that
“[m]ost of the abuse” occurred at night, and that the
abuse was intended to “soften up” the detainees for
later interrogations.
A thorough analysis of these matters, as mandated by Taylor, cannot be achieved simply by reviewing the plaintiffs’ pleadings and the limited record on
appeal, but also will require factual development of
the record by the district court and possibly additional
jurisdictional discovery. Therefore, we will remand
this case to the district court for further consideration

80a
with respect to the application of the first Taylor factor of “direct control.” See Burn Pit, 744 F.3d at 334
(noting that “when the jurisdictional facts are inextricably intertwined with those central to the merits, the
district court should resolve the relevant factual disputes only after appropriate discovery”).
We reach a similar conclusion with respect to the
second Taylor factor, because the record does not reveal the defenses that the defendants intend to employ with regard to the merits of the plaintiffs’ claims.
Indeed, the district court has not yet identified the
precise elements that the plaintiffs will be required to
prove in their ATS claims for the alleged international
law violations. Thus, we are unable to assess whether
a decision on the merits would require the judiciary
“to question actual, sensitive judgments made by the
military.” See Taylor, 658 F.3d at 411 (internal quotation marks omitted).
Although the plaintiffs’ remaining common law
tort claims are premised on familiar causes of action,
which the district court thoroughly analyzed in its decision regarding the sufficiency of those claims under
Federal Rule of Civil Procedure 12(b)(6), we do not
know the degree to which CACI’s defenses to these
claims might implicate any political questions until
the contours of all the plaintiffs’ claims are further developed. We therefore refrain from reaching the additional issues presented on appeal regarding whether

81a
the plaintiffs’ common law claims properly were dismissed under Rule 12(b)(6).10
Based on the issues we have identified that cannot
be resolved on the present record, we are unable to
perform a “discriminating analysis of the particular
question posed, in terms of the history of its management by the political branches, of its susceptibility to
judicial handling . . . , and of the possible consequences of judicial action.” Baker, 369 U.S. at 211-12.
Accordingly, we vacate the district court’s dismissal of
all four plaintiffs’ common law tort claims, and instruct the district court to reexamine the justiciability
of the ATS claims and the common law tort claims before proceeding further in the case.
III.
For these reasons, we vacate the district court’s
judgment and, consequently, the court’s award of
costs, and remand all the plaintiffs’ claims for further
proceedings in accordance with the principles expressed in this opinion.
VACATED AND REMANDED

10

In remanding the plaintiffs’ common law claims for further
proceedings under Federal Rule of Civil Procedure 12(b)(1), we
express no opinion regarding the correctness of the district
court’s dismissal of those claims under Federal Rule of Civil Procedure 12(b)(6).

82a
APPENDIX D
PUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 09-1335
SUHAIL NAJIM ABDULLAH AL SHIMARI; TAHA
YASEEN ARRAQ RASHID; SA’AD HAMZA HANTOOSH AL–ZUBA’E; SALAH HASAN NUSAIF
JASIM AL–EJAILI,
Plaintiffs – Appellees,
v.
CACI INTERNATIONAL, INCORPORATED; CACI
PREMIER TECHNOLOGY, INCORPORATED,
Defendants – Appellants.
------------------------KELLOGG BROWN & ROOT SERVICES,
INCORPORATED,
Amicus Supporting Appellants,
PROFESSORS OF CIVIL PROCEDURE AND FEDERAL COURTS, ERWIN CHEMERINSKY, DEAN
AND DISTINGUISHED PROFESSOR OF LAW,
UNIVERSITY OF CALIFORNIA, IRVINE SCHOOL
OF LAW, ERIC M. FREEDMAN, MAURICE A.
DEANE, DISTINGUISHED PROFESSOR OF CONSTITUTIONAL LAW, HOFSTRA UNIVERSITY

83a
SCHOOL OF LAW, JENNIFER M. GREEN, DIRECTOR, HUMAN RIGHTS LITIGATION AND INTERNATIONAL ADVOCACY CLINIC, UNIVERSITY OF
MINNESOTA
LAW
SCHOOL,
JONATHAN
HAFETZ, ASSOCIATE PROFESSOR OF LAW, SETON HALL UNIVERSITY SCHOOL OF LAW, ALAN
B. MORRISON, LERNER FAMILY ASSOCIATE
DEAN FOR PUBLIC INTEREST AND PUBLIC SERVICE LAW, GEORGE WASHINGTON UNIVERSITY
SCHOOL OF LAW, STEPHEN I. VLADECK, PROFESSOR OF LAW AND ASSOCIATE DEAN FOR
SCHOLARSHIP, AMERICAN UNIVERSITY WASHINGTON COLLEGE OF LAW; RETIRED MILITARY
OFFICERS; EARTHRIGHTS INTERNATIONAL; INTERNATIONAL HUMAN RIGHTS ORGANIZATIONS AND EXPERTS, HUMAN RIGHTS FIRST,
THE CENTER FOR VICTIMS OF TORTURE, THE
INTERNATIONAL COMMISSION OF JURISTS,
THE WORKING GROUP ESTABLISHED BY THE
COMMISSION ON HUMAN RIGHTS ON THE USE
OF MERCENARIES AS A MEANS OF VIOLATING
HUMAN RIGHTS AND IMPEDING THE EXERCISE
OF THE RIGHT OF PEOPLES TO SELF–DETERMINATION, HUMAN RIGHTS WATCH, ILIAS BANTEKAS, JOHN CERONE, GEOFFREY CORN, DAVID GLAZIER, KEVIN JON HELLER, MICHAEL
NEWTON, MARCO SASSOLI, GARY SOLIS, SCOTT
M. SULLIVAN, DR. ANICEE VAN ENGELAND,
Amici Supporting Appellees,
United States of America,
Amicus Curiae.

84a
No. 10-1891
WISSAM ABDULLATEFF SA’EED AL–QURAISHI,
Plaintiff – Appellee,
v.
L–3 SERVICES, INCORPORATED,
Defendant – Appellant,
and
ADEL NAKHLA; CACI INTERNATIONAL,
INCORPORATED; CACI PREMIER
TECHNOLOGY, INCORPORATED,
Defendants.
-----------------------------PROFESSORS OF CIVIL PROCEDURE AND FEDERAL COURTS, ERWIN CHEMERINSKY, DEAN
AND DISTINGUISHED PROFESSOR OF LAW,
UNIVERSITY OF CALIFORNIA, IRVINE SCHOOL
OF LAW, ERIC M. FREEDMAN, MAURICE A.
DEANE, DISTINGUISHED PROFESSOR OF CONSTITUTIONAL LAW, HOFSTRA UNIVERSITY
SCHOOL OF LAW, JENNIFER M. GREEN, DIRECTOR, HUMAN RIGHTS LITIGATION AND INTERNATIONAL ADVOCACY CLINIC, UNIVERSITY OF
MINNESOTA
LAW
SCHOOL,
JONATHAN
HAFETZ, ASSOCIATE PROFESSOR OF LAW, SETON HALL UNIVERSITY SCHOOL OF LAW, ALAN
B. MORRISON, LERNER FAMILY ASSOCIATE
DEAN FOR PUBLIC INTEREST AND PUBLIC SERVICE LAW, GEORGE WASHINGTON UNIVERSITY

85a
SCHOOL OF LAW, STEPHEN I. VLADECK, PROFESSOR OF LAW AND ASSOCIATE DEAN FOR
SCHOLARSHIP, AMERICAN UNIVERSITY WASHINGTON COLLEGE OF LAW; RETIRED MILITARY
OFFICERS; EARTHRIGHTS INTERNATIONAL; INTERNATIONAL HUMAN RIGHTS ORGANIZATIONS AND EXPERTS, HUMAN RIGHTS FIRST,
THE CENTER FOR VICTIMS OF TORTURE, THE
INTERNATIONAL COMMISSION OF JURISTS,
THE WORKING GROUP ESTABLISHED BY THE
COMMISSION ON HUMAN RIGHTS ON THE USE
OF MERCENARIES AS A MEANS OF VIOLATING
HUMAN RIGHTS AND IMPEDING THE EXERCISE
OF THE RIGHT OF PEOPLES TO SELF–DETERMINATION, HUMAN RIGHTS WATCH, ILIAS BANTEKAS, JOHN CERONE, GEOFFREY CORN, DAVID GLAZIER, KEVIN JON HELLER, MICHAEL
NEWTON, MARCO SASSOLI, GARY SOLIS, SCOTT
M. SULLIVAN, DR. ANICEE VAN ENGELAND,
Amici Supporting Appellee,
UNITED STATES OF AMERICA,
Amicus Curiae.

86a
No. 10-1921
WISSAM ABDULLATEFF SA’EED AL–QURAISHI,
Plaintiff – Appellee,
v.
ADEL NAKHLA,
Defendant – Appellant,
and
L–3 SERVICES, INCORPORATED; CACI INTERNATIONAL, INCORPORATED; CACI PREMIER
TECHNOLOGY, INCORPORATED,
Defendants.
PROFESSORS OF CIVIL PROCEDURE AND FEDERAL COURTS, ERWIN CHEMERINSKY, DEAN
AND DISTINGUISHED PROFESSOR OF LAW,
UNIVERSITY OF CALIFORNIA, IRVINE SCHOOL
OF LAW, ERIC M. FREEDMAN, MAURICE A.
DEANE, DISTINGUISHED PROFESSOR OF CONSTITUTIONAL LAW, HOFSTRA UNIVERSITY
SCHOOL OF LAW, JENNIFER M. GREEN, DIRECTOR, HUMAN RIGHTS LITIGATION AND INTERNATIONAL ADVOCACY CLINIC, UNIVERSITY OF
MINNESOTA
LAW
SCHOOL,
JONATHAN
HAFETZ, ASSOCIATE PROFESSOR OF LAW, SETON HALL UNIVERSITY SCHOOL OF LAW, ALAN
B. MORRISON, LERNER FAMILY ASSOCIATE
DEAN FOR PUBLIC INTEREST AND PUBLIC SERVICE LAW, GEORGE WASHINGTON UNIVERSITY
SCHOOL OF LAW, STEPHEN I. VLADECK, PROFESSOR OF LAW AND ASSOCIATE DEAN FOR

87a
SCHOLARSHIP, AMERICAN UNIVERSITY WASHINGTON COLLEGE OF LAW; RETIRED MILITARY
OFFICERS; EARTHRIGHTS INTERNATIONAL; INTERNATIONAL HUMAN RIGHTS ORGANIZATIONS AND EXPERTS, HUMAN RIGHTS FIRST,
THE CENTER FOR VICTIMS OF TORTURE, THE
INTERNATIONAL COMMISSION OF JURISTS,
THE WORKING GROUP ESTABLISHED BY THE
COMMISSION ON HUMAN RIGHTS ON THE USE
OF MERCENARIES AS A MEANS OF VIOLATING
HUMAN RIGHTS AND IMPEDING THE EXERCISE
OF THE RIGHT OF PEOPLES TO SELF–DETERMINATION, HUMAN RIGHTS WATCH, ILIAS BANTEKAS, JOHN CERONE, GEOFFREY CORN, DAVID GLAZIER, KEVIN JON HELLER, MICHAEL
NEWTON, MARCO SASSOLI, GARY SOLIS, SCOTT
M. SULLIVAN, DR. ANICEE VAN ENGELAND,
Amici Supporting Appellee,
UNITED STATES OF AMERICA,
Amicus Curiae.
Appeals from the United States District Court for the
Eastern District of Virginia, at Alexandria. Gerald
Bruce Lee, District Judge. (1:08-cv-00827-GBL-JFA,
8:08-cv-01696-PJM)
Argued: January 27, 2012

Decided: May 11, 2012

Before TRAXLER, Chief Judge, and WILKINSON,
NIEMEYER, MOTZ, KING, GREGORY, SHEDD,
DUNCAN, AGEE, DAVIS, KEENAN, WYNN, DIAZ,
and FLOYD, Circuit Judges.

88a

Appeals dismissed by published opinion. Judge KING
wrote the opinion, in which Chief Judge TRAXLER
and Judges MOTZ, GREGORY, DUNCAN, AGEE,
DAVIS, KEENAN, WYNN, DIAZ, and FLOYD joined.
Judge DUNCAN wrote a concurring opinion, in which
Judge AGEE joined. Judge WYNN wrote a concurring
opinion. Judge WILKINSON wrote a dissenting opinion, in which Judge NIEMEYER and Judge SHEDD
joined. Judge NIEMEYER wrote a dissenting opinion, in which Judge WILKINSON and Judge SHEDD
joined.

ARGUED: Joseph William Koegel, Jr., STEPTOE &
JOHNSON, LLP, Washington, D.C.; Ari S. Zymelman, WILLIAMS & CONNOLLY, LLP, Washington,
D.C., for Appellants. Baher Azmy, CENTER FOR
CONSTITUTIONAL RIGHTS, New York, New York;
Susan L. Burke, BURKE PLLC, Washington, D.C., for
Appellees. H. Thomas Byron, III, UNITED STATES
DEPARTMENT OF JUSTICE, Washington, D.C., for
Amicus Curiae. ON BRIEF: John F. O’Connor,
STEPTOE & JOHNSON, LLP, Washington, D.C., for
Appellants CACI International, Incorporated and
CACI Premier Technology, Incorporated. Eric R. Delinsky, ZUCKERMAN SPAEDER LLP, Washington,
D.C.; F. Whitten Peters, F. Greg Bowman, WILLIAMS & CONNOLLY, LLP, Washington, D.C., for
Appellants L–3 Services, Incorporated and Adel Nakhla. Susan M. Sajadi, BURKE PLLC, Washington,
D.C.; Katherine Gallagher, J. Wells Dixon, CENTER
FOR CONSTITUTIONAL RIGHTS, New York, New
York; Joseph F. Rice, MOTLEY RICE LLC, Mt. Pleasant, South Carolina; Shereef Hadi Akeel, AKEEL &

89a
VALENTINE, PC, Troy, Michigan, for Appellees.
Raymond B. Biagini, Lawrence S. Ebner, MCKENNA
LONG & ALDRIDGE LLP, Washington, D.C., for Kellogg Brown & Root Services, Incorporated, Amicus
Supporting Appellants CACI International, Incorporated, and ACI Premier Technology, Incorporated;
Joshua S. Devore, Agnieszka M. Fryszman, Maureen
E. McOwen, COHEN MILSTEIN SELLERS & TOLL
PLLC, Washington, D.C., for Professors of Civil Procedure and Federal Courts, Amici Supporting Appellees. Jennifer B. Condon, SETON HALL UNIVERSITY SCHOOL OF LAW, CENTER FOR SOCIAL
JUSTICE, Newark, New Jersey; John J. Gibbons,
Lawrence S. Lustberg, Jonathan M. Manes, GIBBONS P.C., Newark, New Jersey, for Retired Military
Officers, Amici Supporting Appellees. Gabor Rona,
Melina Milazzo, HUMAN RIGHTS FIRST, New York,
New York; Robert P. LoBue, Ella Campi, Richard
Kim, Elizabeth Shofner, PATTERSON BELKNAP
WEBB & TYLER LLP, New York, New York, for International Human Rights Organizations and Experts, Amici Supporting Appellees. Marco Simons,
Richard Herz, Marissa Vahlsing, Jonathan Kaufman,
EARTHRIGHTS INTERNATIONAL, Washington,
D.C., for Earthrights International, Amicus Supporting Appellees. Tony West, Assistant Attorney General, Michael S. Raab, UNITED STATES DEPARTMENT OF JUSTICE, Washington, D.C., for Amicus
Curiae.

90a
KING, Circuit Judge:
Following the 2003 invasion of Iraq, the United
States military took control of Abu Ghraib prison near
Baghdad, using it to detain criminals, enemies of the
provisional government, and other persons thought to
possess information regarding the anti-Coalition insurgency. The United States contracted with CACI
International, Incorporated (with CACI Premier
Technology, Incorporated, together referred to herein
as “CACI’’), and Titan Corporation, now L–3 Services,
Incorporated (“L–3’’), to provide civilian employees to
assist the military in communicating with and interrogating this latter group of detainees.
On June 30, 2008, a number of Iraqis who had
been detained at Abu Ghraib and elsewhere filed lawsuits against CACI and L–3 in the Southern District
of Ohio and the District of Maryland, alleging that the
contractors and certain of their employees were liable
in common law tort and under the Alien Tort Statute
(“ATS’’), 28 U.S.C. § 1350, for torturing and abusing
them during their incarceration. Following the unopposed transfer of the Ohio action to the Eastern District of Virginia, where CACI is headquartered, Suhail
Najim Abdullah Al Shimari and three co-plaintiffs
submitted an Amended Complaint asserting that
CACI, through its employees, agents, and government
coconspirators, deprived them of basic human necessities, beat them and ran electric current through
their bodies, subjected them to sexual abuse and humiliation, and traumatized them with mock executions and other sadistic acts. In the operative Second
Amended Complaint filed in the companion litigation,
seventy-two plaintiffs, headed by Wissam Abdullateff
Sa’eed Al–Quraishi, detailed similar allegations

91a
against L–3 and Adel Nakhla, an L–3 employee residing in Maryland.1
I.
A.
On September 15, 2008, CACI moved to dismiss
the Amended Complaint filed in the Eastern District
of Virginia, maintaining generally that, among other
things: (1) the dispute presented a nonjusticiable political question; (2) the inevitable application of the
law of occupied Iraq rendered CACI, as part of the occupying power, immune from suit under Coleman v.
Tennessee, 97 U.S. 509, 24 L.Ed. 1118 (1878), and Dow
v. Johnson, 100 U.S. 158, 25 L.Ed. 632 (1879); (3) the
plaintiffs’ claims were preempted by the “combatant
activities’’ exception to the Federal Tort Claims Act
(the “FTCA’’), see 28 U.S.C. § 2680(j), discussed in Ibrahim v. Titan Corp., 556 F.Supp.2d 1 (D.D.C.2007),
and subsequently adopted on appeal, see Saleh v. Titan Corp., 580 F.3d 1 (D.C.Cir.2009) (citing Boyle v.
United Tech. Corp., 487 U.S. 500, 108 S.Ct. 2510, 101
L.Ed.2d 442 (1988)); and (4) the company was entitled
to absolute official immunity in accordance with Mangold v. Analytic Services, Inc., 77 F.3d 1442 (4th
Cir.1996), because its employees had performed delegated governmental functions. With respect to the

1

CACI and L–3 were each initially named as defendants in
both lawsuits. Within a couple of months following commencement of the litigation, however, CACI was voluntarily dismissed
from the Maryland action and the same was accomplished with
respect to L–3 in the Virginia proceedings. See Fed.R.Civ.P.
41(a)(1)(A)(i). On March 9, 2009, the district court in Maryland
denied without prejudice L–3’s motion to transfer venue of that
case to the Eastern District of Virginia.

92a
ATS claims, CACI proffered several additional arguments, none of them relevant here in light of the
claims’ eventual dismissal. See infra at 210.
L–3’s motion to dismiss the Second Amended
Complaint in the Maryland action, filed on November
26, 2008, and in which Nakhla joined, was predicated
essentially along the same lines as CACI’s, though it
characterized Mangold as involving the application of
derivative sovereign immunity instead of absolute official immunity. As CACI had previously done, L–3
invoked the political question doctrine, cited the Supreme Court’s decisions in Coleman and Dow (the
“law-of-war defense”), and requested (through supplemental briefing) that the court adopt the combatant
activities exception ultimately applied in Saleh
(“Saleh preemption”). L–3 similarly advocated for dismissal of the ATS claims on substantially the same
grounds identified by CACI.2
1.
On March 19, 2009, the district court in Virginia
entered a Memorandum Order dismissing the ATS
claims against CACI, but permitting the common-law
tort claims to proceed. See Al Shimari v. CACI Premier Tech., Inc., 657 F.Supp.2d 700 (E.D.Va.2009). In
so ruling, the court acknowledged its considerable reservations that the action implicated a political question, in that CACI, a private entity, was not the

2

The Maryland district court denied L–3’s dismissal motion
as to the ATS claims. See infra at 212. L–3 maintains on appeal
that this ruling was in error, but it confines its argument to the
identical grounds urged in support of its primary contention that
the court below incorrectly declined to dismiss the state-law tort
claims.

93a
United States, and only low-level military and governmental personnel appeared to have been involved in
the alleged mistreatment. See id. at 708–14. The
court was similarly doubtful that the foreseeable application of Iraqi law required dismissal in light of
CACI’s apparent status as an arms-length contractor,
“because even if the law of a foreign jurisdiction were
to govern any of the Plaintiffs’ claims, it would not regulate the conduct of the United States, a non-party to
this suit between private parties.’’ Id. at 725.
The dividing line between the bona fide military
and its civilian support personnel also fueled the district court’s uncertainty that the latter could have engaged in wartime activities as a “combatant” for purposes of adopting the D.C. Circuit’s theory of FTCA
preemption. See Al Shimari, 657 F.Supp.2d at 720–
21. The court concluded that, in any event, the plaintiffs’ allegations of torture at the hands of CACI failed
to implicate the uniquely federal interests or irreconcilable conflict with state law that animated the Supreme Court’s decision in Boyle, on which Saleh relied. See id. at 722–25.
Regarding CACI’s claim of derivative immunity
under Mangold, the district court set forth its view
that the validity of such a claim depends on whether
its proponent, in committing the act complained of,
was ‘‘ ‘exercising discretion while acting within the
scope of their employment.’” Al Shimari, 657
F.Supp.2d at 715 (emphasis omitted) (quoting Mangold, 77 F.3d at 1446). Citing “a very limited factual
record,” the court expressed its skepticism that CACI
had established at the dismissal stage that its treatment of the plaintiffs at Abu Ghraib involved the exercise of discretion. Id. The court stated further that

94a
it was “completely bewildered” by the suggestion that
it could accept CACI’s representations that the company had performed within the scope of its agreement
with the government “when the contract is not before
the Court on this motion.” Id. at 717. On March 23,
2009, CACI noted its appeal (No. 09–1335) from the
district court’s ruling.
2.
The assertion of Mangold immunity was viewed
much the same way by the district court in Maryland,
which, in its Opinion of July 29, 2010, concluded that,
“relying on the information in the [Second Amended]
Complaint, it is clearly too early to dismiss Defendants.” Al–Quraishi v. Nakhla, 728 F.Supp.2d 702, 735
(D.Md.2010). 3 The district court perceived no such

3

In Mangold, we reversed the district court’s denial of immunity to the defendant government contractor and its employees in
a lawsuit brought by an Air Force officer and his wife for statements the contractor made to military officials investigating the
officer’s alleged misconduct. L–3 and CACI have each relied
heavily on Mangold for the proposition that our decision in that
case likewise entitles them to immunity for the tort claims asserted by the plaintiffs here. The Maryland district court, noting
the defendants’ additional reliance on Butters v. Vance International, Inc., 225 F.3d 462 (4th Cir.2000), characterized the immunity claimed as being in the nature of derivative sovereign
immunity, which the court described as “protect[ing] agents of
the sovereign from liability for carrying out the sovereign’s will.”
Al–Quraishi, 728 F.Supp.2d at 736. The court distinguished
Mangold, opining that the immunity discussed therein “was
based on a combination of derivative absolute official immunity
and witness immunity, doctrines that differ from derivative sovereign immunity.” Al–Quraishi, 728 F.Supp.2d at 736.

95a

The distinction drawn by the district court finds support in
the text of Mangold, as expressed by our careful observation that
the public policy justifying the grant of absolute immunity to federal officials exercising job-related discretion “provide[d] only a
partial foundation for protecting” the defendant contractor in
that case. Mangold, 77 F.3d at 1448 (citing Westfall v. Erwin, 484
U.S. 292, 300, 108 S.Ct. 580, 98 L.Ed.2d 619 (1988)). The remainder of that foundation was supplied by “the common law privilege
to testify with absolute immunity in courts of law, before grand
juries, and before government investigators.” Id. at 1449. According to the Maryland district court, derivative absolute official immunity (invoked by CACI and more directly addressed by
the Virginia district court in Al Shimari) “ensures that discretionary governmental decision makers are able to efficiently exercise their discretion in the best interests of the Government
without ‘the potentially debilitating distraction of defending private lawsuits.’” Id. (quoting Mangold, 77 F.3d at 1446). While
Mangold immunity certainly has the effect of removing the potential distraction of litigation, it is important to note the narrow
scope of the immunization actually authorized in that case,
which we applied “only insofar as necessary to shield statements
and information, whether truthful or not, given by a government
contractor and its employees in response to queries by government investigators engaged in an official investigation.” 77 F.3d
at 1449. In light of our disposition of these appeals, infra, we express no opinion as to the merits of any immunity asserted by
the defendants in general, or as to the pertinence of our Mangold
precedent in particular, but instead leave those matters for the
district courts to consider in the first instance should they arise
on remand.

96a
record deficiencies concerning L–3’s and Nakhla’s alternative bases for dismissal, however, deeming the
facts as pleaded sufficient to reject outright both defendants’ arguments. The court thus denied the motion to dismiss with respect to all claims, including
those premised on the ATS. See id. at 724–33, 736–
60. From the court’s accompanying Order, L–3 noted
its appeal (No. 10–1891) on August 4, 2010, followed
two days later by another appeal (No. 10– 1921) noted
on behalf of Nakhla.
B.
The appeals in Al–Quraishi were consolidated and
argued in seriatim with the Al Shimari appeal before
a panel of this Court on October 26, 2010. Apart from
The difference between derivative sovereign immunity and
derivative absolute official immunity (including any offshoots
thereof) appears to be a fine one that may depend on the degree
of discretion afforded the contractor by the government, which,
at this stage of the litigation, is not a question capable of final
resolution in either proceeding. Were that not the case, the distinction could be crucial, in that fully developed rulings denying
absolute official immunity are immediately appealable, while denials based on sovereign immunity (or derivative claims thereof)
may not be. See Hous. Cmty. Hosp. v. Blue Cross & Blue Shield
of Tex., Inc., 481 F.3d 265, 279 (5th Cir.2007) (denial of derivative
sovereign immunity not appealable); Alaska v. United States, 64
F.3d 1352, 1356 (9th Cir.1995) (denial of sovereign immunity not
appealable); Pullman Const. Indus., Inc. v. United States, 23 F.3d
1166, 1168 (7th Cir.1994) (same). But see In re World Trade Ctr.
Disaster Site Litigation, 521 F.3d 169, 191 (2d Cir.2008) (disagreeing with foregoing authorities). Although the degree to
which Mangold controls the specific assertions of immunity in
these cases is yet to be decided, we will, for simplicity’s sake, continue to refer to L–3 and CACI as having asserted “Mangold immunity.”

97a
urging our affirmance on the merits, the plaintiffs in
each matter alternatively maintained that we lacked
appellate jurisdiction over the district courts’ non-final orders denying the contractors’ respective motions
to dismiss. On September 21, 2011, we issued opinions in both cases, in which a majority of the panel
concluded that jurisdiction was proper in this Court,
and that the district courts had erred in permitting
the claims against the contractors to proceed. See Al
Shimari v. CACI Int’l, Inc., 658 F.3d 413 (4th
Cir.2011); Al–Quraishi v. L–3 Servs., Inc., 657 F.3d
201 (4th Cir.2011).4 Consistently therewith, we entered separate judgments reversing the orders on appeal and remanding with instructions to dismiss both
proceedings.
On November 8, 2011, upon the timely petitions of
the plaintiffs, see Fed. R.App. P. 35(b)-(c), we entered
an Order granting en banc rehearing of all three appeals, thereby vacating our prior judgments. The appeals were thereafter consolidated for purposes of oral
argument, which was conducted before the en banc

4

We released both of our panel opinions on September 21,
2011, following the Supreme Court’s denial of certiorari in Saleh
on June 27, 2011. We had previously, on March 11, 2011, placed
these appeals in abeyance pending resolution of the Saleh certiorari petition.

98a
Court on January 27, 2012.5 Having fully considered
the briefs and arguments of the parties, together with
the written and oral submissions of the amici curiae
permitted leave to participate, we conclude that we
lack jurisdiction over these interlocutory appeals, and
we therefore dismiss them.6
II.
A.
Except for the limited categories of interlocutory
orders set forth at 28 U.S.C. § 1292, federal appellate
jurisdiction is reserved for “final decisions of the district courts of the United States.’’ 28 U.S.C. § 1291. It
is undisputed that the decisions underlying these putative appeals are interlocutory, at least in the procedural sense, in that no final order or judgment has
been entered by either district court. It is also without
contest that neither order has been certified appealable by the issuing court pursuant to 28 U.S.C.

5
At our invitation, the Department of Justice, on behalf of the
United States, submitted an amicus brief and participated in
oral argument. Therein, the government took the position that
we were without jurisdiction to decide these appeals. Just prior
to argument, we granted the defendants leave to submit supplemental briefs in response to the government’s amicus submission, after which the plaintiffs moved to tender their own supplemental briefs. We grant the plaintiffs’ motions and accept their
supplemental replies for consideration.
6

The arguments and contentions before us in these appeals,
though not identically presented or emphasized, are nonetheless
substantially similar enough that we are content to continue the
appeals’ consolidation for purposes of decision. Hereinafter, we
shall refer to L–3 and Nakhla together as “L–3,” and both of them
collectively with CACI as the “appellants.”

99a
§ 1292(b), and that none of that statute’s provisions
otherwise apply to confer jurisdiction on this Court.
Consequently, the only way we may be entitled to
review the orders on appeal is if they are among “that
small class [of decisions] which finally determine
claims of right separable from, and collateral to, rights
asserted in the action, too important to be denied review and too independent of the cause itself to require
that appellate consideration be deferred until the
whole case is adjudicated.’’ Cohen v. Beneficial Indus.
Loan Corp., 337 U.S. 541, 546, 69 S.Ct. 1221, 93 L.Ed.
1528 (1949). Expounding on the topic, the Supreme
Court has emphasized that an appealable Cohen order
must “[1] conclusively determine the disputed question, [2] resolve an important issue completely separate from the merits of the action, and [3] be effectively unreviewable on appeal from a final judgment.’’
Will v. Hallock, 546 U.S. 345, 349, 126 S.Ct. 952, 163
L.Ed.2d 836 (2006) (alterations in original) (internal
quotation marks omitted).
Cohen involved a stockholder’s derivative action
for mismanagement and fraud, in which the Supreme
Court reviewed the district court’s threshold decision
declining to enforce a state law requiring plaintiffs in
such cases to post security ensuring payment of attorney fees in the event the defendant corporation prevailed. Deeming the appeal properly taken, the Court
declared no exception to the jurisdictional prerequisites of 28 U.S.C. § 1291, but instead described what
would subsequently be coined the “collateral order
doctrine,’’ MacAlister v. Guterma, 263 F.2d 65, 67 (2d
Cir.1958), as a “practical, rather than a technical construction’’ of the statute. Cohen, 337 U.S. at 546, 69
S.Ct. 1221.

100a
The federal courts of appeals have consistently
been charged with keeping a tight rein on the types of
orders suitable for appeal consistent with Cohen. We
are therefore bound to maintain “a healthy respect for
the virtues of the final-judgment rule.’’ Mohawk Indus., Inc. v. Carpenter, ––– U.S. ––––, 130 S.Ct. 599,
605, 175 L.Ed.2d 458 (2009); see also Will, 546 U.S. at
350, 126 S.Ct. 952 (“[W]e have not mentioned applying the collateral order doctrine recently without emphasizing its modest scope.’’).7
The Supreme Court’s concern, as expressed
through its repeated admonitions, is amply justified.
The appellate courts are, by design, of limited jurisdiction; thus, accepting prejudgment appeals as a
matter of course would “undermine[ ] efficient judicial
administration and encroach[ ] upon the prerogatives
of district court judges, who play a special role in managing ongoing litigation.’’ Mohawk, 130 S.Ct. at 605
(internal quotation marks omitted). In addition, routine interlocutory review would unacceptably subject

7
This “modest scope” is apparent from the short list of orders
approved by the Supreme Court for immediate review under Cohen. See Osborn v. Haley, 549 U.S. 225, 238–39, 127 S.Ct. 881,
166 L.Ed.2d 819 (2007) (denial of substitution of United States
under Westfall Act); P.R. Aqueduct & Sewer Auth. v. Metcalf &
Eddy, Inc., 506 U.S. 139, 144–45, 113 S.Ct. 684, 121 L.Ed.2d 605
(1993) (denial to state of claimed Eleventh Amendment immunity); Harlow v. Fitzgerald, 457 U.S. 800, 817–18, 102 S.Ct. 2727,
73 L.Ed.2d 396 (1982) (denial of qualified immunity from suit
pursuant to 42 U.S.C. § 1983); Nixon v. Fitzgerald, 457 U.S. 731,
742, 102 S.Ct. 2690, 73 L.Ed.2d 349 (1982) (denial to president
of absolute immunity); Helstoski v. Meanor, 442 U.S. 500, 508,
99 S.Ct. 2445, 61 L.Ed.2d 30 (1979) (denial of Speech and Debate
Clause immunity); Abney v. United States, 431 U.S. 651, 660, 97
S.Ct. 2034, 52 L.Ed.2d 651 (1977) (denial of double jeopardy bar).

101a
meritorious lawsuits to “the harassment and cost of a
succession of separate appeals from the various rulings to which a litigation may give rise, from its initiation to entry of judgment.” Firestone Tire & Rubber
Co. v. Risjord, 449 U.S. 368, 374, 101 S.Ct. 669, 66
L.Ed.2d 571 (1981) (internal quotation marks omitted).
Moreover, there is no need to construe Cohen
broadly given the existence of a suitable alternative.
The “safety valve” of discretionary interlocutory review under 28 U.S.C. § 1292(b) is frequently a “better
vehicle for vindicating [certain] serious . . . claims
than the blunt, categorical instrument of [a] § 1291
collateral order appeal.’’ Digital Equip. Corp. v. Desktop Direct, Inc., 511 U.S. 863, 883, 114 S.Ct. 1992, 128
L.Ed.2d 842 (1994). Accordingly, the collateral order
doctrine should “never be allowed to swallow the general rule that a party is entitled to a single appeal, to
be deferred until final judgment has been entered.”
Id. at 868, 114 S.Ct. 1992 (citation omitted).
B.
Although a properly appealable collateral order
under Cohen must of course satisfy all of the Will requirements, its hallmark is the encapsulation of a
right whose abridgement is “effectively unreviewable”
should appellate review await final judgment. See
Henry v. Lake Charles Am. Press LLC, 566 F.3d 164,
177 (5th Cir.2009) (describing unreviewability as “the
fundamental characteristic of the collateral order doctrine” (citation omitted)). The “critical question” in
determining whether the right at issue is effectively
unreviewable in the normal course “is whether the essence of the claimed right is a right not to stand

102a
trial”—that is, whether it constitutes an immunity
from suit. Van Cauwenberghe v. Biard, 486 U.S. 517,
524, 108 S.Ct. 1945, 100 L.Ed.2d 517 (1988) (internal
quotation marks omitted). Absent an immediate appellate review of the denial of an immunity claim, the
right not to stand trial “would be irretrievably lost.”
Id. (internal quotation marks omitted). By contrast,
if the right at issue is one “not to be subject to a binding judgment of the court”—that is, a defense to liability—then the right can be vindicated just as readily
on appeal from the final judgment, and the collateral
order doctrine does not apply. Id. at 527, 108 S.Ct.
1945.
In assessing whether the right sought to be protected constitutes a true immunity and not merely a
defense, “§ 1291 requires [the court] of appeals to view
claims of a ‘right not to be tried’ with skepticism, if not
a jaundiced eye.” Digital Equip., 511 U.S. at 873, 114
S.Ct. 1992. As the Supreme Court has cautioned,
“[o]ne must be careful . . . not to play word games with
the concept of a ‘right not to be tried,’” Midland Asphalt Corp. v. United States, 489 U.S. 794, 801, 109
S.Ct. 1494, 103 L.Ed.2d 879 (1989), as “virtually every
right that could be enforced appropriately by pretrial
dismissal might loosely be described as conferring a
right not to stand trial,” Digital Equip., 511 U.S. at
873, 114 S.Ct. 1992. It is within the foregoing framework that we review de novo the appealability of the
district courts’ denial orders. See Mitchell v. Forsyth,
472 U.S. 511, 528–30, 105 S.Ct. 2806, 86 L.Ed.2d 411
(1985) (equating denials of qualified immunity to collateral denials of other asserted immunities or of dou-

103a
ble jeopardy invocations, and deeming de novo standard proper based on non-deferential review of latter
claims).
III.
In Doe v. Exxon Mobil Corp., 473 F.3d 345
(D.C.Cir.2007), the District of Columbia Circuit confronted an attempted appeal from the district court’s
interlocutory order refusing to dismiss an action
brought by Indonesian villagers alleging serious injuries visited upon them by members of that nation’s
military in the defendants’ private employ. According
to the defendants, the dispute presented a nonjusticiable political question. The court of appeals declined
to address the merits of the issue, noting the absence
of “a single case in which a federal appeals court held
that denial of a motion to dismiss on political question
grounds is an immediately appealable collateral order.” Id. at 352.8
That case yet appears to be lacking, and the appellants do not contend to the contrary. L–3, however,
ventures that an appellate court may determine
whether an action is a political question or otherwise

8

The D.C. Circuit was presented in Doe with the same argument the appellants make here: that the denial of a dismissal
motion premised on the separation of powers doctrine is an appealable collateral order under Cohen because immediate review
“is necessary to protect the executive branch from judicial intrusion into sensitive foreign policy matters” that could not be remedied on appeal from a final judgment. 473 F.3d at 351. The Doe
court squarely rejected that mistaken notion, however, explaining that although the Supreme Court has “identif[ied] ‘honoring
the separation of powers’ as a value that could support a party’s
interest in avoiding trial, [the Court has] only d[one] so while
discussing cases involving immunity.” Id.

104a
nonjusticiable when it has proper jurisdiction over a
different issue pursuant to Cohen or § 1292(b), if consideration of the former is “necessary to ensure meaningful review.” Swint v. Chambers Cnty. Comm’n, 514
U.S. 35, 51, 115 S.Ct. 1203, 131 L.Ed.2d 60 (1995). We
may also exercise so-called “pendent” appellate jurisdiction in circumstances where the question is “inextricably intertwined” with another that may be immediately reviewed. Id.; see Rux v. Republic of Sudan,
461 F.3d 461, 476 (4th Cir.2006).
L–3’s argument necessarily supposes the existence of an otherwise valid jurisdictional basis for its
appeal. Absent an independently reviewable issue
with which the political question doctrine may be inexorably bound, or one that cannot be reviewed in a
meaningful fashion without addressing the justiciability of the underlying dispute, we are without authority to make any pronouncement on that aspect of
the appellants’ defense. We therefore withhold for the
moment substantive comment on the political question doctrine, at least until we evaluate whether the
law-of-war defense, Saleh preemption, or Mangold
immunity provides the jurisdictional green light for us
to proceed.
A.
The appellants characterize their former presence
in Iraq as “occupying forces” (L– 3) or “occupying personnel” (CACI) that are answerable “only to their
country’s criminal laws,” Opening Br. of CACI at 25,
and thus “not subject to civil suits by the occupied,”
Opening Br. of L–3 at 22–23. In that regard, the appellants equate their situation with those of the Civil
War soldiers in Coleman v. Tennessee, 97 U.S. 509, 24

105a
L.Ed. 1118 (1878), and Dow v. Johnson, 100 U.S. 158,
166, 25 L.Ed. 632 (1879), who sought relief from judgments entered against them for their wartime acts.
The defendant in Coleman had been convicted and
sentenced to death by a Tennessee state court for murdering a civilian, though the same judgment and sentence had been previously imposed as the result of a
United States Army court-martial. Dow, by contrast,
involved a challenge to a civil judgment entered in
Louisiana against a Union general after forces under
his command had seized the plaintiff’s private property in furtherance of the war effort.
Neither judgment was permitted to stand. In both
cases, the Supreme Court considered the states of the
Confederacy to have been “the enemy’s country,” to
whose tribunals the “[o]fficers and soldiers of the armies of the Union were not subject.” Coleman, 97 U.S.
at 515. The Court expressed its bewilderment that a
contrary result could obtain “from the very nature of
war,” concluding that “the tribunals of the enemy
must be without jurisdiction to sit in judgment upon
the military conduct of the officers and soldiers of the
invading army. It is difficult to reason upon a proposition so manifest; its correctness is evident upon its
bare announcement.” Dow, 100 U.S. at 165.
Some differences between the disputes at bar and
those underlying Coleman and Dow are readily evident. Most salient is that the civilian employees of
CACI and L–3 assigned to Abu Ghraib were not soldiers. The idea that those employees should nonetheless be treated like full-fledged members of the military pervades this litigation, though the concept resonates with more force as to some of the appellants’
other defenses, particularly Saleh preemption and

106a
Mangold immunity. But cf. Ford v. Surget, 97 U.S.
594, 601–02, 24 L.Ed. 1018 (1878) (relieving Mississippi civilian from liability for burning landowner’s
cotton where destruction ordered by Confederate
army in face of Union advance and those “commands
would have been undoubtedly enforced by the same
means of coercion as if he had been an enlisted soldier”). The potential liability of government contractors was front and center in both Saleh and Mangold,
and if the legal principles in either case (or both) are
deemed apposite to the dispute at bar, there is little
question that the appellants, as contractors themselves, may avail themselves of them.
Another distinction is that the appellants attempt
to invoke the law-of-war defense exclusively on the assertion that their alleged wrongs will be evaluated under Iraqi law, and not the laws of Virginia, Maryland,
or another state. If true, that may or may not be
enough to bring Coleman and Dow into play, inasmuch as the overriding concern in those cases appears
to have been less about the application of the criminal
law of Tennessee or of Louisiana tort law (there being
no suggestion that either differed significantly from
the analogous law applied by the defendants’ states of
citizenry), and more about the jurisdiction of the “foreign” courts. See Coleman, 97 U.S. at 516 (musing
that “there would be something incongruous and absurd in permitting an officer or soldier of an invading
army to be tried by his enemy”); Dow, 100 U.S. at 163
(identifying “[t]he important question” for resolution
as whether nation’s military could be held liable “in
the local tribunals”). Here, of course, the appellants
are being sued on their home turf, in courts that are
indisputably domestic.

107a
Even assuming that the facts before us can be
viewed in such a fashion to permit Coleman and Dow
to apply, there is no indication from the opinions in
those cases that the Supreme Court intended to construe the law-of-war defense as an immunity from
suit, rather than merely an insulation from liability.
See Dow, 100 U.S. at 165 (characterizing dispute as
concerning personal jurisdiction); Lauro Lines s.r.l. v.
Chasser, 490 U.S. 495, 500, 109 S.Ct. 1976, 104
L.Ed.2d 548 (1989) (“[W]e have declined to hold the
collateral order doctrine applicable where a district
court has denied a claim . . . that the suit against the
defendant is not properly before the . . . court because
it lacks jurisdiction.”). In its subsequent Ford opinion,
with judgment having been entered against the defendant on a jury verdict, the Court in no way indicated that trial should not have been had.
Indeed, it seems a bit curious to imagine the nineteenth century Court regarding its decisions in the
Civil War cases as having durable precedential effect;
the appeals afforded an unusual opportunity for substantive domestic review of what were, in effect, foreign pronouncements of judgment. But to the extent
that Coleman and Dow possess continued relevance
beyond their immediate context, it is nonetheless
clear that the issues presented in those cases were effectively reviewed and disposed of on appeal, and, as
such, the manner in which the Supreme Court chose
to resolve them fails to compel the conclusion that immunity must be accorded all prospective defendants
who insist they are similarly situated. The law-of-war
defense thus provides no basis for an interlocutory appeal in this case.

108a
B.
In a like fashion, Saleh preemption falls squarely
on the side of being a defense to liability and not an
immunity from suit. Immunity, according to the Supreme Court, derives from “an explicit statutory or
constitutional guarantee that trial will not occur.”
Midland Asphalt Corp. v. United States, 489 U.S. 794,
801, 109 S.Ct. 1494, 103 L.Ed.2d 879 (1989) (emphasis
added). 9 There is no contention that the Supreme
Court in Boyle v. United Technologies Corp., 487 U.S.
500, 108 S.Ct. 2510, 101 L.Ed.2d 442 (1988), from
which Saleh preemption is derived, relied on any such
explicit guarantee embodied in statute or in the Constitution. Boyle preemption (and, thus, Saleh preemption) is, ipso facto, not immunity.
We are not the first court to arrive at this ineluctable conclusion. In Martin v. Halliburton, 618 F.3d

9

The Supreme Court has properly dismissed the mistaken notion that Midland Asphalt ‘s “explicit . . . guarantee” requirement is in tension with the immediate appealability of an order
denying qualified immunity, an inherently equivocal term that
appears to connote only an implicit guarantee against the burdens of trial. Any tension can only be characterized as chimerical,
however, in light of qualified immunity’s “good pedigree in public
law,” which more than makes up for its implicitness. Digital
Equip., 511 U.S. at 875, 114 S.Ct. 1992. The argument that an
immunity need not be explicit in order for jurisdiction to lie under the collateral order doctrine “only leaves [the proponent of
jurisdiction] with the unenviable task of explaining why other
rights that might fairly be said to include an (implicit) ‘right not
to stand trial’ aspect are less in need of protection by immediate
review, or more readily vindicated on appeal from final judgment, than” the right the proponent asserts is an implicit right
to be free from suit. Id. at 875–76, 114 S.Ct. 1992.

109a
476, 487 (5th Cir. 2010), the Fifth Circuit similarly
reckoned that “the combatant activities exception is
not subject to a sui generis exemption from the ordinary jurisdictional requirements for denials of
preemption claims.” 10 Indeed, the Boyle Court itself
repeatedly framed the preemption it recognized as
creating a mere defense to liability. See, e.g., 487 U.S.
at 507, 108 S.Ct. 2510 (“The imposition of liability on
Government contractors [in the military procurement
context] will directly affect the terms of Government
contracts.”); id. at 511–12, 108 S.Ct. 2510 (“The financial burden of judgments against the contractors
would ultimately be passed through . . . to the United
States itself.”); id. at 512, 108 S.Ct. 2510 (“[S]tate law
which holds Government contractors liable for design
defects in military equipment does in some circumstances present a ‘significant conflict’ with federal policy and must be displaced.”).
It is tempting, we suppose, to blur the line between an eventual frustration of liability and the more
immediate right to avoid suit altogether. One might
be persuaded to consider the words “preemption” and

10

See also Rodriguez v. Lockheed Martin Corp., 627 F.3d 1259
(9th Cir.2010), in which the court addressed its jurisdiction over
an interlocutory appeal premised on the discretionary functions
exception to the FTCA. According to the Rodriguez court, because
the right recognized by Boyle was merely a “defense to judgment”—and not, like qualified immunity, a “right not to be required to go to trial”—nothing is irretrievably lost by the lack of
an immediate appeal from an adverse pretrial ruling. Rodriguez,
627 F.3d at 1266. The Ninth Circuit emphasized that Boyle did
not devise a new species of immunity, but merely recognized that
“ ‘whether the facts establish the conditions for the [government
contractor] defense is a question for the jury.’” Id. at 1265 (quoting Boyle, 487 U.S. at 514, 108 S.Ct. 2510).

110a
“immunity” as mere labels that are more or less synonymous with each other, or to presume that the former can effectively operate as the latter. But merely
repackaging for the sake of convenience the preemption defense derived from Boyle as “combatant activities immunity,” as our good colleague Judge Niemeyer
does in speaking for the dissenters, post at 259, is patently incorrect.
Though Boyle preemption, like sovereign immunity, may be invoked to bar state law claims, the encapsulated rights serve distinct purposes. State law
claims are preempted under Boyle simply because the
imposition of liability in such situations is irreconcilable with uniquely federal interests. The right conferred through federal preemption, in other words, is
the right not to be bound by a judgment stemming
from state law duties.
In stark contrast, immunity has consistently been
administered as a protection against the burden of litigation altogether. See Mitchell v. Forsyth, 472 U.S.
511, 525– 27, 105 S.Ct. 2806, 86 L.Ed.2d 411 (1985).
Further, as the court of appeals explained in Rodriguez v. Lockheed Martin Corp., 627 F.3d 1259, 1265
(9th Cir.2010), “[a]l-though the source of the government contractor defense [recognized in Boyle ] is the
United States’ sovereign immunity,” the preemption
defense is not itself a species thereof. To the contrary,
entitlement to preemption “is only a corollary financial benefit flowing from the government’s sovereign
immunity.” Id. Accordingly, Boyle’s “government contractor defense does not confer sovereign immunity on
contractors,” and as such, the denial of the defense is
not immediately appealable. Id. (internal quotation
marks omitted).

111a
Importantly, the law requires that we assess the
appealability of a potentially qualifying collateral order in a categorical sense, and not on a case-by-case
basis.11 Conducting that assessment here leads to the
conclusion that the denial of a preemption claim stemming from the combatant activities exception would
not necessarily entail significant scrutiny of sensitive
military issues. Fundamentally, there is little intrusion because the court’s inquiry focuses on whether
the contractor complied with the government’s specifications and instructions, and not the wisdom or correctness thereof. The Boyle and Saleh decisions themselves well illustrate the lack of intrusion that would
result from deferring review until after entry of a final
judgment. Boyle, for example, involved an appeal

11

Whether to recognize an order as collateral is not “an individualized jurisdictional inquiry,” but rather is based “on the entire category to which a claim belongs.” Mohawk, 130 S.Ct. at
605. Consequently, “we do not now in each individual case engage in ad hoc balancing to decide issues of appealability.” Johnson v. Jones, 515 U.S. 304, 315, 115 S.Ct. 2151, 132 L.Ed.2d 238
(1995). It follows that “the issue of appealability under § 1291 is
to be determined . . . without regard to the chance that the litigation at hand might be speeded, or a particular justice averted,
by a prompt appellate court decision.” Digital Equip., 511 U.S. at
868, 114 S.Ct. 1992. Although the presence of a “substantial public interest,” or “some particular value of a high order,” is a necessary prerequisite to a collateral order appeal, Will, 546 U.S. at
352–53, 126 S.Ct. 952, the identification of such a public interest
is not the end of the inquiry. As the Supreme Court explained in
Mohawk, “[t]he crucial question . . . is not whether an interest is
important in the abstract; it is whether deferring review until
final judgment so imperils the interest as to justify the cost of
allowing immediate appeal of the entire class of relevant orders.”
130 S.Ct. at 606.

112a
from a jury verdict for the plaintiff, while “the two appeals in Saleh reached the D.C. Circuit using the normal machinery of §§ 1291 and 1292(b).” Martin, 618
F.3d at 488.12
Moreover, the district court in Saleh had conducted extensive discovery “regarding the military’s
supervision of the contract employees as well as the
degree to which such employees were integrated into
the military chain of command,” 580 F.3d at 4, with
no ill effects. The Fifth Circuit, while acknowledging
that Boyle preemption is underpinned by “a respect
for the interests of the Government in military matters,” has nonetheless reasoned that those interests
can be safeguarded without resort to interlocutory review. Martin, 618 F.3d at 488. For example, a district
court “should take care to develop and resolve such
defenses at an early stage while avoiding, to the extent possible, any interference with military prerogatives.” Id. Additionally, a trial court should consider
“limiting discovery initially to such defenses” and

12

It is of no moment that the plaintiffs have alleged a conspiracy among the contractors, their employees, and certain military
personnel. The conspiracy allegation does not transform this civil
action into a challenge to the government’s policy or interests, or
into an attempt to hold its contractors liable for acting in accord
with governmental decisions. Just as in Saleh, where some of the
plaintiffs alleged a similar conspiracy, “there is no allegation,
and no evidence, that” the “low-level soldiers” alleged to be acting
in conspiracy with contractor personnel “had any control, de jure
or de facto, over the” contractor personnel. 580 F.3d at 20 (Garland, J., dissenting). As such, these proceedings—like Saleh—
constitute direct challenges only to “the unlawful and unauthorized actions of private contractors,” id., based on the pleadings
and record to date.

113a
“certifying orders denying [the] defense[ ] where the
law is unsettled but, after refinement on appeal,
might warrant dismissing plaintiffs’ claims.” Id.13
When properly conducted, suits against private
contractors pose minimal risk that military personnel
will be improperly haled into court or their depositions
taken, because “[w]here discovery would hamper the
military’s mission, district courts can and must delay
it.” Saleh, 580 F.3d at 29 (Garland, J., dissenting) (citing, inter alia, Watts v. SEC, 482 F.3d 501, 508–09
(D.C.Cir.2007)). Other procedural and substantive
rules, such as Rule 45 of the Federal Rules of Civil
Procedure and the state secrets doctrine, also adequately safeguard military interests. See id. at 29 n.
18 (Garland, J., dissenting). Accordingly, we decline
to recognize denials of Saleh preemption as a new
class of collateral order. 14 Insofar as it would be
founded on the false premise that immediate appeals
are necessary in preemption cases to protect the government’s legitimate military interests, such recognition would reflect an impermissibly indulgent view of
appellate jurisdiction.

13

The government’s amicus submission agrees, observing that
concerns over postponing review “can and should be addressed
by careful limitation and close supervision of any necessary discovery by the district courts, and by the use of existing mechanisms for interlocutory appellate review, including certification
under 28 U.S.C. § 1292(b).” Br. for the United States as Amicus
Curiae at 4.
14

And, indeed, it remains to be seen whether we will adopt the
substantive concept of “battlefield preemption” espoused by the
Saleh majority. For the purposes of our decision today, however,
we assume but do not decide that such a defense may be available to the appellants.

114a
C.
Before jurisdiction can be invoked under the collateral order doctrine, a district court must issue a
“fully consummated decision” that constitutes “a complete, formal, and . . . final” resolution of the issue.
Abney v. United States, 431 U.S. 651, 659, 97 S.Ct.
2034, 52 L.Ed.2d 651 (1977). In other words, the
court’s ruling must be “the final word on the subject
addressed.” Digital Equip., 511 U.S. at 867, 114 S.Ct.
1992. If a ruling lacks finality, the threshold requirement for collateral order review—that the question in
dispute be definitively resolved—is likewise left wanting. See Will v. Hallock, 546 U.S. 345, 349, 126 S.Ct.
952, 163 L.Ed.2d 836 (2006) (confining review of nonfinal orders to disputed questions conclusively determined, which raise important non-merits issues that
are effectively unreview-able if not immediately appealed).
A question in dispute cannot be said to have been
conclusively resolved if a district court “ma[kes] clear
that its decision [is] a tentative one, . . . and that it
might well change its mind” after further proceedings.
Jamison v. Wiley, 14 F.3d 222, 230 (4th Cir.1994).
Disputed questions that arise with respect to claims
of immunity are not the exception to that ironclad
rule. Fundamentally, a court is entitled to have before
it a proper record, sufficiently developed through discovery proceedings, to accurately assess any claim, including one of immunity. And even a party whose assertion of immunity ultimately proves worthy must
submit to the burdens of litigation until a court becomes sufficiently informed to rule.

115a
Manifestly, with respect to the appellants’ attempts to invoke Mangold immunity in their respective actions, sufficient information was lacking. The
Maryland and Virginia district courts each perceived
that the validity of such invocations depended in significant part on whether the contractor involved was
acting within the scope of its agreement with the
United States. One could hardly begin to answer that
question without resort to any and all contracts between the appellants and the government pertinent to
the claims, defenses, and related matters below. See,
e.g., Al–Quraishi v. Nakhla, 728 F.Supp.2d 702, 741
n. 11 (D.Md.2010) (reasoning that contract could
show, for example, that “ ‘federal wartime policy-making’ was not behind Defendants’ alleged actions,” in
which case plaintiffs’ “state law claims [would] not intrude upon the preempted field”). While other evidence and testimony could also be relevant to ascertain the appellants’ business relationship with the
government in general, and the parties’ agreed duties
and responsibilities in Iraq and at Abu Ghraib in particular, the analysis must necessarily begin with the
written contract or contracts. Cf. Harris v. Kellogg
Brown & Root Servs., Inc., 618 F.3d 398, 402 (3d
Cir.2010) (rejecting appellate jurisdiction for failure of
Will’s “conclusively determined” requirement, where

116a
only limited discovery had been conducted on combatant activities and political question defenses).15
In dissent, Judge Niemeyer contends that Behrens
v. Pelletier, 516 U.S. 299, 116 S.Ct. 834, 133 L.Ed.2d
773 (1996), and Ashcroft v. Iqbal, 556 U.S. 662, 129
S.Ct. 1937, 173 L.Ed.2d 868 (2009), each a qualified
immunity proceeding, provide for collateral order jurisdiction of the district courts’ orders denying Mangold immunity, as illustrated by other of our qualified
immunity cases. See post at 254, 255 (citing McVey v.
Stacy, 157 F.3d 271 (4th Cir.1998); Jenkins v. Medford, 119 F.3d 1156 (4th Cir.1997) (en banc); Winfield
v. Bass, 106 F.3d 525 (4th Cir.1997) (en banc)). According to Judge Niemeyer, Behrens and Iqbal counsel
that Rule 12 denials of immunity invariably constitute final decisions appealable under § 1291, and
those authorities “clearly establish that these appeals
fit comfortably with the Cohen collateral order doctrine.” Post at 249.
It is more accurate to say that orders denying dismissal motions, insofar as those motions are based on
immunities that are not absolute but conditioned on
context, such as qualified immunity in a § 1983 action

15

As the Virginia district court pointed out, the contracts “will
shed much light on the responsibilities, limitations and expectations that [the appellants] were bound to honor as government
contractors. In addition, consideration of [their] course of dealing
with the government may reveal whether deviations from the
contract occurred and, if so, whether they were tolerated or ratified.” Al Shimari v. CACI Premier Tech., Inc., 657 F.Supp.2d 700,
717 (E.D.Va.2009). Of course, the district court can receive this
evidence under seal, or otherwise, if the circumstances so warrant.

117a
or the derivative immunities at issue here, are, in accordance with Behrens and Iqbal, sometimes immediately appealable. Winfield makes the point:
[W]e possess no jurisdiction over a claim that
a plaintiff has not presented enough evidence
to prove that the plaintiff’s version of the
events actually occurred, but we have jurisdiction over a claim that there was no violation
of clearly established law accepting the facts
as the district court viewed them.
106 F.3d at 530. More generally, we would have jurisdiction over an appeal like the ones attempted here “if
it challenge[d] the materiality of factual issues.’’ Bazan ex rel. Bazan v. Hidalgo Cnty., 246 F.3d 481, 490
(5th Cir.2001). By contrast, we lack jurisdiction if
such an appeal “challenges the district court’s genuineness ruling—that genuine issues exist concerning
material facts.’’ Id. Of course, “[w]e always have jurisdiction to determine whether the facts relevant to
our jurisdiction exist.” Wireko v. Reno, 211 F.3d 833,
835 (4th Cir.2000) (citation omitted).
In Iqbal, the Supreme Court framed the genuineness-materiality distinction as one between “factbased” or “abstract” issues of law, with only the latter
supplying a proper foundation for immediate appeal.
556 U.S. at 674, 129 S.Ct. 1937 (quoting Johnson v.
Jones, 515 U.S. 304, 317, 115 S.Ct. 2151, 132 L.Ed.2d
238 (1995)). The Iqbal Court concluded that whether
a particular constitutional right was clearly established for qualified immunity purposes presents an
abstract issue of law that permits an appeal at the dismissal stage. See id. at 674–75, 129 S.Ct. 1937. Here,

118a
as in Iqbal, there is no “vast pretrial record” to encumber our decisionmaking, id. at 674, 129 S.Ct. 1937, but
the issues before us are more factually entrenched and
far less amenable to meaningful analysis by resort
merely to the plaintiffs’ pleadings. Thus, unlike Iqbal,
these appeals encompass fact-based issues of law,
with the need for additional development of the record
being among those “matters more within a district
court’s ken.’’ Id.
Hence, insofar as an interlocutory appeal of a denial of immunity requires resolution of a purely legal
question (such as whether an alleged constitutional
violation was of clearly established law), or an ostensibly fact-bound issue that may be resolved as a matter of law (such as whether facts that are undisputed
or viewed in a particular light are material to the immunity calculus), we may consider and rule upon it.
See Behrens, 516 U.S. at 313, 116 S.Ct. 834 (deeming
appellate jurisdiction to have been properly asserted
over denial of summary judgment in § 1983 action
where adverse ruling was premised on defendant’s alleged conduct having violated clearly established law);
McVey, 157 F.3d at 276 (approving jurisdiction over
similar legal issue at dismissal stage, where appeal
did not “raise factual questions concerning the defendants’ involvement, which would not be appealable”).16

16

See also Jenkins, 119 F.3d at 1159–60 (noting existence of
appellate jurisdiction over denial of qualified immunity on motion to dismiss, based in part on defendant’s assertion that alleged violation did not implicate clearly established constitutional right); Winfield, 106 F.3d at 530 (recognizing jurisdiction
over appeal of denial of qualified immunity insofar as district
court ruled on summary judgment that asserted legal right was
clearly established).

119a
Behrens, then, confers jurisdiction of these appeals only if the record at the dismissal stage can be
construed to present a pure issue of law. We might
discern such an issue if we were of the opinion, as the
dissenters evidently are, that persons similarly situated to the appellants are inevitably and invariably
immune from suit premised on any and all conduct occurring (1) when they are in a war zone, by virtue of
(2) a contract with the government. But not even
Saleh, which receives a ringing endorsement in both
dissents, went that far.
The court in Saleh adopted the following rule:
“During wartime, where a private service contractor
is integrated into combatant activities over which the
military retains command authority, a tort claim arising out of the contractor’s engagement in such activities shall be preempted.” 580 F.3d at 9. The D.C. Circuit therefore conditions preemption on the presence
of a certain level of public/private integration, the conduct of activities that may be classified as combat, and
the military’s retained prerogative concerning the decisionmaking process. Though the Saleh court had
the luxury of a complete record developed through discovery to assist it in pondering those issues, there has

120a
been no discovery in the cases at bar, and the pleadings provide nothing approaching definitive answers.17
Indeed, the questions that will require proper answers in order to gauge the appellants’ entitlement to
immunity have yet to be fully ascertained. In Mangold v. Analytic Services, Inc., supra note 3, the relevant issues on appeal from summary judgment in-

17

Judge Wilkinson, on behalf of our dissenting friends, assumes as fact that the contractors were “integrated into wartime
combatant activities under control of the U.S. military,” post at
226, notwithstanding that there is no record evidence to support
that assumption, or even what “integration” means in the context
of war. Judge Wilkinson appears to equate integration with the
plaintiffs’ assertion of a conspiracy. See post at 227 (citing conspiracy allegations of Amended Complaint in Al Shimari in support of notion “that the contractors here were acting in collaboration with U.S. military personnel”); see also supra note 12. But
there is simply no reason to believe that the integration of separate entities into a more or less unified whole is necessarily the
legal equivalent of a collaboration or conspiracy between those
entities.
It is also far from clear that, with respect to the torture and
abuses alleged by the plaintiffs, the appellants were “acting under U.S. military authority,” post at 230, as presumed by Judge
Wilkinson. If one felt constrained to form a conclusion on the authorization question based on the available record, then one
would be better served to reference the pertinent allegations of
the plaintiffs that, for example, “CACI knew that the United
States government has denounced the use of torture and other
cruel, inhuman, or degrading treatment,” Al Shimari Amended
Complaint at ¶ 95; “L–3 permitted [its] translators to ignore—
repeatedly—the military’s instructions to abide by the Geneva
Conventions,” Al–Quraishi Second Amended Complaint at ¶ 430;
and “L–3 affirmatively hid the misconduct of its employees from
the United States military,” id. at ¶ 433.

121a
cluded whether government personnel were conducting an “official investigation,” and whether the contractors’ statements giving rise to potential liability
were responsive to the investigators’ queries, as opposed to being extraneous thereto. See Mangold v.
Analytic Services, Inc., 77 F.3d at 1449–50. Subsequently, in Butters v. Vance International, Inc., supra
note 3, also a summary judgment appeal, we were constrained to decide whether withholding a job promotion from the plaintiff was a “commercial activity,”
and whether that employment decision was made by
the defendant or the foreign government with which
it had contracted. See Butters v. Vance International,
Inc., 225 F.3d at 465–67. As with Mangold and Butters, this case too requires careful analysis of intrinsically fact-bound issues, which may resemble any or all
of the Saleh considerations, and will almost certainly
entail an exploration of the appellants’ duties under
their contracts with the government and whether they
exceeded the legitimate scope thereof.
The appellants are requesting immunity in a context that has been heretofore unexplored. These are
not disputes in which facts that might be material to
the ultimate issue have been conclusively identified.
Moreover, those facts that may have been tentatively
designated as outcome-determinative are yet subject
to genuine dispute, that is, a reasonable fact-finder
could conclude in favor of either the plaintiffs or the
defendants. See Metric/Kvaerner Fayetteville v. Fed.
Ins. Co., 403 F.3d 188, 197 (4th Cir.2005). Because
the courts’ immunity rulings below turn on genuine-

122a
ness, we lack jurisdiction to consider them on an interlocutory appeal. See Winfield, 106 F.3d at 530; Bazan, 246 F.3d at 490.18
Thus, although Mangold immunity confers upon
those within its aegis the right not to stand trial, the
appellants have yet to establish their entitlement to
it. See Martin, 618 F.3d at 483 (concluding that
claims of immunity must be “substantial,” and not
“merely colorable”). Because these appeals were
taken before the district courts could reasonably render a decision on the applicability of Mangold and,
perhaps, Butters, there is no collateral order fulfilling
the Will requirements for appealability pursuant to

18

The Supreme Court’s recent decision in Filarsky v. Delia, ––
U.S. ––––, 132 S.Ct. 1657, 182 L.Ed.2d 662 (2012), is not at all to
the contrary. The issue in Filarsky, an appeal by a private lawyer
from the denial of qualified immunity in a § 1983 case, was
“whether an individual hired by the government to do its work is
prohibited from seeking such immunity.” Id. at 1660. The Supreme Court concluded in the negative, and, consistent therewith, we have not curtailed the opportunity of the appellants
herein to seek immunity from the plaintiffs’ claims; such immunity may yet be had. It is also worth noting that the appeal in
Filarsky was taken only after the district court had ruled on summary judgment, see id. at 1660–61, ascertaining that the issues
in controversy were strictly legal, i.e., whether qualified immunity could be extended to private parties, and whether the alleged
constitutional violation was one of clearly established law.

123a
Cohen, and therefore no jurisdiction in this Court to
review any related aspect of the proceedings below.19
D.
There being no independent basis for appellate jurisdiction premised on the law-of-war defense, Saleh
preemption, or Mangold immunity, we are without
pendent jurisdiction to further consider the appellants’ contentions that the plaintiffs’ claims present
nonjusticiable political questions. Our rejection of
each of the three proffered bases also precludes the

19

The same lack of jurisdiction obtains with respect to L–3’s
attempted appeal of the Maryland district court’s denial of its
motion to dismiss the ATS claims, insofar as that appeal is
grounded in any of the derivative immunities we have discussed.
See supra note 2 (observing winnowing of L–3’s ATS arguments
from those presented to the district court). Similar unsettled
questions pertain ing to potentially relevant considerations such
as agency, the scope of L–3’s duties under the contracts, and the
degree of integration may bear on whether the asserted immunities are properly “derived” to defeat the plaintiffs’ claims. Further, we agree with the court below that although the Maryland
plaintiffs have sued under the ATS, that litigation strategy
should not be construed as a judicial admission that the actions
of L–3 were those of the United States, thereby crystallizing access to a sovereign immunity defense and providing, through the
denial of such immunity, an independent basis for appellate juris
diction. See Al–Quraishi v. Nakhla, 728 F.Supp.2d 702, 751–53
(D.Md.2010). Our conclusion in that regard is buttressed by Sosa
v. Alvarez–Machain, 542 U.S. 692, 732 & n. 20, 124 S.Ct. 2739,
159 L.Ed.2d 718 (2004), in which the Supreme Court carefully
left open the question of whether ATS liability may be imposed
on private actors. Obviously, if the plaintiffs’ ATS claims may be
maintained against L–3 as a private actor but not as an agent of
the government acting within the scope of its agency, L–3’s status is one more issue that may be appropriate for the district
court to resolve following discovery.

124a
exercise of jurisdiction regardless of whether the appellants’ political question defense is inextricably intertwined with any of them, or whether those bases
are similarly interdependent with one another.
IV.
Pursuant to the foregoing, these consolidated appeals must be dismissed.
APPEALS DISMISSED

125a
DUNCAN, Circuit Judge, concurring:
I respect the majority’s well-reasoned opinion in
this case and therefore fully concur in its conclusion
that we lack jurisdiction to hear this appeal. I write
separately only to express my hope that the district
courts in these consolidated appeals will give due consideration to the appellant’s immunity and preemption arguments—especially in light of the Supreme
Court’s recent opinion in Filarsky v. Delia, ––– U.S. –
––, 132 S.Ct. 1657, 182 L.Ed.2d 662 (2012), as discussed in Judge Niemeyer’s dissent—which are far
from lacking in force.
Judge Agee has authorized me to indicate that he
joins in this concurrence.
WYNN, Circuit Judge, concurring:
I concur fully in the thoughtful and well-reasoned
majority opinion in these cases. I write separately
only to underscore the prudence of the majority’s restraint, which promotes both “efficient judicial administration” and “the prerogatives of district court
judges, who play a special role in managing ongoing
litigation.” Mohawk Indus., Inc. v. Carpenter, –––
U.S. ––––, 130 S.Ct. 599, 605, 175 L.Ed.2d 458 (2009).
With respect to the latter consideration, I feel
compelled to reiterate the majority’s holding that our
limited appellate role leaves us without jurisdiction at
this stage of the litigation to consider the underlying
merits of these appeals. Likewise, as noted in the majority opinion, “facts that might be material to the ultimate issue have [not yet] been conclusively identified” in these cases, which are on appeal from motions
to dismiss. Ante at 223.

126a
Accordingly, today’s opinion offers no guidance to
the district court on the underlying merits of these
matters. To do otherwise would, in my opinion, potentially usurp the role of the district court or risk overstepping our own. See United States v. Fruehauf, 365
U.S. 146, 157, 81 S.Ct. 547, 5 L.Ed.2d 476 (1961)
(“Such [advisory] opinions, such advance expressions
of legal judgment upon issues which remain unfocused because they are not pressed before the Court
with that clear concreteness provided when a question
emerges precisely framed and necessary for decision
from a clash of adversary argument exploring every
aspect of a multifaceted situation embracing conflicting and demanding interests, we have consistently refused to give.”). Further, to the extent that my colleagues, in separate opinions, offer their views on the
underlying merits of these cases, those opinions, “by
their nature[,] express views that are not the law.”
Arar v. Ashcroft, 585 F.3d 559, 581 n. 14 (2d Cir.2009)
(en banc).
WILKINSON, Circuit Judge, dissenting:
The majority in this case tries to present its view
as some sort of innocuous jurisdictional disposition.
But the jurisdictional ruling is wrong, and the decision is anything but innocuous. It inflicts significant
damage on the separation of powers, allowing civil
tort suits to invade theatres of armed conflict heretofore the province of those branches of government constitutionally charged with safeguarding the nation’s
most vital interests.
I fully join Judge Niemeyer’s fine dissent. My
good colleague has ably addressed many of the failings
of today’s decision, and I see no need to repeat those

127a
points here. I write separately only because the difficulties with these actions are so legion that no single
dissent could hope to cover them all.
The majority and I disagree on much, but there is
no disagreement about the Abu Ghraib photographs
that have apparently inspired this litigation. See ante
at 209. Americans of good will were sickened by those
photographs and the depraved conduct that would be
reprehensible whenever, wherever, and against
whomever it was applied. But acknowledging that
fact answers only the question of whether this is a
hard case. It does not answer the question whether it
is bad law whose lasting consequences and abiding
damage will long outlive the distressing photographs
that have prompted the suits herein.
The actions here are styled as traditional ones and
wrapped in the venerable clothing of the common law.
Even on common law terms, however, they are demonstrably incorrect, and the impact which tort doctrine
will have on military operations and international relations magnifies the difficulties immeasurably. I
dare say none of us have seen any litigation quite like
this and we default if we accept uncritically or entertain indefinitely this novel a violation of the most
basic and customary precepts of both common and
constitutional law.
Sadly, the majority’s opinion does precisely this.
After reading its decision, one could be forgiven for
thinking that the issue before us is a simple jurisdictional question arising out of ordinary tort suits. But
these are not routine appeals that can be quickly dismissed through some rote application of the collateral
order doctrine. This case instead requires us to decide

128a
whether the contractors who assist our military on the
battlefield will be held accountable through tort or
contract, and that seemingly sleepy question of common law remedies goes to the heart of our constitutional separation of powers. Tort suits place the oversight of military operations in an unelected judiciary,
contract law in a politically accountable executive.
And in the absence of some contrary expression on the
part of the Article I legislative branch, the basic principles of Article II require that contractual, not tort,
remedies apply.
The majority emphatically decides this weighty
question by pretending not to decide, as its dismissal
of these appeals gives individual district courts the
green light to subject military operations to the most
serious drawbacks of tort litigation. But arrogating
power to the Third Branch in a contest over military
authority is the wrong call under our Constitution,
and there is no garb for this decision so benign as to
obscure the import of what the majority has done.
We tread this territory at our peril. This decision
is contrary to decades of Supreme Court admonitions
warning federal courts off interference with international relations. Of course military contractors should
be held accountable, and it is important that a framework be set in place to accomplish this task. But instead of establishing that framework, the majority
succumbs to mere drift and in so doing places courts
in the most damaging and least defensible legal landscape possible. None of us have any idea where exactly all this is headed or whether the damage inflicted on military operations will be only marginal or
truly severe. At a minimum, however, today’s deci-

129a
sion breaches a line that was respected by our predecessors on courts high and low. I would not cross this
boundary even if the collateral order doctrine could
cloak my steps. With all respect for my fine colleagues, I would remand these actions to the district
court with direction that they be dismissed.
Part I of my dissenting opinion discusses the utter
unsuitability of tort actions such as these in the context of an international theatre of war. Part II addresses why contract law is compatible with the separation of powers and the responsibilities allocated the
executive branch under Article II of our Constitution.
Part III explains why the majority’s application of the
collateral order doctrine goes beyond being incorrect
to inflicting damage on American interests overseas.
I.
Tort regimes involve well-known tradeoffs. They
may promote the public interest by compensating innocent victims, deterring wrongful conduct, and encouraging safety and accountability. However, tort
law may also lead to excessive risk-averseness on the
part of potential defendants. And caution that may be
well-advised in a civilian context may not translate
neatly to a military setting, where the calculus is different, and stakes run high. Risks considered unacceptable in civilian life are sometimes necessary on a
battlefield. In order to secure high-value intelligence
or maintain security, the military and its agents must
often act quickly and on the basis of imperfect
knowledge. Requiring consideration of the costs and
consequences of protracted tort litigation introduces a
wholly novel element into military decisionmaking,

130a
one that has never before in our country’s history been
deployed so pervasively in a theatre of armed combat.
The majority acquiesces in judicial control over
these sensitive military judgments. It opens the door
for the plaintiffs to conduct broad discovery based on
boilerplate complaints alleging a laundry list of state
law claims, including “assault and battery,” “sexual
assault and battery,” “intentional infliction of emotional distress,” and “negligent hiring and supervision.” By allowing such claims to go forward against
contractors integrated into wartime combatant activities under control of the U.S. military, the majority
raises thorny questions of whose law should apply,
compromises the military’s ability to utilize contractors in the future, and nudges foreign policy and war
powers away from the political branches of the federal
government and into the hands of federal courts.
Simply put, these state tort claims have no passport
that allows their travel in foreign battlefields, and we
have no authority to issue one.
The complaint makes clear, and the contractors do
not dispute, that the contractors here were acting in
collaboration with U.S. military personnel. See, e.g.,
Al Shimari Amended Complaint ¶¶ 1, 70, 71, 118, 124,
135. The majority nonetheless draws the odd distinction that contractors and the military may be in a
“conspiracy” without somehow being “integrated.’’ See
ante at 222 n. 17. In addition to the forementioned
paragraphs, the complaint in fact provides ample allegations of integration. For example, the Al–Quraishi plaintiffs claim that “L–3 employed all the civilian
translators used by the military in Iraq,” Al–Quraishi
Amended Complaint ¶ 78, and that “Defendants’ acts

131a
took place during a period of armed conflict, in connection with hostilities” in which the U.S. military was
engaged, id. ¶ 280. Indeed, they allege integration so
complete that civilian interrogators were giving orders to military personnel. Id. ¶ 221. For its contrary
view, the majority departs from the well-established
rule that we take the assertions of the complaint on a
motion to dismiss as true. While the whole gravamen
of the complaint is military-contractor cooperation
and collaboration, the majority would have us believe
they were more akin to strangers in the night.
The majority also suggests that the contractors
may have departed from military instructions. See
ante at 222 n. 17. If the contractors did depart from
the military’s instructions, that would allow the government to pursue a breach of contract claim. See infra Part II. Ironically, the complaint itself speaks specifically in terms of a failure to “abide[ ] by the contract terms,” Al–Quraishi Amended Complaint ¶ 247,
even though the plaintiffs were in no sense a party to
the same. But any breach of contract does not begin
to confer a cause of action in tort on the part of detainees in a theatre of armed conflict. There is no indication that Congress or any other law-making authority,
federal or state, wanted foreign nationals in detention
to litigate in tort the relationship between military
contractors and the U.S. military when the government itself as a party to the contract has posited no
need to do so.
A.
From this point, the problems with this litigation
only multiply. First, due largely to their inventive nature, these suits present the difficult question of

132a
whose law should govern them. The majority clears
the way for one federal court, sitting in Maryland, to
apply Iraqi tort law to the alleged conduct—in an Iraqi
war zone—of a Virginia-headquartered contractor integrated into wartime combatant activities of the U.S.
military, and for another federal court, sitting in Virginia, to apply Virginia tort law to a similarly situated
contractor for alleged conduct also occurring in an
Iraqi war zone. This is, to put it mildly, no way to run
a railroad.
1.
The court below in Al–Quraishi v. Nakhla, 728
F.Supp.2d 702 (D.Md.2010)— applying the principle
of lex loci delicti— decided that “Iraqi law applies to
all of Plaintiffs’ state law claims.’’ Id. at 763.* This
conclusion is highly troublesome. Most fundamentally, the application of Iraqi law against agents of the
U.S. military constitutes a complete surrender of sovereignty. The majority allows Iraqi citizens who were
imprisoned in an active theatre of war to bring tort
*
The Al–Quraishi district court also declined to dismiss plaintiffs’ Alien Tort Statute claims because, in its judgment, “Plaintiffs’ claims constitute recognized violations of the law of nations,
appropriately assertable against Defendants.” 728 F.Supp.2d at
715. Such claims could be precluded by Kiobel v. Royal Dutch Petroleum Co. (No. 10–1491), in which the Supreme Court is expected to decide whether “the Alien Tort Statute . . . provide[s]
subject matter jurisdiction over claims against corporations,” Kiobel v. Royal Dutch Petroleum Co., 621 F.3d 111, 149 (2d
Cir.2010), cert. granted, ––– U.S. ––––, 132 S.Ct. 472, 181
L.Ed.2d 292 (2011) (Mem), and “[w]hether and under what circumstances the Alien Tort Statute . . . allows courts to recognize
a cause of action for violations of the law of nations occurring
within the territory of a sovereign other than the United States,”
––– U.S. –––, 132 S.Ct. 1738, 182 L.Ed.2d 270 (2012) (Mem).

133a
suits against the occupying authority based on Iraqi
causes of action. Such suits are not only novel, to say
the least, but also in conflict with Supreme Court
precedent. See, e.g., Dow v. Johnson, 100 U.S. 158,
165, 170, 25 L.Ed. 632 (1879) (explaining that occupying forces are not subject to the laws of the occupied
territory); Coleman v. Tennessee, 97 U.S. 509, 515,
517, 24 L.Ed. 1118 (1878) (same).
The majority does not point to a single case in
which foreign citizens were allowed to sue the occupying authority in its own courts under foreign causes of
action. Likewise, it offers no support for its assertion
that Dow and Coleman do not apply to military contractors, citing only Ford v. Surget, 97 U.S. 594, 24
L.Ed. 1018 (1878), a case implying that law-of-war immunity is not limited to uniformed soldiers. See Ford,
97 U.S. at 606–08 (holding a civilian immune from
civil suit for burning cotton in support of the Confederate military).
Moreover, the majority is simply wrong in suggesting that the Dow and Coleman Courts were concerned only with protecting the occupying authority
from foreign tribunals, in contrast to foreign laws.
See, e.g., Dow, 100 U.S. at 165 (“When, therefore, our
armies marched into . . . the enemy’s country, their officers and soldiers were not subject to its laws, nor
amenable to its tribunals for their acts. They were
subject only to their own government, and only by its
laws, administered by its authority, could they be
called to account.”(emphases added)); id. at 170 (“The
question here is, What is the law which governs an
army invading an enemy’s country? It is not the civil
law of the invaded country. . . .” (emphasis added));
Coleman, 97 U.S. at 515 (“Officers and soldiers of the

134a
armies of the Union were not subject during the war to
the laws of the enemy, or amenable to his tribunals for
offences committed by them. They were answerable
only to their own government, and only by its laws, as
enforced by its armies, could they be punished.” (emphases added)); id. at 517 (Following military occupation, “the municipal laws of [the occupied territory] . . .
remain in full force so far as the inhabitants of the
country are concerned. . . . This doctrine does not affect, in any respect, the exclusive character of the jurisdiction of the military tribunals over the officers
and soldiers of the army of the United States . . .; for,
as already said, they were not subject to the laws nor
amenable to the tribunals of the hostile country.” (emphases added)).
The application of Iraqi tort law to U.S. military
contractors creates practical problems as well. American courts are ill-suited to decide unsettled questions
of Iraqi law. The district court in Al–Quraishi, for instance, considered “Whether Aiding and Abetting and
Conspiracy are Recognized Torts Under Iraqi Law
and Whether Iraqi Law Allows Punitive Damages.”
728 F.Supp.2d at 764. The defendants argued that
aiding and abetting and conspiracy are not cognizable
causes of action under Iraqi tort law, and that punitive damages are not allowed as a remedy. Id. The
plaintiffs disagreed, and the parties “submitted affidavits from Iraqi law experts in support of their respective positions.” Id. Not surprisingly, considering
the difficulty of ascertaining foreign law, the district
court decided to “defer decision with respect to the
content of Iraqi law.” Id.
Given that the district court had trouble deciding
such rudimentary questions as whether aiding and

135a
abetting and conspiracy are even causes of action under Iraqi law, and whether Iraqi law allows punitive
damages, how can we expect the court to decide the
far more challenging issues necessary to a full-scale
trial? For instance, how will it decipher the standard
of care for each cause of action, and determine
whether there was a breach? It can rely on expert testimony, of course, but Iraqi law experts appear to disagree as to whether these causes of action are even
cognizable. See id. Accordingly, the majority allows a
federal court to go forward with litigation in which
Iraqi citizens sue a U.S. contractor working hand-inhand with the U.S. military in a war zone under Iraqi
causes of action that may not even exist.
Under the majority’s decision, military contractors face the prospect of drawn out lawsuits under the
substantive tort law of every country in which they
operate. Such a regime is unworkable in an era where
the military has no choice but to contract with private
corporations. In the present cases, for example, “a severe shortage” of military intelligence personnel
“prompt[ed] the U.S. government to contract with private corporations to provide civilian interrogators and
interpreters.’’ J.A. 408. This use of private contractors
was deemed essential to the achievement of U.S. military objectives. Yet, under the reasoning of the Al–
Quraishi district court, which the majority allows to
stand, the contractors should have paused to consider
their potential liability under the substantive tort law
of Iraq before agreeing to supply the military needed
personnel under the government contract.
Of course, corporations generally must weigh
their potential liabilities before agreeing to specific
projects. The possibility of defending a lawsuit every

136a
time a foreign citizen claims a violation of foreign tort
law might substantially alter the profitability of government contracts. Thus, before agreeing to perform
the most critical intelligence functions in support of
the U.S. military, contractors would be forced to investigate and analyze the substantive tort law of
every country in which its employees might work.
This unenviable task would be even more burdensome
when the substantive tort law varies from jurisdiction
to jurisdiction within a country, as it does in the
United States.
In other words, a court that understandably had
difficulty deciding such elementary questions as
“Whether Aiding and Abetting and Conspiracy are
Recognized Torts Under Iraqi Law and Whether Iraqi
Law Allows Punitive Damages,” Al–Quraishi, 728
F.Supp.2d at 764, is implying that contractors, before
playing a critical role in the U.S. military effort in
Iraq, should have analyzed the nuances and permutations of every Iraqi tort law that might conceivably affect them. By forcing contractors to undertake a
highly complex and deeply uncertain legal analysis
before aiding our military operations, particularly
those executed quickly and in countries whose legal
systems are unstable and unfamiliar, the majority
jeopardizes the military’s ability to employ contractors in the future.
Like the courts, military contractors must rely on
legal experts to analyze foreign law. One suspects
that most Iraqi legal experts practice law in Iraq, and
indeed, the Al–Quraishi plaintiffs relied on the declaration of an Iraqi attorney employed at an Iraqi law
firm. Should the defendants have sought counsel from
these Iraqi attorneys before helping the U.S. military

137a
with detention and interrogation functions? Should
other contractors, before agreeing to aid in the U.S.
military invasion of Iraq, have reached out to Iraqi
lawyers for advice on the legal ramifications of such
an attack under Iraqi tort law? Until now, these questions seemed far-fetched, but they are newly valid considerations under a regime that subjects lawsuitaverse American corporations to the substantive tort
law of Iraq. My point is not at all to disrespect Iraqi
law or lawyers, but to query the feasibility of extensive
and uncertain legal inquiries into any foreign law on
the eve or in the execution of military operations.
2.
Unlike the district court in Al–Quraishi v. Nakhla, 728 F.Supp.2d 702 (D.Md. 2010), the district
court in Al Shimari v. CACI Premier Technology, Inc.,
657 F.Supp.2d 700 (E.D.Va.2009) deferred any ruling
on the choice of law issues. See id. at 725 n. 7. As
Judge King noted in his dissent from the now-vacated
panel opinion, the Al Shimari plaintiffs argue that
CACI is “liable to them under Virginia law for the
torts of assault and battery, sexual assault, intentional and negligent infliction of emotional distress,
and negligent hiring and supervision.” Al Shimari v.
CACI Int’l, Inc., 658 F.3d 413, 427 (4th Cir.2011)
(King, J., dissenting) (emphasis added). The plaintiffs, after all, are pressing Virginia causes of action,
and thus if the suit is allowed to go forward, the question of whether Virginia tort law applies extraterritorially must be seriously asked. The answer to this
question is clear: the application of Virginia tort law
to overseas battlefield conduct by contractors acting
under U.S. military authority is as problematic as the
application of Iraqi law.

138a
First, there is no indication whatsoever that the
Commonwealth of Virginia has any interest in having
its tort law applied abroad in these types of cases. Absent a contrary legislative intent, we assume that legislatures do not want their tort law to apply extraterritorially. For instance, in EEOC v. Arabian American Oil Co. (“Aramco’’), 499 U.S. 244, 111 S.Ct. 1227,
113 L.Ed.2d 274 (1991), the Supreme Court held that
Title VII of the Civil Rights Act of 1964 does not apply
extraterritorially to regulate the employment practices of U.S. employers who employ U.S. citizens
abroad. Id. at 246–47, 111 S.Ct. 1227. In reaching
this conclusion, the Court relied on the “longstanding
principle” that “ ‘legislation of Congress, unless a contrary intent appears, is meant to apply only within the
territorial jurisdiction of the United States.’” Id. at
248, 111 S.Ct. 1227 (citation omitted). Given that
“Congress legislates against the backdrop of the presumption against extraterritoriality,” the Court
stated, “unless there is ‘the affirmative intention of
the Congress clearly expressed,’ we must presume it
‘is primarily concerned with domestic conditions.’” Id.
(citations omitted). Ultimately, the Court concluded
that the petitioners had failed to provide sufficient evidence that Congress intended Title VII to apply
abroad. Id. at 259, 111 S.Ct. 1227.
Citing Aramco, the Supreme Court recently reiterated these principles in Morrison v. National Australia Bank Ltd., ––– U.S. ––––, 130 S.Ct. 2869, 177
L.Ed.2d 535 (2010), where it held that § 10(b) of the
Securities Exchange Act of 1934 does not apply extraterritorially. Id. at 2877–78, 2883. The Court reasoned that “[t]he results of judicial-speculation-madelaw—divining what Congress would have wanted if it

139a
had thought of the situation before the court—demonstrate the wisdom of the presumption against extraterritoriality.” Id. at 2881. “Rather than guess anew
in each case,” the Court continued, “we apply the presumption in all cases, preserving a stable background
against which Congress can legislate with predictable
effects.’’ Id.
Similarly, in Gregory v. Ashcroft, 501 U.S. 452,
111 S.Ct. 2395, 115 L.Ed.2d 410 (1991), the Court concluded that judges must apply a “plain statement
rule” before upsetting the standard constitutional balance of federal and state powers. Id. at 460–61, 111
S.Ct. 2395. “[I]f Congress intends to alter the usual
constitutional balance,” the Court explained, “it must
make its intention to do so unmistakably clear in the
language of the statute.” Id. at 460, 111 S.Ct. 2395
(internal quotation marks omitted). “In traditionally
sensitive areas,” the Court continued, “the requirement of clear statement assures that the legislature
has in fact faced, and intended to bring into issue, the
critical matters involved in the judicial decision.’’ Id.
at 461, 111 S.Ct. 2395 (internal quotation marks omitted).
Aramco, Morrison, and Gregory all involved the
“longstanding principle” that “ ‘legislation of Congress, unless a contrary intent appears, is meant to
apply only within the territorial jurisdiction of the
United States.’” Aramco, 499 U.S. at 248, 111 S.Ct.
1227 (emphasis added) (citation omitted). However,
given that the Constitution entrusts foreign affairs to
the federal political branches, see U.S. Const. art. I,
§ 8, cls. 1, 11–15; art. II, § 2, cls. 1–2, limits state
power over foreign affairs, see id. art. I, § 10, and establishes the supremacy of federal enactments over

140a
state law, see id. art. VI, cl. 2, the presumption against
extraterritorial application is even stronger in the
context of state tort law.
It defies belief that, notwithstanding the constitutional entrustment of foreign affairs to the national
government, Virginia silently and impliedly wished to
extend the application of its tort law to events overseas. Or further, that it would do so in active disregard of Supreme Court pronouncements. For the
Court has repeatedly stated that the federal government has exclusive power over foreign affairs, and
that states have very little authority in this area. In
Chae Chan Ping v. United States, 130 U.S. 581, 9 S.Ct.
623, 32 L.Ed. 1068 (1889), for instance, the Court
noted, “ ‘[T]he United States is not only a government,
but it is a national government, and the only government in this country that has the character of nationality. It is invested with power over all the foreign
relations of the country, war, peace and negotiations
and intercourse with other nations; all of which are
forbidden to the state governments.’” Id. at 605, 9
S.Ct. 623 (citation omitted). The Court reiterated
these principles in United States v. Belmont, 301 U.S.
324, 57 S.Ct. 758, 81 L.Ed. 1134 (1937), emphasizing
that “[g]overnmental power over external affairs is
not distributed, but is vested exclusively in the national government.” Id. at 330, 57 S.Ct. 758. The Belmont Court further noted that “complete power over
international affairs is in the national government
and is not and cannot be subject to any curtailment or
interference on the part of the several states.” Id. at
331, 57 S.Ct. 758. Likewise, in Hines v. Davidowitz,
312 U.S. 52, 61 S.Ct. 399, 85 L.Ed. 581 (1941), the
Court stressed that “[o]ur system of government is

141a
such that . . . the interest of the people of the whole
nation, imperatively requires that federal power in
the field affecting foreign relations be left entirely free
from local interference.” Id. at 63, 61 S.Ct. 399.
Such interference is precisely what we invite by
ascribing to the fifty states the unexpressed wish that
their tort law govern the conduct of military operations abroad. The principle against such interference
holds even where the executive branch insists that the
state law does not interfere with the foreign relations
power. For instance, in Zschernig v. Miller, 389 U.S.
429, 88 S.Ct. 664, 19 L.Ed.2d 683 (1968), the Supreme
Court struck down an Oregon probate law as “an intrusion by the State into the field of foreign affairs
which the Constitution entrusts to the President and
the Congress.” Id. at 432, 88 S.Ct. 664. Although
“[t]he several States . . . have traditionally regulated
the descent and distribution of estates,” the Court concluded, “those regulations must give way if they impair the effective exercise of the Nation’s foreign policy.” Id. at 440, 88 S.Ct. 664. In its brief amicus curiae, the Department of Justice stated, “The government does not . . . contend that the application of the
Oregon escheat statute in the circumstances of this
case unduly interferes with the United States’ conduct
of foreign relations.” Id. at 434, 88 S.Ct. 664. The
Court disregarded this statement, reasoning that the
state action might cause “disruption or embarrassment” that the Justice Department failed to appreciate. Id. at 434–35, 441, 88 S.Ct. 664. In concurrence,
Justice Stewart was even less deferential toward
statements from the executive branch:
We deal here with the basic allocation of
power between the States and the Nation.

142a
Resolution of so fundamental a constitutional
issue cannot vary from day to day with the
shifting winds at the State Department. Today, we are told, Oregon’s statute does not
conflict with the national interest. Tomorrow
it may. Id. at 443, 88 S.Ct. 664 (Stewart, J.,
concurring).
3.
So too here, we are hardly required to defer to the
Justice Department’s statements that these cases
should go forward. The Department urges us to
hold that state tort law claims against contractors are generally preempted if similar
claims brought against the United States
would come within the FTCA’s combatant activities exception and if the alleged actions of
the contractor and its personnel occurred
within the scope of their contractual relationship with the government, particularly if the
conduct occurred while contractor personnel
were integrated with the military in its combat-related activities.
Br. of United States at 2–3.
So far, so good. And one would think that this
would be the end of it. However, the Department
carves out an exception where “a contractor has committed torture as defined in 18 U.S.C. § 2340,” the federal anti-torture statute. Id. at 3. The government
then elaborates further on its proposed exception by
implying that state-law tort remedies need not be
available going forward “in light of measures subsequently instituted by Congress and the Executive
Branch, and other developments in the aftermath of

143a
Abu Ghraib.” Id. at 23. Like the Justice Department’s
brief in Zschernig, this vaguely explained and inexplicably derived exception is not entitled to deference by
this court. As the Supreme Court only recently reiterated, “[T]he separation of powers does not depend
on . . . whether ‘the encroached-upon branch approves
the encroachment.’” Free Enterprise Fund v. Pub. Co.
Accounting Oversight Bd., ––– U.S. ––––, 130 S.Ct.
3138, 3155, 177 L.Ed.2d 706 (2010) (quoting New York
v. United States, 505 U.S. 144, 182, 112 S.Ct. 2408,
120 L.Ed.2d 120 (1992)).
The government does not point to a single expression of congressional intent in support of permitting
state law tort claims to apply overseas based solely on
the nature of the allegations. Instead, it asserts that
“in the limited circumstances where the state law
claim is based on allegations that the contractor committed torture, as defined in 18 U.S.C. § 2340, courts
should take into account the strong federal interests
embodied in that federal law.” Br. of United States at
22. In these circumstances, the government suggests,
“the totality of the federal interests is different and
does not require that state-law tort suits against contractors be preempted.” Id. at 3.
It is difficult to see how 18 U.S.C. § 2340—which
exhibits an interest in punishing torture through federal criminal prosecution—demonstrates any congressional interest in permitting torture-based state
tort claims. The federal anti-torture statute, 18
U.S.C. § 2340 et seq., does not even contain a private
right of action. And in any event, courts have no license to create exceptions based on helter-skelter application of federal criminal statutes, exceptions that

144a
permit otherwise preempted state tort claims to go
forward.
It is elemental that a federal court cannot simply
engraft on its own a federal criminal law standard
onto state tort claims. The federal judiciary is not permitted to reconfigure the elements of a state law cause
of action. For as the “[Supreme] Court recognized in
[Lingle v. Norge Division of Magic Chef, Inc., 486 U.S.
399, 108 S.Ct. 1877, 100 L.Ed.2d 410 (1988),] the responsibility for defining the elements and scope of a
state cause of action rests with the state legislature
and state courts.” Childers v. Chesapeake & Potomac
Tel. Co., 881 F.2d 1259, 1265 (4th Cir.1989).
This court requested the government’s submission
of an amicus brief here, and I am appreciative of that
submission. However, the government’s amicus position is at odds with its own conduct. If the government
believes that there have been contractual or criminal
violations on the part of its own contractors, then it
should proceed to exercise its unquestioned contractual and prosecutorial authority to go after the culpable party. See infra Part II.B. If it does not believe
such violations have occurred, it should say so. But
given the significance of this case, the exclusive competence of the federal government in the field of foreign affairs, and the principles articulated in Aramco,
Morrison, and Gregory, neither the federal executive
nor the federal judiciary is entitled to assume that
states want their tort law applied extraterritorially
absent a plain statement to the contrary.
Here there is no indication that the Commonwealth of Virginia intended to apply its laws of as-

145a
sault, battery, sexual assault, intentional and negligent infliction of emotional distress, and negligent hiring and supervision to the battlefield conduct of contractors integrated into the wartime activities abroad
of the U.S. military. A state’s interest in employing a
tort regime is largely confined to tortious activity
within its own borders or against its own citizens. It
is anything but clear that Virginia has any interest
whatsoever in providing causes of action that allow
foreign citizens that have never set foot in the Commonwealth to drag its own corporations into costly,
protracted lawsuits under who-knows-what legal authority.
Notwithstanding the presumption against extraterritorial application of state law and the absence of
any indication that the Commonwealth wants its tort
law applied to battlefield conduct, the Al Shimari
plaintiffs ask the district court to apply Virginia tort
law to war-zone conduct that took place over 6,000
miles away. It is difficult to find a limiting principle
in the plaintiffs’ analysis. Under their approach, Virginia tort law—and the tort regimes of all fifty
states—can be applied to conduct occurring in every
corner of the earth. By allowing plaintiffs’ causes of
action to go forward, the majority lends its imprimatur to the extraterritorial application of state tort law.
Reading the majority’s opinion, I wonder if my friends
will next launch state tort law into outer space.
4.
Even if the Commonwealth had somehow intended the extraterritorial application of its tort law,
which it has not, the Supreme Court has made clear
that state laws aimed at influencing foreign relations

146a
cannot stand when they conflict with federal objectives. In Crosby v. National Foreign Trade Council,
530 U.S. 363, 120 S.Ct. 2288, 147 L.Ed.2d 352 (2000),
for example, the Court invalidated a Massachusetts
law that restricted state agencies from purchasing
goods or services from companies doing business with
Burma. Id. at 366, 120 S.Ct. 2288. The Court reasoned that the state law was “an obstacle to the accomplishment of Congress’s full objectives” under a
federal law that directed the President to develop a
comprehensive, multilateral strategy toward Burma.
Id. at 369, 373, 120 S.Ct. 2288. By “imposing a different, state system of economic pressure against the
Burmese political regime,” the Court explained, “the
state statute penalizes some private action that the
federal Act (as administered by the President) may allow, and pulls levers of influence that the federal Act
does not reach.” Id. at 376, 120 S.Ct. 2288. Consequently, the Court explained, the Massachusetts law
could not stand because it “compromise[d] the very capacity of the President to speak for the Nation with
one voice in dealing with other governments.” Id. at
381, 120 S.Ct. 2288.
Similarly, in American Insurance Ass’n v. Garamendi, 539 U.S. 396, 123 S.Ct. 2374, 156 L.Ed.2d 376
(2003), the Court struck down California’s Holocaust
Victim Insurance Relief Act, which required any insurer doing business in the state to disclose information about Holocaust-era insurance policies. Id. at
401, 123 S.Ct. 2374. The Court began by noting,
There is . . . no question that at some point an
exercise of state power that touches on foreign
relations must yield to the National Govern-

147a
ment’s policy, given the ‘concern for uniformity in this country’s dealings with foreign
nations’ that animated the Constitution’s allocation of the foreign relations power to the National Government in the first place.
Id. at 413, 123 S.Ct. 2374 (citation omitted). In the
context of Holocaust-era insurance claims, explained
the Court, “California seeks to use an iron fist where
the President has consistently chosen kid gloves.” Id.
at 427, 123 S.Ct. 2374. Accordingly, the Court held
that the state statute was preempted because it “interferes with the National Government’s conduct of
foreign relations.” Id. at 401, 123 S.Ct. 2374.
Under Crosby and Garamendi, states are prohibited from obstructing the foreign policy objectives of
the federal government. There can be no question
that there is obstruction here, where the federal law,
speaking with one voice, can potentially be supplanted by the fifty different voices of varying state
tort regimes, each one potentially working at crosspurposes with federal aims. Thus, even if Virginia
wanted to extend its tort law to overseas battlefield
conduct of military contractors, it cannot create an
“obstacle to the accomplishment of Congress’s full objectives” under federal law. Crosby, 530 U.S. at 373,
120 S.Ct. 2288. Because Congress has emphatically
forbid tort law from governing battlefield conduct, any
attempt to “impos[e] a different, state system” on the
battlefield, id. at 376, 120 S.Ct. 2288, would impermissibly “interfere[ ] with the National Government’s
conduct of foreign relations,” Garamendi, 539 U.S. at
401, 123 S.Ct. 2374.

148a
B.
In contrast to the Commonwealth of Virginia,
Congress has a constitutionally protected role in foreign affairs. See U.S. Const. art. I, § 8, cls. 1, 11–15.
Congress undoubtedly has the power to allow private
parties to pursue tort remedies against war-zone contractors operating under military authority. “[T]he
Constitution contemplated that the Legislative
Branch have plenary control over . . . regulations, procedures and remedies related to military discipline. . . .” Chappell v. Wallace, 462 U.S. 296, 301, 103
S.Ct. 2362, 76 L.Ed.2d 586 (1983). Congress could
thus do what the majority has asserted its own right
to do, namely to authorize foreign nationals as private
attorneys general to police contractor conduct in theatres of armed combat. However, contrary to the
plaintiffs’ assertions, there is no indication that Congress has pursued any such course.
Plaintiffs contend that the Federal Tort Claims
Act (“FTCA’’) permits private parties to bring state
law tort suits against military contractors for wartime
conduct. In analyzing this claim, we must adhere to
the longstanding presumption that Congress does not
permit private parties to interfere with military operations absent explicit statutory authorization.
“[U]nless Congress specifically has provided otherwise, courts traditionally have been reluctant to intrude upon the authority of the Executive in military
and national security affairs,” Dep’t of Navy v. Egan,
484 U.S. 518, 530, 108 S.Ct. 818, 98 L.Ed.2d 918
(1988), and this hesitance to transgress constitutional
boundaries applies fully to our interpretation of statutes. See Feres v. United States, 340 U.S. 135, 146, 71
S.Ct. 153, 95 L.Ed. 152 (1950) (declining to read the

149a
FTCA’s broad waiver of sovereign immunity to allow
military personnel to sue the government for servicerelated injuries even though no provision explicitly
prevents them from doing so); see also United States
v. Johnson, 481 U.S. 681, 690, 107 S.Ct. 2063, 95
L.Ed.2d 648 (1987) (reaffirming the holding in Feres
because “suits brought by service members against
the Government for injuries incurred incident to service . . . are the ‘type[s] of claims that, if generally permitted, would involve the judiciary in sensitive military affairs at the expense of military discipline and
effectiveness.’” (emphasis in original) (citation omitted)).
To adopt plaintiffs’ reading of the FTCA would require us to abandon this tradition of restraint. This
broadly phrased statute does not contain anything
close to a congressional authorization to private parties to hale war-zone military contractors into civilian
courts. At most, it provides that “the term ‘Federal
agency’ . . . does not include any contractor with the
United States.” 28 U.S.C. § 2671. But that broad definitional provision does not mean that “contractors . . .
are expressly excluded from the FTCA’s reach” in the
area of battlefield torts. Al Shimari, 658 F.3d at 435
(King, J., dissenting). For a “general statutory rule
usually does not govern unless there is no more specific rule,” Green v. Bock Laundry Mach. Co., 490 U.S.
504, 524, 109 S.Ct. 1981, 104 L.Ed.2d 557 (1989), but
here there is another provision of the FTCA that
speaks more specifically to whether military contractors are immune from these tort actions.
That provision is the combatant activities exception, which preserves the government’s sovereign im-

150a
munity against “[a]ny claim arising out of the combatant activities of the military or naval forces, or the
Coast Guard, during time of war.” 28 U.S.C. § 2680(j).
Multiple textual clues in this exception indicate that
Congress wanted to keep tort law out of the battlefield
regardless of a defendant’s status as a soldier or a contractor.
To start with, the exception bars claims “arising
out of” combatant activities, id., and this phrase is
among the broadest in the law. “[I]n workmen’s compensation statutes,” for instance, “[t]he arising-out-of
test is a familiar one used . . . to denote any causal
connection between the term of employment and the
injury.”
Saleh v. Titan Corp., 580 F.3d 1, 6
(D.C.Cir.2009) (emphasis in original) (footnote omitted). Indeed, the use of this phrase in other FTCA exceptions has precluded a wide range of actions. For
instance, the “sweeping language” of 28 U.S.C.
§ 2680(h)—which preserves the government’s sovereign immunity against claims “arising out of assault
[or] battery”—bars not only battery actions, but negligence claims that “stem from a battery” as well.
United States v. Shearer, 473 U.S. 52, 55, 105 S.Ct.
3039, 87 L.Ed.2d 38 (1985) (plurality opinion); see also
Kosak v. United States, 465 U.S. 848, 854, 104 S.Ct.
1519, 79 L.Ed.2d 860 (1984) (equating “arising in respect of’’ in 28 U.S.C. § 2680(c) with “arising out of”
and observing that the former “encompassing phrase
. . . seems to sweep within the exception all injuries
associated in any way with the ‘detention’ of goods”).
Congress wanted to forbid tort suits stemming from
combatant activities, and it chose in “[a]ny claim arising out of’’ a broad and widely recognized prohibitory
term.

151a
The exception’s use of the term “combatant activities” does not denote a narrow subset of military operations but a legislative intention to prevent tort
from entering the battlefield. This term encompasses
“not only physical violence, but activities both necessary to and in direct connection with actual hostilities,” Johnson v. United States, 170 F.2d 767, 770 (9th
Cir.1948), and therefore has a considerable sweep. As
the Supreme Court has noted, this provision “paint[s]
with a far broader brush” than other FTCA exceptions
that bar suits arising out of a subset of harms associated with a particular area. See Dolan v. U.S. Postal
Serv., 546 U.S. 481, 489–90, 126 S.Ct. 1252, 163
L.Ed.2d 1079 (2006) (contrasting the combatant activities exception in § 2680(j) with § 2680(b), which preserves immunity for “just three types of harm” associated with mail delivery). Given the broad language of
the combatant activities exception, it is difficult to believe that Congress wanted the sensibilities of tort to
govern the realities of war.
Indeed, as the District of Columbia Circuit recognized, “the policy embodied by the combatant activities exception is simply the elimination of tort from
the battlefield.” Saleh, 580 F.3d at 7. Congress insulated the theatre of war from tort law because it “recognize[d] that during wartime encounters no duty of
reasonable care is owed to those against whom force
is directed as a result of authorized military action.”
Koohi v. United States, 976 F.2d 1328, 1337 (9th
Cir.1992). In order to shield “[a]ny claim arising out
of the combatant activities of the military” from tort
liability, Congress used some of the broadest language
possible when drafting this exception. It is not our

152a
role to dismember this exclusion’s text in order to determine when and to what extent torts can arise from
combatant activities after all.
If this textual evidence were not enough, the Supreme Court has refused to read the FTCA to authorize tort suits against defense contractors, albeit in a
slightly different context. See Boyle v. United Techs.
Corp., 487 U.S. 500, 511–12, 108 S.Ct. 2510, 101
L.Ed.2d 442 (1988). The contractor in Boyle provided
a helicopter for the military rather than aid in a warzone, id. at 502, 108 S.Ct. 2510, but the logic is the
same. Because the FTCA’s discretionary function exception precluded suits against the government for design defects in military equipment, Boyle held that it
barred those actions against defense contractors as
well. Id. at 511–12, 108 S.Ct. 2510. As the Court observed, “[i]t makes little sense to insulate the Government against financial liability . . . when the Government produces the equipment itself, but not when it
contracts for the production.” Id. at 512, 108 S.Ct.
2510.
I recognize that the temptation exists to exalt the
brave men and women who defend our nation in time
of war, and then, in the next breath, to disparage contractors as some sort of evil twin responsible for wars’
inevitable missteps and excesses. But the FTCA does
not permit such a dichotomy. It makes even less sense
than in Boyle to shield the military from litigation for
the battlefield activities of soldiers but not contractors. In Boyle, the Supreme Court did not even require a military-specific exception before insulating
military contractors from design-defect liability. Instead, the Court relied on the discretionary function
exception, which is not specific to military operations

153a
but instead broadly precludes claims “based upon the
exercise or performance or the failure to exercise or
perform a discretionary function or duty on the part of
a federal agency or an employee of the Government.”
28 U.S.C. § 2680(a); Boyle, 487 U.S. at 511–12, 108
S.Ct. 2510. Here, by contrast, Congress has provided
an exception that singles out claims “arising out of . . .
combatant activities.’’ 28 U.S.C. § 2680(j). If the Supreme Court was willing to read the former general
provision to cover military contractors, it would not
hesitate to do the same with the latter more targeted
exception.
In addition to enacting the combatant activities
exception, Congress has indicated its desire to keep
tort law off the battlefield by subjecting certain military contractors to other forms of discipline for warzone conduct. For instance, the Uniform Code of Military Justice (“UCMJ”) applies not only to members of
our military, but to “persons serving with or accompanying an armed force in the field” in ‘‘time of declared
war or a contingency operation” as well. 10 U.S.C.
§ 802(a)(10). The Military Extraterritorial Jurisdiction Act likewise subjects these contractors to domestic criminal sanctions by punishing anyone who,
‘‘while employed by or accompanying the Armed
Forces” abroad, ‘‘engages in conduct outside the
United States that would constitute an offense punishable by imprisonment for more than 1 year if the
conduct had been engaged in within the special maritime and territorial jurisdiction of the United States.”
18 U.S.C. § 3261(a)(1). Unlike the application of state
tort law, these procedures for holding contractors accountable were approved by Congress.

154a
Ignoring the military risks and legal constraints
that prohibit extraterritorial application of state tort
law, the majority inserts tort into the battlefield by
allowing these suits to go forward. But before applying state tort law to the combat activities of contractors working under the U.S. military, we should make
certain that the legislative branch has authorized us
to do so. As the Supreme Court explained in United
States v. Stanley, 483 U.S. 669, 107 S.Ct. 3054, 97
L.Ed.2d 550 (1987), “[T]he insistence . . . with which
the Constitution confers authority over the Army,
Navy, and militia upon the political branches . . .
counsels hesitation in our creation of damages remedies in this field.” Id. at 682, 107 S.Ct. 3054. Because
I find no evidence that Congress has recruited private
parties—much less foreign nationals—to police the
frontline, I cannot join my colleagues’ decision to the
contrary.
C.
Instead of deferring to Congress’s valid exercise of
its constitutionally granted powers, the majority
places contractor accountability in the hands of the
unaccountable. Thanks to the majority’s efforts, contractors that were previously subject to the control of
the executive have new judicial masters. But when
unelected judges render contestable decisions about
military policy in the course of applying tort law to
contractors, the public will be unable to remove them
from their posts. This flies in the face of our constitutional tradition of ensuring some popular control over
the prosecution of a war. As the Supreme Court has
explained, “[M]atters of war-making belong in the
hands of those who are . . . most politically accountable for making them.” Hamdi v. Rumsfeld, 542 U.S.

155a
507, 531, 124 S.Ct. 2633, 159 L.Ed.2d 578 (2004) (plurality opinion).
No one will contend that tort law, however derived
and defined, is a field excelling in precision. The
vagueness and indeterminacy of these cut-and-paste
causes of action will permit judicial discretion and
jury variability to govern this most sensitive of areas.
Courts must henceforth set the standards of care in
matters of wartime captures, detentions, and interrogations as well as the measure of damages for the
same. Not only that, but methods of interrogation and
procurement of intelligence will be at the sufferance
of a single judicial officer, safely ensconced in a secure
courtroom, passing judgment on battlefield conduct
thousands of miles away. Litigants will plead as a
matter of course to the breach of whatever may seem
the prevailing standard of care, thus setting in motion
logistical problems inherent in transcontinental tort
suits of such novel stripe.
The results of the rising tide of litigation will be
both unpredictable and contradictory, as particular
judges and juries debate and disagree over which
methods of detention and interrogation are permissible. And as detention of the enemy becomes a more
litigious enterprise, the incentives to shortcut capture
with more lethal and unmanned measures may rise.
Whether or not one approves of transplanting the delicacy and etiquette of the judicial branch into a theatre of war is not the question. These lawsuits presage
a massive transfer of authority reserved to the political branches under Articles I and II of our Constitution into judicial hands, and to a single trial judge and
jury to boot. This is a subject one would expect Congress to address in great and meticulous detail, as it

156a
has, for example, in the Military Commissions Act of
2009, Pub.L. 111–84, 123 Stat. 2190, 2574–614, the
Military Commissions Act of 2006, Pub.L. 109–366,
120 Stat. 2600, and the Detainee Treatment Act of
2005, Pub.L. 109–148, 119 Stat. 2739, and I respectfully take issue with the matter-of-fact manner in
which the gravity of the step taken is not even
acknowledged by the majority, much less addressed.
By opening the door to the extraterritorial application of different state tort regimes, the majority allows for unlimited variation in the standard of care
that is applied to critical combatant activities. There
is not a widely agreed upon standard of care for overseas detentions and interrogations, and different
states will allow different causes of action to go forward and will apply different standards to them. And
even if there were an agreed upon standard—which
there is not—particular judges and juries would apply
that standard inconsistently. Such a standard would
probably bottom out on some version of reasonableness. But in the context of detention and interrogation, what exactly does reasonableness mean? That
question could provoke innumerable answers, and the
very vagueness of tort formulations as to the standard
of care means that civilian jurors will be setting the
standards for detention and interrogation of military
detainees without knowledge of conditions that obtain
in a zone of combat halfway across the globe. I imply
no disrespect of jurors who give of their time and good
sense to our system of justice, but this system will provide no guidance and no predictability whatsoever because it will leave the conduct of military functions to
the fortuities of litigious hindsight.

157a
Contractors can be forgiven for not wanting to entrust their employees to the vagaries and caprice of
individual verdicts and trials. Add to that the prospect of punitive damages and other uncertain
measures of recovery, and one will introduce into the
detention and interrogation process a degree of risk
aversion that could well result in the gathering of as
little vital intelligence as possible. While some may
regard reduced interrogations with satisfaction, those
whose lives and fortunes depend upon the acquisition
of vital intelligence are not likely to join any chorus of
approval.
The majority’s response is undoubtedly that all
these questions remain to be “ironed out.” But such
words are small comfort to those who must make critical decisions in the field while we sit here in Virginia
or Maryland or whatever other venue is doing the
“ironing.”
By dismissing these appeals, the majority only
drifts and dawdles, sparing itself the need to come to
grips with the issues, and kicking the can far down
the road. The majority fails to recognize that this is a
matter of some urgency. Just for starters, commanders in the field need actionable battlefield intelligence
in order for soldiers to survive. Few wars have been
or will be prosecuted successfully without intelligence
that permits units to plan accurate strikes against enemy forces, and every bit as importantly, to know
when lethal force is plotted against Americans themselves. Actionable intelligence has always had both
offensive and defensive value. In other words, intelligence not only assists us in prevailing; it saves American lives.

158a
While there is legitimate debate about how intelligence is best obtained, a tort suit is probably the very
worst forum in which that issue can or should be resolved. The judges and juries who review those matters cannot fairly be expected to possess a background
in the utility of different forms of military intelligence,
and to ask them to decide such sensitive, delicate, and
complicated questions is, in a word, unrealistic. See
Carmichael v. Kellogg, Brown & Root Servs., Inc., 572
F.3d 1271, 1286–87 (11th Cir.2009) (explaining that
military intelligence-gathering is traditionally insulated from judicial review); United States v. Truong
Dinh Hung, 629 F.2d 908, 913– 14 (4th Cir.1980) (noting that “the courts are unschooled in diplomacy and
military affairs, a mastery of which would be essential
to passing upon” matters of intelligence). None of this
is to say, of course, that military contractors are without fault or that abuses should ever go unremedied. It
is simply to make the point that something as mischievous as the placement of tort law in military calculations should be approved by some body capable of appreciating the consequences of its action and constitutionally entrusted with the task.
II.
A.
While the present suits may focus upon methods
of interrogation and conditions of detention, the issue
is larger even than that. In assuming that tort suits
are a preferred method of policing the contractors who
assist military operations, the majority obscures the
fact that there exists a more proper remedy in this
area. In the absence of some contrary expression by
the Congress, the most basic precepts of separation of

159a
powers require that the alleged abuses of military contractors must be addressed through the medium of
contract, not through tort. In short, without a clear
manifestation of Article I congressional intent, Article
II mandates that contractual, not tort remedies, be
utilized.
It is a truism that government, including the military, must contract. Few, if any, governmental tasks
are undertaken today without some form of public-private partnership. The federal government routinely
carries out sensitive public functions through private
entities, from running background checks, see United
States v. Virginia, 139 F.3d 984, 986 (4th Cir.1998), to
rehabilitating prisoners, see Corr. Servs. Corp. v.
Malesko, 534 U.S. 61, 63 n. 1, 122 S.Ct. 515, 151
L.Ed.2d 456 (2001), to investigating criminal activity,
see United States v. Warshak, 631 F.3d 266, 320 (6th
Cir. 2010). Assisting with combat operations is no different. There is “ample evidence that the military
finds the use of civilian contractors in support roles to
be an essential component of a successful war-time
mission.’’ Lane v. Halliburton, 529 F.3d 548, 554 (5th
Cir.2008). The Department of Defense “employs
around 170,000 military contractors on a yearly basis,
having more than doubled its use of contracting services since 2001.” Lauren Groth, Transforming Accountability: A Proposal for Reconsidering how Human Rights Obligations Are Applied to Private Military Security Firms, 35 Hastings Int’l & Comp. L.Rev.
29, 38 (2012).
Apart from being necessary, the military’s partnership with private enterprise has salutary aspects
as well. For one thing, it permits our all-volunteer
military to handle troop shortages in a cost-efficient

160a
manner. According to the Army Field Manual,
“[r]ecent reductions in military structure, coupled
with high mission requirements and the unlikely prospect of full mobilization, mean that to reach a minimum of required levels of support, deployed military
forces will often have to be significantly augmented
with contractor support.” U.S. Dep’t of the Army,
Field Manual 3–100.21, Contractors on the Battlefield
Preface (2003). Because of these changes in our military, “the future battlefield will require ever increasing numbers of often critically important contractor
employees.’’ Id.
These partnerships also allow the military and its
contractors to pool their respective expertise and
bring the best of public service and private industry to
bear on the mission at hand. This reliance on contractor expertise will become only more necessary as warfare becomes more technologically demanding. As the
Army Field Manual notes, “the increasingly hi-tech
nature of our equipment . . . [has] significantly increased the need to properly integrate contractor support into all military operations.” Id. War is not a
static enterprise, and our military will need every bit
of the edge that technological expertise affords in order to face the hostilities of the future. Only the clueless believe future battlefields will not prominently
feature private contractors.
B.
Given these realities, it is illusory to pretend that
these suits are simply ordinary tort actions by one private party against another. Instead, because contractors regularly assist in “the type of governmental action that was intended by the Constitution to be left

161a
to the political branches directly responsible . . . to the
electoral process,” see Gilligan v. Morgan, 413 U.S. 1,
10, 93 S.Ct. 2440, 37 L.Ed.2d 407 (1973), a decent respect for the separation of powers compels us to consider what sort of remedy would best ensure the authority of the executive over those with whom it partners in carrying out what are core executive functions.
The answer is obvious. Unlike tort, contract law gives
the executive branch a mechanism of control over
those who regularly assist the military in performing
its mission.
For one thing, contract law is a more textually
precise field than tort law, allowing the executive
branch to set the standard of care in the terms of the
contract. In contrast to tort suits in which judges
would have to decide what constitutes a “reasonable
bombing,” McMahon v. Presidential Airways, Inc., 502
F.3d 1331, 1350 (11th Cir.2007), a “prudent intercept,” Tiffany v. United States, 931 F.2d 271, 279 (4th
Cir.1991), or a legitimate interrogation method, contract cases would turn on more definite language in
the contract it-self—language that reflected the policy
choices of a democratically accountable branch. Rather than rely on the judicial application of some indeterminate standard of reasonable care, the executive branch could require contractors to abide by wellestablished military rules and manuals in the terms
of its contractual agreement. For instance, the government could direct military contractors to “adhere
to the standards of conduct established by the operational or unit commander.” See Ibrahim v. Titan
Corp., 556 F.Supp.2d 1, 6 (D.D.C.2007) (internal quotation mark and citation omitted). Focusing on the
government’s contract rather than theories of tort

162a
would also ensure that important federal interests
were not “left to the vagaries of the laws of the several
States,” but instead “governed by uniform rules” in
the contracts themselves. Carlson v. Green, 446 U.S.
14, 23, 100 S.Ct. 1468, 64 L.Ed.2d 15 (1980). The majority, however, appears to prefer judicial supervision
through malleable and multiple tort standards to executive control through clearer and more consistent
contractual provisions.
Contract law also gives the executive branch, as
party to the contract, the opportunity to pursue a variety of remedies. In addition to being able to sue a
contractor in the event of a breach, the executive can
create more tailored sanctions in the terms of the contract itself. The government, for example, could contractually reserve the right to demand that its contractor “remove . . . any employee for reasons of misconduct,” see Ibrahim, 556 F.Supp.2d at 7 (omission in
original), thereby allowing it to jettison bad apples
without jeopardizing an entire military operation.
These contractual tools are not the only ones
available to the executive branch. They are augmented by a web of regulations to which contractors
subject themselves by partnering with the military.
Army Regulations, for example, permit commanders
to “apprehend and detain contractors for violations of
the law” as well as “restrict or revoke . . . access to
Army facilities or installations for disciplinary infractions.’’ Army Reg. 715–9 § 4–2(e). What is more, the
government can pursue military sanctions against
contractors for battlefield misconduct under the
UCMJ, see 10 U.S.C. § 802(a)(10), as well as domestic
criminal punishments against contractors for crimes
committed abroad, see 18 U.S.C. § 3261(a)(1). Just

163a
within this circuit, in United States v. Passaro, 577
F.3d 207 (4th Cir.2009), a “paramilitary contractor”
was convicted of federal assault charges arising out of
the lethal interrogation of a detainee in Afghanistan.
See id. at 210–12. The government has employed its
prosecutorial powers to punish rogue interrogators in
the past, and I see little reason why it would forswear
the use of such sanctions in the future. See Saleh, 580
F.3d at 2 (noting that in the wake of the events at Abu
Ghraib, the executive branch obtained convictions of
a number of soldiers involved and pursued “extensive
investigations” into allegations of abuse by contractors).
When combined with contractual tools, these laws
provide the executive branch with an arsenal of remedies ranging from removal of a specific contractor to
criminal punishment. The executive requires “a degree of discretion” in the area of national security, see
United States v. Curtiss–Wright Export Corp., 299
U.S. 304, 320, 57 S.Ct. 216, 81 L.Ed. 255 (1936), and
this selection of sanctions gives it an appropriate
amount of flexibility. Because the military and its
contractors are tightly bound, litigation in federal
court often subjects both to judicial process. Unlike
tort suits instigated at the behest of private parties,
contractual and criminal enforcement permits the executive to protect military commanders and contractors from being “unnecessarily and dangerously distracted by litigation half a world away” and to prevent
“discovery into military operations” from “intrud[ing]
on the sensitive secrets of national defense.” See
Hamdi, 542 U.S. at 532, 124 S.Ct. 2633 (plurality
opinion).

164a
In sum, it is silly to think that without tort suits,
military contractors will simply be wandering around
war zones unsupervised. What the chain of command
does for military officers, contract law does for military contractors. As the Army Field Manual notes,
“The military chain of command exercises management control through the contract.” U.S. Dep’t of the
Army, Field Manual, supra, § 1–25. “[P]roper military
oversight of contractors is imperative” to integrating
these private actors into military operations, id. § 1–
23, and contract law achieves this goal in ways that
tort law cannot. Even though contractors are not formally “part of the operational chain of command,”
they are “managed in accordance with the terms and
conditions of their contract” through the Contracting
Officer Representative, who “serves as the operational
commander’s primary oversight.” Army Reg. 715–9
§ 4–1(c)–(d). Thus, contract law ensures that these
contractors are “subject to military direction, even if
not subject to normal military discipline.” Saleh, 580
F.3d at 7. In other words, “the Government’s broad
authority . . . in managing its operations does not turn
on” whether “contract employees” or “civil servants”
are involved. NASA v. Nelson, ––– U.S. ––––, 131
S.Ct. 746, 758–59, 178 L.Ed.2d 667 (2011) (citation
omitted).
Tort law, however, conflicts with rather than complements these contractual mechanisms of control by
“interfer[ing] with the federal government’s authority
to punish and deter misconduct by its own contractors.” See Saleh, 580 F.3d at 8. The majority’s allocation of common law remedies is paradoxically not just
a matter of common law. It is a decision concerning

165a
which branch of government will control the contractors that assist our soldiers on the battlefield.
Whereas contract and criminal law places contractor
accountability where Article II places it—in the hands
of the executive—tort law places it in the hands of the
judiciary. But the executive branch—and not the judicial—is responsible for overseeing a war effort under the Constitution. Whereas the President is required as Commander in Chief “to take responsible
and continuing action to superintend the military,”
Loving v. United States, 517 U.S. 748, 772, 116 S.Ct.
1737, 135 L.Ed.2d 36 (1996), we as judges are “not
given the task of running the Army.” Orloff v.
Willoughby, 345 U.S. 83, 93, 73 S.Ct. 534, 97 L.Ed. 842
(1953).
It is disquieting to say the least that the majority
now believes it can displace, or to use a euphemism,
“supplement” executive control of military contractors
with judicial oversight. The costs of that decision will
be severe. For one thing, it bleeds together two areas
of law—tort and contract— that are conceptually distinct. No one disputes that those contractors who actually engage in torture breach those provisions of
their contracts that require them to act in accordance
with federal law. But a “[b]reach of contract is not a
tort,” XCO Int’l Inc. v. Pac. Scientific Co., 369 F.3d
998, 1002 (7th Cir.2004), and it only muddies the law
to permit private litigants to bring tort suits against
contractors just because the latter allegedly violated
an agreement with the executive. “[T]he main currents of tort law run in different directions from those
of contract,” E. River S.S. Corp. v. Transamerica Delaval, Inc., 476 U.S. 858, 873 n. 8, 106 S.Ct. 2295, 90

166a
L.Ed.2d 865 (1986), and it does little good to attempt
to channel them together.
C.
At bottom, the majority’s facilitation of tort remedies chills the willingness of both military contractors
and the government to contract. I have previously discussed the chilling effect today’s decision will have on
private contractors, see supra Part I, but I fear that
the majority’s efforts will discourage the government
from partnering with private industry as well. Congress might well think the defense budget large
enough without courts adding the prospect of uncertain tort liabilities. By increasing through prospective
tort suits the costs of employing contractors on the
battlefield, the majority interferes with the executive
branch’s capacity to carry out its constitutional duties.
To the Defense Department in an era of cost consciousness, the threat of tort liability can chill both the
government’s ability and willingness to contract by
raising the price of partnering with private industry,
and that is particularly true here. Boyle noted, in fact,
that burdens of “tort suits” against military contractors “would ultimately be passed through . . . to the
United States itself, since defense contractors will
predictably raise their prices to cover . . . contingent
liability.” 487 U.S. at 511–12, 108 S.Ct. 2510. So long
as the executive branch could control contractual performance through contract law, it had little reason to
eschew valuable partnerships with private enterprise.
But now that third parties can pull contractors and
their military supervisors into protracted legal battles, we can expect a distortion of contractor and military decisionmaking to account for that contingency.
As the Saleh court explained, “Allowance of such suits

167a
will surely hamper military flexibility and cost-effectiveness, as contractors may prove reluctant to expose
their employees to litigation-prone combat situations.” 580 F.3d at 8. It will no longer be enough that
military contractors meet their contractual commitments to a T, for there exists no assurance that the
standard of care embraced in subsequent tort suits
will incorporate by reference or otherwise the criterion of meeting one’s contractual obligations.
“[T]he separation-of-powers doctrine requires that
a branch not impair another in the performance of its
constitutional duties.” Loving, 517 U.S. at 757, 116
S.Ct. 1737. Today’s decision does precisely that.
“[T]he Government’s practical capacity to make contracts” is “the essence of sovereignty itself.” United
States v. Winstar, 518 U.S. 839, 884, 116 S.Ct. 2432,
135 L.Ed.2d 964 (1996) (internal quotation mark and
citation omitted). By making the contract the essence
of the government-contractor partnership, we diminish the capacity of our adversaries to erode this critical aspect of our national sovereignty through litigation. Conversely, by elevating tort as a mechanism of
weakening this essential partnership, we give those
who do not wish us well a means of putting their ill
will to use. I can understand that our enemies would
seek to use our own laws as a weapon against us, but
I cannot understand why we should sanction suits, the
unintended effect of which is to equip them.
III.
Rather than engage in a frank discussion of the
consequences that will ensue from its ruling, the majority seeks a cubby hole in the collateral order doctrine. This argument misses the mark—for many of

168a
the same reasons that tort law does not belong on the
battlefield, this case does not belong back before the
district court. We are engaged in a lot of semantic
word games here, losing completely the forest for the
trees. The collateral order doctrine is not a matter of
legalistic banter, but of letting an appellate court confront in a timely manner issues presenting grave, farreaching consequences. Before us is a deeply unfortunate instance of litigation creep where doctrines that
postpone appeals in a domestic context are transposed
to an international setting without recognition of the
gravity of such a shift of gears.
The collateral order doctrine is premised on the
eminently reasonable conclusion that immunities
from suit should be recognized sooner rather than
later, because the “rigors of trial” can often be every
bit as damaging as an adverse judgment. Digital
Equip. Corp. v. Desktop Direct, Inc., 511 U.S. 863, 870,
114 S.Ct. 1992, 128 L.Ed.2d 842 (1994). Indeed, the
“crucial distinction between a right not to be tried and
a right whose remedy requires . . . dismissal” is
whether the immunity in question would be eviscerated by the very process of litigation. United States v.
Hollywood Motor Car Co., 458 U.S. 263, 269, 102 S.Ct.
3081, 73 L.Ed.2d 754 (1982).
Here, the asserted immunity can take on different
labels—”law-of-war immunity,” “Boyle preemption,”
or an inherently political question—but the underlying premise is the same: that suits for damages
against private defendants arising out of military contracts performed in a theatre of war are not cognizable
by the federal courts under state tort law. The point
of this immunity is not to determine after all the vicissitudes of litigation who should win and who should

169a
lose. Rather, it is a recognition that sensitive military
matters should be insulated at the outset from judicial
scrutiny, and the cases to this effect are legion.
The majority’s contrary holding is animated by a
single mistaken belief: that “the denial of a preemption claim stemming from the combatant activities exception would not . . . entail significant scrutiny of
sensitive military issues.” Ante at 218–19. The majority expresses this confidence despite its observation
that “the questions that will require proper answers
. . . have yet to be fully ascertained.” Id. at 223. At a
minimum, it seems clear that the majority’s pursuit of
“the luxury of a complete record developed through
discovery,” id. at 222, “careful analysis of intrinsically
fact-bound issues,” id. at 223, and “exploration of the
appellants’ duties under their contracts with the government,” id. at 223, contemplates full-fledged litigation that will inevitably require the substantial scrutiny of military affairs.
But this is not just another day at the ranch. This
is an extraordinary case presenting issues that touch
on the most sensitive aspects of military operations
and intelligence. The majority’s proposed inquiry, “focuse[d] on whether the contractor complied with the
government’s specifications and instructions,” id. at
219, must perforce entail bringing the military personnel who gave those instructions before a court halfway around the world. The Supreme Court has long
cautioned against “compelled depositions . . . by military officers concerning the details of their military
commands,” which will only “disrupt the military regime.” Stanley, 483 U.S. at 682–83, 107 S.Ct. 3054.

170a
Domestically, this sort of “broad ranging discovery
and the deposing of numerous persons . . . can be peculiarly disruptive of effective government.” Harlow
v. Fitzgerald, 457 U.S. 800, 817, 102 S.Ct. 2727, 73
L.Ed.2d 396 (1982). It carries the risks of “distraction
of officials from their governmental duties, inhibition
of discretionary action, and deterrence of able people
from public service.’’ Id. at 816, 102 S.Ct. 2727. In
the context of the battlefield, the consequences are geometrically more dire, since the plaintiffs seek information about the interrogation methods and intelligence gathering techniques critical to our nation’s
success in combat. “Even a small chance that some
court will order disclosure of a source’s identity could
well impair intelligence gathering. . . .” CIA v. Sims,
471 U.S. 159, 175, 105 S.Ct. 1881, 85 L.Ed.2d 173
(1985). I wonder how the majority expects an “inquiry
focuse[d] on whether the contractor complied with the
government’s specifications and instructions,” ante at
219, to be resolved without hauling before the district
court the military officers who gave those instructions, exposing our national security apparatus in direct contravention of the Supreme Court’s clear instructions to the contrary.
Because military contractors work at such close
quarters with the military, judicial “inquiry into the
civilian activities [will] have the same effect on military discipline as a direct inquiry into military judgments.” Johnson, 481 U.S. at 691 n. 11, 107 S.Ct.
2063. This is hardly a fanciful concern. Al–Quraishi,
for instance, will likely seek discovery to validate the
allegation in his complaint that “L–3 employees[ ] and
CACI employees conspired with certain military personnel to torture prisoners.” And the defendants are

171a
no better. CACI acknowledged at oral argument that,
in order to produce sensitive military documents that
would vindicate itself, it would push the discovery process against the military “as broadly as [it] possibly
could.”
This quite plainly is the stuff of immunity, not just
some affirmative defense. Despite the Supreme
Court’s explicit admonition to the contrary, both parties frankly seek to “require members of the Armed
Services” and their contractors “to testify in court as
to each other’s decisions and actions” in an attempt to
sort out “the degree of fault,” thereby undermining the
private-public cooperation and discipline necessary
for the execution of military operations. See Stencel
Aero Eng’g Corp. v. United States, 431 U.S. 666, 673,
97 S.Ct. 2054, 52 L.Ed.2d 665 (1977). Both parties to
this suit propose to go rummaging through the most
sensitive military files and documents, seeking to
prove or disprove a broad-reaching conspiracy to conduct the alleged illegal interrogations. I have no
doubt that these proceedings will quickly ‘‘devolve
into an exercise in finger-pointing between the defendant contractor and the military, requiring extensive judicial probing of the government’s wartime policies.” Saleh, 580 F.3d at 8.
By pitting uniformed soldiers and military contractors against one another, we will only ‘‘hamper the
war effort and bring aid and comfort to the enemy,”
which will relish the opportunity to drag American
soldiers into our ‘‘own civil courts” and thereby divert
their ‘‘efforts and attention from the military offensive
abroad to the legal defensive at home.” Johnson v. Eisentrager, 339 U.S. 763, 779, 70 S.Ct. 936, 94 L.Ed.

172a
1255 (1950). ‘‘[T]hese cases are really indirect challenges to the actions of the U.S. military,” Saleh, 580
F.3d at 7, and it ‘‘would be difficult to devise more effective fettering of a field commander than to allow”
the suits the majority encourages today. See Eisentrager, 339 U.S. at 779, 70 S.Ct. 936.
Rather than allow this court to address the merits
of the immunity question and decide once and for all
whether the demands of national security preclude
this suit, the majority prefers sending this litigation
back to a lone district judge with no more guidance
than to say that he should keep his finger in the dike
and avoid discovery that imperils national security.
The ringing klaxons that the Supreme Court has
sounded in this area do not permit this casual approach. By the time this case gets back to this court
for consideration of the selfsame immunity questions
that we could perfectly well address right now, the litigation process may well have done its damage.
These were precisely the sort of concerns that animated the Supreme Court’s extension of the collateral order doctrine to appeals pertaining to qualified
immunity in Mitchell v. Forsyth, 472 U.S. 511, 524–
30, 105 S.Ct. 2806, 86 L.Ed.2d 411 (1985). That case
makes clear that the touchstone of the collateral order
doctrine is whether delayed review would impose
‘‘consequences . . . not limited to liability for money
damages.” Id. at 526, 105 S.Ct. 2806. Yet the majority refuses to even acknowledge that this case presents the same distinct dangers—and worse—that
merited immediate appeal in Forsyth, preferring instead to act as if this were a typical personal injury
case.

173a
To justify this conclusion, the majority relies on
semantics, ignoring the Supreme Court’s instruction
that the collateral order doctrine is to be given a ‘‘practical rather than a technical construction.” Cohen v.
Beneficial Indus. Loan Corp., 337 U.S. 541, 546, 69
S.Ct. 1221, 93 L.Ed. 1528 (1949).
First, the majority relies on a literal reading of the
dictum that collateral appeals are reserved for ‘‘explicit statutory or constitutional guarantee[s] that
trial will not occur.” Midland Asphalt Corp. v. United
States, 489 U.S. 794, 801, 109 S.Ct. 1494, 103 L.Ed.2d
879 (1989). The majority cites this lonely line for the
sweeping and staggering conclusion that the interests
protected by Boyle and Saleh are ‘‘ipso facto, not immunity.” Ante at 217. But the Supreme Court has
recognized that ‘‘explicit statutory or constitutional
guarantee[s]” do not describe the whole of the collateral order doctrine. Mitchell v. Forsyth stands as an
example of how ‘‘explicitness may not be needed for
jurisdiction” to hear a collateral appeal. Digital
Equip., 511 U.S. at 876, 114 S.Ct. 1992. What differentiates both qualified immunity and law-of-war immunity from the mass of claims that do not merit immediate review is their ‘‘good pedigree in public law.”
Id. In other words, these immunities are distinct because although the interests they protect are not specifically enshrined in legislative text, they are nonetheless vital to the protection of the common good, and
serve more than the mere interest of a single individual in a favorable judgment.
Second, the majority examines Boyle with a microscopic eye, honing in on the fact that the case uses the
word “liability” rather than “immunity.” See ante at
217–18. First, this observation is not even correct—

174a
both the majority and the dissent in Boyle also describe the result as “immunity.” See, e.g., Boyle, 487
U.S. at 510, 108 S.Ct. 2510 (“contractor immunity”);
id. at 523 (Brennan, J., dissenting) (“contractor immunity”). Second, and more important, however, the
Supreme Court has instructed that the courts of appeals should not “play word games with the concept of
a ‘right not to be tried.’” Midland Asphalt, 489 U.S.
at 801, 109 S.Ct. 1494. The majority recognizes this
principle when convenient, see ante at 214 (quoting
Midland Asphalt, 489 U.S. at 801, 109 S.Ct. 1494), but
chooses to ignore it when parsing Boyle with exegetic
precision, see ante at 217–18. All that is relevant to
the inquiry before us is that the rationale for Boyle
was the same desire to avoid the “inhibition of discretionary action” that made immediate appeals necessary in Mitchell v. Forsyth. Compare Boyle, 487 U.S.
at 511–13, 108 S.Ct. 2510, with Forsyth, 472 U.S. at
525–26, 105 S.Ct. 2806.
Given the fact that these cases simply bristle with
novel, unprecedented questions, their duration is
likely to be measured in years. It will in all likelihood
be a long time indeed before they ever again reach the
court of appeals, especially in view of the fact that the
vote here will operate as a disincentive for any future
certified appeals under 28 U.S.C. § 1292(b). District
courts have been given a signal from this court that
we do not want to be bothered by these appeals no
matter how significant the issues might be. Today’s
opinion gives the district courts a green light to plunge
without a scintilla of direction into the intractable difficulties and significant pitfalls of this litigation. The
danger is precisely that which the collateral order doctrine is meant to forestall, namely the expenditure of

175a
years of litigation involving a succession of national
security concerns in cases that plainly should be dismissed at the very outset. See Will, 546 U.S. at 353,
126 S.Ct. 952; Gough v. Perkowski, 694 F.2d 1140,
1145 (9th Cir.1982). If the collateral order doctrine
has no role in saving resources and sparing wasted efforts in a context such as this, then I fear it has been
largely eviscerated in those situations where it would
be of most use.
I recognize that people on both sides of these questions have the noblest intentions in mind, but we
should not be oblivious to the profound changes that
are occurring. It was once the case that judges of all
persuasions went to great lengths to restrain themselves from entering theatres of armed conflict with
prescriptions of their own, and this was true whether
the conflict was regional or worldwide in its dimensions. See, e.g., Holtzman v. Schlesinger, 414 U.S.
1304, 1309–10, 1315, 94 S.Ct. 1, 38 L.Ed.2d 18 (1973)
(Marshall, Circuit Justice) (refusing to review air operations over Cambodia because, in part, “Justices of
this Court have little or no information or expertise”
with regard to sensitive military decisions and “are on
treacherous ground indeed when [they] attempt judgments as to [the] wisdom or necessity” of executive
military action); Eisentrager, 339 U.S. 763, 70 S.Ct.
936 (World War II); Ex parte Quirin, 317 U.S. 1, 63
S.Ct. 2, 87 L.Ed. 3 (1942) (World War II); The Prize
Cases, 67 U.S. (2 Black) 635, 17 L.Ed. 459 (1863) (The
Civil War). But that era is ending. Perhaps it shall
end, but how it ends is all important and I hate to see
it pass not through law but through judicial ukase. As

176a
a matter of policy, one may prefer these suits go forward, but as a matter of law, they should be forthwith
dismissed.
Under the majority’s view of pertinent precedent,
an officer denied qualified immunity for a wrongful
arrest would be entitled to an immediate appeal of
that decision, but the weighty questions of war and
wartime policy at issue here must take their turn at
the back of the line. What stands to be “irretrievably
lost in the absence of an immediate appeal,” Richardson–Merrell Inc. v. Koller, 472 U.S. 424, 431, 105 S.Ct.
2757, 86 L.Ed.2d 340 (1985), is whether decisions as
to how America protects herself can be scrutinized
through novel applications of extraterritorial causes
of action unauthorized by anybody charged by our
charter with protection of this country’s most vital security concerns. In allowing these suits to proceed,
the majority has asserted for itself the responsibility
of all others in our system: the right of Congress to
authorize private tort actions challenging combatant
activity overseas; the right of the executive to control
wartime operations through its contractual and criminal law prerogatives; the right of the states not to assent to the extraterritorial application of their law;
and the right (though not of constitutional dimension)
of litigants and district courts to some notion of where
this brave new world will lead. Perhaps this litigation
is simply one of those small and tiny steps that
weaken America only by increments and erode our
constitutional structure only by degree. But I think
this understates the matter. The touchstone of the
collateral order doctrine is whether a trial ‘‘would imperil a substantial public interest” or “some particular
value of a high order.” Will, 546 U.S. at 352, 126 S.Ct.

177a
952. To some questions the answers should be so apparent as not to require iteration, and so it is here.
Judge Niemeyer and Judge Shedd have indicated
that they join this opinion.
NIEMEYER, Circuit Judge, dissenting:
The majority today disregards controlling Supreme Court precedents and belittles the gravity of
the issues presented in these cases, purporting to find
comfort in its narrow application of the collateral order doctrine. Its effort is regrettably threadbare.
Military contractors performing work in the Iraqi
war zone under the command and control of the
United States military have invoked our jurisdiction,
claiming immunity from tort suits brought by foreign
nationals detained as part of the war effort. As a matter of convenience, the majority ducks making a decision on this issue of greatest importance to the public
interest because it feels that discovery and further
district court proceedings would assist it in making a
decision. But in giving that as a reason, the majority
fails to follow the Supreme Court’s command in Behrens v. Pelletier, 516 U.S. 299, 116 S.Ct. 834, 133
L.Ed.2d 773 (1996), and Ashcroft v. Iqbal, 556 U.S.
662, 129 S.Ct. 1937, 173 L.Ed.2d 868 (2009), that we
hear such claims of immunity now, simply on the basis of the complaint.
It is simply too easy to claim, as does the majority,
that unresolved facts bar consideration now of the defendants’ immunity claims. There are always unresolved facts. Without any explanation, the majority
fails to recognize that the undisputed facts of the
plaintiffs’ claims alone allow a court to rule on the defendants’ immunity claims as a matter of law.

178a
It would appear that only the Supreme Court can
now fix our wayward course.
*

*

*

The plaintiffs in these cases are Iraqi citizens,
who were seized in Iraq and detained by the U.S. military in Abu Ghraib prison and other military prisons
in Iraq. They commenced these actions under state
tort law and the Alien Tort Statute (“ATS”), 28 U.S.C.
§ 1350, for alleged injuries sustained from their mistreatment in prison at the hands of the defendants,
who were U.S. military contractors, and of the military personnel themselves. As contractors hired by
the U.S. military and under its control during the
course of the war effort, the defendants in these two
cases have asserted various immunities from liability
and suit. They claim that the plaintiffs’ claims are
barred by (1) derivative sovereign immunity or derivative absolute immunity, as set forth in Mangold v.
Analytic Services, Inc., 77 F.3d 1442 (4th Cir.1996); (2)
immunity from tort liability in a war zone, as recognized under Saleh v. Titan Corp., 580 F.3d 1
(D.C.Cir.2009), cert. denied, ––– U.S. ––––, 131 S.Ct.
3055, 180 L.Ed.2d 886 (2011); and (3) law-of-war immunity, as recognized by the Supreme Court in Dow
v. Johnson, 100 U.S. 158, 25 L.Ed. 632 (1880). On the
district courts’ rejection of these claims of immunity
or their refusal to grant immunity on motions filed under Rules 12(b)(1) and 12(b)(6), the defendants filed
these interlocutory appeals.
The majority refuses to address whether the defendants enjoy any of the immunities asserted, holding that the district courts’ decisions made on Rule

179a
12(b)(1) and Rule 12(b)(6) motions are not final appealable orders and that we do not have appellate jurisdiction. With that decision, the majority subjects
the defendants to litigation procedures, to discovery,
and perhaps even to trial, contrary to the deep-rooted
policies inherent in these immunities. I would reject
each of the reasons given by the majority for not deciding the immunity issues at this stage of the case
and conclude that we undoubtedly have appellate jurisdiction now to consider them under the well-established principles of Cohen v. Beneficial Industrial
Loan Corp., 337 U.S. 541, 69 S.Ct. 1221, 93 L.Ed. 1528
(1949), Behrens v. Pelletier, 516 U.S. 299, 116 S.Ct.
834, 133 L.Ed.2d 773 (1996), and their progeny. Cohen authorizes the immediate appeal under 28 U.S.C.
§ 1291 of important and collateral interlocutory orders that “have a final and irreparable effect on the
rights of the parties.’’ 337 U.S. at 545, 69 S.Ct. 1221.
And Behrens and Iqbal clearly establish that these appeals fit comfortably with the Cohen collateral order
doctrine because the denial of immunity “at the motion-to-dismiss stage of a proceeding is a ‘final decision’ within the meaning of § 1291.” Iqbal, 556 U.S.
at 672, 129 S.Ct. 1937 (citing Behrens, 516 U.S. at 307,
116 S.Ct. 834).
Each of the majority’s reasons for denying review
now is demonstrably flawed. In rejecting the right to
appeal the district courts’ denials of the derivative absolute immunity described in Mangold, the majority
ignores well-established precedent that a district
court’s denial of an immunity from suit based on the
facts as alleged in the complaint is a final, conclusive
order that is immediately appealable as a collateral
order. And in rejecting the right to appeal rulings on

180a
Saleh and law-of-war immunities, the majority rests
heavily on a distinction between an immunity that
provides “an insulation from liability” and “an immunity from suit,” concluding that the immunities in
this case only protect defendants from civil liability.
This analysis misses the point, however. The Supreme Court has found orders denying immunity in
its common law sense to be appealable by examining
the function performed by parties claiming immunity,
the interference with that function a denial of immunity would occasion, and the public interest. In reaching its conclusion, the majority fails to undertake this
analysis or recognize the substantial government interest underlying these immunities, an interest with
deep roots in the common law.
If there ever were important, collateral decisions
that would qualify under Cohen as reviewable final
decisions, the district courts’ denials of immunity in
these cases are such decisions. The defendants in
these cases were engaged by the U.S. military to assist
in conducting interrogations under the command and
control of U.S. military personnel, and the decisions
about the scope and nature of these interrogations
were an integral part of the military’s interests.
Moreover, the military desperately needed to receive
contractor assistance in its interrogations because of
a substantial shortage of personnel. Thus, the interrogations were a major component of the war effort,
designed to gather military intelligence. These strong
public interests merit our consideration of the federal
common law immunities claimed by the defendants as
protection from any civil suit and from any potential
civil liability under state tort law.

181a
Because we have appellate jurisdiction to address
one or all of the forms of immunity claimed by the defendants, we would, at the outset, be required to decide our subject matter jurisdiction. See Steel Co. v.
Citizens for a Better Env’t, 523 U.S. 83, 94, 118 S.Ct.
1003, 140 L.Ed.2d 210 (1998). When considering our
jurisdiction, it is apparent that we, as well as the district courts, lack authority under Article III to entertain the actions because they present a nonjusticiable
political question.
Accordingly, I would dismiss these appeals and remand them with orders to dismiss the cases as nonjusticiable attempts to engage the judiciary in questions reserved by the Constitution for Congress and
the Commander–in–Chief to resolve.
I.
In 2003, a multi-national force, led by the United
States and Great Britain, invaded Iraq. During the
course of the war, the U.S. military seized and detained Iraqi citizens suspected of being enemy combatants or thought to have value in possessing useful
intelligence regarding the insurgency or other terrorist activities. These detainees were imprisoned in Abu
Ghraib prison and other prisons throughout Iraq. Although these prisons were operated by the U.S. Army
in an active war zone, “a severe shortage” of military
intelligence personnel “prompt[ed] the U.S. government to contract with private corporations to provide
civilian interrogators and interpreters.” J.A. 408.
These contractors included CACI Premier Technology, Inc., a subsidiary of CACI International, Inc. (collectively herein, “CACI”) and Titan Corporation, now

182a
L–3 Services, Inc. (“L–3”). CACI and L–3 were required to comply with Department of Defense interrogation policies and procedures when conducting
“[i]ntelligence interrogations, detainee debriefings,
and tactical questioning” of persons in the custody of
the U.S. military. J.A. 270–71. Secretary of Defense
Donald Rumsfeld testified before Congress that the
linguists and interrogators provided by contractors at
Abu Ghraib were “responsible to [the military intelligence] personnel who hire[d] them and ha[d] responsibility for supervising them.” Hearing of the U.S.
Senate Committee on Armed Services 44 (May 7,
2004). Acting Secretary of the Army Les Brownlee
also testified that civilian linguists and interrogators
“work[ed] under the supervision of officers or noncommissioned officers in charge of whatever team or unit
they are on.’’ Id.
The plaintiffs in these two actions are individuals
who were seized and detained by the military at Abu
Ghraib prison and other military-controlled prisons
“during a period of armed conflict” and “in connection
with hostilities.” Second Amended Compl. (“Complaint”) ¶ 497 (Al–Quraishi); Second Amended Compl.
(“Complaint”) ¶ 142 (Al Shimari). In their complaints,
they allege various acts of assault, sexual assault, humiliation, and inhumane treatment at the hands of
the defendants, their employees, and their co-conspirators in the military. They allege that during the
course of providing interrogation and translation services for the U.S. military, employees of the defendant
corporations conspired with each other and with
members of the military to commit torture, assault,
battery, and war crimes and that their conduct violated the terms of the contracts that CACI and L–3

183a
had with the U.S. military, the provisions of the U.S.
Army field manual, as well as United States law, state
law, and the Geneva Convention. Complaint ¶¶ 418,
430, 450, 454, 463, 470 (Al–Quraishi); Complaint
¶¶ 67, 88, 94, 98, 107, 108 (Al Shimari). In addition,
they allege that the defendants conspired with each
other and with members of the U.S. military to coverup the misconduct and hide it from the authorities.
The complaints purport to state causes of action
under various state-defined torts and under the Alien
Tort Statute, naming as defendants CACI, L–3, and
Adel Nakhla, an individual employee of L–3, and they
demand compensatory damages for physical, economic, and mental injuries; punitive damages to punish defendants for engaging in human rights abuses
and to deter similar behavior in the future; and attorney’s fees. Complaint ¶¶ 2, 468–559, 560 (Al–Quraishi); Complaint ¶¶ 2, 113– 204, 205; see also Al
Shimari v. CACI Premier Tech., Inc., 657 F.Supp.2d
700 (E.D.Va.2009); Al–Quraishi v. Nakhla, 728
F.Supp.2d 702 (D.Md.2010).
The defendants filed motions to dismiss all of the
claims pursuant to Federal Rules of Civil Procedure
12(b)(1) and 12(b)(6), alleging that the claims were (1)
nonjusticiable because they presented a political question, relying on Tiffany v. United States, 931 F.2d 271
(4th Cir.1991); (2) barred by derivative sovereign or
absolute official immunity, as set forth in Mangold v.
Analytic Services, Inc., 77 F.3d 1442 (4th Cir.1996); (3)
preempted and displaced by the federal common law
government contractor defense, as set forth in Saleh
v. Titan Corp., 580 F.3d 1 (D.C.Cir. 2009), cert. denied,
––– U.S. ––––, 131 S.Ct. 3055, 180 L.Ed.2d 886 (2011);
and (4) barred by the law-of-war immunity recognized

184a
by the Supreme Court in Dow v. Johnson, 100 U.S.
158, 25 L.Ed. 632 (1880). With respect to the state
law tort claims, both district courts below rejected all
of these defenses and denied the motions to dismiss.
And with respect to the ATS claims, the Al Shimari
court dismissed, concluding that it lacked jurisdiction,
657 F.Supp.2d at 725–728, while the Al–Quraishi
court denied the motion to dismiss, 728 F.Supp.2d at
741–60.
A panel of this court reversed the district courts’
orders in two opinions released on the same day, concluding that the district courts should have dismissed
the claims on the basis of the government contractor
defense recognized in Saleh. Al–Quraishi v. L–3
Servs., Inc., 657 F.3d 201 (4th Cir.2011); Al Shimari
v. CACI Int’l, Inc., 658 F.3d 413 (4th Cir.2011). On
the plaintiffs’ motions, we granted a rehearing en
banc and consolidated the appeals. At our invitation,
the United States also participated as an amicus curiae, filing a brief and participating in oral argument
on January 27, 2012. The majority now dismisses the
appeals for a lack of final appealable orders under 28
U.S.C. § 1291 and thus allows the litigation to proceed
in the district courts.
II.
Section 1291 of Title 28, authorizing “appeals
from all final decisions of the district courts of the
United States,” codifies the “final judgment rule,” representing “Congress’ determination since the Judiciary Act of 1789 that as a general rule ‘appellate review
should be postponed . . . until after final judgment has
been rendered by the trial court.’” Kerr v. U.S. Dist.
Ct. for the N. Dist. of Cal., 426 U.S. 394, 403, 96 S.Ct.

185a
2119, 48 L.Ed.2d 725 (1976) (quoting Will v. United
States, 389 U.S. 90, 96, 88 S.Ct. 269, 19 L.Ed.2d 305
(1967)). Thus, the Supreme Court has emphasized
“the general rule that a party is entitled to a single
appeal, to be deferred until final judgment has been
entered.” Mohawk Indus. v. Carpenter, ––– U.S. –––
–, 130 S.Ct. 599, 605, 175 L.Ed.2d 458 (2009) (quoting
Digital Equip. Corp. v. Desktop Direct, Inc., 511 U.S.
863, 868, 114 S.Ct. 1992, 128 L.Ed.2d 842 (1994)).
Falling within the category of appealable final decisions under § 1291 are certain collateral orders that
are “other than final judgments” but “have a final and
irreparable effect on the rights of the parties.” Cohen
v. Beneficial Indus. Loan Corp., 337 U.S. 541, 545, 69
S.Ct. 1221, 93 L.Ed. 1528 (1949). Under this “practical construction” given to the statutory language “final decisions,” “[t]he authority of the Courts of Appeals to review all final decisions of the district courts”
is construed to confer appellate jurisdiction over “ ‘a
narrow class of decisions that do not terminate the litigation’ but are sufficiently important and collateral
to the merits that they should ‘nonetheless be treated
as final.’” Will v. Hallock, 546 U.S. 345, 347, 126 S.Ct.
952, 163 L.Ed.2d 836 (2006) (quoting Digital Equip.,
511 U.S. at 867, 114 S.Ct. 1992) (internal citation
omitted). Thus, to be a final, appealable order, a collateral order must satisfy three requirements: (1) it
must “conclusively determine the disputed question”;
(2) it must “resolve an important issue completely separate from the merits of the action”; and (3) it must be
“effectively unreviewable on appeal from a final judgment.” Johnson v. Jones, 515 U.S. 304, 310, 115 S.Ct.
2151, 132 L.Ed.2d 238 (1995) (internal quotation
marks omitted).

186a
The Supreme Court has noted that the “collateral
order doctrine” is of “modest scope,” Hallock, 546 U.S.
at 350, 126 S.Ct. 952, and should not be applied “to
swallow the general rule that a party is entitled to a
single appeal,” Mohawk Indus., 130 S.Ct. at 605 (quoting Digital Equip., 511 U.S. at 868, 114 S.Ct. 1992).
But, equally important, the Court has noted that the
doctrine is necessary and appropriate for cases involving a “particular value of high order” including “honoring the separation of powers, preserving the efficiency of government and the initiative of its officials,
[or] respecting a State’s dignitary interests.” Hallock,
546 U.S. at 352–53, 126 S.Ct. 952. In this vein, the
Supreme Court and our court have applied the collateral order doctrine to review interlocutory orders
denying defendants’ motions to dismiss on the basis of
numerous asserted immunities. See, e.g., Abney v.
United States, 431 U.S. 651, 97 S.Ct. 2034, 52 L.Ed.2d
651 (1977) (double jeopardy claim); Helstoski v. Meanor, 442 U.S. 500, 99 S.Ct. 2445, 61 L.Ed.2d 30 (1979)
(Speech and Debate Clause immunity); Nixon v. Fitzgerald, 457 U.S. 731, 102 S.Ct. 2690, 73 L.Ed.2d 349
(1982) (absolute official immunity); Mitchell v. Forsyth, 472 U.S. 511, 105 S.Ct. 2806, 86 L.Ed.2d 411
(1985) (qualified immunity); Puerto Rico Aqueduct &
Sewer Auth. v. Metcalf & Eddy, Inc., 506 U.S. 139, 113
S.Ct. 684, 121 L.Ed.2d 605 (1993) (Eleventh Amendment immunity); Osborn v. Haley, 549 U.S. 225, 127
S.Ct. 881, 166 L.Ed.2d 819 (2007) (Westfall Act immunity certification); Republic of Iraq v. Beaty, 556
U.S. 848, 129 S.Ct. 2183, 173 L.Ed.2d 1193 (2009) (foreign sovereign immunity); Permanent Mission of India to the United Nations v. City of New York, 551 U.S.
193, 127 S.Ct. 2352, 168 L.Ed.2d 85 (2007) (same);

187a
Roberson v. Mullins, 29 F.3d 132 (4th Cir.1994) (absolute legislative immunity); Mangold, 77 F.3d 1442
(derivative immunity for a contractor).
Some or all of the defendants’ claims of immunity
in these cases are thus entitled to our review under
the collateral order doctrine, and I address them seriatim.
A. Derivative Absolute Immunity
Immunity generally protects government officials
from liability based on their office, their function, and
the public interest. And when litigation is commenced
to enforce liability against them, the officials are, if
the public interest is sufficiently strong, also protected
from defending the suit itself, even when the official is
accused of misconduct. See Nixon, 457 U.S. at 752,
102 S.Ct. 2690 (noting that immunity is afforded
when it is in the public interest to provide an official
“the maximum ability to deal fearlessly and impartially with duties of his office” (internal quotation
marks omitted)). Of course, each particular immunity
is defined by the official claiming it, by his function,
and by the particular public interest sought to be protected.
In this case, the defendants claim, among other
immunities, derivative absolute immunity based on
their role in carrying out the U.S. military’s mission
in the Iraq war zone under the ultimate direction and
control of the military. As alleged in the complaints,
the defendants were retained by the U.S. military to
perform interrogation and translation services in the
interrogation of military detainees in military prisons
throughout the Iraqi war zone. Complaint ¶¶ 8, 435,
436, 442 (Al–Quraishi); Complaint ¶¶ 1, 10, 64 (Al

188a
Shimari). Indeed, the complaints assert that the defendants were functioning on behalf of the U.S. military and in conspiracy with military personnel “during a period of armed conflict, in connection with hostilities.” Complaint ¶ 497 (Al–Quraishi); Complaint
¶ 142 (Al Shimari).
Regardless of whether these facts are ultimately
proved, they were alleged by the plaintiffs in their
complaints and admitted by the defendants in asserting immunity. And on the basis of these facts, both
district courts below conclusively determined that the
defendants were not entitled to the derivative immunity recognized in Mangold. In one decision, the district court stated that it “reject[ed] both arguments”
made by the defendant that it was immune under the
“doctrine of derivative absolute official immunity” because it could not “determine the scope of Defendants’
government contract, the amount of discretion it afforded Defendants in dealing with detainees, or the
costs and benefits of recognizing immunity in this case
without examining a complete record after discovery
has taken place.” Al Shimari v. CA CI Premier Tech.,
Inc., 657 F.Supp.2d 700, 714 (E.D.Va.2009) (emphasis
added).
In the other decision below, the district court concluded that “relying on the information in the Complaint, it is clearly too early to dismiss Defendants on
the basis of derivative sovereign immunity,” explaining that “the contract between [the contractor] and the
military is not before the Court at this time,” making
it impossible to “determin[e] both the scope of the contract and whether that scope was exceeded.’’ Al–
Quraishi v. Nakhla, 728 F.Supp.2d 702, 735
(D.Md.2010).

189a
Thus, both of these opinions take the facts as alleged by the plaintiffs in their complaints as true and
conclude that the defendants were not entitled to derivative immunity.
As both the Supreme Court’s precedents and our
precedents clearly establish, when a district court refuses to grant an immunity from suit on the basis of
the facts alleged in a complaint, the refusals are immediately appealable. Whether they are rightly or
wrongly decided, we have jurisdiction to review such
rulings to protect the defendants from the costs and
distraction of litigation, which undermine the public
interest in protecting the governmental function of
war zone interrogations. The district courts’ refusals
to recognize this immunity can undoubtedly be immediately appealed under the collateral order doctrine.
See Ashcroft v. Iqbal, 556 U.S. 662, 129 S.Ct. 1937,
173 L.Ed.2d 868 (2009); Behrens v. Pelletier, 516 U.S.
299, 303, 116 S.Ct. 834, 133 L.Ed.2d 773 (1996); Jenkins v. Medford, 119 F.3d 1156, 1159 (4th Cir.1997)
(en banc); McVey v. Stacy, 157 F.3d 271, 275 (4th
Cir.1998).
The majority does not take issue with the defendants’ claim of immunity under the doctrine of derivative absolute immunity, nor does it take issue with the
principle that this immunity protects defendants from
suit. Ante, at 223 (“Mangold immunity confers upon
those within its aegis the right not to stand trial”).
Rather, the majority defers any ruling on the immunity because the “record [was not] sufficiently developed through discovery proceedings to accurately assess any claim, including one of immunity.” As the
majority explains:

190a
The Maryland and Virginia district courts
each perceived that the validity of such invocations [of immunity] depended in significant
part on whether the contractor involved was
acting within the scope of its agreement with
the United States. One could hardly begin to
answer that question without resort to any
and all contracts between the appellants and
the government pertinent to the claims, defenses, and related matters below.
Ante, at 220. Thus, the majority concludes that because the district courts deferred ruling on derivative
immunity until the record was more developed, their
decisions lack finality and fail the requirements of
Hallock, 546 U.S. at 349–50, 126 S.Ct. 952, that collateral orders be conclusively determined.
The majority fails to recognize, however, that its
conclusions are contrary to well-established Supreme
Court and Fourth Circuit precedents and that the district courts’ decisions in refusing to grant immunity
on motions to dismiss based on Rules 12(b)(1) and
12(b)(6) are appealable final determinations under
the collateral order doctrine.
In Behrens, 516 U.S. at 303, 116 S.Ct. 834, the district court had entered an order denying, without prejudice, a motion to dismiss based on a defense of qualified immunity, giving as its reason the fact that it was
premature because of the lack of discovery. Both the
Ninth Circuit in the first appeal taken and, eventually
the Supreme Court, recognized that the district
court’s order deferring consideration pending discovery was a final determination of the immunity de-

191a
fense, subject to immediate appeal under the collateral order doctrine. See Pelletier v. Fed. Home Loan
Bank of San Francisco, 968 F.2d 865, 871 (9th
Cir.1992); Behrens, 516 U.S. at 308, 116 S.Ct. 834
(“Whether or not a later summary judgment motion
[on the basis of immunity] is granted, denial of a motion to dismiss is conclusive as to this right” (emphasis
added)). As the Behrens Court noted, at the motionto-dismiss stage of a proceeding, “it is the defendant’s
conduct as alleged in the complaint that is scrutinized.’’ Behrens, 516 U.S. at 309, 116 S.Ct. 834 (emphasis added); see also Mitchell v. Forsyth, 472 U.S.
511, 529 n. 9, 105 S.Ct. 2806, 86 L.Ed.2d 411 (1985)
(“[W]e emphasize at this point that the appealable issue is a purely legal one: whether the facts alleged . . .
support a claim of violation of clearly established law”
(emphasis added)).
More recently, in Iqbal, the Supreme Court reaffirmed Behrens and its principle that “a district
court’s order rejecting qualified immunity at the motion-to-dismiss stage of a proceeding is a ‘final decision’ within the meaning of § 1291.’’ Iqbal, 556 U.S. at
672, 129 S.Ct. 1937 (emphasis added).
Until this decision by the majority, we have applied the reasoning of Mitchell and Behrens faithfully
and consistently, holding that the denial of a motion
to dismiss based on an immunity that is properly characterized as an immunity from suit, even if on the basis that more discovery is necessary, is a collateral order over which we have jurisdiction under 28 U.S.C.
§ 1291. In Jenkins v. Medford, 119 F.3d 1156, 1159
(4th Cir.1997) (en banc), we declared that we had jurisdiction to review a district court’s denial of a motion
to dismiss based on qualified immunity even though

192a
the district court had refused to rule on immunity at
that stage because an answer had not yet been filed.
Without qualification, we stated that “[w]hen a district court denies a motion to dismiss that is based on
qualified immunity . . . the action is a final order reviewable by this court.” Id.; see also Winfield v. Bass,
106 F.3d 525, 530 (4th Cir.1997) (en banc) (finding jurisdiction to review an immunity claim “accepting the
facts as the district court viewed them,” even though
factual issues remained).
Again, in McVey, 157 F.3d at 275, we applied Behrens and concluded that we had jurisdiction over the
denial of qualified immunity even though we “recognized that the district court’s order essentially deferring a ruling on qualified immunity would appear, at
first blush, to amount to a routine procedural order
that is generally not appealable.’’ As we reasoned:
[I]n rejecting the immunity defense “at this
early stage,” the district court necessarily subjected the commissioners to the burden of further trial procedures and discovery, perhaps
unnecessarily. [The district court’s] order implicitly ruled against the commissioners on
. . . legal questions. . . . These questions do
not raise factual questions concerning the defendants’ involvement, which would not be appealable. . . . On the contrary, they are answered with the facts of the complaint assumed to be true as a matter of law. They are
therefore the very questions that Mitchell
held were appealable.
Id. at 276 (emphasis added) (internal citations omitted).

193a
Although the majority acknowledges these precedents, it attempts to distinguish them by noting that
Behrens “confers jurisdiction of these appeals only if
the record at the dismissal stage can be construed to
present a pure issue of law.” Ante, at 222. It finds
that in these cases “those facts that may have been
tentatively designated as outcome-determinative are
yet subject to genuine dispute, that is, a reasonable
factfinder could conclude in favor of either the plaintiffs or the defendants,” and thus we lack jurisdiction
because the “courts’ immunity rulings below turn[ed]
on genuineness.’’ Ante, at 223. The majority’s new
“genuineness” addition to the collateral order doctrine, however, finds no support in the Supreme
Court’s discussion of collateral order immunity appeals. To the extent the majority is simply stating the
well-established rule that a collateral order immunity
appeal must present a purely legal question, there can
be no debate that the appeals in the cases before us
present just such a question. Mitchell, Behrens, and
Iqbal establish without question that these appeals
present a purely legal question because we are asked
to decide whether the defendants are entitled to derivative immunity on the basis of the facts as alleged by
the plaintiffs in their complaints. The possibility that
a factfinder might construe these facts in favor of the
defendants at a later time does not, by some heretofore
unknown legal device, create a factual dispute that
deprives us of jurisdiction at the motion-to-dismiss
stage. As a matter of logical necessity, there can be
no genuine issue of material fact when we are reviewing only the facts as alleged by the plaintiff in the complaint. The majority simply ignores Mitchell ‘s statement that “the appealable issue is a purely legal one:

194a
whether the facts alleged” support a claim of immunity. 472 U.S. at 528 n. 9, 105 S.Ct. 2806.
The majority’s claim that it could only discern a
“pure issue of law” if it “were of the opinion, as the
dissenters evidently are, that persons similarly situated to the appellants are inevitably and invariably
immune from suit,” ante, at 222, demonstrates the
fundamental error of its approach. If the majority believes that the defendants cannot establish their
claims to immunity from suit, accepting as true the
facts in the complaint, then it should deny the derivative immunity defense on the merits and allow the district courts to proceed and develop a fuller factual record. Indeed, Behrens considers this very possibility,
allowing the defendants to pursue a second immunity
appeal after the denial of summary judgment even if
they have already unsuccessfully appealed the district
court’s denial of their motion to dismiss. 516 U.S. at
305–08, 116 S.Ct. 834. Surprisingly, the majority admits that we have jurisdiction to review whether
“facts that are undisputed or viewed in a particular
light are material to the immunity calculus,” ante, at
222, but then mysteriously concludes that we cannot
determine whether these same facts establish immunity. Thus, under the majority’s novel approach to the
collateral order doctrine, we have jurisdiction to review whether undisputed facts are “material” to a
question of immunity, but we have no jurisdiction to
review the immunity determination itself. Such a rule
finds absolutely no legal support.
Whether it is to avoid the difficulty presented by
the political question doctrine or to evade the other
difficult questions the merits of these important cases

195a
present, the majority chooses to decimate existing collateral order jurisprudence by finding a “genuine” dispute of material fact in a case in which we are asked
to review district court decisions denying derivative
immunity based only on undisputed facts, those alleged in the complaint. See McVey, 157 F.3d at 276
(“These questions do not raise factual questions concerning the defendants’ involvement. . . . On the contrary, they are answered with the facts of the complaint assumed to be true as a matter of law. They
are therefore the very questions that Mitchell held
were appealable”). The majority’s approach is manifestly contrary to the Supreme Court’s collateral order
immunity jurisprudence.
Rather than following these binding precedents of
the Supreme Court and our court, the majority
chooses to rely on a distinguishable Fifth Circuit decision that refused to consider a claim of immunity because it was neither “substantial” nor “colorable.” See
Martin v. Halliburton, 618 F.3d 476, 484 (5th
Cir.2010). The Martin court, however, did not decide
the issue before us today. In that case, regulations
governing the contractor explicitly stated that “[c]ontractors will not be used to perform inherently governmental functions” and “expressly preclude[d] Defendant [contractors] from engaging in discretionary conduct,” which was a prerequisite for finding derivative
immunity. See id. at 484. Thus, the language of the
regulations themselves made the defendants’ contentions that they had engaged in the performance of governmental functions frivolous and unsubstantial.
Under our decision in Mangold and its progeny,
there can be no serious argument that, based on the

196a
complaint, the defendants in these cases failed to present a substantial basis for the immunity. See Mangold, 77 F.3d at 1442 (holding that government functions performed by private contractors are protected
by immunity both for the government and the contractor); see also Murray v. Northrop Grumman Info.
Tech., Inc., 444 F.3d 169, 175 (2d Cir.2006) (government contractor absolutely immune from tort liability
for performing contracted-for governmental function,
citing Mangold); Pani v. Empire Blue Cross Blue
Shield, 152 F.3d 67, 71–73 (2d Cir.1998) (same); Midland Psychiatric Assocs., Inc. v. United States, 145
F.3d 1000, 1005 (8th Cir.1998) (common law official
immunity barred tort suit against Medicare insurer).
This immunity protects contractors from suit where
such an immunity is necessary to protect a discretionary government function and the benefits of immunity
outweigh its costs. For example, in Mangold, we held
that “the interest in efficient government” justified
granting a private contractor immunity for statements made during an official investigation of government procurement practices. 77 F.3d at 1447–48.
And recently, the Supreme Court has reaffirmed
the need to protect those who perform government
functions with immunity regardless of whether they
are public employees, such as military officers, or private individuals retained to perform the same function. See Filarsky v. Delia, ––– U.S. ––––, 132 S.Ct.
1657, 1663, 182 L.Ed.2d 662 (2012) (“[T]he common
law did not draw a distinction between public servants and private individuals engaged in public service
in according protection to those carrying out government responsibilities”).

197a
But the majority never disputes this, nor even discusses why the allegations in the complaint present
only a frivolous and unsubstantial claim to derivative
immunity. Instead, it frames the dispositive question
as one of finality. In so doing, the majority ignores the
fundamental and well-established principle that a district court’s denial of a motion to dismiss based on an
immunity from suit is a final, immediately appealable
collateral order. Whether discovery could help make
the issue more clear or whether the district courts
wanted a fuller record before ruling on the merits of
immunity is irrelevant. The defendants claim entitlement to be protected from the litigation process, and
the court’s refusal to grant the immunity denied them
that protection and was therefore an appealable decision under Mitchell, Behrens, Iqbal, Jenkins, Winfield, and McVey. It is most regrettable that the majority so readily tramples on these precedents, which
clearly provide us with appellate jurisdiction at this
stage of the proceedings to consider the substantial
claims of immunity asserted by the defendants on the
basis of the facts alleged in the complaint.1

1

The majority also inexplicably dismisses L–3’s arguments relating to the Alien Tort Statute in a footnote, claiming that they
deserve no different analysis than do the state law claims. Ante,
at 223–24 n. 19. But in so concluding, the majority fails to recognize that plaintiffs’ Alien Tort Statute claims, of jurisdictional
necessity, include allegations that the defendants’ allegedly abusive conduct was the conduct of the United States and therefore
any claim of derivative immunity would have to be substantial
as a matter of law.

198a

Although the district court in Al Shimari dismissed the
plaintiffs’ claims under the ATS, the district court in Al–Quraishi
failed to dismiss the ATS claims against L–3 and its employee.
L–3 contends on appeal that the denial of its motion to dismiss
the ATS claims on account of derivative immunity, among other
defenses, was an error. L–3’s claim to derivative absolute immunity in the ATS context is thus undeniably “substantial.” In
Sanchez–Espinoza v. Reagan, 770 F.2d 202 (D.C.Cir.1985), plaintiffs alleged that defendants had violated the law of nations by
engaging in “summary execution, murder, abduction, torture,
rape, wounding, and the destruction of private property and public facilities,” as part of a conspiracy arising out of the U.S. government’s actions in Nicaragua. Id. at 205. In a unanimous opinion authored by then-Judge Scalia and joined by then-Judge
Ginsburg, the D.C. Circuit found that “[i]t would make a mockery
of the doctrine of sovereign immunity” to permit the ATS claims
to proceed based on “actions that are, concededly and as a jurisdictional necessity, official actions of the United States.” Id. at
207. Like the allegations in Sanchez–Espinoza, plaintiffs must,
to maintain their ATS claims, allege that the actions of the defendants were actions of the United States as a jurisdictional necessity. See Kadic v. Karadzic, 70 F.3d 232, 243 (2d Cir. 1995)
(‘‘[T]orture and summary execution . . . are proscribed by international law only when committed by state officials or under
color of law”). To establish jurisdiction for their ATS claims alleging “war crimes,” the plaintiffs must at the very least allege
that the defendants in this case were “parties” to the hostilities
in Iraq, id., and may have to demonstrate state action as well if
the court considered war crimes to violate international norms
only to the extent they were committed by combatants or state
actors, see Sosa v. Alvarez–Machain, 542 U.S. 692, 731– 38, 124
S.Ct. 2739, 159 L.Ed.2d 718 (2004); Tel–Oren v. Libyan Arab Republic, 726 F.2d 774, 791–95 (D.C.Cir.1984) (Edwards, J., concurring).

199a
B. Combatant Activities Immunity under Saleh
The defendants also asserted an immunity from
suit based on the combatant activities exception to the
Federal Tort Claims Act and the D.C. Circuit’s application of that immunity in Saleh v. Titan Corp., 580
F.3d 1 (D.C.Cir.2009), cert. denied, ––– U.S. ––––, 131
S.Ct. 3055, 180 L.Ed.2d 886 (2011). This immunity,
applied to military contractors, is based on the United
States’ sovereign immunity for claims arising out of
combatant activities of the military during time of
war. See 28 U.S.C. § 2680(j).
Again, in response to the allegations of the plaintiffs’ complaints, the defendants claimed that their
immunity is based on the United States’ interests, as
embodied in the combatant activities exception and as
applied in Saleh. Under this immunity, when claims
arise out of federal combatant activities, the federal
interests preempt the application of state tort law to
its contractors and then replace state tort law with
federal common law, which recognizes an immunity
for claims against contractors arising out of combatant activities. The United States’ interest in its con-

Thus, the defendants’ claims to derivative immunity as to the
ATS claims in Al–Quraishi are obviously substantial because
plaintiffs must allege as a jurisdictional necessity either state action or that the defendants were “parties” to the armed conflict
in Iraq. Both allegations add further weight to the contention
that the defendants were performing a state function and thus
entitled to the same immunities afforded public officials performing that function. See Filarsky, 132 S.Ct. at 1663. I therefore fail
to understand how these defenses can be dismissed as so insubstantial and frivolous that we lack jurisdiction even to entertain
them.

200a
tractors’ performance in the course of combatant activities grows out of the uniquely federal interest in
the unencumbered operation of military personnel
and in the “elimination of tort from the battlefield,
both to preempt state or foreign regulation of federal
wartime conduct and to free military commanders
from the doubts and uncertainty inherent in potential
subjection to civil suit.” Saleh, 580 F.3d at 7 (emphasis added). “[T]he policies of the combatant activities
exception are equally implicated whether the alleged
tortfeasor is a soldier or a contractor engaging in combatant activities at the behest of the military and under the military’s control.” Id. The policy to protect
these interests can only be furthered and preserved if
the defense protects against potential lawsuits
brought under any civilian tort law, not simply
against ultimate liability.
The district courts denied the claimed immunities. The court in Al–Quraishi refused to recognize
the unique federal interests embodied in the combatant activities exception. Al–Quraishi, 728 F.Supp.2d
at 738–39. And the court in Al Shimari simply rejected the defense as to these defendants in a conclusory manner. Al Shimari, 657 F.Supp.2d at 725. Both
courts thus held that the defendants were entitled to
neither the displacement of state tort law nor the application of federal common law immunizing them
from suit.
The majority now refuses also to review these district court orders, thus denying the defendants the
combatant activities immunity. It does so mainly by
relying on an unexplored labeling problem. It states
conclusorily, “Boyle preemption (and, thus, Saleh
preemption) is, ipso facto, not immunity.” Ante, at

201a
217. And again, repeating its labeling reliance, it declares, “Saleh preemption falls squarely on the side of
being a defense to liability and not an immunity from
suit.” Ante, at 217. The only analysis the majority
accords the issue is an observation that immunity “derives from an explicit statutory or constructive guarantee that trial will not occur” (internal quotation
marks omitted), and that Boyle, “from which Saleh
preemption is derived, [did not rely] on any such explicit guarantee.” Ante, at 217. The majority’s opinion, however, neither considers what Saleh actually
held in order to prove its assertion, nor analyzes the
text of the combatant activities exception and the
unique federal interests it embodies. Moreover, it assumes, without analysis, that Boyle and Saleh are
identical for purposes of its collateral order analysis.
Surely our jurisdiction to consider the district
courts’ orders cannot depend wholly on labels such as
“preemption” and “immunity.” Nonetheless, if a vote
on labels were critical, the majority would have little
support, as virtually every court that has considered
the government contractor defense set forth in Boyle
takes it as a two-step defense leading to immunity.
Under the first step, the court preempts state tort law,
and under the second, it recognizes the federal common law providing immunity to such contractors. See
In re Katrina Canal Breaches, 620 F.3d 455, 457 (5th
Cir.2010) (characterizing the defense recognized in
Boyle as “government contractor immunity”); In re
World Trade Ctr. Disaster Site Litig., 521 F.3d 169,
196 (2d Cir.2008) (“In Boyle, the Court refined the requirements for a type of derivative immunity for government military contractors” (emphasis added));
United States v. Swiss Am. Bank, Ltd., 191 F.3d 30,

202a
44 n. 6 (1st Cir.1999) (“[T]he [Boyle ] Court used the
terminology of ‘displacement of state law’ and
‘preemption’ in determining whether federal law
should provide government contractors with immunity from certain state-law product liability actions”
(emphasis added)); Winters v. Diamond Shamrock
Chem. Co., 149 F.3d 387, 400 (5th Cir. 1998) (“The Supreme Court set out the test for immunity under the
government contractor defense in Boyle “ (emphasis
added)); Oliver v. Oshkosh Truck Corp., 96 F.3d 992,
997 (7th Cir.1996) (“The government contractor defense is derived from the government’s immunity from
suit when the performance of a discretionary function
is at issue” (emphasis added)); Mangold, 77 F.3d at
1448 (“Extending immunity to private contractors to
protect an important government interest is not novel.
See, e.g., Boyle[ ]” (emphasis added)); Tate v. Boeing
Helicopters, 55 F.3d 1150, 1153 (6th Cir.1995) (“The
Boyle Court held that, under certain circumstances,
government contractors are immune from state tort liability” (emphasis added)); Carley v. Wheeled Coach,
991 F.2d 1117, 1120 (3d Cir.1993) (noting that the rationale that “underlies the modern government contractor defense” is that “[a] private contractor . . .
should, in some circumstances, share the sovereign
immunity of the United States” (emphasis added));
Harduvel v. Gen. Dynamics Corp., 878 F.2d 1311,
1316 (11th Cir.1989) (“In the military context, this
[government contractor] immunity serves the further
important purpose of shielding sensitive military decisions from scrutiny by the judiciary, the branch of
government least competent to review them” (emphasis added)).

203a
Rather than counting labeling votes, however, we
must, in determining our appellate jurisdiction over
the defendants’ claim of Saleh immunity, inquire
whether the assertion of Saleh immunity falls within
the category of collateral orders that the Supreme
Court has held appealable under the collateral order
doctrine.
We begin by looking to the methodology in Boyle,
which was employed by Saleh to identify the unique
federal interests in these cases. In Boyle, the Supreme
Court referred to the “displacement” of state law with
federal common law, 487 U.S. at 505, 507, 512, 108
S.Ct. 2510 (emphasis added), and specifically held
that “a few areas, involving ‘uniquely federal interests,’ are so committed by the Constitution and laws
of the United States to federal control that state law
is pre-empted and replaced, where necessary, by federal law of a content prescribed (absent explicit statutory directive) by the courts—so called ‘federal common law.’” Id. at 504, 108 S.Ct. 2510 (emphasis
added) (internal citation omitted). Thus, it is the content of this federal common law that defines the rights
and defenses of the government contractor defendant,
not the preemption leading to application of the federal common law.
In Boyle, the father of a deceased helicopter pilot
sued the helicopter’s manufacturer, a private government contractor, under Virginia tort law, alleging that
the helicopter’s escape hatch had been defectively designed because it opened out rather than in. Id. at
502–03, 108 S.Ct. 2510. While the pilot survived the
impact of the helicopter’s crash off the coast of Virginia, he was unable to escape because the water pressure prevented the escape hatch from opening. The

204a
Court concluded that “state law which holds Government contractors liable for design defects in military
equipment does in some circumstances present a ‘significant conflict’ with federal policy and must be displaced.” Id. at 512, 108 S.Ct. 2510 (emphasis added).
The Boyle Court reached its conclusion through a
two-step process. First, it recognized that the subject
matter of the suit implicated “uniquely federal interests,” because it involved the “performance of federal
procurement contracts,” which “border[ed] upon two
areas that [the Court] ha[d] found to involve such
‘uniquely federal interests’”: (1) the rights and obligations of the United States under its contracts, and (2)
the “civil liability of federal officials for actions taken
in the course of their duty.” Id. at 504–06, 108 S.Ct.
2510. In the second step, after recognizing these interests, the Court asked whether a “significant conflict exist[ed] between an identifiable federal policy or
interest and the operation of state law,” and whether
“the application of state law would frustrate specific
objectives of federal legislation.” Id. at 507, 108 S.Ct.
2510 (internal quotation marks and citation omitted).
The Court explained that “[t]he conflict with federal
policy need not be as sharp to justify preemption”
when a suit involves an area of “unique federal concern,” but nonetheless “conflict there must be.” Id. at
507–08, 108 S.Ct. 2510. The Court then found this
conflict in the discretionary function exception to the
Federal Tort Claims Act (“FTCA”), noting that it
“demonstrates the potential for, and suggests the outlines of, ‘significant conflict’ between federal interests
and state law in the context of Government procurement.” Id. at 511, 108 S.Ct. 2510.

205a
The Boyle case thus works the displacement of
state law, through preemption, with federal common
law and then describes the content of the federal common law government contractor defense, looking for
that purpose to the discretionary function exception in
the FTCA.
This case, however, does not involve the government contractor defense recognized in Boyle, but rather a defense based on the combatant activities exception, a common law immunity recognized in the
FTCA. See 28 U.S.C. § 2680(j) (retaining sovereign
immunity for claims “arising out of the combatant activities of the military or naval forces, or the Coast
Guard during time of war”); see also Filarsky, 132
S.Ct. at 1665 (“[W]e ‘proceed[ ] on the assumption that
common-law principles of . . . immunity were incorporated into our judicial system and that they should not
be abrogated absent clear legislative intent to do so’”
(first alteration in original) (quoting Pulliam v. Allen,
466 U.S. 522, 529, 104 S.Ct. 1970, 80 L.Ed.2d 565
(1984))). The defendants in this case asked the district courts to apply the methodology of Boyle, as the
court did in Saleh, in order to recognize the federal
common law defense based on the combatant activities
exception, which is animated by different interests
than were at issue in Boyle. See Saleh, 580 F.3d at 6
(“The crucial point is that the [Boyle ] court looked to
the FTCA exceptions to the waiver of sovereign im-

206a
munity in order to determine that the conflict was significant and to measure the boundaries of the conflict”
(emphasis added)).2
Saleh indeed did apply the Boyle methodology to
circumstances identical to those before us. Thus the
Saleh court concluded that Congress intended the
combatant activities exception to “eliminat[e] . . . tort
from the battlefield, both to preempt state or foreign
regulation of federal wartime conduct and to free military commanders from the doubts and uncertainty
inherent in potential subjection to civil suit.” Saleh,
580 F.3d at 7 (emphasis added). The D.C. Circuit in
Saleh explained:
In the context of the combatant activities exception, the relevant question is not so much
whether the substance of the federal duty is
inconsistent with a hypothetical duty imposed
by the State or foreign sovereign. Rather, it is
the imposition per se of the state or foreign
tort law that conflicts with the FTCA’s policy
of eliminating tort concepts from the battlefield. The very purposes of tort law are in con-

2

The majority’s assertion that we are “repackaging for the
sake of convenience the preemption defense derived from Boyle
as ‘combatant activities immunity,’” ante, at 218, ignores the fact
that Boyle and Saleh, though they both apply preemption, then
proceed to apply different principles of federal common law to the
issue at hand. Thus, not only are we not applying the common
law applied in Boyle, we are also not repackaging anything from
Boyle. Rather, we are analyzing the content of the federal common law that the Boyle methodology instructs us to apply. Saleh
analyzed the content of this law as well, and the majority simply
ignores that there is any such content in its singular focus on the
“preemption” label.

207a
flict with the pursuit of warfare. Thus, the instant case presents us with a more general
conflict preemption, to coin a term, “battlefield preemption”: the federal government occupies the field when it comes to warfare, and
its interest in combat is always “precisely contrary” to the imposition of a non-federal tort
duty.
Saleh, 580 F.3d at 7. After displacing state tort law
in favor of the unique federal interests at stake, the
Saleh court dismissed the complaints based on sovereign immunity.
Thus, to reject the defendants’ claim of sovereign
immunity under Saleh amounts to subjecting government contractors engaged in the war effort of the military to suits, thereby interfering with the very combatant activities intended to be protected from suit by
federal statutory and common law. The government’s
unique interest can only be protected and preserved if
the Saleh defense to a potential suit is preserved by
our review at the outset of litigation. This is because
the Saleh immunity serves the interests of freeing officers engaged in combatant activities from “the
doubts and uncertainty inherent in potential subjection to civil suit.” Saleh, 580 F.3d at 7 (emphasis
added).
Although the legislative history of the combatant
activities exception is “singularly barren,” courts have
long recognized that the exception serves to exempt
activities that “by their very nature should be free
from the hindrance of a possible damage suit.” Johnson v. United States, 170 F.2d 767, 769 (9th Cir.1948)
(emphasis added). In recognizing the interests that

208a
made qualified immunity a protection against standing trial, the Supreme Court has similarly emphasized that “the public interest may be better served by
action taken ‘with independence and without fear of
consequences.’” Mitchell, 472 U.S. at 525, 105 S.Ct.
2806 (quoting Harlow v. Fitzgerald, 457 U.S. 800, 819,
102 S.Ct. 2727, 73 L.Ed.2d 396 (1982)). These “consequences” were “not limited to liability for money damages” but also included “ ‘the general costs of subjecting officials to the risks of trial-distraction of officials
from their governmental duties, inhibition of discretionary action, and deterrence of able people from
public service.’” Id. at 526, 105 S.Ct. 2806 (quoting
Harlow, 457 U.S. at 816, 102 S.Ct. 2727).
Moreover, in Filarsky, the Supreme Court relied
on the same public interest in holding that common
law immunity protects not only government employees but also private contractors when performing the
government’s work:
The public interest in ensuring performance of
government duties free from the distractions
that can accompany even routine lawsuits is
also implicated when individuals other than
permanent government employees discharge
these duties. Not only will such individuals’
performance of any ongoing government responsibilities suffer from the distraction of
lawsuits, but such distractions will also often
affect any public employees with whom they
work by embroiling those employees in litigation.
Filarsky, 132 S.Ct. at 1666 (citation omitted).

209a
The same concerns recognized in Mitchell and
Filarsky animate the combatant activities exception
here, ensuring that entities engaged in actions arising
out of combatant activities do not suffer “distraction,”
are not slowed by “inhibition,” and are willing to serve
our country. As Saleh noted, “the federal government
occupies the field when it comes to warfare, and its
interest in combat is always ‘precisely contrary’ to the
imposition of a non-federal tort duty.” 580 F.3d at 7;
see also Koohi v. United States, 976 F.2d 1328, 1337
(9th Cir.1992) (“[O]ne purpose of the combatant activities exception is to recognize that during wartime encounters no duty of reasonable care is owed to those
against whom force is directed as a result of authorized military action”).
In short, the unique federal interest embodied in
the combatant activities exception to the FTCA is an
interest in freeing military actors from the distraction, inhibition, and fear that the imposition of state
tort law by means of a potential civil suit entails. It
makes no difference whether the military actors are
low-level soldiers, commanders, or military contractors. The Supreme Court has made clear that immunity attaches to the function being performed, and private actors who are hired by the government to perform public functions are entitled to the same immunities to which public officials performing those duties
would be entitled. See Filarsky, 132 S.Ct. at 1661–66.
The unanimous Supreme Court in Filarsky emphasized that imposing liability on private individuals
performing public functions will result in “unwarranted timidity” on the part of “those engaged in the
public’s business,” calling this concern “the most im-

210a
portant special government immunity-producing concern.” Id. at 1665 (internal quotation marks omitted).
It recognized the need to “afford[ ] immunity not only
to public employees but also to others acting on behalf
of the government” because “often when there is a particular need for specialized knowledge or expertise . . .
the government must look outside its permanent work
force to secure the services of private individuals.” Id.
at 1665–66.
This case presents just such an example. The military had a need for specialized language and interrogation skills and hired private individuals to work
with the military in performing its public function.
Because potential suit and liability would result in
“unwarranted timidity” on the part of these government contractors, they must share the common law
immunity enjoyed by the military and retained by the
FTCA combatant activities exception. These interests
underlying this immunity are only protected if the immunity is not only an immunity from liability, but also
an immunity from suit.
Thus, the denial of a combatant activities defense
will be effectively unreviewable at final judgment because the defendants will no longer be able to vindicate their right to avoid the burdens and distractions
of trial. Military contractors will have to undertake
future actions “arising out of combatant activities”
with the understanding that they are presumptively
subject to civil tort law and must abide by state law
duties of care in the middle of a foreign war zone. The
result will be exactly what the Supreme Court cautioned against in Filarsky: “those working alongside
[government employees] could be left holding the

211a
bag—facing full liability for actions taken in conjunction with government employees who enjoy immunity
for the same activity.” 132 S.Ct. at 1666. The governmental interests in uninhibited military action and in
the attraction of talented candidates, both public and
private, animate the combatant activities exception,
and these interests are far broader than the limited
interests recognized by the majority, which focuses
only on “sensitive military issues.” Ante, at 219. Such
a narrow mischaracterization of the federal interest
ignores the broad language of the exception (protecting actions “arising out of combatant activities”) and
finds no support in federal common law.
At bottom, it is readily apparent that the district
courts’ orders denying Saleh immunity fall comfortably within the collateral order doctrine. As the Supreme Court has said in summarizing its collateral order precedents:
In each case, some particular value of a high
order was marshaled in support of the interest
in avoiding trial: honoring the separation of
powers, preserving the efficiency of government
and the initiative of its officials, respecting a
State’s dignitary interest, and mitigating the
government’s advantage over the individual.
That is, it is not mere avoidance of a trial, but
avoidance of a trial that would imperil a substantial public interest, that counts when asking whether an order is “effectively” unreviewable if review is to be left until later.
Will v. Hallock, 546 U.S. 345, 352–53, 126 S.Ct. 952,
163 L.Ed.2d 836 (2006) (emphasis added). So it is in
these cases.

212a
C. Law–of–War Immunity
Finally, CACI and L–3 claimed protection from
suit and from the application of Iraqi law under lawof-war immunity, as recognized in the Supreme
Court’s decision in Dow v. Johnson, 100 U.S. 158, 25
L.Ed. 632 (1879), because they were part of the occupying force in the middle of an ongoing war.3
The plaintiffs agree that the district courts conclusively decided that defendants were not entitled to
law-of-war immunity and that the issue is collateral
to the merits. They contend, however, that this immunity is not an immunity from suit but a doctrine of
jurisdiction, depriving courts in an occupied territory
of jurisdiction over the occupying forces.
In its amicus brief, the United States noted, without explanation, that “Dow and the policies it reflects
may well inform the ultimate disposition of these
claims,” but the United States was “not prepared . . .
to conclude that the contractor defendants have
demonstrated a right to immediate review of their
contentions based on Dow alone.”

3

In Al–Quraishi, the district court determined that Iraqi law
would apply to the action under Maryland’s adherence to the lex
loci delicti rule in analyzing choice of law in tort actions. 728
F.Supp.2d at 761–62. In Al Shimari, the district court noted that
it would “present the parties with the opportunity to address the
choice of law issue at a later date,” and did not determine what
law would apply. 657 F.Supp.2d at 725 n. 7. Virginia law, however, also applies the lex loci delicti rule and, thus, Iraqi law
would appear to apply in that action as well. See Colgan Air, Inc.
v. Raytheon Aircraft Co., 507 F.3d 270, 275 (4th Cir.2007) (per
curiam). As Judge Wilkinson notes, however, the plaintiffs in Al
Shimari contend that Virginia law should apply.

213a
The majority again resorts to labels to resolve this
immunity issue, noting that Dow does not use the
word “immunity.” The fact that Dow does not use the
specific term “immunity,” however, has little relevance to the question of whether a ruling denying application of its holding is immediately appealable.
Dow characterized the defense at issue as an “exemption from . . . civil proceedings,” 4 100 U.S. at 165 (emphasis added), which, as was customary to find at the
time, led to a lack of “jurisdiction” of the court over the
defendant, id. at 170. In The Schooner Exchange v.
McFaddon, 11 U.S. (7 Cranch) 116, 3 L.Ed. 287 (1812),
which was relied on by Dow, the Court similarly used
the language of “jurisdiction,” and this phrase was
later interpreted by the Supreme Court to stand for
what we call, in today’s parlance, foreign sovereign
immunity. See Verlinden B.V. v. Cent. Bank of Nigeria, 461 U.S. 480, 486, 103 S.Ct. 1962, 76 L.Ed.2d 81
(1983). Further, subsequent cases, including Supreme Court decisions, recognize that the Dow protection is a type of immunity. See Underhill v. Hernandez, 168 U.S. 250, 252–53, 18 S.Ct. 83, 42 L.Ed. 456
4
Compare this language with the Supreme Court’s more recent characterization that qualified immunity “shields government agents from liability for civil damages,” Behrens, 516 U.S.
at 305, 116 S.Ct. 834 (internal quotation marks and alterations
omitted) (emphasis added), or that it serves as a “protection to
shield [defendants] from undue interference with their duties
and from potentially disabling threats of liability,” Harlow v.
Fitzgerald, 457 U.S. 800, 806, 102 S.Ct. 2727, 73 L.Ed.2d 396
(1982) (emphasis added), and again that government officials are
“shielded from liability for civil damages,” id. at 818, 102 S.Ct.
2727 (emphasis added). See also Anderson v. Creighton, 483 U.S.
635, 638, 107 S.Ct. 3034, 97 L.Ed.2d 523 (1987) (noting that qualified immunity “shield[s]” government officials “from civil damages liability”).

214a
(1897); Moyer v. Peabody, 212 U.S. 78, 85–86, 29 S.Ct.
235, 53 L.Ed. 410 (1909); “Act of State” Immunity, 57
Yale L.J. 108, 112 (1947).
Rather than fuss with a label, however, we must
determine the nature of the defense recognized in Dow
so as to be able to determine whether its rejection is
immediately appealable.
The majority finds it “curious to imagine the nineteenth century [Supreme] Court regarding its decisions in the Civil War cases as having durable precedential effect,” citing no authority to reach that conclusion, and implies they may not “possess continued
relevance beyond their immediate context.” Ante, at
217. By contrast, at oral argument, the United States
postulated that the “principles of Dow may have further life in other doctrines,” and specifically argued
that these principles may be “given effect” by courts in
their recognition of the federal common law defense
identified in Saleh based on the combatant activities
exception. Dow and other cases of its era were decided
as a matter of federal and international common law
at a time when the Supreme Court recognized the validity of such common law. See Ford v. Surget, 97 U.S.
594, 613, 24 L.Ed. 1018 (1878) (finding a Mississippi
civilian immune from civil suit for destroying another
citizen’s cotton in support of the occupying Confederate army based on the “common laws of war—those
maxims of humanity, moderation, and justice” and the
“law of nations”).
Although the invocation of federal common law
was restricted severely with the Supreme Court’s decision in Erie Railroad Co. v. Tompkins, 304 U.S. 64,

215a
58 S.Ct. 817, 82 L.Ed. 1188 (1938), the Court’s decision in Boyle nonetheless explicitly instructs courts to
displace state tort law with federal common law when
the imposition of state tort law would conflict with
uniquely federal interests. The immunity recognized
in Dow falls within the same body of federal common
law that displaces state law under the methodology
employed by Boyle. And “common-law principles of
. . . immunity were incorporated into our judicial system and . . . should not be abrogated absent clear legislative intent to do so.” Filarsky, 132 S.Ct. at 1665
(internal quotation marks omitted). For this reason,
the immunity claimed by the defendants under Dow
and the immunity claimed under the common law defense based on the combatant activities exception are
simply two variations of the same principle; they are
both a common law immunity from suit. And Boyle
provides the methodology for preempting state law
and applying the federal common law immunity, as
pointed out in Saleh.
The majority relies heavily on the Supreme
Court’s statement that an immunity from suit must
typically be derived from “an explicit statutory or constitutional guarantee that trial will not occur.” Ante,
at 217. Thus, the majority would conclude that Saleh
preemption cannot be an immunity from suit, because
there is “no contention that the Supreme Court in
Boyle [ ], from which Saleh preemption is derived, relied on any such explicit guarantee embodied in statute or in the Constitution.” Ante, at 217. Retreating
almost immediately from this categorical statement,
however, the majority then admits in a footnote that
the Supreme Court has recognized an implicit immun-

216a
ity from suit when such immunity has a “ ‘good pedigree in public law,’ which more than makes up for its
implicitness.” Ante, at 217 n. 9 (quoting Digital
Equip., 511 U.S. at 875, 114 S.Ct. 1992). Yet, it continues to overlook the fact that the recognized need in
Dow and other cases to free military operations from
the duties and standards of state tort law represent
the same kind of public law pedigree that led the Supreme Court to recognize qualified immunity, which
is a common law defense and is concededly an immediately appealable issue. As the Supreme Court recently instructed, “We consult the common law to
identify those governmental functions that were historically viewed as so important and vulnerable to interference by means of litigation that some form of absolute immunity from civil liability was needed to ensure that they are performed with independence and
without fear of consequences.” Rehberg v. Paulk, –––
U.S. ––––, 132 S.Ct. 1497, 1503, 182 L.Ed.2d 593
(2012) (internal quotations marks omitted).
Therefore, for the same reasons that the denial of
the federal common law defense recognized in Saleh
is immediately appealable, inasmuch as the exemption from suit will effectively be unreviewable on appeal, the denial of the law-of-war immunity is immediately appealable, either independently or as part
and parcel of the Saleh defense. The similarity in language is striking. Dow asks, “[w]hat is the law which
governs an army invading an enemy’s country,” and
concludes that “[i]t is not the civil law of the invaded
country; it is not the civil law of the conquering country: it is military law,—the law of war.” 100 U.S. at
170. Dow continued to reason that “for the protection
of the officers and soldiers of the army” the supremacy

217a
of the common law of war over the civil law “is as essential to the efficiency of the army as the supremacy
of the civil law at home.’’ Id. (emphasis added). Similarly, Saleh emphasizes the necessary “elimination of
tort from the battlefield, both to preempt state or foreign regulation of federal wartime conduct and to free
military commanders from the doubts and uncertainty inherent in potential subjection to civil suit.”
580 F.3d at 7 (emphasis added). The freedom from
“potential subjection” to civil suits and the ability of
military personnel and contractors performing military functions to act efficiently, without the distraction and inhibition inherent in the potential imposition of state tort standards of duty onto an active, foreign war zone cannot be vindicated by reviewing the
liability of officers or entities after a final judgment.
*

*

*

The denial of any one of the three immunities
claimed by CACI and L–3 is undoubtedly immediately
appealable under the collateral order doctrine. Not
only has the denial of such immunities, even on
12(b)(6) motions, traditionally been found to be immediately appealable, see, e.g., Behrens, 516 U.S. at 305–
06, 116 S.Ct. 834, but the substance of each immunity
claim is a paradigm example of the type of collateral
order that was held immediately appealable in Cohen.
The immunities claimed protect the defendants from
judicial intervention into battlefield operations, a protection which would necessarily be breached by subjecting battlefield operatives to suit. As noted above,
these immunities can only be vindicated and protected by allowing interlocutory appellate review.

218a
III.
Upon the necessary recognition of our appellate
jurisdiction to consider the immunities on an interlocutory basis, we must, at once and as the next immediate step, consider our subject matter jurisdiction, as
well as the subject matter jurisdiction of the district
courts. “On every writ of error or appeal, the first and
fundamental question is that of jurisdiction, first of
this court, and then of the court from which the record
comes. This question the court is bound to ask and
answer for itself. . . .” Steel Co. v. Citizens for a Better
Env’t, 523 U.S. 83, 94, 118 S.Ct. 1003, 140 L.Ed.2d 210
(1998). Article III provides that the judicial power
only extends to “Cases” or “Controversies,” U.S. Const.
art. III, § 2, and the “requirement that jurisdiction be
established as a threshold matter ‘spring[s] from the
nature and limits of the judicial power of the United
States’ and is ‘inflexible and without exception,’” id. at
94–95, 118 S.Ct. 1003 (quoting Mansfield, C. & L.M.R.
Co. v. Swan, 111 U.S. 379, 382, 4 S.Ct. 510, 28 L.Ed.
462 (1884)).
Even when faced with a collateral order immunity
appeal, we are not relieved of the duty to ask first
whether the district courts and then whether our
court have Article III jurisdiction to hear these cases.
See In re Methyl Tertiary Butyl Ether Prods. Liab.
Litig., 488 F.3d 112, 121–22 (2d Cir.2007) (“We conclude that review of [a removal] question is required
pursuant to our independent obligation to satisfy ourselves of the jurisdiction of this court and the court
below. . . . This obligation is not extinguished because
an appeal [from the denial of sovereign immunity] is
taken on an interlocutory basis and not from a final
judgment”); Kwai Fun Wong v. United States, 373

219a
F.3d 952, 960–61 (9th Cir.2004) (“Resolution of subject matter jurisdiction is . . . necessary to ensure
meaningful review of the district court’s interlocutory
rulings because if the appellate courts lack jurisdiction, they cannot review the merits of these properly
appealed rulings” (internal quotation marks omitted)
(alterations in original)); Hospitality House, Inc. v.
Gilbert, 298 F.3d 424, 429 (5th Cir.2002) (“[W]here, as
in the instant case, we have interlocutory appellate
jurisdiction to review a district court’s denial of Eleventh Amendment immunity, we may first determine
whether there is federal subject matter jurisdiction
over the underlying case”); Timpanogos Tribe v. Conway, 286 F.3d 1195, 1201 (10th Cir.2002) (“[J]urisdiction is a threshold question which an appellate court
must resolve before addressing the merits of the matter before it. . . . [B]ecause we have appellate jurisdiction over the interlocutory appeal of defendants’ assertion of Eleventh Amendment immunity, we also
have appellate jurisdiction to determine whether the
district court had subject matter jurisdiction over the
Tribe’s underlying claim against defendants in the
first instance”).5
In the cases presently before us, the plaintiffs
have asked civilian courts to entertain state tort law

5

Some of these courts have considered jurisdictional questions
by exercising pendent appellate jurisdiction over the question,
reasoning that determining subject matter jurisdiction is “necessary to ensure meaningful review” of the immunity question. See
Kwai Fun Wong, 373 F.3d at 960–61; Timpanogos Tribe, 286
F.3d at 1201. Other courts have considered it because of their
inherent power and obligation under Steel Co. to consider jurisdiction. See Hospitality House, 298 F.3d at 429–30. The result is
the same under either approach.

220a
causes of action based on conduct taken in connection
with an active and ongoing war against another sovereign. To entertain the plaintiffs’ claims would impose, for the first time, state tort duties onto an active
war zone, raising a broad array of interferences by the
judiciary into the military functions textually committed by our Constitution to Congress, the President,
and the Executive Branch. See U.S. Const. art. I, § 8,
cls. 11–14 (authorizing Congress to declare war, to
raise armies and create a navy, and to make rules for
the military); id. art. II, § 2 (providing that the President “shall be Commander–in–Chief of the army and
navy of the United States, and of the militia of the
several states, when called into the actual Service of
the United States”). Because these cases implicate
several “textually demonstrable constitutional commitment[s]” of authority to the “political department[s],” they have no place in federal courts and
must be dismissed for lack of jurisdiction. Baker v.
Carr, 369 U.S. 186, 216, 82 S.Ct. 691, 7 L.Ed.2d 663
(1962).
The plaintiffs in these cases were seized in a war
zone by the military, having been suspected of hostile
activity or of possessing useful intelligence. The function of detaining and interrogating such persons to obtain intelligence was undoubtedly critical to the success of military strategies and campaigns. The judgment of whom to interrogate, what to inquire about,
and the techniques to use fell comfortably within the
powers of the Commander–in–Chief and his subordinates in the chain of command. And CACI and L–3,
as civilian contractors of the military, worked side by
side with the military to carry out these military op-

221a
erations under the ultimate supervision and command of the military “during a period of armed conflict
and in connection with hostilities.” They were engaged by the military to pursue interrogations under
the command and control of military personnel with
respect to persons detained by the military. And, consistent with the close connection between the military
and the military contractors, the complaints allege
that the military and the civilian contractors conspired in their abuse of the military detainees.
For the reasons I gave in my panel concurrence in
Al Shimari, 658 F.3d at 420–25 (Niemeyer, J., concurring), and the reasons given by Judge King in his majority opinion in Taylor v. Kellogg Brown & Root Services, 658 F.3d 402, 412 (4th Cir. 2011), I would conclude that the political question doctrine deprives
both this court and the district courts of subject matter jurisdiction to hear these cases. See also Massachusetts v. EPA, 549 U.S. 497, 516, 127 S.Ct. 1438, 167
L.Ed.2d 248 (2007) (“It is . . . familiar learning that no
justiciable ‘controversy’ exists when parties seek adjudication of a political question”); Tiffany v. United
States, 931 F.2d 271, 277 (4th Cir.1991) (“Of the legion
of governmental endeavors, perhaps the most clearly
marked for judicial deference are provisions for national security and defense. . . . The strategy and tactics employed on the battlefield are clearly not subject
to judicial review”); Carmichael v. Kellogg Brown &
Root Servs., Inc., 572 F.3d 1271, 1283 (11th Cir.2009).
Accordingly, while we undoubtedly have appellate
jurisdiction under Cohen to consider these appeals at
this stage in the proceedings, we lack subject matter
jurisdiction over these cases, as did the district courts.
I would therefore dismiss these appeals for lack of

222a
subject matter jurisdiction and remand the cases to
the district courts with orders that they likewise dismiss the cases for lack of subject matter jurisdiction.
Judge Wilkinson and Judge Shedd have indicated
that they join this opinion.

223a
APPENDIX E
PUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
SUHAIL NAJIM ABDULLAH AL
SHIMARI; TAHA YASEEN AR-RAQ
RASHID; SA’AD HAMZA HANTOOSH AL-ZUBA’E; SALAH HASAN
NUSAIF JASIM AL-EJAILI,
Plaintiffs-Appellees,
v.
CACI INTERNATIONAL, INCORPORATED; CACI PREMIER TECHNOLOGY, INCORPORATED,
Defendants-Appellants

No. 09-1335

KELLOGG BROWN & ROOT SERVICES, INCORPORATED,
Amicus Supporting Appellants.
Appeal from the United States District Court
for the Eastern District of Virginia, at Alexandria.
Gerald Bruce Lee, District Judge.
(1:08-cv-00827-GBL-JFA)
Argued: October 26, 2010
Decided: September 21, 2011
Before NIEMEYER, KING, and SHEDD, Circuit
Judges.

224a
Reversed and remanded with instructions by published opinion. Judge Niemeyer wrote the opinion, in
which Judge Shedd joined. Judge Niemeyer wrote a
separate opinion giving additional reasons for reversing and remanding. Judge King wrote a dissenting
opinion.

COUNSEL
ARGUED: Joseph William Koegel, Jr., STEPTOE &
JOHNSON, LLP, Washington, D.C., for Appellants.
Susan L. Burke, BURKE PLLC, Washington, D.C., for
Appellees. ON BRIEF: John F. O’Connor, STEPTOE
& JOHNSON, LLP, Washington, D.C., for Appellants.
Susan M. Sajadi, Katherine R. Hawkins, BURKE
PLLC, Washington, D.C., for Appellees. Raymond B.
Biagini, Lawrence S. Ebner, Robert A. Matthews,
Daniel L. Russell, Jr., MCKENNA LONG & ALDRIDGE LLP, Washington, D.C., for Amicus Supporting Appellants.

OPINION
NIEMEYER, Circuit Judge:
Four Iraqi citizens, who were seized by the U.S.
military in the Iraq war zone and detained by the military in Abu Ghraib prison, near Baghdad, commenced this tort action against a civilian contractor,
retained by the military to assist it at the prison in
conducting interrogations for the purpose of obtaining
intelligence. The plaintiffs allege that while they
were detained, the contractor’s employees and military personnel conspired among themselves and with

225a
others to torture and abuse them and to cover up that
conduct.
The contractor filed a motion to dismiss on numerous grounds, including the political question doctrine;
federal preemption under Boyle v. United Technologies Corp., 487 U.S. 500 (1988), and Saleh v. Titan
Corp., 580 F.3d 1 (D.C. Cir. 2009); and derivative sovereign immunity. The district court denied the contractor’s motion, concluding that the “[p]laintiffs’
claims are justiciable because civil tort claims against
private actors for damages do not interfere with the
separation of powers”; that defendant’s claim of immunity must be developed through discovery, and dismissal now would be premature; and that plaintiffs’
claims “are not preempted by the combatant activities
exception at this stage because discovery is required
to determine whether the interrogations here constitute ‘combatant activities’ within the meaning of the
exception.” Al Shimari v. CACI Premier Technology,
Inc., 657 F. Supp. 2d 700, 731 (E.D. Va. 2009).
On the contractor’s appeal, we reverse and remand with instructions to dismiss this case. We conclude that the plaintiffs’ state law claims are
preempted by federal law and displaced by it, as articulated in Saleh v. Titan Corp., 580 F.3d 1, 8-12 (D.C.
Cir. 2009).
I.
In response to the unprovoked attacks on the
United States on September 11, 2001, during which
some 3,000 people were killed, a multinational force,
led by the United States and Great Britain, invaded
Iraq in March 2003 to depose Saddam Hussein and rid
Iraq of weapons of mass destruction. While Hussein

226a
was quickly deposed and no weapons of mass destruction were found, the war in Iraq continued at least for
the period relevant to the claims asserted in this action. Indeed, according to various published data, a
substantial number of deaths and casualties of both
Iraqi civilians and members of the U.S. military continued even up to the time of oral argument, although
at a reduced level from the peak in 2006 and 2007.
See, e.g., Hannah Fischer, Cong. Research Serv.,
R40824, Iraq Casualties (Oct. 7, 2010), available at
www.state.gov/documents/organization/150201.pdf;
U.S. Casualties in Iraq, www.globalsecurity.org/military/ops/ iraq_casualties.htm (last visited Jan. 10,
2011).
During the course of the war, the U.S. military
seized and detained Iraqi citizens suspected of being
enemy combatants or thought to have value in possessing useful intelligence. Some of these detainees
were imprisoned at Abu Ghraib prison, near Baghdad.
Although the prison was operated in the war zone by
the United States Army, “a severe shortage” of military intelligence personnel “prompt[ed] the U.S. government to contract with private corporations to provide civilian interrogators and interpreters.” J.A. 408.
These contractors included CACI Premier Technology, Inc., a subsidiary of CACI International, Inc. (collectively herein, “CACI”). The contractors were required to comply with Department of Defense interrogation policies and procedures when conducting
“[i]ntelligence interrogations, detainee debriefings,
and tactical questioning” of persons in the custody of
the U.S. military. J.A. 270-71.

227a
In the Executive Summary of the Senate Armed
Services Committee Inquiry into the Treatment of Detainees in U.S. Custody, the Committee detailed the
history of the standards and practices applied in interrogations at Guantanamo Bay, Iraq, and Afghanistan.
J.A. 360-65. The Executive Summary noted that the
President signed an order on February 7, 2002, stating that the Third Geneva Convention did not apply
to the conflict with al-Qaeda and the Taliban and that
detainees were not entitled to the protections afforded
prisoners of war by the Third Geneva Convention.
But the order stated that, as “a matter of policy, the
United States Armed Forces shall continue to treat
detainees humanely and, to the extent appropriate and
consistent with military necessity, in a manner consistent with the principles of the Geneva Conventions.” J.A. 354 (emphasis added). Later, in December
2002, following requests from the field to employ aggressive interrogation techniques to obtain intelligence, the Secretary of Defense approved a list of techniques for interrogation, such as stress positions, removal of clothing, use of phobias (such as fear of dogs),
and deprivation of light and auditory stimuli. J.A.
360. While the approval was directed at interrogations being conducted at Guantanamo Bay, it was also
circulated to military personnel in Iraq and Afghanistan. J.A. 363. But even as aggressive techniques
were being employed for interrogation conducted in
those theatres, the Secretary rescinded his memorandum approving the specific techniques. J.A. 363. It
was unclear, however, what techniques there-after remained authorized by the Secretary. J.A. 363-64.
During the following year, high-level military personnel directed that interrogators in Iraq be more aggres-

228a
sive—telling field personnel that “the gloves are coming off” and “we want these detainees broken.” J.A.
365.
While the record reflects an ongoing policy not to
engage in torture, the definition of torture was the
subject of continuing debate in the Executive Branch
and the military. See J.A. 356-60. Nonetheless, the
military believed it to be in the national interest to
pursue intelligence through aggressive interrogation
techniques, inasmuch as intelligence, especially in the
context of the wars in Iraq and Afghanistan, was an
especially significant tool of war. Even so, the Senate
Armed Services Committee concluded that the approval and use of aggressive techniques were a direct
cause of detainee abuse inasmuch as they conveyed a
message that it was acceptable to mistreat and degrade detainees in U.S. custody.
While some of the abuses that the plaintiffs detailed in the allegations of their complaint appear to
have been approved by the military at one point or another, others were clearly not.
The four Iraqi citizens who commenced this action—Suhail Najim Abdullah Al Shimari, Taha
Yaseen Arraq Rashid, Sa’ad Hamza Hantoosh AlZuba’e, and Salah Hasan Nusaif Jasim Al-Ejaili—
were detained by the U.S. military in Abu Ghraib
prison during various periods between 2003 and 2008.
They alleged that during their detention, they were
interrogated in dangerous and unauthorized stress
positions; that they were subjected to sexual assault,
repeated beatings, deprivations of food, water and
sleep, forced witnessing of the rape of another prisoner, and imprisonment under conditions of sensory

229a
deprivation; and that the facts of abuse were covered
up. They allege that the abuse and cover-up were carried out by CACI employees in conspiracy with U.S.
military personnel.
After the district court granted CACI’s motion to
stay discovery, CACI filed a motion under Rules
12(b)(1) and 12(b)(6) to dismiss, based on numerous
grounds, including the political question doctrine, federal preemption, and derivative sovereign immunity.
The district court denied the motion, and CACI filed
this interlocutory appeal, challenging the district
court’s rulings on immunity and on the defenses involving the political question doctrine and federal
preemption. See Nixon v. Fitzgerald, 457 U.S. 731
(1982) (recognizing that a ruling on the President’s absolute immunity based on the separation of powers
was immediately appealable); see also Al-Quraishi v.
L-3 Servs., Inc., __ F.3d __, Nos. 10-1891 & 10-1921
(4th Cir. Sept. 21, 2011) (holding that an appeal raising the same issues presented here is immediately appealable).
II.
Considering CACI’s preemption challenge, we
conclude, based on the uniquely federal interests involved in this case, that the plaintiffs’ tort claims are
preempted and displaced under the reasoning articulated in Boyle v. United Technologies Corp., 487 U.S.
500 (1988), as applied to circumstances virtually identical to those before us in Saleh v. Titan Corp., 580
F.3d 1 (D.C. Cir. 2009), cert. denied, __ U.S. __, No.
091313, 2011 WL 2518834 (June 27, 2011). In Saleh,
the D.C. Circuit held that where a civilian contractor
is integrated into combat activities over which the

230a
military retains command authority, a tort claim arising out of the contractor’s engagement in such activities is preempted. Saleh, 580 F.3d at 9. In reaching
its holding, the court applied the rationale of Boyle to
circumstances practically identical to those before us.
In Boyle, a marine pilot’s estate filed suit under
Virginia tort law against United Technologies Corporation, a civilian contractor of the Department of Defense, alleging the negligent design of a helicopter.
Boyle, 487 U.S. at 503. When the helicopter crashed
into the water, the pilot was unable to open the escape
hatch, which opened outward rather than inward,
causing the pilot to drown. Id. United Technologies
contended that the door’s design was specified by the
Department of Defense and that the uniquely federal
interests implicated by its procurement from civilian
contractors preempted Virginia tort law, and the Supreme Court agreed. The Court determined that the
contractor should not be held liable for implementing
the government’s design and that entertaining the pilot’s tort case would undermine the unique federal interests in the procurement of equipment for the national defense. If state tort liability were permitted,
the federal interests would be adversely affected because “either the contractor [would] decline to manufacture the design specified by the Government, or it
[would] raise its price.” Id. at 507.
The Boyle Court held that protecting these
uniquely federal interests conflicted with the purposes and operation of state tort law and therefore the
state law was preempted. It looked to the discretionary function exception of the Federal Tort Claims Act
to demonstrate that the federal government must
have the flexibility to select the appropriate design for

231a
military equipment and that allowing state tort liability for a defective design, where the government had
participated in that design, would significantly conflict with the policy embodied in and defined by the
Federal Tort Claims Act’s discretionary function exception. Id. at 511-12. Thus, Boyle recognized a government contractor preemption defense and applied it
so that contractors would be protected from state law
liability where such protection was necessary to safeguard uniquely federal interests.
While Boyle’s preemption holding thus functions
to displace state law to protect “uniquely federal interests,” it did not rely on any act of Congress to animate the preemption. Rather, the Boyle preemption,
which leaves no federal law addressing the claim, operates more in effect like sovereign immunity that is
extended to protect civilian government contractors’
functioning on behalf of the sovereign. Thus, the
shape of Boyle preemption, rather than being defined
by the presence of federal law, is defined by the priority of uniquely federal interests over countervailing
state interests as manifested in state law.
As did the courts in Boyle and Saleh, we too conclude that this case implicates important and
uniquely federal interests. The potential liability under state law of military contractors for actions taken
in connection with U.S. military operations overseas
would similarly affect the availability and costs of using contract workers in conjunction with military operations. In this case, that uniquely federal interest
was especially important in view of the recognized
shortage of military personnel and the need for assistance in interrogating detainees at Abu Ghraib
prison. Not only would potential tort liability against

232a
such contractors affect military costs and efficiencies
and contractors’ availability, it would also present the
possibility that military commanders could be hauled
into civilian courts for the purpose of evaluating and
differentiating between military and contractor decisions. That effort could become extensive if contractor
employees and the military worked side by side in
questioning detainees under military control, as the
complaint alleges in this case. Moreover, such interference with uniquely federal interests would be aggravated by the prison’s location in the war zone. Finally, potential liability under state tort law would
undermine the flexibility that military necessity requires in determining the methods for gathering intelligence.
The dissenting opinion takes the position that
CACI should not enjoy any immunity from liability
based on its repeated (and wrong) assertions that
CACI acted independently, apart from the military,
and “contrary to military directives.” Post, at 41; see
also post, at 30 (noting that “no federal interest encompasses the torture and abuses that plaintiffs allege”); post, at 32-33 (“Ultimately, the government rather than the contractor must be in charge of decision
making in order for the contractor to be shielded from
liability”); post, at 33 (“the government’s precise control over its contractor, which is so integral to Boyle’s
reasoning, is absent”); post, at 34 (noting that government authority for alleged conduct can only be determined by looking at CACI’s contract with the military); post, at 35 (“there is no evidence to support the
majority’s supposition of ‘integration’ . . . other than
what can be gleaned from the bare allegations of the

233a
Complaint”); post, at 36 (arguing that absence of government role precludes application of Boyle). But the
dissent’s position is belied by the allegations of the
complaint, which assert that all the misconduct
charged was the product of a conspiracy between
CACI personnel and military personnel. See, e.g.,
Amended Complaint ¶ 1 (alleging a conspiracy between CACI employees and military personnel, who
are “now serving time in military prison” for their participation); ¶ 70 (alleging that “CACI employees repeatedly conspired with military personnel to give
Plaintiffs the ‘special treatment’ which was code for
torture of the type endured by Plaintiffs in this hard
site”); ¶ 71 (alleging that “CACI employees repeatedly
conspired with military personnel to harm Plaintiffs
in various manners and methods referred to above”);
¶ 118 (alleging that CACI employees “agreed with
each other and others to participate in a series of unlawful acts”); ¶ 124 (alleging that CACI employees
“aided and abetted others who were torturing Plaintiffs”); and ¶ 135 (alleging that CACI’s “knowing participation in the conspiracy caused grave and foreseeable damages to Plaintiffs”). In view of these allegations of the complaint, which, at this stage, we accept
as true, we can only assume for purposes of our decision that CACI employees were integrated into the
military activities at Abu Ghraib prison in Baghdad,
over which the military retained command authority.
In addition to the specific adverse impacts on the
uniquely federal interests of interrogating detainees
in foreign battlefields, a broader and perhaps more
significant conflict with federal interests would arise
from allowing tort law generally to apply to foreign
battlefields. “[T]he traditional rationales for tort

234a
law—deterrence of risk-taking behavior, compensation of victims, and punishment of tortfeasors—are
singularly out of place in combat situations.” Saleh,
580 F.3d at 7 (emphasis omitted). In Boyle, the Supreme Court looked to the Federal Tort Claims Act exceptions for the purpose of determining whether a significant conflict between state tort law and federal interests existed. Although the relevant Federal Tort
Claims Act provision in Boyle was the discretionary
function exception, when we employ the same approach to determine the nature and extent of any conflict here, the relevant provision is the combatant activities exception. See 28 U.S.C. § 2680(j). This exception retains the United States’ sovereign immunity
for claims “arising out of the combatant activities of
the military or naval forces, or the Coast Guard, during time of war.” Id. As the D.C. Circuit observed in
Saleh, Congress intended the exception to “eliminat[e]
. . . tort from the battlefield, both to preempt state or
foreign regulation of federal wartime conduct and to
free military commanders from the doubts and uncertainty inherent in potential subjection to civil suit.”
Saleh, 580 F.3d at 7. And we agree with the D.C. Circuit’s conclusion that this interest is implicated even
when the suit is brought indirectly—against a civilian
contractor—rather than directly against the United
States itself. The acuteness of a need to preempt state
tort law in the context of battlefield activities is well
articulated in Saleh:
The nature of the conflict in this case is somewhat different from that in Boyle—a sharp example of discrete conflict in which satisfying
both state and federal duties (i.e., by designing a helicopter hatch that opens both inward

235a
and outward) was impossible. In the context
of the combatant activities exception, the relevant question is not so much whether the
substance of the federal duty is inconsistent
with a hypothetical duty imposed by the state
or foreign sovereign. Rather, it is the imposition per se of the state or foreign tort law that
conflicts with the FTCA’s policy of eliminating
tort concepts from the battlefield. The very
purposes of tort law are in conflict with the
pursuit of warfare. Thus, the instant case presents us with a more general conflict preemption, to coin a term, “battlefield preemption”:
the federal government occupies the field
when it comes to warfare, and its interest in
combat is always “precisely contrary” to the
imposition of a non-federal tort duty.
Saleh, 580 F.3d at 7 (emphasis added) (citing Boyle,
487 U.S. at 500).1
The uniquely federal interest in conducting and
controlling the conduct of war, including intelligencegathering activities within military prisons, thus is
simply incompatible with state tort liability in that
context.
This case involves allegations of misconduct in
connection with the essentially military task of interrogation in a war zone military prison by contractors
working in close collaboration with the military. We
hold that under these circumstances, where a civilian
1

Refusing to accept Saleh as the only other case squarely on
point, the dissent chooses to rely heavily on the dissenting opinion in that case and would have us create a circuit split. Post, at
31, 32, 35 n.5, 37, 38 & n.8, 39, 40 & n.10.

236a
contractor is integrated into wartime combatant activities over which the military broadly retains command authority, tort claims arising out of the contractors’ engagement in such activities are preempted.
See Saleh, 580 F.3d at 9.
III.
The nation rightly reacted with moral indignation
to the pictures circulated from Abu Ghraib prison.
And if these four Iraqi citizens did in fact suffer in a
similar manner from the unauthorized conduct of military and civilian guards and interrogators, the nation, including its judges, would react similarly. Nothing we say in this opinion is intended to condone the
torture, abuse, and cover-up alleged in the complaint.
Of course, nothing we say should be taken as passing judgment on the substance of these allegations.
For our purposes, they remain allegations that we
have accepted as true, but only for purposes of deciding this appeal.
What we hold is that conduct carried out during
war and the effects of that conduct are, for the most
part, not properly the subject of judicial evaluation.
The Commander in Chief and the military under him
have adopted policies, regulations, and manuals and
have issued orders and directives for military conduct,
and they have established facilities and procedures for
addressing violations and disobedience. On this
structural ground alone, and not on any judgment
about the conduct itself, we are requiring that the
claims of these four Iraqi detainees alleging abuse in
a military prison in Iraq be dismissed by the district
court.

237a
Therefore, we reverse the district court’s order
denying CACI’s motion to dismiss and remand with
instructions to dismiss.
REVERSED AND REMANDED
WITH INSTRUCTIONS

238a
NIEMEYER, Circuit Judge, writing separately to reverse and remand to dismiss:
I would conclude that in addition to preemption,
the political question doctrine under Baker v. Carr,
369 U.S. 186 (1962), and derivative absolute immunity under Mangold v. Analytic Services, Inc., 77 F.3d
1442 (4th Cir. 1996), require dismissal of this case. I
note that Judge King would apparently agree with application of the political question doctrine were he to
have addressed the issue. See Taylor v. Kellogg, __
F.3d __, No. 10-1543 (4th Cir. Sept. 21, 2011) (King,
J.). But, in his dissenting opinion, he has chosen to
address only federal preemption and not the political
question doctrine. Nor has he addressed derivative
absolute immunity, even though all three issues were
raised by CACI on appeal.
I.
On the political question issue, CACI contends
that plaintiffs’ claims are non-justiciable because the
conduct of its employees, on which the claims are
based, was part of the military effort undertaken in a
war zone and resolution of those claims would inextricably be tied to an evaluation of the exercise of war
powers, committed under Articles I and II of the Constitution to coordinate political branches. See Baker,
369 U.S. at 208-17. More specifically, CACI argues
that the interrogation techniques, which lie at the
core of plaintiffs’ claims, were an inseparable component of war, and that “many if not most of the alleged
forms of abuse here were interrogation techniques approved at the highest levels of the Executive Branch.”
CACI adds that it is not relevant whether the “chosen
techniques were in fact appropriate—that is precisely

239a
the political question that the courts may not ask or
answer,” citing Lin v. United States, 561 F.3d 502, 507
(D.C. Cir. 2009).
The plaintiffs argue that resolution of their claims
is not textually committed by the Constitution to coordinate political branches but, because their claims
are tort claims, to the Judicial Branch. The plaintiffs
note that their “tort claims do not even arise out of
actions by a coordinate political branch.” Rather, the
tort claims arise from conduct by CACI, which is not,
nor is it like, a coordinate branch of government. They
also argue that the torture allegedly committed by
CACI employees was never authorized by the military.
The political question doctrine, at its core, recognizes as non-justiciable any question whose resolution
is committed to a coordinate branch of government
and whose evaluation by a court would require the application of standards judicially undiscoverable or judicially unmanageable. As the Baker Court summarized, “The non-justiciability of a political question is
primarily a function of the separation of powers.” 369
U.S. at 210. Even so, the “delicate exercise” of determining whether questions are indeed political remains the responsibility of the Judicial Branch as the
“ultimate interpreter of the Constitution.” Id. at 211.
In Baker, the Court analyzed prior representative
decisions of the Court “to infer from them the analytical threads that make up the political question doctrine.” Id. It observed, for example, that earlier foreign relations cases presented political questions
where they turned on “standards that defy judicial ap-

240a
plication,” thus demanding the “single-voiced statement” of the government’s views. Id. In another example, it observed, in connection with the war powers,
that “isolable reasons for the presence of political
questions” arise in determining “when or whether a
war has ended,” id. at 213, and it pointed out that the
war power “includes the power to remedy the evils
which have arisen from its rise and progress and continues during that emergency,” id. at 213 (internal
quotation marks omitted). Distilling the core nature
of political questions, the Court explained that a “lack
of judicially discoverable standards and the drive for
evenhanded application” requires referring such questions to the political departments. Id. at 214. The
Court summarized the circumstances that present a
political question:
It is apparent that several formulations which
vary slightly according to the settings in
which the questions arise may describe a political question, although each has one or more
elements which identify it as essentially a
function of the separation of powers. Prominent on the surface of any case held to involve
a political question is found a textually demonstrable constitutional commitment of the
issue to a coordinate political department; or
a lack of judicially discoverable and manageable standards for resolving it; or the impossibility of deciding without an initial policy determination of a kind clearly for nonjudicial
discretion; or the impossibility of a court’s undertaking independent resolution without expressing lack of the respect due coordinate
branches of government; or an unusual need

241a
for unquestioning adherence to a political decision already made; or the potentiality of embarrassment from multifarious pronouncements by various departments on one question.
Unless one of these formulations is inextricable from the case at bar, there should be no
dismissal for non justiciability on the ground
of a political question’s presence.
Baker, 369 U.S. at 217. In short, the substantial presence of any one of the articulated formulations would
indicate a political question.
The Baker formulations led Justice Powell to distill the inquiry into three questions:
(i) Does the issue involve resolution of questions
committed by the text of the Constitution to a coordinate branch of government?
(ii) Would resolution of the question demand that
a court move beyond areas of judicial expertise?
(iii) Do prudential considerations counsel against
judicial intervention?
Goldwater v. Carter, 444 U.S. 996, 998 (1979) (Powell,
J., concurring in the judgment).
To answer the first question, I begin by noting
that the claims made in this case arose in the context
of the war in Iraq. And seizing, in the war zone, foreigners suspected of hostile activity or of possessing
useful intelligence and then interrogating them in the
field were integral parts of the war effort. Indeed, the
function of detaining and interrogating to obtain intelligence was undoubtedly critical to the success of

242a
military strategies and campaigns. In such circumstances, the judgment of whom to interrogate, what to
inquire about, and the techniques to use falls comfortably within the powers of the Commander in Chief
and his subordinates in the chain of command.
It is not disputed that this power to conduct war
and determine its objectives and means is explicitly
committed by the Constitution to Congress and the
President. See U.S. Const. art. I, § 8, cl. 11-14 (authorizing Congress to declare war, to raise armies and
create a navy, and to make rules for the military); id.
art. II, § 2 (providing that the President “shall be
Commander in Chief of the Army and Navy of the
United States, and of the Militia of the several States,
when called into the actual Service of the United
States”). This assignment to the President was deliberate and considered. As the Federalist papers explain, “Of all the cares or concerns of government, the
direction of war most peculiarly demands those qualities which distinguish the exercise of power by a single hand. The direction of war implies the direction of
the common strength; and the power of directing and
employing the common strength, forms a usual and
essential part in the definition of the executive authority.” The Federalist No. 74, at 383 (Alexander
Hamilton, March 25, 1788) (George W. Carey & James
McClellan eds., 1990).
We must thus ask whether plaintiffs’ claims, arising in the context of a war, challenge the exercise of
war powers so committed to coordinate political
branches. While it would certainly be so if their challenges were directed to military actions and personnel, when directed at a conspiracy of U.S. military personnel and employees of civilian contractors engaged

243a
to conduct military functions, the issue is more nuanced. Making the question more complex is the allegation that the members of the conspiracy are alleged
to have disobeyed orders and violated limits established by persons higher in the chain of military command.
In a case brought against the military directly, rather than a contractor, the allegation that a soldier
disobeyed orders surely would not make the claim justiciable if it otherwise was non-justiciable. Thus, if
interrogation was designed to uncover the location
and names of enemy personnel and their plans, the
fact that a military interrogator applied techniques
more aggressive than those approved by his commander for aggressive interrogation would not remove
the activity from the military effort, any more than
would a soldier’s shooting an enemy soldier even after
he had been seized and disarmed. Such conduct, albeit disobedient, is undertaken grossly in the course
of prosecuting war and advancing the strategy of the
military adopted by upper level commanders for carrying out the war. Just as the President and his designees are given the authority to conduct the war and
interrogate battlefield prisoners free from judicial
oversight, they are given the authority to address disobedience and impose discipline.
To be sure, this analysis, when applied to conduct
engaged in by civilian contractors, becomes more attenuated because civilian contractors do not enjoy
every protection from suit that the military might enjoy. As our dissenting colleague recognizes in another
opinion today dismissing a claim against a military
contractor based on the political question doctrine,

244a
“we are obliged to carefully assess the relationship between the military and [the contractor], and to ‘look
beyond the complaint, [and] consider[ ] how [the plaintiff] might prove [his] claim[ ] and how [defendant]
would defend.’” Taylor v. Kellogg, __ F.3d at __, No.
10-1543 (4th Cir. Sept. 21, 2011), slip op. at 13 (quoting Lane v. Halliburton, 529 F.3d 548, 565 (5th Cir.
2008) (some alterations in original)). When, as here,
this assessment demonstrates that the civilian contractors were working side by side with military personnel to carry out military operations under the ultimate supervision and command of the military in a
war zone, evaluation of their conduct raises the same
political question that would be raised by a direct
challenge to the military.
CACI’s function here (interrogating persons
seized by the military for interrogation) was ultimately a military function under the control of the
military, and therefore the decision to dismiss the
plaintiff’s claims is not affected by the fact that CACI
was a civilian contractor. The U.S. military had
picked up the detainees in the war zone and believed
that they should be interrogated. The detainees remained in the custody of the military throughout interrogations, and the military both operated and
guarded the prison. Because of personnel shortages,
however, the interrogation activities were carried out
not only by military personnel but also by civilian employees engaged to perform the same function. They
were instructed on approved interrogation techniques
and ordered not to violate the limitations. In addition,
the intelligence being sought through interrogation
was defined by the military’s goals such that the substance of the questions posed to detainees was of U.S.

245a
military origin. Moreover, the actions complained of
are alleged to have been committed jointly by CACI
employees and military personnel, and all activities
are alleged to have fallen within the scope of a conspiracy that included CACI employees and military
personnel.
Accordingly, in response to the first question in
considering the political question doctrine—whether
resolution of the questions in this case is committed
by the text of the Constitution to a coordinate branch
of government—I conclude that the answer is undoubtedly yes, even though the allegations may involve imperfect or disobedient conduct by contractors.
The answer to the second question is more complicated and requires a determination of whether resolution of the plaintiffs’ claims challenging aggressive interrogation techniques would take the courts into areas beyond their judicial expertise or competence. See
Taylor, __ F.3d at ___, No. 10-1543, slip op. at 14
(“[W]e must, to resolve this appeal, gauge the degree
to which national defense interests may be implicated
in a judicial assessment of [the tort claim]”).
As a central component of conducting war, the
President, the Executive Branch, and the military determined that aggressive interrogation techniques
were a military necessity inasmuch as the war in Iraq
involved an enemy that was spread out among numerous factions and cells within the population, without
a distinguishing organization, uniforms, or bases of
operation. Thus, as a matter of policy, the President
found it inconsistent with military necessity to afford
seized enemy combatants the protections of the Third

246a
Geneva Convention. And in carrying out that determination, the Secretary of Defense and high-level military officers directed that aggressive interrogation be
employed. There was, to be sure, a debate within the
Executive Branch about what were morally appropriate techniques and what could be justified by military
necessity. But these questions were not addressed by
applying standards that were judicially cognizable;
they were difficult judgments that involved a delicate
weighing of public policy, the public sense of morality,
public decency, the customs of war, international treaties, and military necessity. One could hardly find a
question more unsuited for the judiciary.
Indeed, in any given war, the President might
choose to impose no limits on specific military actions
ordered. For example, we know that in connection
with the response to the 9/11 attacks launched against
the United States, the President considered, and perhaps even approved, an order to shoot down a U.S. civilian airplane carrying innocent American citizens,
determining that the order was in the greater public
interest. In that case, the President had information
that the airplane was headed for the White House or
the Capitol in Washington, D.C. That type of question
could hardly have been addressed or reviewed by a
court, which would have had few if any standards to
apply.
That is not to say that the evaluation of battlefield
interrogations calls for the same intensity of response
as does the response to an enemy-captured civilian
airplane en route to the nation’s capital. Nonetheless,
interrogation was a military tool for use in prosecuting the war effort. To engage a court in the question
of which techniques were militarily necessary but yet

247a
morally acceptable and consistent with American policy, at least as defined by the President and Congress,
would require a court to exercise the very powers committed to those branches. The military necessity of
actions in the war zone, including battlefield interrogations of detainees, cannot be explored by a court
without requiring it to evaluate judgments about
which the judiciary lacks expertise and competence.
For a court to evaluate military policy that interrogation had to be more aggressive, that “the gloves are
coming off,” and that “these detainees must be broken,” it would have to evaluate the entire basis for the
military decisions or be at a loss as to where to begin.
Such questions go to the heart of the political question
doctrine.
On this question, as noted above with respect to
military personnel who disobey orders, the fact that
CACI employees may have disobeyed orders does not
remove their activities from the military function and
would not change the analysis. A court’s attempt to
evaluate the disobedient activities of CACI employees
would inappropriately enmesh the court into military
strategies, decisions, and activities to the same extent
as if they were undertaken entirely by military personnel. The political question doctrine recognizes that
the Constitution assigns such matters to Congress,
the Commander in Chief, and the Executive Branch
generally. See Tiffany v. United States, 931 F.2d 271,
277 (4th Cir. 1991) (“Of the legion of governmental endeavors, perhaps the most clearly marked for judicial
deference are provisions for national security and defense. . . . The strategy and tactics employed on the
battlefield are clearly not subject to judicial review”).

248a
Finally, addressing Justice Powell’s third question, I conclude that it would be imprudent for civilian
courts to attempt to adjudge military acts under common law tort principles. To entertain the plaintiffs’
claims under those principles would introduce, for the
first time, tort principles in a field of battle, raising a
yet broader array of interferences by the judiciary into
the military functions committed to Congress, the
President, and the Executive Branch. When deciding
whether this claim raises a political question, we must
assess “first, the extent to which [the contractor] was
under the military’s control, and second, whether national defense interests were closely intertwined with
the military’s decisions governing [the contractor’s]
conduct.” Taylor, __ F.3d at __, No. 101543, slip op. at
17. Here, the CACI was engaged by the military to
pursue interrogations under the command and control
of military personnel, and decisions about the scope
and nature of these interrogations, even more so than
decisions about “whether backup power should have
been supplied” to a particular area, id. at 18, were intricately intertwined with national defense interests.
For these reasons, I would defer to the political
branches for how best to manage military prisons, to
interrogate detainees for military intelligence, and to
punish those within the prison who disobey military
directives. See Carmichael v. Kellogg, Brown & Root
Servs., Inc., 572 F.3d 1271 (11th Cir. 2009).
II.
I would also conclude that this suit is barred by
the doctrine of derivate absolute immunity, as articulated in Mangold v. Analytic Services, Inc., 77 F.3d
1442 (4th Cir. 1996). See also Murray v. Northrop

249a
Grumman Info. Tech., Inc., 444 F.3d 169, 175 (2d Cir.
2006) (government contractor absolutely immune
from tort liability for performing contracted for governmental function, citing Mangold, 77 F.3d at 1447);
Pani v. Empire Blue Cross/Blue Shield, 152 F.3d 67,
71-73 (2d Cir. 1998) (same); Midland Psychiatric Assocs., Inc. v. United States, 145 F.3d 1000, 1005 (8th
Cir. 1998) (common law official immunity barred tort
suit against Medicare insurer). Derivative absolute
immunity protects contractors from suit where such
immunity is necessary to protect a discretionary government function and the benefits of immunity outweigh its costs.
In Mangold, we held that a government contractor
was absolutely immune from a state tort suit for defamation based on statements that the contractor
made in response to an official government investigation about its dealings with the government. There,
the Air Force had conducted an investigation into the
activities of an Air Force colonel who allegedly exerted
his influence to pressure a government contractor to
hire a family friend. Mangold, 77 F.3d at 1444-45. In
response to questions posed by the Air Force, the contractor provided information to the Air Force confirming that the colonel did indeed press the contractor to
hire the friend, despite the friend’s lack of credentials
for the position. Id. Following the contractor’s response to the Air Force, the colonel sued the contractor for defamation under Virginia law. Id. We concluded that the discretionary governmental action of
investigating suspected fraud was protected by absolute immunity and that the immunity extended “to
persons in the private sector who are government con-

250a
tractors participating in official investigations of government contracts” “to the extent that the public benefits obtained by granting immunity outweigh[ed] its
costs.” Id. at 1447. Such immunity could be extended
to a private contractor because the “immunity [was]
defined by the nature of the function being performed
and not by the office or the position of the particular
employee involved.” Id. Thus,
[i]f absolute immunity protect[ed] a particular
government function, no matter how many
times or to what level that function [was] delegated, it [was] a small step to protect that
function when delegated to private contractors, particularly in light of the government’s
unquestioned need to delegate governmental
functions. The government cannot perform all
necessary and proper services itself and must
therefore contract out some services for performance by the private sector. When the government delegates discretionary governmental functions through contracting with private
contractors, therefore, the same public interest identified in Barr [v. Matteo, 360 U.S. 564
(1959)] and Westfall [v. Erwin, 484 U.S. 292
(1988)]—the interest in efficient government—demands that the government possess
the ability meaningfully to investigate these
contracts to ensure that they are performed
without fraud, waste, or mismanagement.
Id. at 1447-48 (emphasis added).
As in Mangold, the military made the discretionary determination to interrogate detainees and re-

251a
quired the assistance of civilian contractors to perform the interrogations. Here, as in Mangold, extending immunity to the contractors is necessary to protect
the underlying discretionary governmental activity,
in this case, performing wartime interrogations.
Nonetheless, for derivative absolute immunity to
apply, its benefits must outweigh its costs. The costs
of immunity obviously arise from denying injured parties access to courts to assert otherwise legitimate
claims. Its benefit is that it prevents vexatious litigation from impairing the efficient functioning of government. In Mangold, we concluded that the government had a strong interest in receiving contractor assistance during investigations of contracting improprieties, and that such assistance would be less forthcoming if contractors could be subject to suit for their
participation. Mangold, 77 F.3d at 1447. The court
held that this interest outweighed that of potentially
defamed individuals in seeking compensation. Id.
Here, the military had a strong need to receive contractor assistance in its interrogations because of a
substantial shortage of personnel. And interrogations
were a major component of the war effort designed to
gather military intelligence. Like in Mangold, subjecting contractors to tort actions would risk interference with interrogations, as well as the availability of
civilian assistance. Because of the important public
interest in the effective prosecution of war and the alternative mechanisms already in place to ensure
against, and compensate for, the abuse for which the
plaintiffs seek compensation in this case, I would conclude, as in Mangold, that the benefits of immunity
outweigh its costs.

252a
At bottom, I would rely on these additional
grounds—the political question doctrine and derivative absolute immunity —to reverse the district
court’s order and remand this case to the district court
for dismissal.
KING, Circuit Judge, dissenting:
I write to dissent from my distinguished colleagues in the majority. For the same reasons I discuss at length in my dissenting opinion in our companion case of Al-Quraishi v. L-3 Services, Inc., ___
F.3d ___, No. 10-1891(L) (4th Cir. Sept. 21, 2011), we
lack jurisdiction over this interlocutory appeal to decide, as the majority does, that the plaintiffs’ claims
are preempted by federal law. Were we authorized to
adjudicate the merits of the preemption defense, however, we should rule it unavailing here.
I.
A.
The plaintiffs’ claims arise from their maltreatment while detained at the Abu Ghraib prison during
our nation’s military campaign in Iraq. According to
the operative Amended Complaint (the “Complaint”),
the allegations of which we are bound to take as true
at this stage of the proceedings, civilian employees of
CACI International, Inc., and CACI Premier Technology, Inc. (collectively “CACI”), while interrogating the
plaintiffs or assisting in their interrogation, conspired
with military personnel to “instigate[ ], direct[ ], participate[ ] in, [and] aid[ ] and abet[ ] conduct towards
detainees that clearly violated the Geneva Conventions, the Army Field Manual, and the laws of the

253a
United States.” Complaint ¶ 67.1 One plaintiff alleges
that he was “forcibly subjected to sexual acts by a female as he was cuffed and shackled to cell bars,” was
“dragged by a rope where part of it was tied tightly to
his penis,” and was “subjected to [a] mock execution.”
Id. ¶¶ 32, 37, 39. Other asserted abuses include beatings, food and sleep deprivation, humiliation, and being forced to witness the rape of a female detainee.
See generally id. ¶¶ 11-63.
The Complaint relates that CACI has “admitted
. . . that it had the ability to control, direct and influence the actions performed by employees,” and it insists that CACI was able “to prevent employees from
torturing plaintiffs.” Complaint ¶¶ 76-77. The plaintiffs further maintain that “CACI at all times [was]
obliged by the terms of its contract to supervise [its]
employees.” Id. ¶ 78. CACI was aware, according to
the plain-tiffs, “that the United States intended and
required that any person acting under the contract
[with] the United States would conduct themselves in
accordance with the relevant domestic and international laws.” Id. ¶ 98. Nonetheless, by engaging in
and directing the torture of the plaintiffs, CACI “directly contradicted the contract terms, domestic law
and the United States’ express policy against torture.”
Id. ¶ 115. CACI, the plaintiffs say, is consequently
liable to them under Virginia law for the torts of assault and battery, sexual assault, intentional and negligent infliction of emotional distress, and negligent
hiring and supervision.

1

The Complaint is found at J.A. 16-41. (Citations herein to
“J.A. ___” refer to the contents of the Joint Appendix filed by the
parties to this appeal.)

254a
Pursuant to Rules 12(b)(1) and 12(b)(6) of the Federal Rules of Civil Procedure, CACI moved to dismiss
the Complaint, asserting, among other things: (1)
that the suit raised a non-justiciable political question; (2) that CACI was entitled to immunity derived
from its association with the sovereign; and (3) that,
as a logical extension of the Supreme Court’s decision
in Boyle v. United Technologies Corp., 487 U.S. 500
(1988), the plaintiffs’ state law claims were
preempted, having arisen in the context of combatant
activities conducted in the federal interest. The district court denied CACI’s motion, rejecting its argument that the plaintiffs’ claims were nonjusticiable.
See Al Shimari v. CACI Premier Tech., Inc., 657 F.
Supp. 2d 700, 708-14 (E.D. Va. 2009). The court declined to decide the immunity issue at the dismissal
stage, concluding that it could not “determine the
scope of Defendants’ government contract, the amount
of discretion it afforded Defendants in dealing with
detainees, or the costs and benefits of recognizing immunity in this case without examining a complete record after discovery has taken place.” Id. at 714. The
limited record, according to the district court, also cast
doubt that CACI’s interrogation practices amounted
to “combatant activities.” Id. at 725. The court ruled
that the plaintiffs’ claims were in any event “not
preempted under Boyle,” because they “do not present
a significant conflict with a uniquely federal interest.”

255a
Id.2 Five days following the district court’s ruling, before discovery could commence, CACI noted this appeal.
B.
I need not reiterate in extravagant detail why jurisdiction over this appeal is lacking, having devoted
considerable space to the subject in my dissenting
opinion in today’s companion case of Al-Quraishi v. L3 Services, Inc., ___ F.3d ___, No. 10-1891(L) (4th Cir.
Sept. 21, 2011). Suffice it to say that the only basis
that could arguably support the exercise of collateral
order jurisdiction, see Cohen v. Beneficial Industrial
Loan Corp., 337 U.S. 541 (1949), the denial of dismissal on the ground of derivative sovereign immunity,
was not “conclusively determined” by the district
court as required by Will v. Hallock, 546 U.S. 345, 349
(2006). The denials of dismissal based on the political
question doctrine and on Boyle preemption, as applied
by the District of Columbia Circuit in Saleh v. Titan
Corp., 580 F.3d 1 (D.C. Cir. 2009), though conclusively
determined, abridged no immunity. As a result, neither ground meets the additional prerequisite of being
“effectively unreviewable” on appeal from a final judgment. See Will, 546 U.S. at 349.
The majority nevertheless accepts appellate jurisdiction, see ante at 6, reversing the district court’s interlocutory order and remanding with instructions to
2

Though it declined to dismiss the state law claims, the district court granted CACI’s motion insofar as it pertained to federal claims asserted by the plaintiffs pursuant to the Alien Tort
Statute, 28 U.S.C. § 1350. See Al Shimari, 657 F. Supp. 2d at
726-28.

256a
dismiss the plaintiffs’ remaining claims as preempted
on the same theory underlying the D.C. Circuit’s decision in Saleh. Putting aside the jurisdictional defect
for argument’s sake, I take issue with the majority’s
embrace of Saleh preemption to relieve CACI of its potential liability in this matter.3
II.
A.
1.
The majority purports merely to apply the Supreme Court’s decision in Boyle v. United Technologies
Corp., 487 U.S. 500 (1988), but by adopting the reasoning of Saleh v. Titan Corp., 580 F.3d 1 (D.C. Cir.
2009), a case presenting facts highly similar to this
one, it affords Boyle an excessively robust elasticity.
The Boyle Court recognized a form of implicit preemption of state law, based on a “significant conflict” be-

3

I address Saleh preemption on the merits because there is
much in the majority’s provocative analysis of the issue that
should not be left unanswered. Inasmuch as CACI’s derivative
sovereign immunity and political question defenses are not addressed in the majority opinion, but discussed only in Judge Niemeyer’s separate, nonprecedential opinion, I believe it would be
unhelpful and confusing to debate them here. Left to my own devices, I would not resolve any of CACI’s arguments on the merits
as we lack jurisdiction to consider them. In Taylor v. Kellogg, ___
F.3d ___, No. 10-1543 (4th Cir. Sept. 21, 2011), also decided today, I authored the opinion of the Court in which, as Judge Niemeyer points out, ante at 15, we affirmed the district court’s judgment on the ground that the dispute in that case presented a nonjusticiable political question. Our jurisdiction in Taylor was unquestioned, however, in that the appeal was taken from the district court’s indisputably final decision dismissing the plaintiff’s
case. See 28 U.S.C. § 1291.

257a
tween “uniquely federal interests” and state law duties the plaintiff sought to impose on a private contractor. See 487 U.S. at 504, 506, 512.
The contract in Boyle was one for procurement in
which the government contractor was to manufacture
and deliver military helicopters with an outwardopening escape hatch. This hatch could not be opened
underwater, which allegedly rendered the design defective under state law. To determine whether a significant conflict was present, the Court looked to the
statutory “discretionary functions” exception to the
Federal Tort Claims Act (the “FTCA”), which reserves
the sovereign immunity of the United States for,
among other things, “[a]ny claim . . . based upon the
exercise or performance or the failure to exercise or
perform a discretionary function or duty on the part of
a federal agency or an employee of the Government,
whether or not the discretion involved be abused.” 28
U.S.C. § 2680(a).
Guided by this specific FTCA exception, the Supreme Court reasoned that “the selection of the appropriate design for military equipment to be used by our
Armed Forces is assuredly a discretionary function”
under the FTCA because “[i]t often involves not
merely engineering analysis but judgment as to the
balancing of many technical, military, and even social
considerations, including specifically the tradeoff between greater safety and great combat effectiveness.”
Boyle, 487 U.S. at 511. Accordingly, the Court concluded that “state law which holds Government contractors liable for design defects in military equipment does in some circumstances present a ‘significant conflict’ with federal policy and must be displaced.” Id. at 512. The Court acknowledged that the

258a
Boyle preemptive principle was distinct from “ordinary” preemption and was not tethered to “legislation
specifically immunizing Government contractors from
liability.” Id. at 504, 507.
The Supreme Court stated in no uncertain terms,
however, that the presence of a federal interest
“merely establishes a necessary, not a sufficient, condition for the displacement of state law.” 487 U.S. at
507. Such a “[d]isplacement will occur only where . . .
a significant conflict exists between an identifiable
federal policy or interest and the operation of state
law, or the application of state law would frustrate
specific objectives of federal legislation.” Id. (citations, internal quotation marks, and alterations omitted). Although “[t]he conflict with federal policy need
not be as sharp as that which must exist for ordinary
preemption . . . , conflict there must be.” Id. at 507-08
(emphasis added).
2.
The rather obvious problem with invoking the
government’s “interest in conducting and controlling
the conduct of war,” ante at 11, to preempt the plaintiffs’ claims of gratuitous torture by an independent
contractor, is that there is no conflict between the two.
No federal interest implicates the torture and abuse
of detainees. To the contrary, the repeated declarations of our executives, echoed by the Congress, expressly disavow such practices.
For example, shortly after graphic photos depicting detainee abuse at Abu Ghraib became public,
President Bush vowed that “the practices that took
place in that prison are abhorrent and they don’t rep-

259a
resent America.” White House, Press Release, President Bush Meets with Al Arabiya Television, 2004
WLNR 2540883 (May 5, 2004). He pledged to “[t]he
people of the Middle East . . . that we will investigate
fully, that we will find out the truth,” and further assured that “justice will be served.” Id. Similarly, Secretary of Defense Rumsfeld testified before Congress
that the Abu Ghraib prisoner abuses were “inconsistent with the values of our nation,” asserting that
“[p]art of [our] mission — part of what we believe in
— is making sure that when wrongdoing or scandal
occur, that they are not covered up, but exposed, investigated, publicly disclosed — and the guilty
brought to justice.” Donald H. Rumsfeld, Testimony
Before the Senate and House Armed Services Committees 1, 6 (May 7, 2004).
For its part, the Senate “condemn[ed] in the
strongest possible terms the despicable acts at Abu
Ghraib prison.” S. Res. 356, 108th Cong. (2004).
Meanwhile, the House of Representatives declared
that the practices at Abu Ghraib “offen[d] . . . the principles and values of the American people and the
United States military . . . and contradict the policies,
orders, and laws of the United States military and undermine the ability of the United States military to
achieve its mission in Iraq.” H.R. Res. 627, 108th
Cong. (2004).
The point is not confined to the facile observation
that no federal interest encompasses the torture and
abuses that the plaintiffs allege. Indeed, it is quite
plausible that the government would view private tort
actions against the perpetrators of such abuses as advancing the federal interest in effective military activities. The government has not intervened on behalf of

260a
the contractors in this dispute, and, in fact, the Department of Defense (the “DOD”) has promulgated a
final rule advising contractors that the “[i]n appropriate use of force could subject a contractor or its subcontractors or employees to prosecution or civil liability under the laws of the United States and the host
nation.” Contractor Personnel Authorized to Accompany U.S. Armed Forces, 73 Fed. Reg. 16,764, 16,764,
16,767 (Mar. 31, 2008) (the “DOD Rule”).
The DOD Rule “may reflect the government’s general view that permitting contractor liability will advance, not impede, U.S. foreign policy by demonstrating that ‘the United States is committed to ensuring
that its contractors are subject to proper oversight and
held accountable for their actions.’” Saleh, 580 F.3d at
28 (Garland, J., dissenting) (quoting U.S. Dep’t of
State, Press Release, Department of State Legal Adviser Promotes Accountability for Private Military
and Security Companies (Sept. 17, 2008)). As the
Saleh dissent emphasizes:
the government’s failure to defend the contractors may reflect the Executive Branch’s
view that the country’s interests are better
served by demonstrating that “people will be
held to account according to our laws.” And
the Executive may believe that one way to
show that “people will be held to account” is to
permit this country’s legal system to take its
ordinary course and provide a remedy for
those who were wrongfully injured.
Id.
At bottom, Boyle does not countenance the majority’s approach because there simply is no conflict —

261a
much less, a “significant conflict” — between the asserted state law duties and any uniquely federal interest. Quite the opposite: the plaintiffs allege that
CACI violated federal policy. Boyle does not apply, because, as the Saleh dissent explained:
Boyle has never been applied to protect a contractor from liability resulting from the contractor’s violation of federal law and policy.
And there is no dispute that the conduct alleged, if true, violated both. Hence, these
cases are not within the area where the policy
of the “discretionary function” would be frustrated, and they present no significant conflict
with federal interests. Preemption is therefore not justified under Boyle.
Saleh, 580 F.3d at 23 (Garland, J., dissenting) (internal quotation marks and citations omitted).
B.
1.
Another premise underlying Boyle’s reasoning —
the rigid control that the government exerts over contractors in procuring military equipment — is absent
where, as here, the government contracted for general
services only. As the Boyle Court acknowledged, selecting military equipment “often involves not merely
engineering analysis but judgment as to the balancing
of many technical, military, and even social considerations.” 487 U.S. at 511. Ultimately, the government
rather than the contractor must be in charge of decision making in order for the contractor to be shielded
from liability. Consistently with that principle, the
Boyle test for preemption “assure[s] that the suit is
within the area where the policy of the ‘discretionary

262a
function’ would be frustrated” — that is, “that the design feature in question was considered by a Government officer, and not merely by the contractor itself.”
Id.4
By contrast, the government itself has recognized
that such judgments are not present in general services contracts. As the DOD explained in a recent
rulemaking, “[t]he public policy rationale behind
Boyle does not apply when a performance based statement of work is used in a services contract, because
the Government does not, in fact, exercise specific control over the actions and decisions of the contractor or
its employees or subcontractors.” DOD Rule, 73 Fed.
Reg. at 16,768. In other words, the government’s precise control over its contractor, which was so integral
to Boyle’s reasoning, see 487 U.S. at 509-12, is absent
in a general services contract in which the government simply requires “a contractor to ensure its employees comply with host nation law and other authorities,” DOD Rule, 73 Fed. Reg. at 16,768.
It follows that while military contractors might be
able to assert Boyle-type arguments when the government’s decisions result in injuries to third parties, the
4

More recently, the Supreme Court has reiterated the narrow
scope of the Boyle preemption defense, as well as its grounding
in a contractor’s compliance with government instructions. For
example, the Court has referred to Boyle as presenting a “special
circumstance” in which “the government has directed a contractor to do the very thing that is the subject of the claim.” Correctional Servs. Corp. v. Malesko, 534 U.S. 61, 74 n.6 (2001). As the
Fifth Circuit recently explained, “[t]he government contractor
defense in Boyle, stripped to its essentials, is fundamentally a
claim that the Government made me do it.” Katrina Canal
Breaches Litig. Steering Comm. v. Wash. Group Int’l, Inc., 620
F.3d 455, 465 (5th Cir. 2010).

263a
DOD adamantly opposes “send[ing] a signal that
would invite courts to shift the risk of loss to innocent
third parties” where “contractors . . . seek[ ] to avoid
accountability to third parties for their own actions by
raising defenses based on the sovereignty of the
United States.” DOD Rule, 73 Fed. Reg. at 16,768 (emphasis added). Accordingly, the DOD elected to “retain[ ] the current rule of law, holding contractors accountable for the negligent or willful actions of their
employees, officers, and subcontractors.” Id. In obstinate opposition to the government’s prescribed path,
the majority would protect contractors from civil liability even when there is no indication that the government authorized the conduct underlying the asserted liability.
2.
Contrary to the majority’s position, whether the
government authorized CACI’s conduct in this case
can only be ascertained by examining the contract between the parties, which, as the district court lamented, is not in the record at the dismissal stage.
The contract would shed light on:
•

The contractor’s delegated discretionary
authority — that is, the services the contractor was to provide under the contract
— and whether the contractor acted
within the bounds of such authority, see
Rodriguez v. Lockheed Martin Corp., 627
F.3d 1259, 1266 (9th Cir. 2010) (refusing
to deem claim preempted under Boyle
where “there is no proof to establish as a
matter of law that the equipment [alleged

264a
to have injured the victims] conformed to
the government’s precise specifications”);
•

Whether such authority was “validly conferred” to the contractor, see Boyle, 487
U.S. at 506 (quoting Yearsley, 309 U.S. at
20-21); and

•

Whether and to what extent the government had a significant interest in the specific services to be provided, see id. at 509
(recognizing that “significant conflict” justifying preemption may not be present
even where state duty is “precisely contrary” to contractual duty, since government may lack “significant interest in
th[e] particular feature” specified in contract).

The majority’s extra-contractual inquiry into whether
“a civilian contractor is integrated into wartime combatant activities over which the military broadly retains command authority,” ante at 11-12 (citing Saleh,
580 F.3d at 9), is of scant moment considering the lack

265a
of agency possessed by the rank-and-file military to
alter or augment the material terms of the contract.5
Of course, there is no evidence to support the majority’s supposition of “integration” (whatever that
means) in this case, other than what can be gleaned
from the bare allegations of the Complaint. But the
question is wholly irrelevant absent any allegation
that the terms of the written agreement were materially supplemented or changed (or even could be, in the
event that the contract contained a valid provision
barring parol alterations), either by representatives
with authority to act or through the parties’ course of
conduct or dealing. Here, although the plaintiffs allege a conspiracy with members of the military, they
are entitled to the inference that the conspiracy did
not define the contract, but instead permitted CACI to
act outside its bounds. Cf. ante at 5 (“While some of

5

The Army Field Manual provides that “[c]ommanders do not
have direct control over contractors or their employees . . . ; only
contractors manage, supervise, and give directions to their employees.” U.S. Dep’t of the Army, Field Manual 3-100.21, Contractors on the Battlefield § 1-22 (2003). In turn, the contractors
must adhere to their contractual obligations without regard to
the chain of command. As the Field Manual emphasizes, “the
terms and conditions of the contract establish the relationship
between the military (U.S. Government) and the contractor . . . .
Only the contractor can directly supervise its employees. The
military chain of command exercises management control
through the contract.” Id. at 3100.21, § 1-25. As such, the government has “no more control than any contracting party has
over its counterparty. And that — without more — is not enough
to make the conduct of a contractor ‘the combatant activities of
the military or naval forces.’” Saleh, 580 F.3d at 34 (Garland, J.,
dissenting) (quoting 28 U.S.C. § 2680(j)).

266a
the abuses that the plaintiffs detailed in the allegations of the complaint appear to have been approved
by the military at one point or another, others were
clearly not.”).6
C.
1.
By relying on the discretionary function exception
to the Federal Tort Claims Act (“FTCA”) to identify
the pertinent federal interest, the Supreme Court in
Boyle required, at a minimum, that reviewing courts
would examine a contractor’s allegedly tortious conduct to determine whether it was truly the product of
the government’s exercise of discretion, or merely an
ordinary, unprovoked lapse of care. The majority’s approach avoids even that minimal analysis by ground-

6

The majority seizes upon the plaintiffs’ allegation of a conspiracy between CACI and military personnel, see ante at 9-10,
in support of its irrelevant supposition that CACI employees
were integrated into the mission at Abu Ghraib. Whatever the
military “mission” was at Abu Ghraib, it did not include torturing
the plaintiffs. In any event, regardless of the relationship between the soldiers and civilians at the prison, the duties of the
latter were defined exclusively by CACI’s contract with the government. We do not know whether governmental authority to
amend the contract resided at the Pentagon or elsewhere, but we
may be fairly certain that such authority did not reside at Abu
Ghraib. That relatively low-level military personnel may have
violated their orders and encouraged their civilian counterparts
to act outside the bounds of the contract — and settled legal principles — in no way translates to a conclusion that CACI should
summarily escape liability on the ground that the actions imputed to it were somehow consistent with the government’s interests.

267a
ing the asserted federal interest in a different exception to the FTCA — the combatant activities exception
— the umbrella of which the majority would deploy
over government contractors whenever there are “actions taken in connection with U.S. military operations overseas.” Ante at 8.7
The majority thereby ignores the Supreme Court’s
warning that the FTCA’s exceptions are not equally
equipped to define the contours of an implicit preemption. The Boyle Court made the point through its discussion of Feres v. United States, 340 U.S. 135 (1950),
in which it was held that the FTCA does not waive
sovereign immunity with respect to suits brought
against the United States by service members for injuries sustained in the course of their military service.
The Supreme Court declared the Feres doctrine
unsuitable to ascertain whether a significant conflict
exists between federal interests and an asserted state
duty, in that it “logically produces results that are in
some respects too broad and in some respects too narrow.” Boyle, 487 U.S. at 510. As an example of the
former, the Court observed that “[s]ince Feres prohibits all service related tort claims against the Government, a contractor defense that rests upon it should
prohibit all service related tort claims against the
manufacturer,” id., a result that the Supreme Court
deemed inadvisable. See also Al-Quraishi v. Nakhla,
728 F. Supp. 2d 702, 740 (D. Md. 2010) (declining to

7

By enacting the combatant activities exception to the FTCA,
Congress expressly reserved the sovereign immunity of the
United States with respect to “[a]ny claim arising out of the combatant activities of the military or naval forces, or the Coast
Guard, during time of war.” 28 U.S.C. § 2680(j).

268a
adopt rationale of Saleh, based in part on Supreme
Court’s rejection of Feres as basis for preemption, “because [the Feres defense] does not take into account
whether the Government exercised any discretion or
played any role in the contractor’s alleged tortious
acts, as required by the three part test ultimately articulated in Boyle”).
The majority’s invocation of the combatant activities exception suffers from the same defects. While
the Supreme Court sought to discern an appropriate
“limiting principle” to assist in identifying any significant conflict between state and federal policies under
the discretionary function exception, Boyle, 487 U.S.
at 509, the majority’s version of preemption under the
combatant activities exception is “extraordinarily
broad, . . . result[ing] not in conflict preemption but in
field preemption.” Saleh, 580 F.3d at 23 (Garland, J.,
dissenting) (internal quotation marks omitted).8

8

Inasmuch as the FTCA contains other potentially applicable
exceptions — for “[a]ny claim arising in a foreign country,” and
for “[a]ny claim arising out of assault [and] battery” regardless
of where it occurs, 28 U.S.C. §§ 2680(h), (k) — it is baffling that
the majority can correctly identify the combatant activities exception as the one that decrees the relevant federal policy. This
is particularly so absent any meaningful discussion by the majority of what constitutes a “combatant activity,” whether such
activities may take place domestically, or how they may be distinguished from an ordinary assault or battery. The difficulties
in identifying the relevant FTCA exception makes it almost impossible to articulate why the one for combatant activities matters at all. As Judge Garland observes, “the ‘degree of integration’ test . . . seems wholly beside the point” once these other exceptions are considered. Saleh, 580 F.3d at 23 (Garland, J., dissenting). Inevitably, “[o]nce we depart from the limiting principle
of Boyle, it is hard to tell where to draw the line.” Id.

269a
2.
The majority makes no attempt to conceal the
sweeping breadth of the preemption doctrine it adopts
today, confidently maintaining that its approach
properly implements what it characterizes as “the
FTCA’s policy of eliminating tort concepts from the
battlefield.” Ante at 11 (quoting Saleh, 580 F.3d at 7).
The majority vastly overstates its case, however, because, much more narrowly,
the FTCA’s policy is to eliminate the U.S. government’s liability for battlefield torts. That,
after all, is what the FTCA says. But it is not
plain that the FTCA’s policy is to eliminate liability when the alleged tortfeasor is a contractor rather than a soldier. That, after all,
is not what the FTCA says.
Saleh, 580 F.3d at 26 (Garland, J., dissenting). Judge
Garland’s eye is keen: the FTCA waives, with certain
specific exceptions, the sovereign immunity constitutionally afforded the United States, which operates
through its various federal agencies. See 28 U.S.C.
§§ 2674, 2675. Government contractors, however, are
expressly excluded from the FTCA’s reach. See id.
§ 2671 (“[T]he term ‘Federal agency’ . . . does not include any contractor with the United States.”). The
majority’s description of the FTCA’s policy as the
wholesale elimination of wartime torts, even those
committed by private parties, is therefore inaccurate.
Congress has had no difficulty exempting private
parties from liability in other contexts. Consider, for
example, the statute found at 22 U.S.C. § 2291-4(b),
which provides that the interdiction of an aircraft over

270a
a foreign country, conducted pursuant to a presidentially approved program, “shall not give rise to any
civil action . . . against the United States or its employees or agents.” Id. (emphasis added). Congress
has issued no similar exemption here. If anything, its
wholesale exclusion of government contractors from
the limited protections of the FTCA leads to the opposite conclusion — that CACI should be held liable for
its civil misdeeds.
Further, the FTCA addresses only the immunity
of the United States; it does not shield members of the
armed services or other government employees from
tort suits. Instead, the Westfall Act provides that sort
of protection, so long as the Attorney General certifies
“that the defendant employee was acting within the
scope of his office or employment.” 28 U.S.C.
§ 2679(d)(1). Upon such certification, the employee is
dismissed from the lawsuit and the United States is
substituted as the party defendant, after which the
dispute is governed by the FTCA (as well as its exceptions that retain sovereign immunity). See Osborn v.
Haley, 549 U.S. 225, 230 (2007). But because the
West-fall Act incorporates the FTCA’s definitions, it
too excludes government contractors. Yet the majority deems the plaintiffs’ claims preempted in the absence of an Attorney General’s certification that
would have been essential were these defendants soldiers or sailors rather than contractors. The majority
thereby grants the defendants unqualified protection
that even our citizens in uniform do not enjoy.
The majority also gleans several specific policy
conflicts that tort suits against contractors would
bring about, but these concerns evaporate upon closer
inspection. The majority asserts that “[n]ot only

271a
would potential tort liability against . . . contractors
affect military costs and efficiencies and contractors’
availability,” but “would also present the possibility
that military commanders could be hauled into civilian courts for the purpose of evaluating and differentiating between military and contractor decisions.”
Ante at 8. But the possibility of cost-passing is already
taken into consideration at an earlier stage of the
Boyle inquiry, that is, in determining whether a
uniquely federal interest “will be directly affected.”
487 U.S. at 507.9
With respect to the majority’s concern that military commanders may be called to provide testimony
in private tort suits, wholesale preemption remains
un-warranted. Ordinary mechanisms of civil proce-

9

In Richardson v. McKnight, 521 U.S. 399 (1997), the Supreme Court declined to extend qualified immunity to privately
employed prison guards in an action under 42 U.S.C. § 1983. The
Court reasoned that, because contractors performing service contracts are subject to “competitive market pressures,” the threat
of tort liability encourages them to comply with contractual obligations to screen, train, and supervise their employees, so as to
promote effectiveness while preventing and deterring contractors and their employees from taking unlawful actions. See Richardson, 521 U.S. at 409 (“Competitive pressures mean not only
that a firm whose guards are too aggressive will face damages
that raise costs, thereby threatening its replacement, but also
that a firm whose guards are too timid will face threats of replacement by other firms with records that demonstrate their
ability to do both a safer and a more effective job.”). As in the
Richardson litigation, the potential for tort liability and competition between contractors may well facilitate the government’s
selection of contractors who will perform in a more effective, lawful, and inexpensive manner.

272a
dure and other legal doctrines provide ample safeguards against such interference. Federal Rule of
Civil Procedure 45, for example, compels the district
courts to quash subpoenas calling for privileged matter or that would cause an undue burden. Moreover,
the government remains free to invoke the state secrets doctrine. All this is to say, “[t]o deny preemption
is not to grant plaintiffs free reign.” Saleh, 580 F.3d
at 29 (Garland, J., dissenting).10
The majority expresses its fear that lawsuits will
“undermine the flexibility that military necessity requires in determining the methods for gathering intelligence.” Ante at 8. Such a concern also proves illusory. The plaintiffs allege that the contractor personnel acted contrary to military directives and law. The
asserted basis of liability, then, is not one that would
hamper the flexibility the military needs in determining how to gather intelligence, but rather one that
would hold contractors to account for violating the
bounds already set by the military.
III.
Because the majority erroneously strains to discover a new form of preemption unjustified by Su-

10

Moreover, the majority’s approach brings about the very
problems it seeks to avert. That is, if the courts “ignore the military’s own description of its chain of command” by looking to the
“degree of integration that, in fact, existed between the military
and [contractor] employees,” then they thereby “invite the wideranging judicial inquiry — with affidavits, depositions, and conflicting testimony — that the court rightly abjures.” Saleh, 580
F.3d at 34 (Garland, J., dissenting).

273a
preme Court precedent, and, more fundamentally, because we lack jurisdiction to announce this new rule,
I respectfully dissent.

274a
APPENDIX F
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Alexandria Division
SUHAIL NAJIM ABDULLAH )
AL SHIMARI, et al.,
)
)
Plaintiffs,
)
v.
)
)
CACI Premier Technology,
)
Inc.,
)
Defendant/Third-Party
)
Plaintiff.
)
)
v.
)
UNITED STATES OF
)
AMERICA,
)
Third-Party Defendant.
)
)

1:08-cv-827
(LMB/JFA)

[Entered:
March 22, 2019]

MEMORANDUM OPINION
Before the Court are third-party defendant the
United States of America’s (“United States”) Motion
to Dismiss [Dkt. No. 696] and Motion for Summary
Judgment [Dkt. No. 1129], as well as defendant/thirdparty plaintiff CACI Premier Technology, Inc.’s
(“CACI”) Motion to Dismiss for Lack of Jurisdiction
[Dkt. No. 1149]. For the reasons that follow, the
United States’ Motion to Dismiss will be granted as to
Count 4 and denied in all other respects, CACI’s Mo-

275a
tion to Dismiss will be denied, the United States’ Motion for Summary Judgment will be granted, and the
Third-Party Complaint will be dismissed as to the
United States.
I.

BACKGROUND

This civil action arises out of the alleged torture;
cruel, inhuman, or degrading treatment (“CIDT”); and
war crimes inflicted on plaintiffs Suhail Najim Abdullah Al Shimari (“Al Shimari”), Asa’ad Hamza
Hanfoosh Al-Zuba’e (“Al-Zuba’e”), Salah Hasan Nusaif Jasim Al-Ejaili (“Al-Ejaili”), and Taha Yaseen Arraq Rashid (“Rashid”) 1 (collectively, “plaintiffs”) by
members of the United States military and CACI employees while plaintiffs were detained at the Abu
Ghraib prison. The procedural and factual background of this civil action is described extensively in
the Memorandum Opinion of February 21, 2018 [Dkt.
No. 678] and will not be repeated in detail here. For
the purposes of the present motions, it is sufficient to
understand that plaintiffs, all of whom are Iraqi citizens who were detained at Abu Ghraib for a significant period of time, allege that they suffered severe
mistreatment at the hands of military personnel and
CACI employees. As summarized in the Memorandum Opinion:
Over the course of six weeks, Al-Ejaili was
subjected to repeated stress positions, including at least one that made him vomit black liquid; sexually-related humiliation; disruptive
sleeping patterns and long periods of being
1

On February 27, 2019, Rashid was dismissed from this civil
action because the primary mistreatment he described occurred
before CACI personnel had arrived at Abu Ghraib. Dkt. No. 1144.

276a
kept naked or without food or water; and multiple instances of being threatened with dogs.
The approximately ten to twelve times he was
interrogated involved systematic beatings, including to the head, and being doused with hot
and cold liquids. Al-Zuba’e was subjected to
sexual assault and threats of rape; being left
in a cold shower until he was unable to stand;
dog bites and repeated beatings, including
with sticks and to the genitals; repeated stress
positions, including at least one that lasted an
entire day and resulted in his urinating and
defecating on himself; and threats that his
family would be brought to Abu Ghraib. Al
Shimari was subjected to systematic beatings,
including on his head and genitals, with a baton and rifle, and some where he was hit
against the wall; multiple stress positions, including one where he was forced to kneel on
sharp stones, causing lasting damage to his
legs; being threatened with dogs; a cold
shower similar to Al-Zuba’e’s, being doused
with water, and being kept in a dark cell and
with loud music nearby; threats of being shot
and having his wife brought to Abu Ghraib;
electric shocks; being dragged around the
prison by a rope tied around his neck; and
having fingers inserted into his rectum.
Mem. Op. [Dkt. No. 678] 31-32. Plaintiffs allege that
as a result of this treatment, they have suffered “severe and lasting physical and mental damage.” Id. at
33. For example, Al Shimari, Al-Zuba’e, and Al-Ejaili
each allege that they have “been diagnosed with post-

277a
traumatic stress disorder and major depressive disorder,” and each “has submitted an expert report detailing how these mental illnesses have caused significant problems in [their] personal and professional
lives” through the present day. Id. Each plaintiff also
alleges that he continues to suffer from physical symptoms, including pain and scarring, attributable to this
mistreatment. Id.
The claims against CACI are brought under the
Alien Tort Statute (“ATS”), 28 U.S.C. § 1350, and were
initially for engaging in, conspiring to engage in, and
aiding and abetting torture; CIDT; and war crimes, all
in violation of international law. On February 21,
2018, the Court granted in part and denied in-part
CACI’s Motion to Dismiss and dismissed the direct liability counts against CACI. In so doing, the Court
determined that plaintiffs’ factual allegations describe conduct that represents “violations of international law norms that are specific, universal, and obligatory.” Mem. Op. 28 (internal quotation marks and
citation omitted); see also Sosa v. Alvarez-Machain,
542 U.S. 692, 732 (2004).
CACI has brought a Third-Party Complaint [Dkt.
No. 665] against the United States of America and

278a
John Does 1-60.2 According to the allegations in the
Third-Party Complaint, the United States military
oversaw interrogation operations at Abu Ghraib, including making decisions about which detainees
would be interrogated and which “Tiger Teams,” consisting of an interrogator (either a CACI employee or
a military person) and a linguist, would be assigned to
which detainees. Third-Party Compl. ¶ 18. In addition, all Tiger Teams reported to the military chain of
command, which included various military noncommissioned officers in charge, the Officer in Charge of
the Interrogation Control Element, and the Commanding Officer of the intelligence battalion deployed
to Abu Ghraib. Id. ¶ 19. CACI alleges that the United
States military “exercised direct and plenary control
over all aspects of a detainee’s experience at Abu
Ghraib,” control which included not only assigning
teams to detainees but also establishing the Interrogation Rules of Engagement, approving interrogation
plans for each detainee, reviewing interrogation reports prepared after each interrogation, and approving certain techniques that required authorization.
2
The John Doe defendants comprise three groups of natural
persons: soldiers deployed to Abu Ghraib; “civilian employees of
the United States Department of Defense, or any components
thereof, or civilian contractor employees supporting the U.S. military mission at Abu Ghraib”; and “employees of the United
States or civilian contractor personnel working for Other Government Agencies at Abu Ghraib.” Third-Party Compl. ¶ 9.
None of these defendants has been served. On June 8, 2018, the
United States moved to sever and stay the claims against the
John Doe defendants. Dkt. No. 832. CACI opposed the United
States’ motion. Dkt. No. 853. On July 6, 2018, the Court granted
the United States’ motion, and CACI’s third-party claims against
the John Doe defendants were severed and stayed “pending resolution of the underlying action.” Dkt. No. 869.

279a
Id. ¶ 20. The gravamen of CACI’s allegations is that
the United States military personnel, and not CACI
personnel, were ultimately responsible for directing
the interrogations of the plaintiffs and subjecting
plaintiffs to mistreatment. Accordingly, CACI seeks
to hold the government liable on a variety of theories.
In Count 1, CACI seeks common law indemnification against the United States and the John Doe defendants and, in Count 2, exoneration for any judgment that might be entered against CACI for acts of
mistreatment toward plaintiffs that the third-party
defendants “inflicted, directed, authorized, or permitted.” Id. ¶¶ 38, 45. In Count 3, CACI seeks contribution against the third-party defendants to the extent
that plaintiffs seek to hold CACI liable on a respondeat superior theory based on CACI employees’
entry into a conspiracy with or aiding and abetting the
United States or the John Doe defendants. Lastly, in
Count 4, CACI brings a breach of contract claim
against the United States, in which it alleges that
CACI’s contract with the government to supply interrogators contained an implied duty of good faith and
fair dealing that the government violated when it refused to produce discovery that could have allowed
CACI to defend itself against plaintiffs’ claims.
The United States has filed a Motion to Dismiss
[Dkt. No. 696], in which it argues that the Court lacks
subject matter jurisdiction to consider the ThirdParty Complaint because all of CACI’s claims against
it are barred by sovereign immunity. CACI has also
filed a derivative Motion to Dismiss [Dkt. No. 1149],
in which it argues that any sovereign immunity
granted to the United States must apply equally to it
due to its status as a government contractor. Because

280a
the Court had not ruled on the United States’ Motion
to Dismiss, the United States has also filed a Motion
for Summary Judgment [Dkt. No. 1129], in which it
argues that it is entitled to judgment as a matter of
law because in 2007, CACI and the United States settled all claims arising out of the task orders pursuant
to which CACI sent civilian interrogators to Abu
Ghraib.
II. UNITED STATES’ MOTION TO DISMISS
A.

Standard of Review

Under Fed. R. Civ. P. 12(b)(1), a civil action must
be dismissed whenever the court lacks subject matter
jurisdiction. The plaintiff has the burden of establishing subject matter jurisdiction. Demetres v. E.W.
Constr., Inc., 776 F.3d 271, 272 (4th Cir. 2015). “Because jurisdictional limits define the very foundation
of judicial authority, subject matter jurisdiction must,
when questioned, be decided before any other matter.”
United States v. Wilson, 699 F.3d 789, 793 (4th Cir.
2012).
B.

Federal Tort Claims Act Waiver of Immunity

CACI first contends that the Federal Tort Claims
Act (“FTCA”) has waived the government’s immunity
for the claims at issue in this case. In response, the
government argues that the foreign country exception, 28 U.S.C. § 2680(k), operates to bar CACI’s tort
claims. The FTCA generally waives sovereign immunity and subjects the United States to liability for
tort damages “caused by the negligent or wrongful act
or omission of any employee of the Government while
acting within the scope of his office or employment,

281a
under circumstances where the United States, if a private person, would be liable to the claimant in accordance with the law of the place where the act or omission occurred.” Id. § 1346(b)(1). Congress has provided a variety of exceptions to this waiver, including
for “[a]ny claim arising in a foreign country.” Id.
§ 2680(k).
CACI argues that the foreign country exception
does not apply to its claims because the area where
plaintiffs’ claims arose—Abu Ghraib—was a location
“in which the sovereign government had been forcibly
displaced by the United States military and its allies,
occupied by United States military forces, and governed by a military occupation government.” ThirdParty P1. CACI Premier Tech., Inc.’s Opp’n to the
U.S.’ Mot. to Dismiss [Dkt. No. 713] (“CACI MTD
Opp’n”) 17. This position relies primarily on United
States v. Spelar, 338 U.S. 217 (1949), in which the Supreme Court held that an air base in Newfoundland
that was held by the United States under a long-term
lease was a “foreign country” for purposes of the
FTCA. Id. at 218-19. Although the Court did not
clearly define the phrase “foreign country” as used in
that section, it relied primarily on considerations of
sovereignty, stating: “We know of no more accurate
phrase in common English usage than ‘foreign country’ to denote territory subject to the sovereignty of
another nation. By the exclusion of ‘claims arising in
a foreign country,’ the coverage of the [FICA] was
geared to the sovereignty of the United States.” Id. at
219 (footnote omitted). Although this decision indicates that territory subject to another country’s sovereignty is categorically within the limits of the foreign
country exception, it does not explain how the FTCA

282a
treats territory that is subject to no—or overlapping
or ambiguous—sovereign claims.
That being said, more recent Fourth Circuit and
Supreme Court decisions have made clear that land
may be subject to the foreign country exception even
if another country does not exercise sovereignty over
it. For example, in Burna v. United States, 240 F.2d
720 (4th Cir. 1957), the Fourth Circuit applied Spelar
to post-World War II Okinawa, which was subject to
substantial governance by the United States pursuant
to a treaty provision. Id. at 720-21. The plaintiff in
that case argued that Spelar indicated that the FTCA
exception only applied to territory under another
country’s control and that Okinawa was actually under the United States’ control. See id. at 721. The
Fourth Circuit disagreed, concluding that Spelar had
held that foreign sovereignty over a particular territory was sufficient, but not necessary, to trigger application of the foreign country exception. Id. at 721-22.
In reaching that conclusion, the Fourth Circuit cited
Congress’s use of the words “foreign country” to connote a “sense of ‘otherness,’ or to mean “a country
which is not the United States or its possession or colony,—an alien country,—other than our own.” Id. at
722-23 (internal quotation marks and citation omitted); see also id. at 722 (framing the inquiry in terms
of whether “Okinawa has been incorporated into the
United States”). Accordingly, it determined that Congress “did not have in mind the fine distinctions as to
sovereignty of occupied and unoccupied countries
which authorities on international law may have formulated” and that Okinawa—even when occupied by
the United States—remained a “foreign country” for
purposes of the FTCA. Id. at 722-23.

283a
This understanding of the FTCA is in accord with
more recent Supreme Court precedent. In Smith v.
United States, 507 U.S. 197 (1993), the Court held
that Antarctica, which is a “sovereignless region,”
falls within the foreign country exception. Id. at 198.
Although the Court relied on a variety of pieces of evidence in evaluating the status of Antarctica (and did
not produce a decision clearly adopting a definition of
“foreign country”), it did observe that “the commonsense meaning of the term [‘country] undermines
petitioner’s attempt to equate it with `sovereign state’
because the first definition of “country” in the dictionary is “simply `[a] region or tract of land.” Id. at 201
(second alteration in original) (quoting Webster’s New
International Dictionary 609 (2d ed. 1945)).
When these decisions are read together, it becomes clear that Abu Ghraib is in a “foreign country”
and remained as such during the time it was occupied
by coalition forces. In many ways, its status mirrored
post-World War II Okinawa’s, as the United States
and other coalition governments displaced the previous Iraqi sovereign. Abu Ghraib, like Okinawa, was
never “incorporated into the United States” and, given
the concept of “foreign country” embraced in Smith,
the lack of an independent Iraqi sovereign does not
bar the application of the foreign country exception.
Accordingly, the FTCA does not waive sovereign immunity for the tort claims asserted in this civil action.
C.

Sovereign Immunity and Jus Cogens
Violations

CACI further argues that the government has
waived sovereign immunity for violations of jus cogens norms—that is, those peremptory international

284a
law norms from which states may not derogate.3 This
question appears to be one of first impression, not just
in this district or circuit but nationally.4 Accordingly,
before the question presented may be addressed, it is
necessary to examine the history and development of
sovereign immunity doctrine and jus cogens norms to
contextualize the current dispute.

3

Although plaintiffs, and not CACI, were the victims of the
alleged jus cogens violations at issue in this suit, CACI argues
that its claims for indemnification, exoneration, and contribution
are derivative of plaintiffs’ claims against CACI. Accordingly,
CACI appears to assume, and the government does not argue
otherwise, that if the government does not have immunity for jus
cogens violations, and thus plaintiffs would be able to bring their
claims against the government, CACI may recover from the government on its derivative claims.
4

As discussed below, various federal courts have confronted
the question whether foreign states may invoke sovereign immunity in federal court with respect to alleged jus cogens violations. These cases are not helpful for two reasons. First, they are
primarily concerned with interpreting the Foreign Sovereign Immunities Act (“FSIA”), which codifies a doctrine of foreign sovereign immunity in American courts. By contrast, the immunity of
the American government from suit is a common law doctrine,
and the question whether the United States has waived sovereign immunity for jus cogens violations does not turn on the interpretation of any one statute. Second, domestic and international law treat the questions whether a sovereign is immune
from suit in its own courts and whether a sovereign is immune
from suit in the courts of a different country as distinct questions.
In particular, the serious concerns that would arise from any rule
allowing a country to be sued in foreign courts the world over, as
well as considerations of comity and respect, may incline in favor
of a rule of restrictive jurisdiction over suits in courts of a foreign
state but that do not apply similarly to suits in domestic courts.

285a
1.

Development of Sovereign Immunity Doctrine
a.

Historical Background and Incorporation into American Law

The doctrine of sovereign immunity, which was
recognized in English common law as early as the
thirteenth century, appears to have its roots in England’s feudal system, in which “each petty lord in England held or could hold his own court to settle the disputes of his vassals.” David E. Engdahl, Immunity
and Accountability for Positive Governmental
Wrongs, 44 U. Colo. L. Rev. 1, 2 (1972). Although a
lord’s vassals were subject to the jurisdiction of his
court, “as the court was the lord’s own, it could hardly
coerce him.” Id. Indeed, the “trusted counsellors who
constituted [a lord’s] court” could “claim no power over
him their lord without his consent.” Id. That being
said, each “petty lord . . . was vassal in his turn, and
subject to coercive suit in the court of his own lord.”
Id. In the organization of the feudal hierarchy, “[t]he
king, who stood at the apex of the feudal pyramid” and
was “not subject to suit in his own court,” was wholly
immune from suit because “there happened to be no
higher lord’s court in which he could be sued.” Id. at
2-3; see also United States v. Lee, 106 U.S. 196, 206
(1882) (identifying “the absurdity of the King’s sending a writ to himself to command the King to appear
in the King’s court” as a basis of sovereign immunity
in England).
With the rise of the nation-state, this “personal
immunity of the king” transformed into “the immunity of the Crown.” George W. Pugh, Historical Approach to the Doctrine of Sovereign Immunity, 13 La.

286a
L. Rev. 476, 478 (1953). Given the potential harshness of such a doctrine as attached to the Crown rather than the king, legal authorities developed procedures whereby victims could obtain redress for wrongs
committed by the government without directly suing
the Crown. For example, when a government agent
committed a tort, “English courts permitted suit
against the government official or employee who had
actually committed the wrong complained of.” Id. at
479-80. Indeed, in such situations, the doctrine of sovereign immunity, as embodied in the famous phrase
“the king could do no wrong,” ensured that the tort
victim could obtain a judgment against the agent: theoretically, if “the king could do no wrong, it would be
impossible for him to authorize a wrongful act, and
therefore any wrongful command issued by him was
to be considered as non-existent, and provided no defense for the dutiful” agent. Id. at 480.
Similarly, English law developed the “petition of
right,” which allowed subjects to petition the king for
the ability to sue the Crown in the king’s courts—in
effect, asking the king to waive sovereign immunity
with respect to a specific legal dispute. See James E.
Pfander, Sovereign Immunity and the Right to Petition: Toward a First Amendment Right to Pursue Judicial Claims Against the Government, 91 Nw. U. L.
Rev. 899, 900-08 (1997). As with tort suits against
government agents, the notion that “the king could do
no wrong” worked to ensure the availability of a remedy for victims of wrongdoing because the “king, as
the fountain of justice and equity, could not refuse to
redress wrongs when petitioned to do so by his subjects.” Louis L. Jaffe, Suits Against Governments and
Officers: Sovereign Immunity, 77 Harv. L. Rev. 1, 3

287a
(1963) (citation omitted); see also Engdahl, supra, at
3 (describing the “principle that the king could not
rightfully refuse to grant a petition of right”). Moreover, because petitions of right and other “prerogative
remedies” that allowed subjects to pursue a suit
against the Crown “were invariably controlled by the
King’s justices rather than the King himself,” the
“rule of law, as opposed to royal whim, largely determined the availability of relief against the Crown.”
Pfander, supra, at 908. By the eighteenth century,
such procedures were so ingrained in the common law
that “[i]n the same paragraph in which William Blackstone proclaimed the immunity of the Crown, he also
sketched the procedure on the ‘petition of right.’” Id.
at 901; see also Marbury v. Madison, 5 U.S. (1 Cranch)
137, 163 (1803) (“The very essence of civil liberty certainly consists in the right of every individual to claim
the protection of the laws, whenever he receives an injury. One of the first duties of government is to afford
that protection. In Great Britain the king himself is
sued in the respectful form of a petition, and he never
fails to comply with the judgment of his court.”). As a
result of these procedures for obtaining redress, although the formal immunity of the Crown was deeply
rooted in the common law, by the eighteenth century,
it operated primarily as merely a matter of formalism,
with a variety of procedural work-arounds to ensure

288a
that victims could obtain redress for wrongs committed by the Crown’s agents.5
Given that sovereign immunity in England was
rooted in the common law and linked to the personal
immunity of the king, it is not surprising that “[a]t the
time of the Constitution’s adoption, the federal government’s immunity from suit was a question—not a
settled constitutional fact.” Vicki C. Jackson, Suing
the Federal Government: Sovereignty, Immunity, and
Judicial Independence, 35 Geo. Wash. Int’l L. Rev.
521, 523 (2003). “The nature of the sovereignty created under the 1789 Constitution was something new
and uncertain—it took the people and the institutions
time to work out their relationships.” Id. at 528. Mapping the old English doctrine of sovereign immunity
onto this new system implicated many “[q]uestions of
the form of government and of the nature of the sovereignties created” by the Constitution, including
whether there was a sovereign in the new republic
and, “[i]f so, where did that sovereignty reside under

5
There is some historical evidence that by the time of the
Founding, the English legal system had moved responsibility for
adjudicating claims against the Crown from these mechanisms
formally relying on the king’s consent to Parliament, as Parliament won authority over appropriations. See generally Paul F.
Figley & Jay Tidmarsh, The Appropriations Power and Sovereign Immunity, 107 Mich. L. Rev. 1207 (2009). That being said,
the English commentators on whom the Founders relied to understand the common law, such as Blackstone, continued to describe this petitioning process. Moreover, as discussed below,
American sources at the Founding relied on these earlier English
doctrines in articulating an understanding of the basis of sovereign immunity, and early American practice mimicked, in many
ways, these formalist work-arounds to ensure that wrongs did
not go unredressed.

289a
a system of separated powers” and “[w]hat were the
roles of the national legislature, the executive, and the
federal courts” in that sovereign system. Id. at 52829. The answers to these questions were not immediately obvious and, indeed, the courts did not quickly
adopt a theory of federal sovereign immunity. In fact,
“[t]he first clear reference to the sovereign immunity
of the United States in an opinion for the entire [Supreme] Court” did not appear until 1821, when the
concept of federal sovereign immunity was discussed
in dicta, and the first time sovereign immunity was
invoked by the Supreme Court “as a basis to deny relief’ occurred in 1846. Id. at 523 n.5.
Indeed, early discussions of federal sovereign immunity by the Supreme Court exhibit a sense that the
doctrine may be incompatible with a republican form
of government. For example, in Chisholm v. Georgia,
2 U.S. (2 Dall.) 419 (1793), superseded by constitutional amendment, U.S. Const. amend XI, Chief Justice Jay wrote:
It will be sufficient to observe briefly, that the
sovereignties in Europe, and particularly in
England, exist on feudal principles. That system considers the Prince as the sovereign, and
the people as his subjects; it regards his person as the object of allegiance, and excludes
the idea of his being on an equal footing with
a subject, either in a Court of Justice or elsewhere. That system contemplates him as being the fountain of honor and authority; and
from his grace and grant derives all franchises, immunities and privileges; it is easy to
perceive that such a sovereign could not be
amenable to a Court of Justice, or subjected to

290a
judicial control and actual constraint. It was
of necessity, therefore, that suability became
incompatible with such sovereignty. Besides,
the Prince having all the Executive powers,
the judgment of the Courts would, in fact, be
only monitory, not mandatory to him, and a
capacity to be advised, is a distinct thing from
a capacity to be sued. The same feudal ideas
run through all their jurisprudence, and constantly remind us of the distinction between
the Prince and the subject. No such ideas obtain here; at the Revolution, the sovereignty
devolved on the people; and they are truly the
sovereigns of the country, but they are sovereigns without subjects . . . and have none to
govern but themselves; the citizens of America
are equal as fellow citizens, and as joint tenants in the sovereignty.
Id. at 471-72 (opinion of Jay, C.J.) (emphasis omitted).
Although the question was not directly presented in
Chisholm, Chief Justice Jay argued that “fair reasoning” suggests that the Constitution permits “that the
United States may be sued by any citizen, between
whom and them there may be a controversy” by extending judicial power to “controversies to which the
United States are a party.” Id. at 478; see also Jackson, supra, at 532-33 (reading Justice Wilson’s opinion in Chisholm to argue “that the absence of monarch, the role of a written constitution and the process
of judicial review suggested that English approaches
to sovereign immunity were inapposite to the suability of governments under the United States Constitution” (citing Chisholm, 2 U.S. (2 Dall.) at 453-66 (opinion of Wilson, J.))).

291a
Early American courts were not generally forced
to confront the question whether the federal government enjoyed sovereign immunity because, as in England, “many judicial remedies for governmental
wrongdoing were available” that did not involve direct
suit against the government. Jackson, supra, at 52324. For example, in the early days of the Republic, the
usual remedy for torts committed by government officials was a damages suit directly against the official
who committed the tort. Ann Woolhandler, Patterns
of Official Immunity and Accountability, 37 Case W.
Res. L. Rev. 396, 414-16 (1987); see also Ann Woolhandler, Old Property, New Property, and Sovereign
Immunity, 75 Notre Dame L. Rev. 919, 922 (2000)
(“Individual officers remained liable for their torts under general agency law, even if they were working for
a disclosed principal—the state.”). In addition, under
the Judiciary Act of 1789, “all federal courts could issue writs of habeas corpus,” which are inherently directed to government custodians but “have never been
regarded as barred by sovereign immunity.” Jackson,
supra, at 524. Similarly, “the writ of mandamus and
the injunction have been available in actions against
individual government officials” to address ongoing legal violations. Id. at 525.
Specifically with respect to torts committed by
government agents, the Supreme Court confirmed as
early as 1804 that, as in England, direct suits against
government officers were not barred by sovereign immunity. In Little v. Barreme, 6 U.S. (2 Cranch) 170
(1804), the Court held that a damages suit could proceed against a naval officer who directed the seizure
of a ship sailing from France to St. Thomas. Id. at

292a
176-77, 179. Although the seizure conformed to orders given by the Secretary of the Navy, it was unlawful under the relevant statute, which authorized seizures of ships sailing to, but not from, French ports.
Id. at 177-78. The Court recognized the apparent unfairness of holding a military officer personally liable
for following orders but nevertheless concluded that
instructions from the executive “cannot change the
nature of the transaction, or legalize an act which
without those instructions would have been a plain
trespass” and, accordingly, the naval captain “must be
answerable in damages to the owner of this neutral
vessel.” Id. at 179.
Although such suits were nominally brought
against government officials rather than the government itself, in the early Republic there was a “practice
of relatively routine, but not automatic, indemnification” by Congress where an official had been held liable in tort. James E. Pfander & Jonathan L. Hunt,
Public Wrongs and Private Bills: Indemnification and
Government Accountability in the Early Republic, 85
N.Y.U. L. Rev. 1862, 1868 (2010). “Following the imposition of liability on a government officer, Congress
would decide whether to make good the officer’s loss
in the exercise of its legislative control of the appropriation process,” thereby “preserv[ing] the formal
doctrine of sovereign immunity while assigning the
ultimate loss associated with wrongful conduct to the
government.” Id. For example, after the Supreme
Court’s decision in Little, Captain Little, the naval officer found liable for the unlawful seizure of the ship,
submitted a petition for indemnity to Congress, and
Congress passed a bill indemnifying him. Id. at 1902.
Indeed, between 1789 and 1860, there were at least

293a
“57 cases of officers petitioning for indemnification
and 11 cases of suitors petitioning for the payment of
a judgment against an officer” and, of these cases, over
60% of the petitioners received some form of relief,
such as a private bill appropriating money directly to
the officer or the victim. Id. at 1904-05.
This two-part officer suit and indemnification system rendered sovereign immunity a formalism that
barred suits directly against the government but did
not bar recovery from the government, at least with
respect to torts committed by government agents. Instead, the function of sovereign immunity was to divide responsibilities between the judiciary and the
legislature: the judiciary determined, in a direct suit
against the officer, whether the conduct was unlawful
and, if so, the amount of damages; and in the case of
unlawful conduct, Congress determined whether the
circumstances were such that the government rather
than the officer should ultimately bear the loss. See
id. at 1868.
Even after the concept of federal sovereign immunity had worked its way into our legal system to
become “a familiar doctrine of the common law,” The
Siren, 74 U.S. (7 Wall.) 152, 153-54 (1869), the idea
that the concept should be construed, to the extent
possible, as a procedural doctrine rather than a substantive bar to recovery led the Supreme Court to create work-arounds to allow recovery, as demonstrated
by a pair of Reconstruction Era cases. In The Siren,
the Court held that even though direct suits may not
be instituted against the United States, “when the
United States institute a suit, they waive their exemption so far as to allow a presentation by the defendant

294a
of set-offs, legal and equitable, to the extent of the demand made or property claimed, and when they proceed in rem, they open to consideration all claims and
equities in regard to the property libelled.” 74 U.S. (7
Wall.) at 154. In a similar vein, in The Davis, 77 U.S.
(10 Wall.) 15 (1870), the Court held that sovereign immunity does not bar the enforcement of a lien against
goods that are seized after the United States has contracted for their delivery but before they are in the
possession of the government. Id. at 21-22. Although
the seizure in question forced the United States “to
the necessity of becoming claimant and actor in the
court to assert [a] claim” to the goods, the Court determined that it technically did not infringe on the immunity of the federal government because the “marshal served his writ and obtained possession without
interfering with that of any officer or agent of the government.” Id. at 22.
In both of these cases, the Supreme Court relied
on formal understandings of the nature of immunity
from suit to allow injured parties to maintain claims—
either as offset or in rem claims—even though doing
so subjected the government’s conduct or property
rights to judicial review. Moreover, in both cases, the
Court invoked the historical remedies available
against the Crown in England as a reason for narrowly construing any claim of immunity. In The Siren, the Court observed that “[i]n England, when the
damage is inflicted by a vessel belonging to the
crown,” the “present practice” is to file a suit in rem
and have the court direct “the registrar to write to the
lords of the admiralty requesting an appearance on
behalf of the crown—which is generally given.” 74
U.S. (7 Wall.) at 155. Similarly, in The Davis, the

295a
Court observed that in situations where “it is made to
appear that property of the government ought, in justice, to contribute to a general average, or to salvage”
in maritime cases, the “usual course of proceeding” in
England is “for the proper office of the government to
consent in court that it may take jurisdiction of the
matter.” 77 U.S. (10 Wall.) at 20. Although these procedures, which were developed to “prevent [the] apprehension of gross injustice in such cases in England,” id could not be identically implemented in the
United States given the government’s structure, the
Court attempted to prevent gross injustice by providing a procedural mechanism that allowed injured parties to obtain relief without directly suing the government.
This formalistic approach to sovereign immunity
was reinforced a decade later in United States v. Lee,
106 U.S. 196 (1882), which involved the question
whether an ejectment action between private plaintiffs and federal officer defendants should be dismissed as barred by sovereign immunity when the
United States asserted ownership of the land. Id. at
196-98. To help explain the limits of sovereign immunity, the Lee Court went through the justifications
given in English common law for the immunity of the
Crown, explaining how each justification did not serve
to support the adoption of the doctrine into the quite
different context of the American republican government. According to the Lee Court, “one reason given
by the old judges was the absurdity of the King’s sending a writ to himself to command the King to appear
in the King’s court,” but “[n]o such reason exists in our
government.” Id. at 206. Another reason advanced by

296a
English authorities was that “the government is degraded by appearing as a defendant in the courts of its
own creation,” but the Lee Court rejected this reason
“because [the government] is constantly appearing as
a party in such courts, and submitting its rights as
against the citizen to their judgment.” Id. The Lee
Court also observed that another reason given for sovereign immunity—”that it would be inconsistent with
the very idea of supreme executive power, and would
endanger the performance of the public duties of the
sovereign, to subject him to repeated suits as a matter
of right”—did not apply to the United States because
“no person in this government exercises supreme executive power, or performs the public duties of a sovereign,” and it is therefore “difficult to see on what
solid foundation of principle the exemption from liability to suit rests.” Id. (citation omitted).
Indeed, the Lee Court explained that the differences between the English and American systems of
government are such that English court decisions extending immunity in similar circumstances should be
discounted in light of the uniquely American principle
that no man is above the law:
[L]ittle weight can be given to the decisions of
the English courts on this branch of the subject, for two reasons: —
1. In all cases where the title to property came
into controversy between the crown and a subject, whether held in right of the person who
was king or as representative of the nation,
the petition of right presented a judicial remedy,— a remedy which this court, on full examination in a case which required it, held to

297a
be practical and efficient. There has been,
therefore, no necessity for suing the officers or
servants of the King who held possession of
such property, when the issue could be made
with the King himself as defendant.
2. Another reason of much greater weight is
found in the vast difference in the essential
character of the two governments as regards
the source and the depositaries of power. Notwithstanding the progress which has been
made since the days of the Stuarts in stripping
the crown of its powers and prerogatives, it remains true to-day that the monarch is looked
upon with too much reverence to be subjected
to the demands of the law as ordinary persons
are, and the king-loving nation would be
shocked at the spectacle of their Queen being
turned out of her pleasure-garden by a writ of
ejectment against the gardener. The crown
remains the fountain of honor, and the surroundings which give dignity and majesty to
its possessor are cherished and enforced all
the more strictly because of the loss of real
power in the government.
It is not to be expected, therefore, that the
courts will permit their process to disturb the
possession of the crown by acting on its officers or agents.
Under our system the people, who are there
called subjects, are the sovereign. Their
rights, whether collective or individual, are
not bound to give way to a sentiment of loyalty
to the person of monarch. The citizen here

298a
knows no person, however near to those in
power, or however powerful himself, to whom
he need yield the rights which the law secures
to him when it is well administered. When he,
in one of the courts of competent jurisdiction,
has established his right to property, there is
no reason why deference to any person, natural or artificial, not even the United States,
should prevent him from using the means
which the law gives him for the protection and
enforcement of that right.
Id. at 208-09 (alterations in original); see also Langford v. United States, 101 U.S. 341, 342-43 (1879)
(unanimously rejecting the “maxim of English constitutional law that the king can do no wrong” because it
does not “have any place in our system of government,” where “[w]e have no king” and where it is obvious that “wrong may be done by the governing
power”). Accordingly, the Lee Court interpreted the
doctrine of sovereign immunity formalistically, barring suit directly against the government but allowing
the plaintiffs to proceed with their ejectment action
against the government officers despite the federal
government’s claim of ownership to the land.
As these cases, together with the earlier cases allowing for direct suit against government officials,
demonstrate, sovereign immunity was incorporated
into American common law in the nineteenth century
primarily as a procedural mechanism regulating the
ways in which injured parties could obtain relief rather than as a substantive bar to recovery in the ordinary case. Indeed, well into the twentieth century,
“[for tortious or otherwise wrongful action by a government official, in violation of or not authorized by

299a
law, . . . officer suits—for mandamus, for ejectment, or
other common law remedies—could serve as moderately effective vehicles for contesting claims of right
as between governments and private individuals.”
Jackson, supra, at 554.
Although these procedural work-arounds reduced
the need for federal courts to explore the contours of
sovereign immunity doctrine by providing some avenues for recovery, by the late nineteenth century, the
Supreme Court recognized that the “general doctrine”
of federal sovereign immunity, which had first appeared in Cohens v. Virginia, 19 U.S. (6 Wheat.) 264
(1821), had “been repeatedly asserted” until it came to
be “treated as an established doctrine” by the Court.
Lee, 106 U.S. at 207. As the Lee Court observed, this
entrenchment in the common law had happened sub
silentio: to that point, the Supreme Court had never
engaged in a detailed discussion of the doctrine or explained the reasons for it, but rather had implicitly
incorporated it into American law. Id. Nevertheless,
by the end of the Civil War, the Supreme Court, while
narrowly construing the doctrine, invariably adhered
to the principle that the federal government could not
formally be sued without its consent.
b.

Contemporary Sovereign Immunity
Practice

Despite these murky beginnings, it is today well
established that the United States enjoys the benefit
of sovereign immunity and cannot be sued absent a
waiver of this immunity. Pornomo v. United States,

300a
814 F.3d 681, 687 (4th Cir. 2016).6 With respect to
torts committed by federal government actors, Congress has “provid[ed] a limited waiver of sovereign immunity for injury or loss caused by the negligent or
wrongful act of a Government employee acting within
the scope of his or her employment” through the
FTCA, which “renders the United States liable for
such tort claims in the same manner and to the same
extent as a private individual under like circumstances.” Id. (internal quotation marks and citations
omitted). At the same time, Congress has placed two
relevant limitations on the ability of injured parties to
recover under the FTCA. First, Congress has carved
out multiple exceptions to its waiver of immunity, see
28 U.S.C. § 2680, including, as previously discussed,
any claim “arising in a foreign country,” id. § 2680(k).7
Second, the Westfall Act provides that the FTCA’s
remedies against the government itself are “exclusive
of any other civil action or proceeding for money damages by reason of the same subject matter against the
employee whose act or omission gave rise to the
claim.” Id. § 2679(b)(1). Under this provision, if an
injured party attempts to bring a tort suit directly
against the government officer who caused the harm
and the officer was acting within the scope of his employment at the time, the United States is substituted
as a defendant, id. § 2679(d), and enjoys all of the privileges of sovereign immunity. Accordingly, for torts
committed by government employees, a direct suit
against the wrongdoer is no longer available and,
when the tort claim falls within an exception delineated in the FTCA, a suit directly against the government is ordinarily blocked by sovereign immunity. As
a result, in the realm of torts committed by govern-

301a

6

The government argues that any government waiver of immunity must be “express.” U.S.’ Mem. of Law in Supp. of its Mot.
to Dismiss [Dkt. No. 697] (“Gov’t MTD Mem.”) 3; see also Notice
of Suppl. Authority Regarding the U.S.’ Pending Mot. to Dismiss
[Dkt. No. 1166]. Although the Fourth Circuit and the Supreme
Court have used language suggesting that any sovereign immunity waiver must be explicit and statutory, see, e.g., Lane v. Pena,
518 U.S. 187, 192 (1996) (“A waiver of the Federal Government’s
sovereign immunity must be unequivocally expressed in statutory text . . .”); Robinson v. U.S. Dep’t of Educ., No. 18-1822, 2019
WL 1051585, at *2 (4th Cir. Mar. 6, 2019) (“Sovereign immunity,
in short, can only be waived by statutory text that is unambiguous and unequivocal.”); Pornomo, 814 F.3d at 687 (“As a sovereign, the United States is immune from all suits against it absent
an express waiver of its immunity.” (citation omitted)), both contemporary and historical practice, including many Supreme
Court decisions, confirm that no such categorical rule exists. For
example, the Supreme Court has held that time-bar limitations
on waivers of sovereign immunity may be subject to equitable
tolling even in the absence of affirmative congressional authority
indicating an intent to allow such tolling. See United States v.
Kwai Fun Wong, 135 S. Ct. 1625, 1630-33 (2015). In addition, the
Court has suggested that in some circumstances, the doctrine of
estoppel may support suits against the government even in the
absence of an explicit waiver of sovereign immunity. Office of
Personnel Mgmt. v. Richmond, 496 U.S. 414, 422-23 (1990). Similarly, the Court has indicated that sovereign immunity would
not always bar an independent action brought under Fed. R. Civ.
P. 60(b) in the same court in which the government had previously subjected itself to suit, which is an interpretation of immunity relying on the government’s ability to waive its immunity
through litigation conduct. United States v. Beggerly, 524 U.S.
38, 42-48 (1998). This decision accords with the settled rule in a
variety of other contexts that governments may impliedly waive
sovereign immunity. See, e.g., 28 U.S.C. § 1605(a)(1) (stating
that a foreign state may waive its immunity “by implication”);
Lapides v. Bd. of Regents of the Univ. Sys. of Ga., 535 U.S. 613,
616 (2002) (holding that the act of removing a lawsuit against a

302a
ment agents, sovereign immunity has in many situations evolved into a substantive bar to relief, rather
than merely a procedural device regulating how the
injured party may recover.
It was not inevitable that sovereign immunity
would develop in this way. Indeed, in many other
state to federal court operates as a waiver of state sovereign immunity); United States v. Eckford, 73 U.S. (6 Wall.) 484, 491
(1868) (holding that when the government brings suit against a
defendant, the defendant may permissibly plead a counterclaim
that acts as an offset against the government’s claim even absent
a statutory waiver of sovereign immunity as to the counterclaim); Intl Indus. Park, Inc. v. United States, 102 Fed. Cl. 111,
113-14 (2011) (holding that the Army Corps of Engineers waived
sovereign immunity with respect to a fee award by entering into
a contract that included a fee-shifting provision). There is also a
long history in American jurisprudence of “U.S. courts rel[ying]
on the doctrine of implied waiver to find jurisdiction over trading
corporations owned or controlled by a foreign government.”
Adam C. Belsky et al., Comment, Implied Waiver Under the
FSIA: A Proposed Exception to Immunity for Violations of Peremptory Norms of International Law, 77 Calif. L. Rev. 365, 39596 (1989); see also Bank of the U.S. v. Planters’ Bank of Ga., 22
U.S. (9 Wheat.) 904, 907-08 (1824) (recognizing that a state can
waive immunity by conduct, such as becoming a corporator in a
corporation, because “when a government becomes a partner in
any trading company, it devests itself, so far as concerns the
transactions of that company, of its sovereign character, and
takes that of a private citizen”). Accordingly, although sovereign
immunity waivers are often effected through statute, history and
caselaw confirm that the government may also waive its immunity impliedly through its conduct.
7

Because federal sovereign immunity is a creature of federal
common law rather than any statute or the Constitution, the
FTCA does not affirmatively assert sovereign immunity with respect to any of the exceptions in § 2680. Instead, the FTCA provides that the “provisions of this chapter” that waive sovereign
immunity “shall not apply” to such claims. 28 U.S.C. § 2680.

303a
countries whose legal systems evolved from English
common law, sovereign immunity is no longer a bar to
suing the government in tort. For example, in the
United Kingdom, the Crown Proceedings Act establishes that “the Crown shall be subject to all those liabilities in tort to which, if it were a private person of
full age and capacity, it would be subject” in respect
of, among other things, “torts committed by its servants or agents.” Crown Proceedings Act 1947, 10 & 11
Geo. 6 c. 44, § 2(I); see also Crown Proceedings Act
1950, s 6 (N.Z.) (establishing the same rule for New
Zealand). Similarly, in Canada, the “Crown is liable
for the damages for which, if it were a person, it would
be liable” for “a tort committed by a servant of the
Crown” or “a breach of duty attaching to the ownership, occupation, possession or control of property.”
Crown Liability and Proceedings Act, R.S.C. 1985 c. c50, s. 3. In Australia, government liability is even
broader, as the Australian Constitution gives Parliament the power to “make laws conferring rights to
proceed against the Commonwealth,” Australian Constitution s 78, and the Judiciary Act of 1903 provides
that any “person making a claim against the Commonwealth, whether in contract or in tort, may in respect of the claim bring a suit against the Commonwealth” in the High Court or various state or territorial courts, Judiciary Act 1903 (Cth) s 56. Perhaps
most relevant to the United States given the debates
described above about the application of common law
sovereign immunity to a republican government, the
Irish Supreme Court has held that sovereign immunity did not survive the creation of the Irish Free State
because “it is the People who are paramount and not
the State” and this system is “inconsistent with any
suggestion that the State is sovereign internally.”

304a
Byrne v. Ireland [1972] IR 241, 295 (opinion of Budd,
J.); see also id. at 266 (opinion of Walsh, J.) (“The fact
that this English theory of sovereign immunity, originally personal to the King and with its roots deep in
feudalism, came to be applied in the United States
where feudalism had never been known has been described as one of the mysteries of legal evolution. It
appears to have been taken for granted by the American courts in the early years of the United States—
though not without some question . . . .”).8
Given the experiences of other countries, as well
as the way in which the doctrine of sovereign immunity was adopted into federal common law, it is not surprising that there is a long history of criticism of the
notion that the federal government should be immune
from suit. As early as 1953, academics were attacking
“the very bases of this unwanted and unjust concept,”
Pugh, supra, at 476, and a decade later, professor
Louis Jaffe succinctly described the basis of academic
and judicial unease with the way in which sovereign
immunity had developed into a bar to recovery:
The King cannot be sued without his consent.
But at least in England this has not meant
that the subject was without remedy. . . .
By a magnificent irony, this body of doctrine
and practice, at least in form so favorable to
the subject, lost one-half of its efficacy when

8

As Justice Walsh observed in Byrne, this move away from
sovereign immunity with respect to tort claims is not limited to
countries whose legal systems are rooted in English common law.
For example, the law in both France and Germany had developed
by 1972 to the point where the state was liable for the tortious
acts of its employees. [1972] IR at 267-68 (opinion of Walsh, J.).

305a
translated into our state and federal systems.
Because the King had been abolished, the
courts concluded that where in the past the
procedure had been by petition of right there
was now no one authorized to consent to suit!
Jaffe, supra, at 1-2; see generally Edwin M. Borchard,
Government Liability in Tort, 34 Yale L.J. 1, 4-5
(1924) (arguing that the basis of sovereign immunity
is the location of absolute sovereignty in the king’s
person but that the doctrine makes little sense in a
country where “sovereignty resides in the American
electorate or the people” and that this problem is
“heightened by the fact that whereas in England, to
prevent the jurisdictional immunity resulting in too
gross an injustice, the petition of right, whose origin
has been traced back to the thirteenth century, was
devised as a substitute for a formal action against the
Crown, in America no substitute except an appeal to
the generosity of the legislature has in most jurisdictions been afforded” (footnote omitted)); Erwin
Chemerinsky, Against Sovereign Immunity, 53 Stan.
L. Rev. 1201, 1201 (2001) (“Sovereign immunity is an
anachronistic relic and the entire doctrine should be
eliminated from American law.”). This criticism of the
doctrine has also made its way into the judiciary. Not
only do the Supreme Court and other courts have a
long history of expressing discomfort with the prospect of wielding sovereign immunity as a substantive
shield to recovery, as discussed above, but at least one
circuit judge has recently argued in favor of reconsidering the principle of sovereign immunity altogether:
[T]he underpinning for this outcome is an
anachronistic judicially invented legal theory
that has no validity or place in American

306a
law—in this case, sovereign immunity. Two
hundred and thirty-five years after we rid ourselves of King George III and his despotic ascendancy over colonial America, we cling to a
doctrine that was originally based on the Medieval notion that “the King can do no wrong.”
This maxim was blindly accepted into American law under the assumption that it was incorporated as part of the common law in existence when our Nation separated from England. However, this assumption does not
withstand historical scrutiny. Furthermore,
the present case is the quintessential example
of the fact that at times the government can,
and does, do wrong.
More importantly, the doctrine of sovereign
immunity cannot be sustained in the face of
our constitutional structure. Although its language is far from specific in many parts, the
Constitution nevertheless contains nothing,
specific or implied, adopting the absolutist
princip[le] upon which sovereign immunity
rests. Furthermore, the record of the debates
preceding the adoption of the Constitution are
bare of any language or asseveration that
might serve as a basis for support of this monarchist anachronism. In fact, the establishment in this country of a republican form of
government, in which sovereignty does not repose on any single individual or institution,
made it clear that neither the government nor
any part thereof could be considered as being
in the same infallible position as the English

307a
king had been, and thus immune from responsibility for harm that it caused its citizens.
Donahue v. United States, 660 F.3d 523, 526 (1st Cir.
2011) (en banc) (Torruella, J., concerning the denial of
en banc review) (emphasis in original) (citations omitted).9
Although this Court remains mindful of the binding nature of the determinations by the Supreme
Court and the Fourth Circuit that the federal government may not be sued in tort without its consent, the
deeper understanding of the history and development
of sovereign immunity doctrine, as well as the contemporary practice in other countries and the academic
and judicial criticism of the path the United States
has taken, contextualizes the question presented by
the government’s motion to dismiss CACI’s ThirdParty Complaint.
2.

Jus Cogens Norms
a.

Development of Jus Cogens Norms

Jus cogens norms are defined as those “peremptory norms” that “are nonderogable and enjoy the
highest status within international law.” Comm. of
U.S. Citizens Living in Nicar. v. Reagan, 859 F.2d 929,
9

The First Circuit denied en banc review and upheld the decision that it did not have jurisdiction to hear a lawsuit for damages under the FTCA because the plaintiffs did not timely file an
administrative notice of their claims. Id. at 524 (majority opinion). The plaintiffs, the estates and heirs of two men killed on the
order of notorious Boston mobster Whitey Bulger, had sued the
United States under the FTCA “for leaking confidential information to Bulger and enabling his reign of terror.” Donahue v.
United States, 634 F.3d 615, 616 (1st Cir. 2011).

308a
940 (D.C. Cir. 1988); see also Vienna Convention on
the Law of Treaties art. 53, May 23, 1969, 1155
U.N.T.S. 331 (“Vienna Convention”)10 (defining a jus
cogens norm as “a norm accepted and recognized by
the international community of States as a whole as a
norm from which no derogation is permitted and
which can be modified only by a subsequent norm of
general international law having the same character”). Such norms come first from “customary international law,” which is a body of law that “results from
a general and consistent practice of states followed by
them from a sense of legal obligation.” Comm. of U.S.
Citizens, 859 F.2d at 940 (quoting Restatement
(Third) of Foreign Relations Law § 102(2) (Am. Law
Inst. 1987)). Once a necessary number of states determine that a particular rule should have the force of
international law, that rule is incorporated into customary international law, which is therefore “continually evolving.” Id. After a norm has been incorporated into customary international law, it may become
a jus cogens, or peremptory, norm if there is “a further
recognition by the international community as a
whole that this is a norm from which no derogation is
permitted.”
Id. (alterations, internal quotation
marks, and citation omitted). Once a norm has
achieved the status of jus cogens, it assumes a place
at the top of the hierarchy of international norms,
such that no state is permitted to derogate from the
10

Although the Vienna Convention has not been ratified by the
United States, the “United States considers many of the provisions of the Vienna Convention on the Law of Treaties to constitute customary international law on the law of treaties.” Vienna
Convention on the Law of Treaties, U.S. Dep’t of State,
https://www.state.gov/s/l/treaty/faqs/70139.htm (last visited
Mar. 11, 2019).

309a
norm and any treaty or other agreement is void if it
conflicts with the norm. See Vienna Convention art.
53; Comm. of U.S. Citizens, 859 F.2d at 940.
The development of the concept of jus cogens
norms has proceeded as the “status of individuals under international law has undergone a fundamental
change” since World War II, such that “individuals are
now said to possess substantive international rights
vis-à-vis states.” Belsky et al., supra, at 393. This
change has corresponded with a shift in the emphasis
of international law from “the formal structure of the
relationships between States and the delimitation of
their jurisdiction to the development of substantive
rules on matters of common concern vital to the
growth of an international community and to the individual well-being of the citizens of its member
States.” Id. at 392-93 (quoting Wilfred Jenks, The
Common Law of Mankind 17 (1958)). As a result, the
“irreducible element” of international law has become
“the sovereignty of the individual, not the sovereignty
of states.” Id. at 393.
Against this backdrop, jus cogens norms have developed as an expression of the international community’s recognition that all states are obligated, in their
capacity as states, to respect certain fundamental
rights of individuals. Although the exact content of
the set of jus cogens norms is debatable, it is clear that
certain “fundamental human rights law[s],” such as
those that “prohibit[ ] genocide, slavery, murder, torture,” and similarly universally condemned practices,
have achieved the status of jus cogens. Comm. of U.S.
Citizens, 859 F.2d at 941. In particular, “[t]orture is
widely recognized as contravening jus cogens,” and
[a]ll major human rights agreements and instruments

310a
contain a prohibition against torture” that “is nonderogable.” Karen Parker & Lyn Beth Neylon, Jus Cogens: Compelling the Law of Human Rights, 12 Hastings Int’l & Comp. L. Rev. 411, 437-38 (1989).
b.

Jus Cogens Norms and Foreign
Sovereign Immunity Law

Although there is no American case law exploring
the interplay between violations of jus cogens norms
and federal sovereign immunity, the problem of reconciling the peremptory status of jus cogens norms
with assertions of immunity from suit has repeatedly
vexed foreign, international, and domestic courts in
the context of foreign sovereign immunity—that is,
the ability of one state to claim immunity from being
sued in the courts of another state.
The current position of customary international
law on this issue was described in a case in 2012, in
which a divided International Court of Justice held
that it was a violation of international law for Italian
courts to refuse to extend state immunity to Germany
with respect to claims brought by Italian citizens for
alleged jus cogens violations during World War II. Jurisdictional Immunities of the State (Ger. v. It, Greece
Intervening), Judgment, 2012 I.C.J. 99, ¶ 95 (Feb. 3).
Although the court recognized that jus cogens norms
preempt any contradictory substantive rules, it held
that “the rules which determine the scope and extent
of jurisdiction and when that jurisdiction may be exercised do not derogate from those substantive rules
which possess jus cogens status,” which meant that
the customary international rule that states generally
enjoy immunity from being sued in the courts of an-

311a
other state prohibited Italy from exercising jurisdiction over a nonconsenting Germany, notwithstanding
the jus cogens nature of the norms at issue. Id.
This International Court of Justice decision is
generally in accord with other international law decisions on the subject. For example, in 2001, the European Court of Human Rights confronted a case in
which a dual British and Kuwaiti national alleged
that he was tortured by Kuwaiti officials in Kuwait
and attempted to sue Kuwait and various Kuwaiti officials in the British courts. Al-Adsani v. U.K., 2001XI Eur. Ct. H.R. 79, ¶¶ 9-16. The British courts found
that the State Immunity Act of 1978, which governs
the exercise of jurisdiction over foreign sovereigns in
British courts, did not permit such a suit, id. ¶ 18, and
the European Court of Human Rights upheld that decision, ruling that the United Kingdom did not violate
international law by declining to exercise jurisdiction
over Kuwait to allow for the redress of the jus cogens
violations, id. ¶ 66. In particular, the court did not
“find it established that there is yet acceptance in international law of the proposition” that one state is
not entitled to claim sovereign immunity in the courts
of another state “for damages for alleged torture committed outside the forum” state. Id. ¶ 66. Similarly,
a Canadian court has held that the plain language of
the State Immunity Act, which governs grants of sovereign immunity to foreign states sued in Canadian
courts, does not allow for a foreign state to be sued for
torture that allegedly occurred in that foreign state
and that international law did not compel the court to
exercise jurisdiction despite the plain language of the
act. Bouzari v. Iran, [2002] O.J. No. 1624, para. 69

312a
(Can. Ont. Sup. Ct. J.). In so holding, the court interpreted the Convention Against Torture and Other
Cruel, Inhuman or Degrading Treatment or Punishment, Dec. 10, 1984, S. Treaty Doc. 100-20, 1465
U.N.T.S. 85 (“Convention Against Torture”), to require states to “provide a remedy for torture committed within their jurisdiction” but not to “require a
state to provide a civil remedy for acts of torture by a
foreign state outside the forum.” Id. paras. 51, 54. In
addition, the court conducted a survey of international
and foreign court decisions and determined that the
majority of those decisions held that “to promote comity and good relations between states,” a state should
be granted immunity from civil suit in the courts of
another state, even where torture or other jus cogens
violations are considered. Id. para. 69. Accordingly,
the court held that the plaintiff could not bring suit in
Canadian courts against a foreign state for torture
that occurred outside of Canada.
Similarly, American courts have generally refused
to interpret the FSIA to waive sovereign immunity in
American courts for all jus cogens violations committed by a foreign state. In 1992, the Ninth Circuit held
that former Argentine residents could not pursue a
lawsuit against Argentina to seek redress for torture
and expropriation of property because the FSIA explicitly grants immunity to foreign sovereigns in all
cases that do not come within one of the specifically
enumerated exceptions, 28 U.S.C. § 1604, and violations of jus cogens norms are not one of the exceptions.
Siderman de Blake v. Republic of Argentina, 965 F.2d
699, 704, 718-19 (9th Cir. 1992).
Following this logic, a divided panel of the D.C.
Circuit held two years later that a Holocaust survivor

313a
could not sue Germany in an American court “to recover money damages for the injuries he suffered and
the slave labor he performed while a prisoner in Nazi
concentration camps.” Princz v. Federal Republic of
Germany, 26 F.3d 1166, 1168 (D.C. Cir. 1994). The
court specifically examined whether the case fell into
the “waiver exception” in the FSIA, which provides
that there is no sovereign immunity where “the foreign state has waived its immunity either explicitly or
by implication.” Id. at 1173 (quoting 28 U.S.C.
§ 1605(a)(1)). The court rejected the argument “that
the Third Reich impliedly waived Germany’s sovereign immunity under the FSIA by violating jus cogens
norms of the law of nations” because a “foreign state
that violates these fundamental requirements of a civilized world thereby waives its right to be treated as a
sovereign,” finding that the legislative history of the
implied waiver provision indicated that any such
waiver must be intentional, such as by filing a responsive pleading without raising an immunity defense or
agreeing to a choice of law provision. Id. at 1174; see
also Sampson v. Federal Republic of Germany, 250
F.3d 1145, 1155-56 (7th Cir. 2001) (holding that Congress did not intend for the FSIA to create an immunity exception for all jus cogens violations); Smith v. Socialist People’s Libyan Arab Jamahiriya, 101 F.3d
239, 243-44 (2d Cir. 1996) (holding that the violation
of a jus cogens norm did not trigger the implied waiver
provision because the examples of implied waivers in
the legislative history of the FSIA all involve litigation-adjacent conduct, which the court deemed to be
“persuasive evidence that Congress primarily expected courts to hold a foreign state to an implied
waiver of sovereign immunity by the state’s actions in
relation to the conduct of litigation”).

314a
Accordingly, in both the international and domestic contexts, there is general, though not unanimous,
agreement that a state may not be sued in the courts
of a foreign state for conduct, including jus cogens violations, that occurred outside the forum state. Such
a rule not only promotes comity and international respect among sovereigns, but it also avoids the problem
of global forum-shopping that would accompany any
regime of truly universal jurisdiction. That being
said, at least some of the foreign cases include an implicit understanding that although sovereign immunity might defeat the exercise of jurisdiction by a state
with no connection to the underlying conduct, it may
not appropriately bar relief in the courts of a state
with a jurisdictional nexus to the jus cogens violation.
3.

Jus Cogens and Domestic Sovereign Immunity

With this background in mind, it is now appropriate to address the essential question presented by the
United States’ Motion to Dismiss, which is whether
the federal government retains sovereign immunity
that protects it from being sued in an American court
for alleged jus cogens violations committed by Americans. For the reasons that follow, this Court concludes that the United States does not retain such immunity.
a.

Rights and Remedies

Jus cogens norms not only carry with them an obligation on the part of states to respect the norms but
also confer an unquestionable right on each individual
to be free from states violating those norms. This
right, which is created by international law, is binding

315a
on the federal government and enforceable in the federal courts, and the basic axiom that where there is a
right, there must be a remedy leads to the conclusion
that the government has waived its sovereign immunity with respect to alleged jus cogens violations.
The basic principle that international law is incorporated into American law and is binding on the federal government and enforceable by American courts
is as old as the Republic itself. In 1796, the Supreme
Court “held that the United States had been bound to
receive the law of nations upon declaring its independence,” which meant that “the United States was required” to recognize international norms when those
norms were recognized by all other nations. David F.
Klein, Comment, A Theory for the Application of the
Customary International Law of Human Rights by
Domestic Courts, 13 Yale J. Int’l L. 332, 338 (1988)
(citing Ware v. Hylton, 3 U.S. (3 Dall.) 199 (1796)); see
also Jules Lobel, The Limits of Constitutional Power:
Conflicts Between Foreign Policy and International
Law, 71 Va. L. Rev. 1071, 1084 (1985) (“The early
American leadership believed that the attainment of
independence obligated the United States to receive
and to follow the law of nations.”). Indeed, at the time
of the Founding, American law was expected to conform to the dictates of international law. “Early federal court cases also suggested that laws or executive
actions in violation of international law were void,”
Lobel, supra, at 1087, and at least one state court permitted the indictment of a defendant for a violation of
the law of nations, finding that law to be, “in its full
extent, . . . part of the law of th[e] State,” Respublica
v. De Longchamps, 1 U.S. (1 Dall.) 111, 116 (Pa. Ct.

316a
Oyer & Terminer 1784). In a similar vein, the Supreme Court held in 1804 that an “act of Congress
ought never to be construed to violate the law of nations if any other possible construction remains, and
consequently can never be construed to violate neutral rights, or to affect neutral commerce, further than
is warranted by the law of nations as understood in
this country.” Murray v. Schooner Charming Betsy, 6
U.S. (2 Cranch) 64, 118 (1804).
In the last two centuries, the principle that “federal common law incorporates international law” has
become a “settled proposition.” Kadic v. Karadzic, 70
F.3d 232, 246 (2d Cir. 1995). Over that time, “Supreme Court decisions, executive statements, and
scholarly commentary have . . . considered customary
international law to be the law of the land.” Lobel, supra, at 1072; see also The Paquete Habana, 175 U.S.
677, 700 (1900) (“International law is part of our law,
and must be ascertained and administered by the
courts of justice of appropriate jurisdiction, as often as
questions of right depending upon it are duly presented for their determination.”). Moreover, because
the “Constitution does not freeze international law to
its state of development [as of] 1789,” as international
law has evolved to incorporate jus cogens norms, so
too has federal common law. Belsky et al., supra, at
398; see also Sosa, 542 U.S. at 724 (holding that the
ATS is a jurisdictional statute “creating no new causes
of action” but that the common law “provide[s] a cause
of action for . . . certain torts in violation of the law of
nations”). Accordingly, there is today a federal common law right derived from international law that entitles individuals not to be the victims of jus cogens
violations.

317a
Once it is determined that jus cogens violations
infringe on federal rights, it becomes clear that there
must be a remedy available to the victims. Indeed,
the “ancient legal maxim” ubi jus, ibi remedium—
”[w]here there is a right, there should be a remedy”—
is as “basic and universally embraced” today as it was
two hundred years ago. Akhil Reed Amar, Of Sovereignty and Federalism, 96 Yale L.J. 1425, 1485-86
(1987). As Chief Justice Marshall famously stated in
Marbury v. Madison, “The government of the United
States has been emphatically termed a government of
laws, and not of men. It will certainly cease to deserve
this high appellation, if the laws furnish no remedy
for the violation of a vested legal right.” 5 U.S. (1
Cranch) at 163. In fact, not only did the early Supreme Court embrace this principle, but it was also
endorsed by many state constitutions and in The Federalist Papers. See Amar, supra, at 1485-86. Since
that time, the principle has been incorporated into the
basic fabric of American law. Accordingly, by joining
the community of nations and accepting the law of nations, the federal government has impliedly waived
any right to claim sovereign immunity with respect to

318a
jus cogens violations when sued for such violations in
an American court.11
b.

The International Enforcement
Structure

In addition to this common law remedial imperative, the international enforcement structure mandated by various multilateral agreements to which the
United States is a party and envisioned by foreign and
international courts requires the United States to
submit to suit in its own courts for certain jus cogens
violations, especially those related to torture. By joining these agreements and participating in the international community, the United States has therefore
impliedly waived its sovereign immunity with respect
to such claims.
The Convention Against Torture, which the
United States ratified in 1994, requires each state to
“ensure in its legal system that the victim of an act of
torture obtains redress and has an enforceable right
to fair and adequate compensation.” Convention

11

This does not compel the conclusion that federal sovereign
immunity does not bar claims of violations of domestic law. The
rights created by such laws, which are enacted by Congress
against the backdrop of sovereign immunity, may be limited so
as not to create a substantive right enforceable against the federal government. Cf. Kawananakoa v. Polyblank, 205 U.S. 349,
353 (1907) (explaining that sovereign immunity derives from the
“ground that there can be no legal right as against the authority
that makes the law on which the right depends”). With respect
to violations of jus cogens norms, the substantive right has been
created by international law and incorporated into federal common law. Accordingly, the right is not so limited and is enforceable against the federal government.

319a
Against Torture art. 14(1). Indeed, “[a]lmost all international human rights declarations and treaties, including those that are binding on the United States,
impose an obligation on the State to provide compensation for violations of rights that occur.” Denise Gilman, Calling the United States’ Bluff: How Sovereign
Immunity Undermines the United States’ Claim to an
Effective Domestic Human Rights System, 95 Geo.
L.J. 591, 624 (2007); see also Velasquez Rodriguez
Case, 1988 Inter-Am. Ct. H.R. (ser. C) No. 4, ¶ 174
(July 29, 1988) (“The State has a legal duty to take
reasonable steps to prevent human rights violations
and to use the means at its disposal to carry out a serious investigation of violations committed within its
jurisdiction, to identify those responsible, to impose
the appropriate punishment and to ensure the victim
adequate compensation.”)
In response to inquiries from the United Nations
Committee Against Torture about whether the United
States has taken appropriate steps to comply with its
obligation “to ensure that mechanisms to obtain full
redress, compensation and rehabilitation are accessible to all victims of acts of torture,” the United States
has explained that “U.S. law provides various avenues
for seeking redress in cases of torture” and that, “as to
torture specifically, the Torture Victim Protection Act
. . . created a cause of action in federal courts against”
foreign officials who commit torture. United Nations
Committee Against Torture, Convention Against Torture, Periodic Report of the United States of America
(Third, Fourth, and Fifth Reports) (Aug. 12, 2013)
¶ 147, at 53. Although with respect to American officials and the federal government, neither of whom
may be sued under the Torture Victim Protection Act,

320a
the government has explained to the Committee
Against Torture that claims may be resolved through
the military, id., it has not provided any information
about how this resolution structure complies with its
obligations under the Convention Against Torture.
Moreover, in response to a request asking “whether
the United States would consider authorizing jurisdiction by the Committee to receive and adjudicate complaints by individuals claiming to have suffered human rights violations committed by the United
States,” the government refused to consent to such jurisdiction on the basis that the domestic legal system
provides an adequate remedy for such individuals.
See Gilman, supra, at 602. Because the Westfall Act
provides that a suit against the government is the exclusive remedy for torts committed by government officers in the course of their government employment,
victims who were tortured by American government
or military personnel are unable to sue the torturers
directly. See Ameur v. Gates, 950 F. Supp. 2d 905,
91418 (E.D. Va. 2013) (holding that the United States
had properly substituted itself as a defendant under
the Westfall Act where the plaintiff, who alleged various jus cogens violations including torture, had
named individual government officers as defendants),
aff’d, 759 F.3d 317 (4th Cir. 2014). As such, allowing
the United States to assert sovereign immunity as a
defense to such claims would ensure that the domestic
legal system does not provide an adequate remedy to
victims of torture. Cf. Gilman, supra, at 634 (explaining that the European Court of Human Rights has
held that blanket immunities amount “to an unjustifiable restriction on an applicant’s right to have a determination on the merits of his or her claim” and that

321a
courts must examine claims “on the merits in an adversarial proceeding that would require the [government actors] to `account for their actions and omissions’ rather than to dismiss those claims on immunity grounds” (quoting Osman v. United Kingdom (No.
95), 1998-VIII Eur. Ct. H.R. 3124, 317-71)). Accordingly, by ratifying the Convention Against Torture
and assuring the Committee Against Torture that an
adequate civil remedy exists for such victims, the
United States has impliedly waived its sovereign immunity with respect to such claims.
This conclusion is further reinforced by the international prosecution structure envisioned by these
agreements and effected by international and foreign
courts. Article 5 of the Convention Against Torture
provides that each state party “shall take such
measures as may be necessary to establish its [criminal] jurisdiction over” torture-related offenses where
the offenses occur within the territory of the state,
where the offender is a state national, or “where the
alleged offender is present in any territory under its
jurisdiction and it does not extradite him.” Convention
Against Torture art. 5(1)-(2). This provision establishes a structure whereby each state party to the
Convention is required to assume criminal jurisdiction over all cases with a strong jurisdictional nexus
to the state—where the offender is a national or the
offense occurred within the state—and is also required either to extradite or prosecute offenders who
are not nationals and who did not engage in the criminal conduct within the state but who are found in the
state’s territory. Read together, these rules establish
a logical structure for criminal prosecution of those
engaged in torture: when possible, prosecution should

322a
take place in a state with a strong jurisdictional interest in the case, but when that is not possible, prosecution may take place in any state where the offender is
found or to which the offender can be extradited.
Although not specifically required by the Convention Against Torture, courts have effected a similar remedial structure for civil torture claims against
states. By refusing to exercise jurisdiction over foreign states where the conduct in question occurred
outside the forum, courts have determined that civil
suits should, like criminal prosecutions, proceed in
the courts that have the strongest jurisdictional nexus
to the conduct. Typically, those courts would be in the
state that allegedly carried out the torture or where
the torture allegedly occurred. Unlike in the case of
criminal prosecutions, there is no universal jurisdiction safety valve where such a court is unable or unwilling to exercise jurisdiction. Accordingly, to effectuate the global remedial structure apparently envisioned by the Convention Against Torture, it is necessary for those courts with a nexus to alleged torture to
exercise jurisdiction over victims’ civil claims. In this
case, the United States has decreed that it and its personnel are not subject to the jurisdiction of Iraqi
courts for conduct arising out of the occupation of Iraq,
see Memorandum Opinion [Dkt. No. 678] 51 (explaining that Coalition Provisional Authority Order 17 directs that injured parties, such as plaintiffs, may not
bring claims arising from coalition activities in Iraqi
courts because “occupying powers . . . are not subject
to the laws or jurisdiction of the occupied territory”
(citation omitted)), which leaves American courts as
the only courts with a jurisdictional nexus to such

323a
claims. Therefore, to effectuate the international enforcement structure envisioned by the Convention
Against Torture and affirmed by international and
foreign courts, it is necessary for American courts to
exercise jurisdiction over civil claims arising out of alleged torture by American personnel in Iraq. 12 Accordingly, by becoming a party to the Convention
Against Torture, the government has impliedly
waived any sovereign immunity defense that would
prevent such enforcement.

12

This structure for civil enforcement, including waiver of sovereign immunity in a state’s own courts, also dovetails with Congress’s original intent in passing the ATS. This statute was
passed after “substantial foreign-relations problems” were
caused by the “inability of the central government to ensure adequate remedies for foreign citizens” under the Articles of Confederation. Jesner v. Arab Bank, PLC, 138 S. Ct. 1386, 1396
(2018). For example, “[i]n 1784, the French Minister lodged a
protest with the Continental Congress after a French adventurer, the Chevalier de Longchamps, assaulted the Secretary of
the French Legation in Philadelphia.” Id. Similarly, “[a] few
years later, a New York constable caused an international incident when he entered the house of the Dutch Ambassador and
arrested one of his servants.” Id. The Articles of Confederation
did not provide a national forum to resolve these disputes, which
caused tension with foreign governments and led to a fear that
the failure to provide such a forum “might cause another nation
to hold the United States responsible for an injury to a foreign
citizen.” Id. at 1397. In the case before this Court, the government has already disclaimed Iraqi jurisdiction over the American
personnel who allegedly committed the jus cogens violations, despite their occurrence in Iraq against Iraqi citizens. Barring any
civil suit in American federal court against the government officials involved or the government itself may result in Iraq or another government asserting jurisdiction with respect to the
claims, thereby frustrating the original purpose of the ATS.

324a
c.

Hierarchy of Norms

The place of jus cogens norms at the top of the hierarchy of international law norms and their status as
obligatory and overriding principles that invalidate
any contradictory state acts, as well as their development from the ashes of World War II, provide an additional reason that the United States does not have
sovereign immunity here.
Jus cogens norms “enjoy the highest status within
international law,” and their supremacy “extends over
all rules of international law.” Siderman de Blake, 965
F.2d at 715-16 (internal quotation marks and citation
omitted). Accordingly, these norms “prevail over and
invalidate international agreements and other rules
of international law in conflict with them.” Id. (internal quotation marks and citation omitted). As one
specific example, it is unquestionable that jus cogens
norms “limit the scope of treaties, such that a treaty
concluded in violation of a jus cogens norm [i]s null
and void.” Belsky et al., supra, at 390. Because the
concept that a sovereign may claim immunity from
suit “itself is a principle of international law,” Siderman de Blake, 965 F.2d at 718, the peremptory status
of jus cogens norms means that when sovereign immunity and jus cogens norms conflict, the sovereign
immunity principle must give way. See id. (concluding that as “a matter of international law, [this] argument carries much force”). In this case, the two norms
conflict because the jus cogens norms in question inherently include not only a rule prohibiting states
from torturing individuals but also necessarily a rule
requiring an effective means to redress that violation.
Without such a remedial principle, the prohibitory

325a
norm itself would be toothless and, given the recognized importance of ensuring adherence to jus cogens
norms, any interpretation defanging the norm would
impermissibly “undo what [the international community] has done” in implementing the norm. King v.
Burwell, 135 S. Ct. 2480, 2496 (2015). So interpreted,
any jus cogens norm must prevail over and invalidate
any principle allowing the assertion of sovereign immunity in response to claims of jus cogens violations.13
Moreover, the circumstances surrounding the development of the concept of peremptory norms—ones
that can bind all states even without their explicit consent and even with regard to domestic conduct—provide additional force to the conclusion that sovereign
immunity must give way in the face of violations of
such norms. The concept of such binding norms arose
in the wake of World War II and the Nuremberg trials.
Before the atrocities committed by Nazi Germany, “a
state’s treatment of its own citizens was considered
immune from the dictates of international law.”
Princz, 26 F.3d at 1182 (Wald, J., dissenting). The
Nuremberg trials, in which German officials were
prosecuted for crimes against humanity, including
crimes against German citizens, “permanently eroded
any notion that the mantle of sovereign immunity
13

Indeed, the “very existence of jus cogens limits state sovereignty in the sense that the general will of the international community of states takes precedence over the individual wills of
states to order their relation.” Belsky et al., supra, at 390 (internal quotation marks and footnote omitted). Accordingly, “the concept that a sovereign is subject to no restraints except those imposed by its own will is inconsistent with the definition of jus
cogens as peremptory law,” id. at 390-91, and because the United
States accepts the existence of jus cogens norms, it must also accept the conclusion that its immunity from suit is not categorical.

326a
could serve to cloak an act that constitutes a ‘crime
against humanity,’ even if that act is confined within
the borders of a single sovereign state.” Id. These
prosecutions “forced the world to acknowledge that,
even absent formal expressions of certain international principles in the past, the rule of reason required the conviction of Nazi war criminals” and, more
generally, represented an acceptance by the global
community of the idea that rules “appealing to normative values, such as human rights principles, do not
depend on the will of the governing executive or legislative authority for their legality; they are part of the
common law.” Klein, supra, at 348, 352. As the International Military Tribunal at Nuremberg explained:
The principle of international law, which under certain circumstances, protects the representatives of a State, cannot be applied to acts
which are condemned as criminal by International Law. The authors of these acts cannot
shelter themselves behind their official position in order to be freed from punishment in
appropriate proceedings. . . . [T]he very essence of the Charter [of the International Military Tribunal] is that individuals have international duties which transcend the national
obligations of obedience imposed by the individual State. He who violates the laws of war
cannot obtain immunity while acting in pursuance of the authority of the State if the
State in authorizing action moves outside its
competence under International Law. . . .
The provisions of [the Charter of the International Military Tribunal providing that acting
pursuant to a superior’s order is not a defense

327a
to criminal liability] are in conformity with
the law of all nations. That a soldier was ordered to kill or torture in violation of the International Law of war has never been recognized as a defense to such acts of brutality.
International Military Tribunal (Nuremberg), Judgment and Sentences (1946), reprinted in 41 Am. J.
Int’l L. 172, 221 (1947). The principle at the heart of
the Nuremberg trials, and the concomitant acceptance
of the existence of certain peremptory norms, is simple and persuasive: there are some acts that are, as a
matter of morality and reason, fundamentally wrong
such that no state may authorize their commission
nor immunize those involved in such acts from liability. This principle compels the conclusion that just as
a government official is unable to cloak himself in the
mantle of sovereign immunity to avoid prosecution
when he commits a jus cogens violation, so too is a
government unable to immunize itself from civil liability for such violations. And indeed, not only has the
United States accepted the principles advanced at Nuremberg, it actually
led the way in these developments and must
therefore accept domestically these legal limitations on national sovereignty. As Justice
Jackson, the United States prosecutor at Nuremberg, stated, “[i]f certain acts in violation
of treaties are crimes, they are crimes whether
the United States does them or whether Germany does them, and we are not prepared to
lay down a rule of criminal conduct against
others which we would not be willing to have
invoked against us.” A complete deference by
United States courts to executive orders or

328a
congressional acts irrespective of international law implications would be simply inconsistent with the spirit and rationale of Nuremberg.
Lobel, supra, at 1074 (alteration in original) (footnotes
omitted). Accordingly, both by participating in the
Nuremberg trials and the parallel development of peremptory norms of international law and by continuing
to recognize the existence of such peremptory norms,
the United States has waived its sovereign immunity
for any claims arising from the violations of such
norms.
d.

Consent Through Membership in
the Community of Nations

The United States has also consented to suit with
respect to jus cogens violations by holding itself out as
a member of the international community because the
respect and enforcement of jus cogens norms are fundamental to the existence of a functioning community
of nations. Jus cogens norms have been developed not
only to safeguard the rights of individuals but also to
provide an obligatory framework for ordering the relations of states because, as in any community, the
“absolute protection” of “certain norms and values” is
necessary for the “public order of the international
community.” Belsky et al., supra, at 387. Indeed, at
least one “influential modern definition of jus cogens,”
which was given by a delegate to the United Nations
Conference on the Law of Treaties, frames jus cogens
norms in precisely these terms: “The rules of jus cogens [are] those rules which derive from principles
that the legal conscience of mankind deem[s] absolutely essential to coexistence in the international

329a
community.” Parker & Neylon, supra, at 415 (alterations in original) (citation omitted). A similar “emphasis on the importance of jus cogens in maintaining the
existence of international law” has been echoed by a
variety of other authorities, including foreign court
decisions. Id. at 415-16; see also Princz, 26 F.3d at
1181 (Wald, J., dissenting) (explaining that the “principle of nonderogable peremptory norms evolved due
to the perception that conformance to certain fundamental principles by all states is absolutely essential
to the survival of the international community” and
that if “the conscience of the international community
[were] to permit derogation from these norms, ordered
society as we know it would cease”); Stefan A. Riesenfeld, Editorial Comment, Jus Dispositivum and Jus
Cogens in International Law: In the Light of a Recent
Decision of the German Supreme Constitutional
Court, 60 Am. J. Int’l L. 511, 513 (1966) (“Only a few
elementary legal mandates may be considered to be
rules of customary international law which cannot be
stipulated away by treaty. The quality of such peremptory norms may be attributed only to such legal
rules as are firmly rooted in the legal conviction of the
community of nations and are indispensable to the existence of the law of nations as an international legal
order, and the observance of which can be required by
all members of the international community.” (quoting the German Supreme Court)).
This function of jus cogens norms as the building
blocks of an international legal order comes into considerable tension with the notion of sovereign immunity. In recognition of this inherent discord between
the rule of law and unrestrained sovereignty, at least
some commentators have described the introduction

330a
of jus cogens norms as “part of an ongoing struggle to
move beyond unrestricted state sovereignty (that is,
to establish an international rule of law).” Mary Ellen
Turpel & Philippe Sands, Peremptory International
Law and Sovereignty: Some Questions, 3 Conn. J.
Int’l L. 364, 365 (1988). By continuing to engage with
the international community, the United States has
expressed a wish “to preserve the international order,” which inherently involves “abdicat[ing] any
‘right’ to ignore or violate [jus cogens] norms.” Princz,
26 F.3d at 1181 (Wald, J., dissenting); see also id. at
1184 (“Adhering to such principles, now termed jus cogens norms, is an obligation erga omnes—an obligation of the state toward the international community
as a whole—and by abdicating its responsibility to act
in accordance with such norms, Germany consciously
waived its right to any and all sovereign immunity.”
(footnote and citation omitted)). Accordingly, by holding itself out as a member of the international community, the United States has impliedly waived its
sovereign immunity for jus cogens violations because
the continued deployment of such immunity would be
fundamentally inconsistent with any desire to maintain an international legal order. Cf. Libyan Arab
Jamahiriya, 101 F.3d at 242 & n.1 (concluding that
the argument that “a state impliedly waives its immunity for jus cogens violations by holding itself out
as a state within the community of nations,” which is
“premised on the idea that because observance of jus
cogens is so universally recognized as vital to the functioning of a community of nations, every nation impliedly waives its traditional sovereign immunity for
violations of such fundamental standards by the very
act of holding itself out as a state,” is “appealing” and
has been “persuasively developed”).

331a
e.

The Character of Sovereign Acts

The United States also may not claim immunity
for jus cogens violations because when government
agents commit such violations, their actions are not
sovereign in nature. Under international law, jus cogens norms are “by definition nonderogable,” which
means that the “rise of jus cogens norms limits state
sovereignty in the sense that the general will of the
international community of states, and other actors,
will take precedence over the individual wills of states
to order their relations.” Princz, 26 F.3d at 1182
(Wald, J., dissenting) (internal quotation marks and
citation omitted). As such, when “a state thumbs its
nose at such a norm, in effect overriding the collective
will of the entire international community, the state
cannot be performing a sovereign act entitled to immunity” because such an act is fundamentally inconsistent with the obligations of every state. Id. In effect, “[i]nternational human rights law as a whole abrogates traditional notions of state sovereignty: states
do not have the sovereign right to violate human
rights.” Parker & Neylon, supra, at 446; see also
Belsky et al., supra, at 401 (“Nonrecognition is based
on the principle that acts contrary to international
law are invalid and cannot become a source of legal
rights for the wrongdoer. . . . Because a state act in violation of a rule of jus cogens is not recognized as a
sovereign act, the violating state has no legal right to
claim immunity.” (internal quotation marks and footnotes omitted)). Any other conclusion would be
“senseless,” as it would be illogical to argue that “on
account of the jus cogens value of the prohibition
against torture, treaties or customary rules providing
for torture would be null and void ab initio,” but a

332a
state may take “national measures authorising or condoning torture or absolving its perpetrators.” Prosecutor v. Furundzija, No. IT-95-17/1-T (Dec. 10, 1998),
¶ 155, reprinted in 38 I.L.M. 317, 349; see also id. (concluding that the jus cogens prohibition on torture
“serves to internationally de-legitimise any legislative, administrative or judicial act authorising torture”). Therefore, when the United States violates jus
cogens norms, it is not acting as a state must, and the
violative acts do not have the sovereign character necessary to confer immunity.
This principle has been persuasively applied by at
least two district courts in the FSIA context. In Liu v.
Republic of China, 642 F. Supp. 297 (N.D. Cal. 1986),
the court denied a motion to dismiss under the FSIA’s
discretionary function exception in a lawsuit where
the plaintiffs representative alleged that the plaintiff
was killed in California at the direction of Chinese officials. Id. at 305. The court held that “planning and
conducting the murder of Henry Liu could not have
been a discretionary function as defined by the FSIA”
because the “killing of Americans residing in the
United States is not a policy option available to foreign countries.” Id. In short, China “and its agents
simply did not have the discretion to commit the acts
alleged.” Id. Similarly, in Letelier v. Republic of
Chile, 488 F. Supp. 665 (D.D.C. 1980), the court found
that the discretionary function exception did not bar a
suit against Chile stemming from its alleged participation in the assassination of a Chilean official in
Washington, D.C. because “there is no discretion to
commit, or to have one’s officers or agents commit, an
illegal act.” Id. at 673. In the words of the court:

333a
“Whatever policy options may exist for a foreign country, it has no `discretion’ to perpetrate conduct designed to result in the assassination of an individual
or individuals, action that is clearly contrary to the
precepts of humanity as recognized in both national
and international law.” Id. Although both Liu and
Letelier involved the question whether certain violations of international law could constitute discretionary acts that allowed the foreign government to retain
sovereign immunity under the statutory scheme of the
FSIA, which is a slightly different concern from the
question presented in this civil action, the “fundamental premise” underlying both decisions “is that, although political assassination can be viewed as a public act by a state, there is a strong international consensus that such acts are not sovereign acts.” Belsky
et al., supra, at 400. Accordingly, “the acts, although
performed by the government, were not recognized as
state acts under national and international law.” Id.
Similarly, when the United States government commits acts that violate jus cogens norms, it is not acting
in a sovereign capacity, which means that it is not entitled to immunity for such acts.
This conclusion is reinforced by the nature of sovereignty in the American system. Since the Founding,
Americans have recognized that “indivisible, final,
and unlimited authority,” i.e., sovereignty, rests in the
People, not the government. See Amar, supra, at
1435-37. Accordingly, when speaking of the “government as sovereign,” the Founders “mean[t] sovereign
in a necessarily limited sense” because “[b]y definition, government’s sovereignty was bounded” to “its

334a
sphere of delegated power.” See id. at 1437.14 Therefore, the federal government may only exercise power
that has been legitimately delegated to it by the People.
Moreover, at the Founding, even those with expansive views of sovereign immunity recognized that
the ability to claim sovereign immunity was bounded
by substantive lawmaking power. As Justice Iredell
argued in dissent in Chisholm, Georgia’s sovereign
immunity was “exactly coextensive with her derivative ‘sovereign’ lawmaking capacity: A state could use
its lawmaking power to adopt rules immunizing itself
from liability, as long as such immunity frustrated no
higher-law restrictions on the state’s limited sovereignty.” See id. at 1472. Accordingly, by the very nature of limited sovereignty, governments may “choose
to exercise their sovereign power by immunizing
themselves from rules that apply to private citizens”
only when acting “within the scope of their delegated
14

Cf. U.S. Term Limits, Inc. v. Thornton, 514 U.S. 779, 838-39
(1995) (Kennedy, J., concurring) (“The Framers split the atom of
sovereignty. It was the genius of their idea that our citizens
would have two political capacities, one state and one federal,
each protected from incursion by the other. The resulting Constitution created a legal system unprecedented in form and design,
establishing two orders of government, each with its own direct
relationship, its own privity, its own set of mutual rights and obligations to the people who sustain it and are governed by it. . . .
A distinctive character of the National Government, the mark of
its legitimacy, is that it owes its existence to the act of the whole
people who created it. . . . As James Madison explained, the
House of Representatives derives its powers from the people of
America, and the operation of the government on the people in
their individual capacities makes it ‘a national government,’ not
merely a federal one.” (quoting The Federalist No. 39 (James
Madison), at 244, 245 (C. Rossiter ed. 1961))).

335a
authority.” Id. at 1490. On the other hand, when republican “governments act ultra vires and transgress
the boundaries of their charter,” they have no sovereign power to immunize themselves. Id.
Putting these two conclusions together: the federal government may immunize itself from liability
for jus cogens violations only if the acts of authorizing
or engaging in such violations fall within the sphere
of authority that has been legitimately delegated by
the People. Under the principles of international law
discussed in this section, the People as sovereign are
bound by the nonderogability of jus cogens norms,
which means that the People may not legitimately delegate to the government the power to engage in jus
cogens violations. Accordingly, the federal government, bounded by its status as a limited government
of delegated powers, has no sovereign power to immunize itself from liability for such violations.
For these reasons, the United States does not retain sovereign immunity for violations of jus cogens
norms of international law. Because Counts 1-3 in the
Third-Party Complaint are derivative of plaintiffs’
claims that CACI employees conspired with and aided
and abetted the federal government in violation of jus
cogens norms, CACI’s assertion of these counts
against the United States is not barred by sovereign
immunity, and the government’s Motion to Dismiss
will be denied as to Counts 1-3.
D.

Sovereign Immunity and CACI’s Contract Claim

Unlike the claims in Counts 1-3, CACI’s contract
claim in Count 4 is not derivative of plaintiffs’ claims
for violations of jus cogens norms. Instead, in Count

336a
4, CACI alleges that the government has breached an
implied duty of good faith and fair dealing by refusing
to provide discovery in this litigation that CACI believes would have been helpful in defending itself
against plaintiffs’ claims. Accordingly, sovereign immunity with respect to this claim is not waived by the
nature of plaintiffs’ allegations because no jus cogens
issues are involved in this claim. Instead, CACI argues that the Little Tucker Act functions as a waiver
of sovereign immunity for its contract claim. CACI
MTD Opp’n 29 (citing 28 U.S.C. § 1346(a)(2)). That
Act provides district courts with jurisdiction (concurrent with the United States Court of Federal Claims)
over any “civil action or claim against the United
States, not exceeding $10,000 in amount, founded either upon the Constitution, or any Act of Congress, or
any regulation of an executive department, or upon
any express or implied contract with the United
States, or for liquidated or unliquidated damages in
cases not sounding in tort,” 28 U.S.C. § 1346(a)(2), but
it exempts “any civil action or claim against the
United States founded upon any express or implied
contract with the United States or for liquidated or
unliquidated damages in cases not sounding in tort
which are subject to” the Contracts Dispute Act
(“CDA”), id. The CDA covers, among other contracts,
“any express or implied contract . . . made by an executive agency for . . . the procurement of services.” 41
U.S.C. § 7102(a). The CDA includes certain statutory
review procedures, id. §§ 7103-7107, that are “exclusive of jurisdiction in any other forum.” United States
v. J & E Salvage Co., 55 F.3d 985, 986 (4th Cir. 1995).
“Thus, federal district courts lack jurisdiction over
government claims against contractors which are subject to the CDA.” Id.

337a
CACI argues that its claim is “not necessarily rendered contractual in nature for CDA purposes simply
because” its relationship with the United States is
“contractual in nature” and that the “essence” of its
claim is not a contractual claim that would be subject
to the provisions of the CDA, but rather a claim for
“recovery of any tort judgment against it.” CACI MTD
Opp’n 27-29. CACI’s argument fails. The Little
Tucker Act and the CDA read together put CACI in a
double bind. On one hand, if CACI’s claim is “founded
upon” its contract for services with the federal government, then it is subject to the exclusion in the Little
Tucker Act because the underlying contract is “subject
to” the CDA. On the other hand, if CACI’s claim is not
“founded upon” its contract with the federal government, then it never falls within the Little Tucker Act
in the first place because § 1346(a)(2) only reaches
claims “founded . . . upon any express or implied contract with the United States.” Either way, the Little
Tucker Act does not provide for jurisdiction.15
Although the CDA does not define the type of
“claims” it governs, the Federal Acquisition Regulations (“FARs”) define a “claim” as “a written demand
15

The government also argues that three FTCA exceptions
would apply to the breach of contract claim if it were reconceptualized as a tort, rather than a contract, claim, as CACI argues it
should be: the exceptions for “[a]ny claim arising out of . . . interference with contract rights,” for “[a]ny claim arising out of . . .
misrepresentation,” and for “[a]ny claim . . . based upon the exercise or performance or the failure to exercise or perform a discretionary function or duty on the part of a federal agency or an
employee of the government.” Gov’t MTD Mem. 23-25 (citing 28
U.S.C. § 2680(a), (h)). CACI does not attempt to explain how its
breach of contract claim, even if it were classified as a tort claim,
would avoid any of these three exclusions.

338a
or written assertion by one of the contracting parties
seeking, as a matter of right, the payment of money in
a sum certain, the adjustment or interpretation of contract terms, or other relief arising under or relating to
the contract,” 48 C.F.R. § 2.101(b), and courts have
generally adopted this definition for purposes of the
CDA, see Todd Constr., L.P. v. United States, 656 F.3d
1306, 1311 (Fed. Cir. 2011). This definition, which
reaches assertions for any “relief arising under or relating to the contract,” is extremely broad, and CACI’s
claim, which seeks damages for a breach of the implied duty of good faith and fair dealing contained in
its contract with the government, easily qualifies as
such a claim.
CACI cites a variety of cases in which courts
looked at factors such as the type of relief sought by
the plaintiff, the basis for the plaintiff’s claims, and
whether the Court of Federal Claims had any special
expertise in the matter to determine whether the
plaintiff’s claims were “in essence” contract claims
subject to the CDA; however, none of the cases cited
by CACI involved a breach of contract cause of action.
Instead, these cases involved situations where a
plaintiff that had a contractual relationship with the
federal government attempted to plead around the
CDA by recasting its claims as sounding in tort or
other areas of law. Accordingly, the courts undertook
an examination of the claims to ensure compliance
with the principle that “a plaintiff may not avoid the
jurisdictional bar of the CDA merely by alleging violations of regulatory or statutory provisions rather than
breach of contract.” Ingersoll-Rand Co. v. United
States, 780 F.2d 74, 77 (D.C. Cir. 1985). In this case,
CACI has explicitly pleaded Count 4 as a breach of

339a
contract claim, which means that there is no need for
the Court to engage in this analysis of the essence of
the claims: the claim arises from and is related to
CACI’s contract for services with the federal government because the foundation of the claim is a breach
of that contract.
Moreover, even if the Court were to consider these
other factors, the result would be the same. CACI
seeks up to $10,000 in reimbursement for any future
tort judgment against it as breach of contract damages and cites no law establishing any duty it contends the government has breached or otherwise establishing the government’s liability to CACI. In addition, although CACI’s breach of contract claim does
not call for a price adjustment or other FAR-dependent analysis that might involve the core competency
of the Court of Federal Claims, there is a governmental interest in having a uniform national rule about
whether government contracts include an implied
duty regulating the government’s handling of discovery requests in litigation related to the contractor’s activity. This governmental interest is best advanced by
the procedures of the CDA and subsequent review by
the Court of Federal Claims, not district courts.
Accordingly, CACI’s breach of contract claim is
undeniably subject to the provisions of the CDA,
which means that this Court does not have jurisdiction over it. Accordingly, the United States’ Motion to
Dismiss will be granted as to Count 4.
III. CACI’S MOTION TO DISMISS
Piggybacking on the United States’ motion to dismiss based on sovereign immunity, CACI has moved
to dismiss plaintiffs’ Third Amended Complaint based

340a
on a claim of “derivative sovereign immunity.” Dkt.
No. 1149. CACI argues that if sovereign immunity
protects the United States from its third-party claims,
then it should be protected from plaintiffs’ claims because the conduct at issue occurred when it was a government contractor.
Derivative sovereign immunity shields a government contractor from suit when (1) the United States
would be immune from suit if the claims had been
brought against it, (2) the contractor performed services for the sovereign under a validly awarded contract, and (3) the contractor adhered to the terms of
the contract. See Cunningham v. Gen. Dynamics Info.
Tech., Inc., 888 F.3d 640, 646-47 (4th Cir.) (citing
Yearsley v. W. A. Ross Constr. Co., 309 U.S. 18, 20-21
(1940)), cert. denied, 139 S. Ct. 417 (2018). Because
this Court has ruled that sovereign immunity does not
protect the United States from claims for violations of
jus cogens norms, the first prong of the derivative sovereign immunity test is not met, and CACI’s Motion
to Dismiss based on a theory of derivative immunity
will be denied.16
Even if the Court had concluded that sovereign
immunity protected the United States from suit, it is
not at all clear that CACI would be extended the same
immunity. As plaintiffs argue in their Opposition
[Dkt. No. 1172], the Supreme Court has held that derivative immunity is not guaranteed to government
contractors and is not awarded to government con-

16

Although CACI noticed its Motion for argument on April 5,
2019 [Dkt. No. 1173], no further discussion would change the
outcome for the reasons stated above.

341a
tractors who violate the law or the contract. Campbell-Ewald Co. v. Gomez, 136 S. Ct. 663, 672-74
(2016). The task orders under which CACI provided
interrogators to the United States Army required that
CACI employees conduct themselves “[in accordance
with] Department of Defense, U.S. Code, and International Regulations.” CACI Decl. [Dkt. No. 1154] Ex. 3.
To the extent that plaintiffs have alleged that CACI
conspired with and aided and abetted military personnel in committing acts of torture, CIDT, and war
crimes, CACI would not have acted in accordance with
the U.S. Code and international regulations. When a
contractor breaches the terms of its contract with the
government or violates the law, sovereign immunity
will not protect it.
Yearsley, the Supreme Court case from which this
doctrine of limited derivative immunity originates,
“suggests that the contractor must adhere to the government’s instructions to enjoy derivative sovereign
immunity; staying within the thematic umbrella of
the work that the government authorized is not
enough to render the contractor’s activities ‘the act[s]
of the government.’” See In re KBR, Inc., Burn Pit
Litig., 744 F.3d 326, 345 (4th Cir. 2014) (alteration in
original) (quoting Yearsley, 309 U.S. at 22); see also
Myers v. United States, 323 F.2d 580, 583 (9th Cir.
1963) (stating that a government contractor is not liable under Yearsley if the work was done under the
contract and in conformity with the contract terms but
may be liable for damages from acts “over and beyond
acts required to be performed by it under the contract”
or “acts not in conformity with the terms of the con-

342a
tract”). Regardless, CACI’s Motion to Dismiss fails because the United States does not enjoy sovereign immunity for these kinds of claims.
IV. UNITED STATES’ MOTION FOR SUMMARY
JUDGMENT
In its Motion for Summary Judgment, the United
States primarily argues that all claims between CACI
and the federal government “arising out of or related
to” the two task orders under which CACI placed civilian interrogators at Abu Ghraib were settled in
2007.
The following facts are not disputed. CACI provided interrogators to the United States Army pursuant to Task Orders 35 and 71. U.S.’ Mem. of Law in
Supp. of its Mot. for Summ. J. [Dkt. No. 1130] (“Gov’t
SJ Mem.”) ¶ 1. These task orders were issued and administered by the United States Department of the Interior (“DOI”). Id. ¶ 2. Some of the interrogators provided by CACI pursuant to these task orders were
sent to Abu Ghraib. Id. ¶ 5. In June 2004, several
individuals who alleged they were subjected to torture
while detained at Abu Ghraib filed a putative class action complaint against CACI’s parent company. Id.
¶ 8.17 In December 2006, while that class action was
proceeding in the United States District Court for the
District of Columbia, CACI noticed an appeal in a dispute over several task orders, including Task Orders

17

See Al Rawi v. Titan Corp., No. 3:04-cv-1143-R-NLS (S.D.
Cal. June 9, 2003). This action was transferred to the United
States District Court for the District of Columbia and amended
in 2006 to name CACI as a defendant. Gov’t SJ Mem. ¶ 8 (citing
Saleh v. Titan Corp., No. 1:05-cv-01165-JR (D.D.C. Mar. 22,
2006)).

343a
35 and 71. Id. ¶ 10. This appeal was docketed as
CBCA No. 546 in the Civilian Board of Contract Appeals (“CBCA”). Id. (citing Exs. 2, 7). In February
2007, CACI agreed to a “full and final settlement of all
claims and disputes arising out of” the terminated
task orders in exchange for the government’s payment
of $200,000, which CACI agreed “shall constitute full
and final payment, settlement, and accord and satisfaction of all claims and disputes by DOI and CACI
arising out of or related to the terminated Task Orders, including those in CBCA No. 546, including but
not limited to all claims for interest, general administrative costs, direct and indirect costs of all kinds
whatsoever relating to the terminated Task Orders.”
Id. ¶¶ 11-12 (emphasis added) (citing Ex. 2).
A.

Standard of Review

Summary judgment is appropriate where the record demonstrates that “there is no genuine dispute as
to any material fact and movant is entitled to judgment as a matter of law.” Fed. R. Civ. P. 56(a). Although the Court must view the record “in the light
most favorable to the non-moving party,” Dulaney v.
Packaging Corp. of Am., 673 F.3d 323, 324 (4th Cir.
2012), “[t]he mere existence of a scintilla of evidence
in support of the [nonmovant’s] position will be insufficient” to overcome summary judgment, Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 252 (1986); see also
Am. Arms Int’l v. Herbert, 563 F.3d 78, 82 (4th Cir.
2009). Rather, a genuine issue of material fact exists
only “if the evidence is such that a reasonable jury
could return a verdict for the nonmoving party.” Anderson, 477 U.S. at 248. Moreover, “[t]he mere existence of some alleged factual dispute” cannot defeat a

344a
motion for summary judgment. Hooven-Lewis v. Caldera, 249 F.3d 259, 265 (4th Cir. 2001). Instead, the
dispute must be both “material” and “genuine,” meaning that it must have the potential to “affect the outcome of the suit under the governing law.” Id.
B.

Settlement Agreement

The United States argues that all of CACI’s thirdparty claims “aris[e] out of and are “related to” Task
Orders 35 and 71, Gov’t SJ Mem. Ex. 2 ¶ 3, and because CACI and the United States settled all claims
and disputes arising out of or related to these task orders, the United States is entitled to judgment as a
matter of law. Settlement agreements with the federal government, such as the one at issue here, are
governed by federal common law, see Moore v. U.S.
Dep’t of State, 351 F. Supp. 3d 76, 88 (D.D.C. 2019), of
which the Court of Federal Claims and the Federal
Circuit are “a rich source,” Trout v. Comm’r, 131 T.C.
239, 251 (2008). Where the provisions of a settlement
agreement are “clear and unambiguous, they must be
given their plain meaning.” Barron Bancshares, Inc.
v. United States, 366 F.3d 1360, 1375 (Fed. Cir. 2004).
Broadly worded releases evince “an intent to make an
ending of every matter arising under or by virtue of
the contract.” United States v. William Cramp & Sons
Ship & Engine Bldg. Co., 206 U.S. 118, 128 (1907).
The language employed in the 2007 settlement agreement is indeed broad and speaks for itself: the agreement constitutes “full and final” settlement of “all
claims and disputes” “arising out of or related to” the
task orders. Gov’t SJ Mem. Ex. 2 ¶ 3. In addition to
stressing the plain meaning of the words in the settlement agreement, the United States further supports
its argument by pointing to CACI’s description of

345a
plaintiffs’ claims as “arising out of CACI PT’s performance of its contract,” Compl. 57.
CACI responds to this argument by citing Fourth
Circuit case law holding that the phrase “arising out
of or related to” reaches only “dispute[s] between the
parties having a significant relationship to the contract.” See Wachovia Bank, Nat’l Ass’n v. Schmidt,
445 F.3d 762, 769 (4th Cir. 2006) (citation omitted).
This line of Fourth Circuit case law does not help
CACI because it is limited to interpreting the scope of
arbitration agreements. See U.S.’ Reply Mem. of Law
in Further Supp. of its Mot. for Summ. J. [Dkt. No.
1168] 4-5 (“It is no coincidence that CACI refers the
Court only to arbitration agreement cases that apply
Fourth Circuit precedent. The Fourth Circuit has an
unusual line of arbitration cases in which the court
injected a significant-relationship test into arbitration
agreements that use the ‘arising out of or relating to’
formulation.” (emphasis omitted)). Furthermore, in
Wachovia Bank, the Fourth Circuit’s most recent case
on this issue, the panel acknowledged that it was “constrained to adhere to [its] precedent” but observed
that the significant relationship test “appears to be at
odds” with the language of the arbitration clause itself
and may “be in tension with the Supreme Court’s
mandate that [courts] apply the ordinary tools of contract interpretation in construing an arbitration
agreement.” 445 F.3d at 767 n.5.
Even if a significant relationship were required,
one clearly exists in this case. The phrase “significant
relationship” itself is to be interpreted broadly. See
Am. Recovery Corm v. Computerized Thermal Imaging, Inc., 96 F.3d 88, 93-94 (4th Cir. 1996) (citing
Prima Paint Corp. v. Flood & Conklin Mfg. Co., 388

346a
U.S. 395, 398 (1967) (labeling as “broad” a clause that
required arbitration of “[a]ny controversy or claim
arising out of or relating to this Agreement.”)). For
example, an agreement to arbitrate “any dispute that
arose out of or related to” a consulting agreement “did
not limit arbitration to the literal interpretation or
performance of the contract, but embraced every dispute between the parties having a significant relationship to the contract regardless of the label attached to
the dispute.” Id. (alterations, emphasis, internal quotation marks, and citation omitted). As the United
States argues, but for the task orders, CACI would not
have provided interrogation services at Abu Ghraib.
The task orders did not simply place CACI on the
scene; they placed CACI personnel alongside United
States military personnel with the job of interrogating
detainees, and it was from that relationship that
plaintiffs’ allegations of abuse arose.
To avoid having its claims for indemnification, exoneration, and contribution barred by the settlement
agreement, CACI argues that allegations of jus cogens
violations exceed the bounds of that settlement agreement, citing the familiar adage that one cannot contract for unlawful acts. It argues that its claims are
equitable in nature and “assertable without an allegation of contractual relationship,” see Williams v.
United States, 469 F. Supp. 2d 339, 342 (E.D. Va.
2007) (citation omitted); however, “a claim may arise
outside of an agreement and yet still be related to that
agreement,” Am. Recovery Corp., 96 F.3d at 95. As
the United States appropriately argues, CACI’s equitable claims still relate to the task orders and are
therefore encompassed by the settlement agreement.

347a
CACI had been on clear notice for several years
that it was exposed to lawsuits directed at its conduct
at Abu Ghraib when it entered into the settlement
agreement in 2007. As discussed above, as early as
2004, several Abu Ghraib detainees had filed a putative class action complaint against CACI’s parent
company and two of its subsidiaries, alleging torture.
If CACI wished to preserve its right to assert an equitable claim based on jus cogens violations, it should
have, and could have, done so in the settlement agreement. See Dairyland Power Coop. v. United States,
27 Fed. Cl. 805, 811 (1993) (“If a contractor wishes to
preserve a right to assert a claim under that contract
later, it bears the burden to modify the release, before
signing it.”). CACI did not do so, and the Court will
not read such a reservation into the settlement agreement.
CACI points to the language in the settlement
agreement that refers to the CBCA proceeding in an
effort to limit the scope of the settlement to “those
[claims and disputes] in CBCA No. 546, including but
not limited to claims for interest, general administrative costs, direct and indirect costs of all kinds whatsoever relating to the terminated Task Orders.” Gov’t
SJ Mem. Ex. 2 ¶ 3. This argument fails because it is
the words “including but not limited to” that support
the conclusion that the settlement agreement as a
whole was “not limited” to just those claims.
In short, the unambiguous wording of the settlement agreement as concerning “all claims and disputes . . . arising out of or related to the terminated
Task Orders” bars CACI’s claims against the United
States, and for this reason the government is entitled

348a
to judgment as a matter of law. Therefore, its Motion
for Summary Judgment will be granted.
V.

CONCLUSION

For the reasons stated above, the United States’
Motion to Dismiss will be granted as to Count 4 and
denied in all other respects, CACI’s Motion to Dismiss
will be denied, the United States’ Motion for Summary Judgment will be granted, and the Third-Party
Complaint will be dismissed as to the United States
by an appropriate Order to be issued with this Memorandum Opinion.
Entered this 22nd day of March, 2019.
Alexandria, Virginia
__/s/ Leonie M. Brinkema__
Leonie M. Brinkema
United States District Judge

349a
APPENDIX G
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
ALEXANDRIA DIVISION
Suhail Najim Abdullah Al
Shimari, et al.,
Plaintiffs,
v.
CACI Premier Technology,
Inc. and CACI International,
Inc.,
Defendants.

)
)
)
)
)
)
)
)
)
)

Case No.
1:08cv827
(GBL)
[Entered:
March 18, 2009]

Memorandum Order
THIS MATTER is before the Court on Defendants
CACI Premier Technology, Inc. and CACI International, Inc.’s (“CACI”) Motion to Dismiss Plaintiffs’
Amended Complaint. This case concerns the civil tort
claims of four Iraqi citizens alleging that United
States government contractor interrogators tortured
them during their detention at Abu Ghraib prison in
Iraq. There are seven issues before the Court. The
first issue is whether alien civil tort claims against
government contractor interrogators present a nonjusticiable political question. The second issue is
whether government contractor interrogators are entitled to derivative absolute immunity where the lack
of discovery prevents the Court from reviewing the
government contract. The third issue is whether war-

350a
time interrogation claims involve “combatant activities” within the meaning of the combatant activities
exception to the Federal Tort Claims Act (“FTCA”)
and are therefore preempted. The fourth issue is
whether the Alien Tort Statute (“ATS”) provides a basis for this Court to exercise original jurisdiction over
tort claims against government contractor civilian interrogators. The fifth issue is whether Plaintiffs’ allege sufficient facts to support their claims against
Defendants under the theory of respondeat superior.
The sixth issue is whether Plaintiffs’ sufficiently allege conspiratorial liability where they fail to specifically identify the individuals involved in the conspiracy. The seventh issue is whether Plaintiffs’ have alleged sufficient facts to show that Defendants’ employees caused Plaintiffs’ injuries.
The Court denies Defendant’s Motion to Dismiss
on all grounds except the Court grants the Motion to
the extent that Plaintiffs’ claims rely upon ATS jurisdiction. The Court holds that Plaintiffs’ claims are
justiciable because Defendants are private corporations and civil tort claims against private actors for
damages do not interfere with the separation of powers between the executive branch and the judiciary.
Second, the Court finds that Defendants are not entitled to immunity at the dismissal stage because discovery is necessary to determine both the extent of Defendants’ discretion in interaction with detainees and
to weigh the costs and benefits of granting Defendants
immunity in this case. Third, the Court holds that
Plaintiffs’ claims are not preempted by the combatant
activities exception at this stage because the parties
must conduct discovery to determine whether the interrogations here constitute “combatant activities”

351a
within the meaning of the exception. Fourth, the
Court finds that Plaintiffs’ claims are dismissed to the
extent that they rely upon ATS jurisdiction because
tort claims against government contractor interrogators are too recent and too novel to satisfy the Sosa
requirements for ATS jurisdiction. Fifth, the Court
holds that Plaintiffs sufficiently allege facts supporting vicarious liability because the Amended Complaint states that Defendants’ employees engaged in
foreseeable tortious conduct when conducting the interrogations. Sixth, the Court holds that Plaintiffs
sufficiently allege conspiratorial liability because
facts alleging the use of code words and efforts to conceal abusive treatment plausibly suggest conspiratorial activity. Seventh, the Court holds that the
Amended Complaint sufficiently alleges the direct involvement of Defendants’ employees in causing Plaintiffs’ injuries because Plaintiffs point to specific employees who played a direct role in supervising and
participating in the alleged conduct. These issues are
addressed in turn below.
I.

BACKGROUND 1

September 11, 2001, was one of the worst days in
American history. At nine o’clock in the morning, as
many Americans were either on their way to or arriving at their jobs, the al Qaeda terrorist network hijacked commercial airliners to attack prominent targets in the United States. Approximately 3000 people

1

Much of the following information is pulled from Supreme
Court and Fourth Circuit cases in order to provide a historical
context for the present case. See Hamdan v. Rumsfeld, 548 U.S.
557 (2006); Hamdi v. Rumsfeld, 542 U.S. 507 (2004); CACI Premier Tech., Inc. v. Rhodes, 536 F.3d 280 (2008).

352a
were killed in the attacks. One week later, the United
States Congress passed the Authorization for Use of
Military Force Joint Resolution, which authorized the
president to use “all necessary and appropriate force”
against those associated with the attacks.
On March 20, 2003, a multinational coalition force
led and composed almost entirely of troops from the
United States and Great Britain invaded Iraq. The
invasion, initially premised on the threat of and in
search of weapons of mass destruction (“WMDs”), led
to the rapid defeat of the Iraqi military and the capture and execution of Saddam Hussein.2 Throughout
the occupation, coalition forces met with fierce hostility. Conventional and asymmetric warfare tactics employed by insurgents, including the much-publicized
Improvised Explosive Device (“IED”), led to the death
of over 4000 coalition troops and counting.
In addition to the hunt for WMDs, the invasion
also sought the liberation of the Iraqi people from Saddam Hussein’s oppressive regime, infamous for imprisoning political dissidents. One singularly imposing locus of this legendary oppression was the Abu
Ghraib prison, located near Baghdad. During Saddam Hussein’s regime Abu Ghraib was one of the
world’s most notorious prisons. Some detainees were
held without charge for decades and subjected to testing in experimental chemical and biological weapons
programs. As many as 40 detainees were squeezed
into cells measuring approximately 170 square feet
each. In this 280-acre city within a city, torture was
the rule and not the exception. Executions occurred
2

It was later determined that Saddam Hussein was not responsible for the September 11 attacks.

353a
weekly, and vile living conditions made life miserable
for the tens of thousands who lived and died there.
Just before the 2003 coalition invasion, the thenexisting Iraqi regime, aiming to create havoc for coalition forces, released the detainees held at Abu
Ghraib prison and other facilities. After the invasion
the United States military took over Abu Ghraib. The
military used it to detain three types of prisoners: (1)
common criminals, (2) security detainees accused or
suspected of committing offenses against the Coalition Provisional Authority, and (3) “high value” detainees who might possess useful intelligence (insurgency leaders, for example). As it had in the past, the
post-invasion Abu Ghraib prison population included
women and juveniles. A U.S. Army military police
brigade and a military intelligence brigade were assigned to the prison. The intelligence operation at the
prison suffered from a severe shortage of military personnel, prompting the U.S. government to contract
with private corporations to provide civilian interrogators and interpreters. These contractors included
L-3 Services (formerly Titan Corporation) and CACI
International.
Abu Ghraib prison again received negative publicity, this time in late April 2004, when CBS aired an
extended report on the modern Abu Ghraib on 60
Minutes II. The broadcast showed sickening photographic evidence of U.S. soldiers abusing and humiliating Iraqi detainees at Abu Ghraib. It showed photographs of naked detainees stacked in a pyramid; a
photograph of two naked and hooded detainees, positioned as though one was performing oral sex on the
other; and a photograph of a naked male detainee with

354a
a female U.S. soldier pointing to his genitalia and giving a thumbs-up sign. Another photograph showed a
hooded detainee standing on a narrow box with electrical wires attached to his hands. A final photograph
showed a dead detainee who had been badly beaten.
U.S. soldiers were in several of the photographs,
laughing, posing, and gesturing. The abuses stunned
the U.S. military, public officials in general, and the
public at large.
This case arises out of the detention, interrogation
and alleged abuse of four Iraqi citizens detained as
suspected enemy combatants at Abu Ghraib between
September 22, 2003, and November 1, 2003, a period
corresponding to the Abu Ghraib prison abuse scandal. Plaintiffs are Suhail Najim Abdullah Al Shimari,
Taha Yaseen Arraq Rashid, Sa’ad Hamza Hantoosh
Al-Zuba’e and Salah Hasan Usaif Jasim Al-Ejaili. Between 2004 and 2008, all four Plaintiffs were released
from Abu Ghraib without ever being charged with any
crime. (Am. Compl. ¶¶ 25, 44, 53, and 63.)
On June 30, 2008, Plaintiffs filed this action
against Defendants CACI International, Inc., a Delaware corporation with its headquarters in Arlington,
Virginia, and CACI Premier Technology, Inc., its
wholly-owned subsidiary located in Arlington, Virginia. Defendants are corporations that provided interrogation services at Abu Ghraib during the period
in question. Beginning in September 2003, Defendants provided civilian interrogators for the U.S.
Army’s military intelligence brigade assigned to the
Abu Ghraib prison. Plaintiffs allege that Defendants
committed various acts of abuse, including food deprivation, beatings, electric shocks, sensory deprivation,

355a
extreme temperatures, death threats, oxygen deprivation, shooting prisoners in the head with taser guns,
breaking bones, and mock executions. Plaintiffs assert that jurisdiction is proper under 28 U.S.C. § 1331
(federal question), 28 U.S.C. § 1332 (diversity), 28
U.S.C. § 1350 (Alien Tort Statute) and 28 U.S.C.
§ 1367 (supplemental jurisdiction). Plaintiffs allege
the following twenty (20) counts:
1) Torture;
2) Civil conspiracy to commit torture;
3) Aiding and abetting torture;
4) Cruel, inhuman or degrading treatment;
5) Conspiracy to treat Plaintiffs in a cruel, inhuman or degrading manner;
6) Aiding and abetting cruel, inhuman and degrading Treatment;
7) War crimes;
8) Civil conspiracy to commit war crimes;
9) Aiding and abetting the commission of war
crimes;
10) Assault and battery;
11) Civil conspiracy to assault and batter;
12) Aiding and abetting assaults and batteries;
13) Sexual assault and battery;
14) Civil conspiracy to sexually assault and batter;
15) Aiding and abetting sexual assaults and batteries;

356a
16) Intentional infliction of emotional distress;
17) Civil conspiracy to inflict emotional distress;
18) Aiding and abetting intentional infliction of
emotional distress;
19) Negligent hiring and supervision; and
20) Negligent infliction of emotional distress.
Defendants now move for dismissal of all claims.
II. DISCUSSION
A. Standard of Review
1. Nonjusticiable Questions Under Rule 12(b)(1)
A party challenging the justiciability of an issue
before a court questions that court’s subject matter jurisdiction under Federal Rule of Civil Procedure
12(b)(1). See Republican Party of N.C. v. Martin, 980
F.2d 943, 949 n.13 (4th Cir. 1992). Where a court determines that a nonjusticiable question is presented it
must dismiss the action. Fed. R. Civ. P. 12(h)(3). A
court need not accept factual allegations as true for
purposes of a motion to dismiss for lack of subject matter jurisdiction under 12(b)(1). Thigpen v. United
States, 800 F.2d 393, 396 (4th Cir. 1986) (“In contrast
to its treatment of disputed issues of fact when considering a Rule 12(b)(6) motion, a court asked to dismiss
for lack of jurisdiction may resolve factual disputes to
determine the proper disposition of the motion.”). The
plaintiff bears the burden of persuasion when a motion to dismiss challenges a court’s subject matter jurisdiction. See Piney Run Pres. Ass’n v. County
Comm’rs of Carroll County, MD, 523 F.3d 453, 459
(4th Cir. 2008).

357a
2. Failure to State a Claim Under Rule 12(b)(6)
A Federal Rule of Civil Procedure 12(b)(6) motion
should be granted unless an adequately stated claim
is “supported by showing any set of facts consistent
with the allegations in the complaint.” Bell Atlantic
Corp. v. Twombly, 127 S. Ct. 1955, 1969 (2007); see
Fed. R. Civ. P. 12(b)(6). In considering a Rule 12(b)(6)
motion, the Court must construe the complaint in the
light most favorable to the plaintiff, read the complaint as a whole, and take the facts asserted therein
as true. Mylan Lab., Inc. v. Matkari, 7 F.3d 1130,
1134 (4th Cir. 1993). In addition to the complaint, the
court may also examine “documents incorporated into
the complaint by reference, and matters of which a
court may take judicial notice.” Tellabs, Inc. v. Makor
Issues & Rights, Ltd., 127 S. Ct. 2499, 2509 (2007).
“Conclusory allegations regarding the legal effect of
the facts alleged” need not be accepted. Labram v.
Havel, 43 F.3d 918, 921 (4th Cir. 1995). Because the
central purpose of the complaint is to provide the defendant “fair notice of what the plaintiff’s claim is and
the grounds upon which it rests,” the plaintiff’s legal
allegations must be supported by some factual basis
sufficient to allow the defendant to prepare a fair response. Conley v. Gibson, 355 U.S. 41, 47 (1957).
B. Analysis
1. Nonjusticiable political question
The Court denies Defendants’ Motion to Dismiss
Plaintiffs’ Amended Complaint as presenting a nonjusticiable political question because courts are wholly
competent to resolve private actions between private
parties, even where the defendant is a government

358a
contractor. Courts can identify nonjusticiable political questions by the presence of any one or more of six
factors outlined by the United States Supreme Court
in Baker v. Carr, 369 U.S. 186 (1962). In Baker, the
Court held that nonjusticiable political questions involve at least one of the following:
1) a textually demonstrable constitutional commitment of the issue to a coordinate political
department;
2) a lack of judicially discoverable and manageable standards for resolving it;
3) the impossibility of deciding without an initial policy determination of a kind clearly for
non-judicial discretion;
4) the impossibility of a court’s undertaking independent resolution without expressing lack
of the respect due coordinate branches of government;
5) an unusual need for unquestioning adherence to a political decision already made; or
6) the potentiality of embarrassment from multifarious pronouncements by various departments on one question.
Id. at 217. In evaluating a case, a court must engage
in a “discriminating inquiry into the precise facts and
posture of the particular case,” while understanding
“the impossibility of resolution by any semantic cataloguing.” Id. “[It] is ‘error to suppose that every case
or controversy which touches foreign relations lies beyond judicial cognizance.’” Japan Whaling Ass’n v.
American Cetasean Soc’y, 478 U.S. 221, 229-30 (1986)
(citing Baker, 369 U.S. at 211). The concern is not

359a
with “political cases” carrying the potential to stir up
controversy, but instead with “political questions”
which, by their nature, create separation of powers
concerns. See Baker, 369 U.S. at 217. The Court addresses each of these factors slightly out of turn below,
focusing first on the three factors expressly raised by
Defendants, then on the remaining three as outlined
in Baker.
a. Constitutional commitment to a coordinate
political branch
Defendants argue that Plaintiffs’ claims are nonjusticiable because the Amended Complaint alleges
conspiratorial conduct and, since the type of conspiracy alleged could not be carried out by low-level contractors and military personnel, Plaintiffs’ claims
must therefore challenge official policies and directives that were established by the executive branch
and are consequently nonreviewable by the judiciary.
CACI’s argument is flawed for two reasons.
First, as an initial matter, the Court finds no basis
to hastily conclude that a conspiracy of the type Plaintiffs allege could not be carried out by on-site military
and contracted personnel because it is quite unlikely
that these personnel were subjected to the persistent
and pervasive supervision that CACI necessarily suggests. CACI would have the Court blindly accept its
premise that the activities at Abu Ghraib were so
heavily monitored that, but for the involvement and
approval of high-level government officials, the atrocities could not have occurred. The problem with
CACI’s premise is that Abu Ghraib prison sits over six
thousand miles from the Pentagon. As a result, it is
very unlikely that the President of the United States

360a
or his top military and government officials had the
type of regular insight into the daily activities at Abu
Ghraib that Defendants suggest. Likewise, the military commanders in theater were, and still are, focused on conducting military operations in both Iraq
and Afghanistan. It would be unrealistic for this
Court to presume that theater commanders had the
time or resources to stay a vigilant eye on the day to
day activities at Abu Ghraib while fighting a war on
two fronts. Consequently, the Court finds it plausible
that the on site personnel engaged in conduct that
higher-ups were wholly unaware of. If that be the
case, it is completely within the realm of possibility
that a conspiracy of the type Plaintiffs complain of
was carried out absent the authorization or oversight
of higher officials.3
Second, it is clear to this Court that Plaintiffs’
Amended Complaint challenges not the government
itself or the adequacy of official government policies,
but the conduct of government contractors carrying on
a business for profit. Defendants rely on the United
States Court of Appeals for the Fourth Circuit’s opinion in Tiffany v. United States, 931 F.2d 271 (4th Cir.
1991), for the proposition that civil claims such as

3

Because this premise forms the foundation of CACI’s constitutional commitment argument, its failure thereby destroys
CACI’s argument that follows because, as noted by this Court, it
is entirely possible that a conspiracy of this type could be carried
out by low level officials. As such, this Court could analyze this
low-level conspiracy without once calling the executive’s interrogation policies into question. However, for the sake of completeness, the Court will proceed to evaluate CACI’s position in its
entirety.

361a
Plaintiffs’ challenge the Executive’s battlefield policies and are therefore nonjusticiable. CACI’s reliance
is misplaced because the Tiffany facts are wholly distinguishable from the present case.
In Tiffany, Mr. Tiffany and six passengers where
killed when he flew unidentified into an air defense
zone and collided with a United States F-4C fighter
jet. Id. at 271. One of the fighter jets sent out to visually identify Mr. Tiffany’s plane came too close to his
aircraft, colliding with it as the jet banked sharply to
break off the intercept. Id. Mr. Tiffany’s widow sued
the government, alleging negligence on the part of the
military pilot and ground control in their execution of
the intercept. Id. The Fourth Circuit, however, took
issue with the idea of holding the United States liable
in tort, finding that “[t]he negligence alleged in this
case necessarily calls into question the government’s
most important procedures and plans for the defense
of the country.” Id. at 275. Revealing separation of
powers concerns as the reason for its decision, the
Fourth Circuit held that the claim was nonjusticiable
because resolution of the claim would result in the
court “interjecting tort law into the realm of national
security and second-guessing judgments with respect
to potentially hostile aircraft that are properly left to
the other constituent branches of government.” Id.
The present case is clearly distinguishable from
Tiffany for two reasons. First, the defendant here is a
private party, not the government itself, which is a
key distinction when identifying separation of powers
problems. As the courts in both Baker and Tiffany
noted, the political question doctrine is rooted in separation of powers principles. See Baker, 369 U.S. at

362a
217 (“several formulations which vary slightly according to the settings in which the questions arise may
describe a political question, although each has one or
more elements which identify it as essentially a function of separation of powers.”); Tiffany, 931 F.2d at
276 (“Separation of powers is a doctrine to which the
courts must adhere even in the absence of an explicit
statutory command. That doctrine requires that we
examine the relationship between the judiciary and
the coordinate branches of the federal government
cognizant of the limits upon judicial power.”) (internal
citations omitted). At no time is the potential for a
separation of powers problem more apparent than
when the federal government is the named defendant.
Here, however, Plaintiffs’ action is against CACI, a
private corporation engaged in interrogating prisoners merely for self profit. Certainly, separation of
powers is a concern in a case like Tiffany, where a private party’s action is against the government and its
allegation is that the government improperly conducted its affairs. But the government is not a party
to the present case. The Amended Complaint does not
attack government policies. Instead, Plaintiffs’ allege
that a private corporation conducted its business in
derogation of United States and international law, an
allegation that is entirely justiciable.
Second, the conduct complained of in Tiffany triggered separation of powers problems because the conduct was inextricable from the executive branch, as
fighter intercepts are non-existent outside of the governmental context. There, the plaintiff argued that
the United States was negligent in the way in which
it intercepted Mr. Tiffany’s aircraft. Id. at 275. The
conduct the plaintiff complained of was created,

363a
trained and regulated only in order to serve the government’s national defense function. As a result,
there was no way to independently evaluate the conduct because the conduct did not exist independent of
the government. As noted by the Fourth Circuit, such
a claim “calls into question the government’s most important procedures and plans for the defense of the
country.” Id. at 275. Here, however, torture has an
existence all its own. Plaintiffs’ allege that they were,
among other things, beaten, stripped naked, deprived
of food, water and sleep, subjected to extreme temperatures, threatened and shocked. (Am. Compl. ¶¶ 1163.) Unlike the fighter intercept in Tiffany, this conduct does not depend on the government for its existence; private actors can and do commit similar acts on
a regular basis. Separation of powers is not implicated where the conduct is already separate and distinct from the government.
The fact that CACI’s business involves conducting
interrogations on the government’s behalf is incidental; courts can and do entertain civil suits against
government contractors for the manner in which they
carry out government business. See Boyle v. United
Tech. Corp, 487 U.S. 500 (1988) (estate’s wrongful
death claim against government helicopter manufacturer justiciable); see also Ibrahim v. Titan Corp., 391
F. Supp. 2d 10 (D.D.C. 2005) and Saleh v. Titan Corp.,
436 F. Supp. 2d 55 (D.D.C. 2006) (Iraqis’ civil suits
against government contractor interrogators and interpreters posed no political question where the court
found “no merit in the defendants’ political question
defense . . .”). The judiciary is regularly entrusted
with the responsibility of resolving this type of dis-

364a
pute. Hence, the Court finds that separation of powers concerns are not triggered by the Court’s evaluation of CACI’s conduct in this case.
Alternatively, Defendants argue that Plaintiffs’
claims are nonjusticiable because the issue of recovery
for wartime injuries is constitutionally committed to
the political branches. CACI insists that this Court
lacks the authority to resolve the present action because reparations claims are generally barred absent
an express reparations agreement or a diplomatic
agreement with a provision expressly allowing such
claims. CACI cites no cases that square with the facts
of this case. Four of the cited cases involve plaintiffs
seeking recovery directly from the offending government and the fifth involves equitable claims against
the State of the Vatican City. The only case CACI
cites that involves recovery from a private party is
over two hundred years old, is actually a preemption
case, and only tangentially addresses recovery of prewar debt. See Ware v. Hylton, 3 U.S. 199, 230 (1796)
(allowing a British subject to collect a pre-war debt
from an American citizen despite a state law discharging debts to the British because of the supremacy of a
peace treaty providing for debt recovery). CACI conveniently ignores the long line of cases where private
plaintiffs were allowed to bring tort actions for wartime injuries. See The Paquete Habana, 175 U.S. 677
(1900) (damages imposed for seizure of fishing vessels
during military operation); Ford v. Surget, 97 U.S.
594 (1878) (soldier not exempt from civil liability for
trespass and destruction of cattle if act not done in accordance with the usages of civilized warfare); Mitchell v. Harmony, 54 U.S. 115 (1851) (soldier sued for
trespass for wrongful seizure of citizen’s goods while

365a
in Mexico during Mexican War); Little v. Barreme, 6
U.S. 170 (1804) (naval officer liable to ship owner for
damages for illegal seizure of his vessel during wartime). Thus, this Court finds ample support for its
ability to entertain Plaintiffs’ present tort claims.4
b. Judicially discoverable and manageable
standards for resolution
CACI argues that there are no judicially discoverable and manageable standards for evaluating Plaintiffs’ claims because the Court would have to conduct
an extensive review of classified materials, or materials unlikely to be discoverable because of the “fog of
war.” (Defs.’ Mem. 12.) The Court finds CACI’s position very unlikely given the extensive amount of litigation that has already occurred involving the events
at Abu Ghraib prison and the fact that CACI’s government contract likely lays out the applicable standard
of care in this case. First, and most notably, CACI itself brought a civil suit involving most of the same
facts present in this case. In CACI Premier Technology, Inc. v. Rhodes & Piquant, LLC, CACI alleged defamation against a radio personality for statements
she made blaming CACI for the atrocities at Abu
Ghraib. 2006 U.S. Dist. LEXIS 96057 (E.D. Va. 2006),
aff’d, 536 F.3d 280 (4th Cir. 2008). In that case, this
Court granted summary judgment in favor of the defendant, but only after carefully examining the briefs,
4

CACI seems to suggest that the Court should feel comfortable dismissing Plaintiffs’ claims on political question grounds because, after all, Plaintiffs may still have administrative remedies
available to them. However, as the Supreme Court stressed in
Baker, “courts cannot reject as ‘no law suit’ a bona fide controversy . . .” 369 U.S. at 217. Hence, this Court will refrain from
doing so here.

366a
exhibits, and affidavits submitted by both parties. Id.
The Court finds it ironic that CACI argues that this
case is clouded by the “fog of war,” yet CACI saw only
clear skies when it conducted discovery to develop its
defamation case.
Second, this Court also finds instructive the number of other courts that have entertained similar cases
and conducted some level of discovery on these or similar facts. In Ibrahim v. Titan Corporation, 391 F.
Supp. 2d 10 (D.D.C. 2005), the court, in considering a
motion to dismiss, noted the potential for manageability problems in the future but concluded that “[t]he
government is not a party. . . and [the court is] not
prepared to dismiss otherwise valid claims at this
early stage in anticipation of obstacles that may or
may not arise.” Id. at 14. The court went on to allow
discovery as to the issue of whether the defendants
were “essentially soldiers in all but name” and the
plaintiffs’ claims consequently preempted. See id. at
18-19. Likewise, in Saleh v. Titan Corporation, a case
“virtually indistinguishable” from Ibrahim but for
added conspiracy claims, the court permitted discovery as to the evidentiary support for the plaintiffs’
claims, and the exact nature of the information the
plaintiffs relied upon where they asserted claims
“upon information and belief.” 436 F. Supp. 2d 55, 59
(D.D.C. 2006). The completion of at least some level
of discovery in these cases leads the Court to reject the
position that the present case implicates manageability issues severe enough to trigger the political question doctrine.
Third, the Court finds that many of the potential
witnesses have already testified about their actions
and the actions of others during the courts martial of

367a
several military personnel involved in the events at
Abu Ghraib. Several of the soldiers who participated
in the atrocities were tried and convicted of their
crimes. Plaintiffs expressly refer to “post conviction
testimony and statements by military co-conspirators” suggesting that “CACI employees Steven Stefanowicz . . and Daniel Johnson . . directed and caused
some of the most egregious torture and abuse at Abu
Ghraib.” (Am. Compl. ¶ 1.) This availability of eyewitness testimony further hurts CACI’s position.
Fourth, Plaintiffs made clear to this Court that
they do not intend to delve into the Central Intelligence Agency’s “Ghost Detainee” program. Given that
assurance, there is no reason for the Court to suspect
that classified documents regarding that program will
be sought or necessary to Plaintiffs’ case. Due to the
number of cases, both criminal and civil, that have already been brought challenging the events at Abu
Ghraib and Plaintiffs’ assurance that they do not plan
to challenge the “Ghost Detainee” program, the Court
rejects CACI’s argument that this case necessarily involves the evaluation of numerous documents that are
either classified or unavailable to the Court. The government has not sought to intervene in this case. The
government has not asserted any state secret on behalf of CACI. If and when the time comes to consider
whether classified information is necessary in this
case, the government and the Court will address that
issue.
The Court finds that the judicial standards governing this case are both manageable and discoverable. As mentioned above, many of the documents
likely to form the basis of the present action have already been obtained and evaluated by this and other

368a
courts. In addition, the Court finds that CACI’s government contract is likely to be highly instructive in
evaluating whether CACI exercised the appropriate
level of care in its dealings with Abu Ghraib detainees.
The Court suspects that the contract details CACI’s
responsibilities in conducting the interrogations, outlines the applicable laws and rules that CACI personnel are bound by, and sets further restrictions on the
type of conduct permitted. The Court finds that manageable judicial standards are readily accessible
through the discovery process.
c.

Lack of respect due coordinate branches of
government

CACI argues that the Court will demonstrate a
lack of respect due to the political branches should it
adjudicate Plaintiffs’ claims because the Constitution
vests the power to wage war and conduct foreign affairs in the political branches. It is likely that CACI
recognized the futility of this argument, as CACI buried it in a footnote on the twelfth page of its supporting memorandum. As CACI is undoubtedly aware,
matters are not beyond the reach of the judiciary
simply because they touch upon war or foreign affairs.
See Hamdan v. Rumsfeld, 548 U.S. 557 (2006) (hearing the habeas appeal of suspected alien terrorist detained by the Department of Defense at Guantanamo
Bay); Hamdi v. Rumsfeld, 542 U.S. 507 (2004) (examining the process owed to citizens being detained in
the United States as enemy combatants); Dames &
Moore v. Regan, 453 U.S. 654 (1981) (evaluating
whether the president exceeded his constitutional and
statutory authority when he suspended American citizens’ claims against Iran following Iranian hostage
crisis); Youngstown Sheet & Tube Co. v. Sawyer, 343

369a
U.S. 579 (1952) (reversing a presidential directive ordering the seizure of steel mills to protect the production of armaments for the Korean War); see also
United States v. Lindh, 212 F. Supp. 2d 541 (E.D. Va.
2002) (addressing the issue of whether an American
citizen fighting with the Taliban in Afghanistan was
entitled to lawful combatant immunity). Surely, if
courts can review the actions of the President of the
United States without expressing a lack of respect for
the political branches, this Court can review the actions of a contracted, for-profit corporation without doing so as well.
d. Impossibility of deciding without non-judicial
policy determination
Now turning to the remaining Baker factors, this
Court finds that the present issue can be decided by
this Court because the political branches already
made a policy determination through the enactment
of the Anti-Torture Statute, 18 U.S.C. § 2340, et seq.
(2006). The Anti-Torture Statute provides for criminal sanctions for the commission or attempted commission of torture. Id. The statute extends jurisdiction to United States nationals located outside of the
United States and to offenders within the United
States, regardless of the offenders’ and the victims’
nationalities. § 2340A. As this legislation makes
clear, the policy determination central to this case has
already been made; this country does not condone torture, especially when committed by its citizens.
In addition, the legislative branch has already
made a policy determination specifically concerning
the events that took place at Abu Ghraib. In the Senate Armed Service Committee’s investigation of the

370a
events at Abu Ghraib, the committee clearly condemns the mistreatment that occurred at the prison.
See S. ARMED. SERV. COMM., 110TH CONG., EXECUTIVE
SUMMARY OF THE S. ARMED SERV. COMM.’S INQUIRY
INTO THE TREATMENT OF DETAINEES IN U.S. CUSTODY
(Comm. Print 2008). The summary starts out with a
quote:
What sets us apart from our enemies in this
fight . . is how we behave. In everything we
do, we must observe the standards and values
that dictate that we treat noncombatants and
detainees with the dignity and respect. While
we are warriors, we are also all human beings.
Id. at xii (internal citations omitted). From there, the
report outlines all of the underlying problems that ultimately paved the way for the events at Abu Ghraib.
Hence, the policy is clear: what happened at Abu
Ghraib was wrong.
e.

Need for adherence to a political decision already made

The Court finds that adjudication of the present
case in no way countermands a need for adherence to
a political decision already made because, as mentioned above, the decision made is one against torture.
f.

Potential for embarrassment from multifarious pronouncements

As to the final Baker factor, the Court finds no potential for embarrassment from multifarious pronouncements because, as mentioned above, the political branches of government have already spoken out
against torture. The Anti-Torture Statute is a codified

371a
consensus reached among the executive and legislative branches of government.
While it is true that the events at Abu Ghraib pose
an embarrassment to this country, it is the misconduct alleged and not the litigation surrounding that
misconduct that creates the embarrassment. This
Court finds that the only potential for embarrassment
would be if the Court declined to hear these claims on
political question grounds. Consequently, the Court
holds that Plaintiffs’ claims pose no political question
and are therefore justiciable.
2. Derivative absolute official immunity
Having established that the political question doctrine does not deprive this Court of jurisdiction, the
Court must now address the question of whether the
doctrine of derivative absolute official immunity bars
Plaintiffs’ claims. Defendants argue that they are immune for two reasons. First, Defendants argue they
are immune because they performed a discretionary
function within the scope of their government contract. Second, Defendants argue they are immune because the public benefit of immunity for contractor interrogators outweighs the cost of ignoring a potential
injustice should Plaintiffs’ claims go unremedied and
unaddressed. The Court rejects both arguments because the Court cannot determine the scope of Defendants’ government contract, the amount of discretion it
afforded Defendants in dealing with detainees, or the
costs and benefits of recognizing immunity in this case
without examining a complete record after discovery
has taken place. The Court will first address the issue
of whether Defendants performed a discretionary

372a
function within the scope of their government contract, followed by an analysis of the costs and benefits
of granting immunity in this case.
The law of governmental absolute immunity has
largely developed as a part of the federal common law
to protect discretionary government functions from
the potentially debilitating distraction of defending
private lawsuits. See, e.g., Westfall v. Erwin, 484 U.S.
292, 295 (1988), superseded by 28 U.S.C. § 2679
(2006); Barr v. Matteo, 360 U.S. 564, 569-73 (1959)
(plurality opinion). There are various principles underlying the doctrine of immunity. One principle is
“to serve the public good or to ensure that talented
candidates [are] not deterred by the threat of damages
suits for entering public service.” Wyatt v. Cole, 504
U.S. 158, 167 (1992). Another is to protect the public
from the timidity of public officials by “encouraging
the vigorous exercise of official authority.” Butz v.
Economou, 438 U.S. 478, 506 (1978); see also Mitchell
v. Forsyth, 472 U.S. 511, 526 (1985) (listing prevention
of inhibition of discretionary action).
In Barr and Westfall, the Supreme Court recognized absolute immunity from state tort liability for
federal officials exercising discretion while acting
within the scope of their employment. The Supreme
Court made clear that the purpose of such immunity
was not to bestow a benefit upon government actors
for their private gain, but instead to protect the government’s interest in conducting its operations without the threatened disruption of civil litigation. See
Barr, 360 U.S. at 572-73 (“The privilege is not a badge
or emolument of exalted office, but an expression of a
policy designed to aid in the effective functioning of
government.”). Thus, the question of whether to grant

373a
immunity is closely connected to the policies that
would be served by doing so.
The Fourth Circuit extended the doctrine of absolute immunity to government contractors in Mangold
v. Analytic Services, 77 F.3d 1442 (4th Cir. 1996). In
that case, the court granted derivative immunity to a
government contractor for statements it made in response to the inquiries of Air Force investigators regarding improper practices by Air Force officers. Id.
at 1450. The Court found that the Westfall principles
discussed above, combined with the same interest
that justifies protecting witnesses in governmentsponsored investigations, supported the extension of
immunity. Id. at 1448. Read broadly, Mangold means
that in some circumstances, government contractors
are immune from liability while performing their government contracts. Id.
But courts recognize that protecting government
actors with absolute immunity is not without costs.
Immunity undermines a core belief of American jurisdprudence, that individuals must be held accountable for their wrongful acts. See Westfall, 484 U.S. at
295. This interest in holding individuals accountable
while protecting governmental functions from distracting private lawsuits led to a balancing test, affording immunity “only to the extent that the public
benefits obtained by granting immunity outweigh
[the] costs.” Mangold, 77 F.3d at 1447 (citing Westfall,
484 U.S. at 296 n.3); see id. at 1446-47 (“Protecting
government actors with absolute immunity, however,
has its costs, since illegal and even offensive conduct
may go unredressed.”).

374a
a. Discretionary function and scope of contract
Defendants first argue that they are immune because their interrogations constituted a discretionary
function within the scope of their government contract. Under the first prong of the Westfall test, “immunity from state law tort liability [attaches] for federal officials exercising discretion while acting within
the scope of their employment.” Mangold, 77 F.3d at
1446 (emphasis supplied). The Court has insufficient
information at this stage in the litigation to conclude
that Defendants had either the authority to exercise
discretion in how they conducted interrogations or
that they did so within the scope of their government
contract. The Court addresses each element in turn
below.
i. discretionary function
Defendants argue that the Court need not even
address the question of discretion because Mangold
held a contractor immune from suit even though the
function that the contractor performed—responding
to a government investigation—was not discretionary.
Defendants’ assertion, however, misses the broader
rule to which Mangold represents an exception. When
Mangold extended government employee immunity to
government contractors, it did so with explicit reference to the test established in Barr and Westfall.
Mangold, 77 F.3d at 1448 (couching the issue as
whether Barr and Westfall immunity should be extended). Barr and Westfall clearly looked to the presence of a discretionary function to determine the propriety of extending immunity. Id. at 1446. Mangold
then addressed a narrow issue: “[W]hether Barr and

375a
Westfall immunity also extends to persons in the private sector who are government contractors participating in official investigations of government contracts.” Id. at 1447. By answering in the affirmative,
Mangold did not generally repudiate the discretionary
function requirement of Barr and Westfall in the contractor context but instead recognized a limited expansion of the rule, extending immunity “only insofar
as necessary to shield statements and information . . .
given by a government contractor . . . in response to
queries by government investigators engaged in an official investigation.” Id. at 1449.
This case does not fall within the narrow response-to-government-inquiries expansion to the discretionary function requirement as carved out in
Mangold because here Defendants were not giving information, they were extracting it through the use of
allegedly abusive means. The distinction is important
because the Mangold court extended immunity in that
case to preserve the government’s interest in protecting the integrity of its investigations. This, again,
goes back to the central purpose of absolute immunity
that the Supreme Court addressed in Barr: preservation of an efficiently operating government. Mangold,
then, did not ignore the discretionary function requirement outlined in Barr and Westfall, but instead
found that similar policy interests were served by the
extension of immunity to the precise and limited Mangold facts. The Court therefore rejects Defendants’ argument that discretion is irrelevant and finds the limited Mangold extension inapplicable to the present

376a
case. 5 Therefore, the fundamental inquiry remains
whether Defendants acted pursuant to discretionary
authority within the scope of their contract. Although
the Court agrees with Defendants that the mere allegation of serious abuse does not automatically strip
Defendants of any immunity to which they might otherwise be entitled, the Court is unpersuaded at this
early stage of the proceedings and in light of a very
limited factual record that Defendants performed a
discretionary function entitling them to absolute immunity.
The Court doubts, however, that Defendants will
fall within the discretionary function category even after a chance for discovery because the facts of this case
are wholly distinguishable from the Mangold facts.
The wartime interrogations in this case are different
from the investigations referenced in Mangold because in that case, there was no question of whether
the investigative techniques used by the Air Force
were lawful; the only question was whether the contractor’s responses were protected. Id. at 1448. Moreover, responses to Air Force inquiries surrounding
whether an officer inappropriately pressured a private engineering and analysis firm to hire a family
friend are not immediately analogous to Defendants’

5

Defendants argue in the alternative that the FTCA’s combatant activities exception, 28 U.S.C. § 2860(j), creates an alternate
basis for granting derivative absolute official immunity. The
Court is unpersuaded because Defendants offer no precedent
supporting this assertion. Moreover, the question of whether the
combatant activities exception to the FTCA supports a finding of
immunity is distinct from the question of whether it supports a
finding of preemption. The Court addresses this second question
in Section 3, below.

377a
allegedly abusive interrogations of detainees at Abu
Ghraib prison. Indeed, this case presents a question
of whether the government actually delegated to Defendants the task of performing allegedly abusive conduct. For these reasons, based on the limited record
currently before the Court, Mangold is entirely distinguishable from this case.
Furthermore, the Court finds that Defendants
may have problems after discovery showing that their
actions were discretionary in light of Plaintiffs’ allegations that Defendants violated laws, regulations and
Defendants’ government contract. A government contractor does not automatically perform a discretionary
function simply by virtue of being a government contractor. See United States v. Gaubert, 499 U.S. 315,
322 (1991) (observing that a federal employee’s actions are not discretionary “if a ‘federal statute, regulation, or policy specifically prescribes a course of action for an employee to follow,’ because ‘the employee
has no rightful option but to adhere to the directive.’”)(citations omitted); see also Perkins v. United
States, 55 F.3d 910, 914 (4th Cir. 1995) (“Obviously,
failure to perform a mandatory function is not a discretionary function”); Baum v. United States, 986 F.2d
716, 720 (4th Cir. 1993) (“[I]f the plaintiff can show
that the actor in fact failed to so adhere to a mandatory standard then the claim does not fall within the
discretionary function exception.”). Here Plaintiffs allege that Defendants violated laws and their government contract, which is the same as claiming that Defendants failed to adhere to a mandatory standard.
The Court finds it doubtful that discovery will show
that Defendants’ actions were discretionary in light of

378a
Plaintiffs’ allegations of legal and contractual violations.
ii. scope of government contract
Defendants argue that Plaintiffs’ claims arise out
of conduct that allegedly occurred in the course of Defendants’ interrogation duties at Abu Ghraib prison.
The Court is completely bewildered as to how Defendants expect the Court to accept this scope of contract
argument when the contract is not before the Court on
this motion.
There are many ways in which discovery will answer unresolved questions that must be answered before the Court can reasonably determine whether Defendants are entitled to immunity. For example, Defendants’ contract with the government will shed
much light on the responsibilities, limitations and expectations that Defendants were bound to honor as
government contractors. In addition, consideration of
Defendants’ course of dealing with the government
may reveal whether deviations from the contract occurred and, if so, whether they were tolerated or ratified. The scope of Defendants’ contract is thus an open
issue that requires discovery.
Furthermore, if Plaintiffs’ allegations are true,
then Defendants are not entitled to absolute immunity if their actions were wrongful. Plaintiffs allege
that Defendants violated United States and international law, military policies and procedures, and finally, the terms of their contract. (Am. Compl. at
¶¶ 67, 94, 108.) If these allegations are true, then Defendants are not entitled to dismissal on derivative
absolute immunity grounds because Defendants’ alleged abuse of Plaintiffs was not within the scope of

379a
their contract. See Mangold, 77 F.3d at 1446 (noting
that Barr and Westfall grant immunity to federal officials “acting within the scope of their employment.”).
For these reasons, and on this limited record, the
Court lacks a basis for finding that the conduct in the
Complaint arises out of a discretionary function
within the scope of Defendants’ government contract.
Discovery as to Defendants’ contract and course of
dealings with the government is necessary to determine whether Defendants meet these requirements.
b. Cost v. public benefit of immunity
Assuming, arguendo, that Defendants’ alleged
abuse of Plaintiffs constituted a discretionary government function within the scope of Defendants’ contract, the Court must now determine whether the public benefits of granting immunity outweigh the costs.
Defendants argue that the public has an urgent and
compelling interest in enabling government contractors to perform combatant activities in a war zone free
from the interference of tort law. The Court finds that
the limited record currently available does not support the conclusion that the public interest outweighs
the costs of granting immunity in this case.
As discussed above, the Court must balance the
interest in holding individual wrongdoers accountable
against the interest in protecting the government
from distracting litigation. Mangold, 77 F.3d at 1447.
From this Court’s perspective, it is clear that the Supreme Court expected courts to adopt a case-by-case
approach to this analysis. As the Supreme Court explained in Westfall, “the inquiry into whether absolute
immunity is warranted in a particular context depends on the degree to which the official function

380a
would suffer under the threat of prospective litigation.” Westfall, 484 U.S. at 296 n.3 (emphasis supplied). Here Defendants ask this Court to do for government contractors what the Supreme Court was unwilling to do for government officials: adopt a per se
rule that the benefits of immunity necessarily outweigh the costs. Defendants cite no authority for this
proposition. Indeed, if the public benefits always outweighed the costs, the balancing test requirement
would be meaningless. The Court finds it appropriate
to weigh the public interest in granting immunity to
Defendants against the costs of doing so.
Defendants urge that the public interest in recognizing absolute immunity here is the “compelling interest in enabling government contractors to perform
combatant activities in a war zone free from the interference of tort law.” (Defs.’ Mem. 17.) As discussed in
Section 3, below, the Court is unconvinced that contractor interrogations are in fact combatant activities.
Further, even if Defendants’ activities are combatant
activities, the Court questions whether the public’s interest is stronger in recognizing immunity for these
types of activities or in allowing suits like this to go
forward. The public outcry against the abuse of detainees at Abu Ghraib was strong and compelling.
Photographs of detainee abuse scarred the national
conscience, leading to the publication of numerous
books, newspaper and magazine articles and at least
one congressional investigation. On the limited record currently before the Court, the Court cannot say
that the public has a stronger interest in recognizing
immunity than it does in allowing Plaintiffs’ suit to
proceed. Discovery is needed to address the scope of
Defendants’ contract, their actual conduct, and the

381a
applicable statutes and regulations. Absent this information, the Court cannot say that the public interest in granting immunity outweighs the costs.
Defendants also argue that immunity is available
even for illegal and offensive conduct. For example,
Defendants cite Medina v. United States, 259 F.3d 220
(4th Cir. 2001), in which a former diplomat sued Immigration and Naturalization Service agents for assault, battery and other torts arising out of his arrest.
259 F.3d at 222. The Fourth Circuit held that the
agency was immune from suit under the discretionary
function exception to the FTCA because the case implicated public policy. Id. at 229. Defendants also cite
Perkins v. United States, 55 F.3d 910 (4th Cir. 1995),
a wrongful death action in which a worker suffocated
in a mine attempting to remove equipment to satisfy
an Internal Revenue Service (“IRS”) seizure order. 55
F.3d at 912. There, the court held that immunity protected the IRS agents because the acts they committed, even if illegal or tortious, were related to the assessment of a tax debt. Id. at 915. The Court does not
disagree that where immunity applies, it is a powerful
shield. But Medina and Perkins do not support a finding of immunity for Defendants because those cases
involved FTCA suits against United States government officials, not contractors. Medina, 259 F.3d at
220; Perkins, 55 F.3d at 910. A public benefits analysis under the FTCA is inapposite here because the
FTCA authorizes suit against the government; by contrast, in cases where only private parties are involved,
the presumption is that public policy favors granting
access to the courts and resolution of conflicts through
the adversarial system.

382a
Even if the policies in Medina and Perkins are
evaluated in the context of this case, they do not help
Defendants. The policy behind allowing FTCA suits
against government actors is essentially accountability. See Dalehite v. United States, 246 U.S. 15, 27
(1953), rev’d in part on other grounds by Indian Towing Co. v. United States, 350 U.S. 61 (1955). On the
other hand, Defendants’ strongest policy arguments
for granting immunity in this case are efficiency and
flexibility. Here, the immense public outcry in the
wake of the Abu Ghraib scandal illustrates the public’s strong interest in accountability even though efficiency and flexibility are otherwise valued.
Defendants argue that allowing suits such as
Plaintiffs’ will require military and government officials to justify and explain their wartime decisions in
court As addressed throughout this Order, however,
the question whether a private actor exceeded the
scope of its contractual obligations or otherwise violated the law is a question soundly committed to the
judiciary. “Damage actions are particularly judicially
manageable. . . The granting of monetary relief will
not draw the federal courts into conflict with the executive branch.” Gordon v. Texas, 153 F.3d 190, 195 (5th
Cir. 1998) (internal citations and formatting omitted).
Finally, Defendants caution that without a finding of derivative absolute official immunity in this
case, military commanders would forfeit the tort-free
environment deemed essential to effective combat operations whenever they decide to augment military
personnel with civilian contractors. But even if the
Court were to find that the interrogation of detainees
by civilians necessarily constitutes “combat opera-

383a
tions,” the decision to employ civilian contractors instead of military personnel is one that commanders
must make in consideration of all the attendant costs
and benefits. In any case, Defendants’ concern for
preventing judicial interference with military decisions is inconsistent with their request that the Court
shield the military from the consequences of one of
those decisions, namely, to employ civilian contractors, who normally are not immune from suit, instead
of soldiers, who normally are.
In sum, taking as true Plaintiffs’ allegations that
Defendants exceeded the scope of their government
contract and violated laws and regulations, the Court
cannot say that the public benefits of granting derivative absolute official immunity here outweigh the
costs of holding immune contractors who allegedly
“crossed the line from official duty into illicit brutality.” Griggs v. WMATA, 232 F.3d 917, 921 (D.C. Cir.
2000). For all these reasons, and based on the information available to the Court at this time, the Court
denies Defendants’ Motion to Dismiss Plaintiffs’
Amended Complaint on the grounds of derivative absolute official immunity.
3. Preemption under the Combatant Activities
Exception to the FTCA
Having established that Plaintiffs’ claims are not
barred by the doctrine of derivative absolute official
immunity, the Court now addresses the question of
whether Plaintiffs’ tort claims are preempted by federal law. Defendants urge that the combatant activities exception of the Federal Tort Claims Act (“FTCA”)
preempts Plaintiffs’ claims because wartime interrogations are combatant activities that present a

384a
uniquely federal interest that significantly conflicts
with state law. The Court expresses doubt as to
whether Defendants’ actions constituted combatant
activities and holds that, even if they did, Plaintiffs’
claims are not preempted because they do not present
uniquely federal interests, nor do they pose a significant conflict with state law.
Under the FTCA, the United States waives its
sovereign immunity for torts and authorizes suit
against the federal government subject to certain exceptions. See 28 U.S.C. § 1346(b) (2005). One of these
is the discretionary function exception, which reserves
immunity for claims against the government based on
the performance of a discretionary governmental
function. Id. § 2680(a). Another exception, which is
the one raised in this case, is the combatant activities
exception. The combatant activities exception reserves sovereign immunity for “[a]ny claim arising out
of combatant activities of the military or naval forces,
or of the Coast Guard, during time of war.” Id.
§ 2680(j).
a. Combatant activities
As an initial matter, because Defendants argue
that Plaintiffs’ claims are preempted under the combatant activities exception to the FTCA, the Court addresses the issue of whether Defendants’ conduct constituted a combatant activity. Defendants argue that
they indisputably performed combatant activities because they interrogated Iraqis detained at a combat
zone detention facility in support of the U.S. Army.
The Court finds that discovery is needed to determine
whether Defendants’ services qualify as combatant
activities because, unlike soldiers engaging in actual

385a
combat, the amount of physical contact available to civilian interrogators against captive detainees in a secure prison facility is largely limited by law and, allegedly, by contract.
Defendants urge the Court to adopt a “battlefield”
theory and conclude that “[a]iding others to swing the
sword of battle is certainly a combatant activity.”
(Defs.’ Mem. at 32) (internal formatting and citations
omitted). While the Court agrees that “arrest and detention activities are important incidents of war,”
(Id.), this broad generalization does not resolve the
question of whether Defendants engaged in combatant activities within the meaning of § 2680(j) because
merely being an “important incident of war” does not
make something a combatant activity. For instance,
the mass production of military uniforms at a private
mill is an important incident of war, but it is certainly
not a combatant activity.
Defendants argue that their employees indisputably performed combatant activities, but the Court cannot draw this conclusion without examining the government contract itself. This is because the Court’s
inquiry is a precise one and different courts reach different results. Defendants argue that the Court
should adopt the Ninth Circuit’s broad interpretation
of combatant activities to “include not only physical
violence, but activities both necessary to and in direct
connection with actual hostility.” Johnson v. United
States, 170 F.2d 767, 770 (9th Cir. 1948). However,
other courts find ample justification to limit the application of the exception, concluding that:

386a
If it had been intended that all activities . . .
in . . . preparation for war were to be included[,] . . . the words ‘war activities,’ it
seems, would have been more appropriate, but
instead, the exception or exemption from liability for torts was restricted to `combat activities,’ which as indicated means the actual engaging in the exercise of physical force.
Skeels v. United States, 72 F. Supp. 372, 374 (W.D. La.
1947) (emphasis supplied). This Court is inclined to
adopt the more limited definition because it comports
with the common sense notion that a government contractor does not necessarily conduct combatant activities merely because it provides services in support of
a war effort. See, e.g., McMahon v. Presidential Airways, Inc., 502 F.3d 1331, 1366 (11th Cir. 2007) (declining to review or reverse district court’s holding
that declined to extend Boyle preemption for private
contractors); Lessin v. Kellogg Brown & Root Servs.,
Inc. 2006 WL 3940556 at *5 (S.D. Tex. Jun. 12, 2006)
(declining to preempt claims against military logistics
contractor in Iraq); Fisher v. Halliburton, 390 F. Supp.
2d 610, 615-16 (S.D. Tex. 2005) (declining to preempt
service contractors because Boyle protects against
state product liability claims only). In this Court’s
view, interrogation should not properly be understood
to constitute actual physical force under Skeels because the amount of physical contact available to an
interrogator is largely limited by law and by contract,
to the point where the amount of contact is unlikely
equivalent to “combat.” The Court declines Defendants’ invitation to summarily conclude, without learning the relevant facts, that the combatant activities
exception of § 2680(j) applies in this case. Therefore,

387a
before even reaching a Boyle analysis, the Court finds
it too early to conclude that the combatant activities
exception to the FTCA is applicable to this case.
b. Two-part Boyle analysis
Assuming, arguendo, that Defendants’ services
qualify as combatant activities, and thus potentially
fall under the combatant activities exception, the
Court now addresses the issue of whether, when applying the Boyle test, the combatant activities exception preempts the claims in this case.6 For the reasons
to follow, the Court finds that Plaintiffs’ claims are not
preempted here under the Boyle analysis.
In Boyle v. United Technologies Corporation, 487
U.S. 500 (1988), the Supreme Court explained the
framework under which exceptions to the FTCA’s
waiver of sovereign immunity require the preemption
of tort claims against government contractors. The issue before the Court was whether the discretionary
function exception of the FTCA preempted the plaintiff’s tort claims. Id. at 511. Boyle involved a wrongful
death claim by the father of a Navy lieutenant who
drowned when he was unable to escape from his
crashed helicopter. Id. at 500. The father alleged that
the escape hatch design was defective because it
opened out instead of in, allowing the water pressure

6

From the briefs, both parties appear to accept that the Boyle
analysis, initially developed in the context of the discretionary
function exception to the FTCA, applies equally in the context of
the combatant activities exception. That being the case, the
Court will assume without deciding that Boyle applies when
evaluating whether Plaintiffs’ conduct falls within the combatant activities exception.

388a
against a submerged helicopter to prevent its operation. Id. at 503. The Supreme Court found that the
FTCA preempted state tort claims. Id. at 512.
In doing so, the Court announced a two-part test,
holding that state law is displaced by federal law only
when (1) “uniquely federal interests” are at stake; id.
at 504-07, and (2) the application of state tort law
would produce a “significant conflict” with federal policies or interests. Id. at 507-13. Applying this test,
the Boyle Court found that the discretionary function
exception conflicted with, and thereby preempted,
product defect claims against a government contractor supplying goods where the federal government approved and the contractor complied with reasonably
precise product specifications, and where the contractor warned the government of any known defects. Id.
at 512. Finding that the procurement of equipment
by the United States was a uniquely federal interest,
id. at 507, the Court held that the plaintiff’s claims
were preempted because the state-imposed duty of
care (to manufacture escape-hatch mechanisms of the
sort that plaintiff claimed was necessary) was exactly
contrary to the government contract-imposed duty (to
manufacture escape-hatch mechanisms shown by the
specifications). Id. at 509.
Defendants argue that Plaintiffs’ claims are
preempted because the prosecution of war is a
uniquely federal interest that would be significantly
frustrated by interposing state tort causes of action
against CACI. The Court finds, based on the limited
record available at this stage in the litigation, that
Plaintiffs’ claims are not preempted because the interests in this case are shared between federal and state

389a
governments and Plaintiffs’ claims do not significantly conflict with uniquely federal interests. The
Court addresses each part of the Boyle analysis in
turn below.
i. uniquely federal interests
Defendants argue that Plaintiffs’ claims implicate
a uniquely federal interest because the prosecution of
war is a power constitutionally vested solely in the
federal government. Although it recognizes the federal government’s sole authority to prosecute war, the
Court disagrees that Plaintiffs’ claims implicate a
uniquely federal interest for three (3) reasons.
First, the Court is unpersuaded by Defendants’
argument that subjecting a private, for-profit civilian
corporation to a damages suit will interrupt or interfere with the prosecution of a war. Plaintiffs are not
suing soldiers or any government entity; they are suing civilian corporations. Additionally, as far as the
Court can discern, the military has already collected
much of the evidence it may be asked to provide in this
case in pursuing courts martial proceedings against
CACI’s alleged co-conspirators. Accordingly, the
source-collecting burden on the government in this
case will be minimal and will not distract it from the
prosecution of a war. The Court therefore rejects Defendants’ argument that allowing this suit to go forward to discovery will interfere with the government’s
prosecution of a war.
Second, this Court finds that permitting this litigation against CACI to go forward actually advances
federal interests (and state interests, as well) because
the threat of tort liability creates incentives for government contractors engaged in service contracts at

390a
all levels of government to comply with their contractual obligations to screen, train and manage employees. See Richardson v. McKnight, 521 U.S. 399, 409
(1997) (“Competitive pressures mean . . . that a firm
whose guards are too aggressive will face damages
that raise costs, thereby threatening its replacement.”)
In Richardson, the Supreme Court declined to extend qualified immunity to prison guards employed by
a private prison management firm in a constitutional
tort action. 521 U.S. at 412. The Court reasoned that
the history and purpose of qualified immunity did not
support an extension in that case because declining to
extend immunity would motivate the contractor to
provide service in a manner compliant with government requirements and constitutional norms. Id. at
409.
Like in Richardson, permitting Plaintiffs’ claims
against CACI to go forward will advance the federal
interest in low cost, high quality contractors by forcing
CACI to “face threats of replacement by other firms
with records that demonstrate their ability to do both
a safer and a more effective job.” Id. at 409. The
claims in this suit therefore advance any federal interests that may be involved here.
Third, Defendants’ federalism concerns are misplaced because both federal and state governments
have a strong interest in the enforcement of laws
against torture, evincing a shared policy that opposes
preemption in this case. Compare, e.g., Anti-Torture
Act, 18 U.S.C. § 2340A (2006) (criminalizing torture);
War Crimes Act, 18 U.S.C. § 2441 (2006) (criminalizing war crimes); and Military Commission Act, 10

391a
U.S.C. § 948a(1)(A) (2006) (defining “unlawful enemy
combatant”), with Constitution of Maryland, Decl. of
Rights, Art. 16 (prohibiting laws permitting cruel and
unusual pains); VA. CODE ANN. § 19.2-264.2 (LexisNexis 2008) (providing that the use of torture is a
consideration in death penalty sentencing); and MD.
CODE ANN., Health - General § 24-302 (LexisNexis
2008) (forbidding the sale of toys depicting or resembling an instrument designed for torture). Concerns
regarding torture are both state and federal and are
therefore not a uniquely federal concern. For all these
reasons, the Court concludes that “uniquely federal
interests” are not at stake in this case.
ii. significant conflict with federal policies
Assuming, arguendo, that Plaintiffs’ claims invoke uniquely federal interests, the Court must now
address whether Plaintiffs’ state tort claims pose a
significant conflict with federal interests. Anything
less than a total conflict between state and federal interests is insufficient to cause preemption under Boyle
because preemption only applies if the contractor cannot possibly comply with its contractual duties and
the state-law imposed duties at the same time. See
Boyle, 487 U.S. at 508-09. Preemption does not apply
even in “an intermediate situation, in which the duty
sought to be imposed on the contractor is not identical
to one assumed under the contract, but is also not contrary to any assumed.” Id. at 509. As long as “[t]he
contractor could comply with both its contractual obligations and the state prescribed duty of care,” state
law will not generally be preempted. Id.; see also In
re Joint E. & S. Dist. New York Asbestos Litig., 897
F.2d 626, 632 (2d Cir. 1990) (“Stripped to its essentials, the military contractor’s defense under Boyle is

392a
to claim, ‘The Government made me do it.’”); Barron
v. Martin-Marietta Corp., 868 F. Supp. 1203, 1207
(N.D. Cal. 1994) (“[R]equisite conflict exits [sic] only
where a contractor cannot at the same time comply
with duties under state law and duties under a federal
contract.”).
Defendants raise several arguments as to why the
application of state tort law would create a significant
conflict with the federal interests underlying the combatant activities exception. Upon careful consideration, the Court finds that Defendants’ arguments do
not justify finding that Plaintiffs’ claims pose a significant conflict with federal interests, as discussed below.
Defendants cite Koohi v. United States, 976 F.2d
1328, 1333, 1337 (9th Cir. 1992), for the proposition
that no tort duty should extend to those against whom
combatant force is directed in times of war because it
would subject commanders to judicial second-guessing. In Koohi, heirs of the deceased passengers and
crew of an Iraqi civilian aircraft sued after a United
States warship shot down the aircraft during the
“tanker war” between Iraq and Iran. 976 F.2d at 132930. The plaintiffs sued both the United States and the
civilian manufacturers of the weapons systems used
by the warship. Id. at 1330. Citing the Supreme
Court’s formulation of the preemption framework in
Boyle, the Ninth Circuit found that the combatant activities exception to the FTCA “shield[ed] from liability those who supply ammunition to fighting vessels
in a combat area.” Id. at 1336. The court based its
holding partially on the rationale that “during wartime encounters no duty of reasonable care is owed to

393a
those against whom force is directed as a result of authorized military action.” Id. at 1337.
As an initial matter, this Court is not bound by
Ninth Circuit precedent. Addressing the substance of
Defendants’ argument, however, Defendants fail to
consider that Plaintiffs at the time of their interrogation posed no combatant threat and therefore were not
properly the recipients of combatant force. Accordingly, on the limited record currently before the Court,
the Court cannot say that no duty was owed. Moreover, the distinction between the Koohi contractor as a
supplier of complex goods and Defendants as government contractor service providers suggests Koohi is
distinguishable on a fundamental level. Supplying
complex military technologies inevitably implicates
nuanced discretion and sophisticated judgments by
military experts. See Boyle, 487 U.S. at 511. It was
therefore appropriate to absolve Koohi’s government
contractor of responsibility for the government’s misidentification of the civilian Airbus as an enemy target.
In contrast, Plaintiffs here do not allege that Defendants supplied any equipment, defective or otherwise,
to the United States military, and as discussed elsewhere, the Court must withhold judgment on the
scope of Defendants’ discretion until it can examine
Defendants’ contract. For these reasons, the Court
concludes that Koohi does not entitle Defendants to
dismissal in this case.
Again citing Koohi, Defendants counter that removing “battlefield tort duties” is beneficial because it
ensures equal treatment of those injured in war. “It
would make little sense,” Defendants tell the Court,
“to single out for special compensation a few [innocent
victims of harmful conduct] . . . on the basis that they

394a
have suffered from the negligence of our military
forces” rather than from the intentional infliction of
violence in war. Koohi, 976 F.2d at 1334-35. To the
extent that Defendants’ argument is that it is worse
to compensate a few deserving innocent victims than
none at all, the Court rejects it as inconsistent with
the strong public policy favoring access to the courts.
More important, however, is that Plaintiffs do not
allege that they suffered from the negligence of U.S.
military forces. While indeed they may have, the case
at bar is captioned solely against private government
contractors. Defendants fail to appreciate that, generally speaking, private contractors are not entitled to
sovereign immunity unless classified as government
employees. See McMahon v. Presidential Airways,
Inc., 460 F. Supp. 2d 1315, 1330 (M.D. Fla. 2006)
(“The doctrine of sovereign immunity may not be extended to cover the fault of a private corporation, no
matter how intimate its connection with the government.”) (citing Foster v. Day & Zimmerman, Inc., 502
F.2d 867, 874 (8th Cir. 1974)).
Defendants
acknowledge that they do not qualify as government
employees within the meaning of the FTCA. (See
Defs.’ Mem. at 26 (“The immunity of the United States
and its employees is the reason why Plaintiffs assert
their claims solely against contractors with which
they had little or no contact.”).) Immunity is a shield,
not a blanket. The Court therefore concludes that the
limited record does not indicate that allowing Plaintiffs’ claims to go forward would create a duty of care
on the battlefield.
The Court also rejects Defendants’ argument that
haling private citizens into federal court to defend
against alleged violations of a government contract

395a
and other law infringes on the Executive’s constitutionally committed war powers. These separation of
powers concerns are not implicated here because
“[d]amage actions are particularly judicially manageable . . . . The granting of monetary relief will not
draw the federal courts into conflict with the executive
branch.” Gordon v. Texas, 153 F.3d 190, 195 (5th Cir.
1998) (internal citations and formatting omitted).
Compare Gilligan v. Morgan, 413 U.S. 1, 11 (1973) (refusing to hear suit seeking judicial supervision of operation training of Ohio National Guard in wake of
Kent State shootings), with id. at 5 & 11 (suggesting
the Court might allow suit against National Guard for
damages). Private actors are accountable for their actions even when employed by the executive. Cf. Richardson v. McKnight, 521 U.S. 399 (1997) (holding privately employed prison guards amenable to suit for
prison abuse).
Defendants further argue that one purpose underlying the combatant activities exception is ensuring
that the United States’ conduct of war is not regulated
by another sovereign in the guise of applying that sovereign’s tort law. Defendants argue that this purpose
would fail if this case were to proceed. The Court need
not address that issue at this stage in the litigation,
however, because even if the law of a foreign jurisdiction were to govern any of Plaintiffs’ claims, it would
not regulate the conduct of the United States, a nonparty to this suit between private parties.7 For the

7

If and when it should become relevant, the Court will present
the parties with the opportunity to address the choice of law issue at a later date.

396a
reasons stated above, the Court concludes that Plaintiffs’ claims do not present a significant conflict with
a uniquely federal interest.
In sum, the Court doubts that Defendants’ activities constituted combatant activities and therefore
doubts that the FTCA is relevant because the limited
record does not support that conclusion where Defendants are civilian contractors assigned to interrogate
incapacitated detainees. Even if it did, however, the
Court holds that Plaintiffs’ claims are not preempted
under Boyle because Plaintiffs’ claims do not present
a significant conflict with a uniquely federal interest.
The Court therefore denies Defendants’ motion to dismiss on the grounds of preemption.
4. Alien Tort Statute
Having established that Plaintiffs’ claims are not
preempted by federal law, the Court must now address the question of whether the Alien Tort Statute
(“ATS”) confers original jurisdiction upon this Court
over alien tort claims against government contractor
civilian interrogators for injuries sustained by detainees during military prison interrogations. Plaintiffs
argue that their ATS claims survive under Sosa v. Alvarez-Machain, 542 U.S. 692 (2004), because the
Court need not recognize any new claims here and because war crimes are universally condemned on the
grounds that they are so reprehensible that anyone
who commits them must be held individually responsible. The Court holds that the ATS does not confer
original jurisdiction over civil causes of action against
government contractors under international law because such claims are fairly modern and therefore not

397a
sufficiently definite among the community of nations,
as required under Sosa.
The ATS, passed as part of the Judiciary Act of
1798, confers original jurisdiction upon district courts
to hear “any civil action by an alien for a tort only,
committed in violation of the law of nations or a treaty
of the United States.” 28 U.S.C. § 1350 (2006). Courts
need not rely on express legislation to entertain civil
claims based on ATS jurisdiction. See Sosa, 542 U.S.
at 718. It is clear, however, that under ATS jurisdiction, courts have only the ability “to hear claims in a
very limited category defined by the law of nations
and recognized at common law.” Id. at 712.
In Sosa, the Supreme Court further defined the
“law of nations” violations that trigger jurisdiction under the ATS by first generally identifying the two different types of violations. Id. at 714-15. The term
“law of nations” is historically comprised of two distinct spheres. Id. at 715. The first concerns how
states conduct themselves among each other, and the
second involves the conduct of individuals “outside domestic boundaries and consequently carrying an international savor.” Id.
At the intersection of these two spheres lies a class
of “hybrid international norms” and the ATS confers
jurisdiction only where that overlap occurs. See id. at
715-16, 720. This limited category expressly includes
three tort causes of action: (1) violation of safe conduct; (2) infringement of the rights of ambassadors;
and (3) piracy on the high seas. Id. at 715, 720, and
724. The underlying concern with respect to the hybrid norms is not so much vindication of the individual
right as it is compensation to the sovereign affected by

398a
the tort. See id. at 724 (pointing to an interest that
the state, as to offenses against ambassadors, “at the
expense of the delinquent, give full satisfaction to the
sovereign who has been offended in the person of his
minister.”).
Although the Supreme Court recognizes that ATS
jurisdiction may extend beyond the three torts mentioned in Sosa, district courts must exercise caution
when recognizing additional torts under the common
law that enable ATS jurisdiction. See id. at 729
(“[T]he judicial power should be exercised on the understanding that the door is still ajar subject to vigilant doorkeeping, and thus open to a narrow class of
international norms today.”). The Supreme Court
highlighted five concerns in recognizing additional
torts under the ATS, namely that:
1) the current view of common law as made or
created law creates the potential that district
courts will exercise too much discretion in
recognizing torts;
2) it is customary to look for legislative guidance “before exercising innovative authority
over substantive law”;
3) the creation of private rights of action is better left to the legislative branch;
4) potential adverse foreign policy consequences
from the recognition of additional causes of
action; and
5) Congress has not asked the judiciary to expand the law in this area.
Id. at 725-28.

399a
Although the Supreme Court warns caution, it
does not foreclose the possibility of additional causes
of action. Id. at 729. Sosa provides at least two guidelines as to what qualifies as a cause of action enabling
ATS jurisdiction should a district court find it proper
to recognize one after fully considering the concerns
listed above. First, “federal courts should not recognize private claims under federal common law for violations of any international law norm with less definite content and acceptance among civilized nations
than the historical paradigms familiar when § 1350
was enacted.” Id. at 732 (referring to the three torts
expressly mentioned above). Second, district courts
must temper “the determination [of] whether a norm
is sufficiently definite to support a cause of action”
with “an element of judgment about the practical consequences of making that cause available to litigants.”
Id. at 732-33.
Plaintiffs argue that their allegations fall within
the scope of Sosa and do not require the Court to recognize any new claims because “war crimes, torture
and cruel, inhuman and degrading treatment are precisely the specific, universal, and obligatory violations
that are actionable under the ATS.” (See Pls.’ Opp’n at
23 (internal formatting and citations omitted).) The
Court grants Defendants’ Motion to Dismiss as to
Plaintiffs’ ATS claims because the Court is not convinced that civil causes of action against government
contractors in this context qualify under Sosa for ATS
jurisdiction for two (2) reasons.
First, the Court doubts that the content and acceptance of the present claims are sufficiently definite
under Sosa because the use of contractor interrogators is a modern, novel practice. Plaintiffs contend

400a
that Sosa brings Plaintiffs’ allegations within the
scope of this Court’s ATS jurisdiction on the grounds
that war crimes and other degrading treatment constitute specific, universal, and obligatory violations of
the law of nations. Plaintiffs draw this conclusion,
they explain, because Sosa cited with approval
Filartiga v. Pena-Irala, 630 F.2d 876, 887 (2d Cir.
1980), and Tel-Oren v. Libyan Arab Republic, 726 F.2d
774, 781 (D.C. Cir. 1984). Plaintiffs do not explain
why they discern the Sosa Court’s citation of these
cases as helpful to their position.
In fact, a nuanced reading of Sosa reveals that the
Supreme Court cited Filartiga and Tel-Oren only for
the proposition that federal courts may recognize enforceable international norms when they are specific,
universal and obligatory. See Sosa, 542 U.S. at 732.
The Sosa Court’s citation of these cases therefore does
not support Plaintiffs’ argument that Plaintiffs’ particular allegations constitute specific, universal, and
obligatory violations of the law of nations. As this
Court mentioned above, Plaintiffs’ claims lack this
universality because the use of contractor interrogators is a recent practice. See id. at 725 (allowing only
claims resting on norms “with a specificity comparable to the features of the 18th-century paradigms.”).
As the use of contractor interrogators is modern, so
too is the concept of suing contractor interrogators in
tort for a violation of the law of nations. As such, these
claims fail under Sosa. Second, even if Plaintiffs’
claims were sufficiently accepted and universal, the
Court is unconvinced that ATS jurisdiction reaches
private defendants such as CACI. In Sosa, the Court
questioned whether international law extends liabil-

401a
ity to private defendants. See id. at 733 n.20 (comparing cases ten years apart, one finding no true consensus that torture by private actors violated international law, the other finding a sufficient consensus
that genocide by private actors violated international
law). Plaintiffs contend that international law does
extend liability to private defendants but point the
Court to no mandatory case law definitively establishing their position. Plaintiffs’ reliance on nonbinding
authority does not persuade the Court that ATS jurisdiction reaches Defendants. Plaintiffs rely heavily on
Kadic v. Karadzic, 70 F.3d 232 (2d Cir. 1995), which
held that “certain forms of conduct violate the law of
nations whether undertaken by those acting under
the auspices of a state or only as private individuals.”
70 F.3d at 239. Plaintiffs emphasize that Kadic was
cited favorably by the Supreme Court. It is questionable, however, whether the references to Kadic in the
Sosa opinion can fairly be classified as favorable.
Kadic is mentioned once in footnote twenty of the majority opinion for the proposition that the existence of
ATS jurisdiction against private defendants is an
open question; it is mentioned again in Justice Scalia’s
concurring opinion as an example of a case that leads
the judiciary “directly into confrontation with the political branches.” Sosa, 542 U.S. at 748 (Scalia, J., concurring in part and concurring in judgment). Because
the Supreme Court’s treatment of Kadic was neutral
at best, the Court is reluctant to rely on Kadic.
In any event, this Court need not follow a case
from the Second Circuit and declines to do so in light
of the five initial Sosa concerns mentioned above. See
Sosa, 542 U.S. at 725-28 (ranging from caution
against excessive district court discretion to giving

402a
due deference to the legislature). Here, the Court is
particularly wary of exercising too much discretion in
recognizing new torts. See id. Although some international tribunals have held private actors criminally liable under international law, the Court questions
whether this liability is similarly established in the
civil context under the ATS. The Court is unpersuaded that Plaintiffs’ claims fall into the “very limited category defined by the law of nations and recognized at common law,” id. at 712, because the Court is
unconvinced that a suit against private civilian interrogators falls within the class of hybrid international
norms in existence when the ATS was enacted. The
Court therefore grants Defendants’ Motion to Dismiss
Plaintiffs’ Amended Complaint to the extent that its
claims invoke ATS jurisdiction. However, because
Plaintiffs assert diversity and federal question as alternate bases of jurisdiction, the Amended Complaint
survives as to those claims that do not rely upon the
ATS.8
5. Sufficiency of claims
The Court holds that Plaintiffs sufficiently plead
facts to support the claims in their Amended Complaint. Defendants challenge the sufficiency of the
pleadings in three respects. First, Defendants argue
that Plaintiffs fail to sufficiently allege Defendants’ vi-

8

The Court is operating under the assumption that diversity
and/or federal question jurisdiction are sufficient bases for jurisdiction as to all of Plaintiffs’ claims. If Defendants believe differently, the Court invites Defendants to brief the question of which
of the counts of the Amended Complaint, if any, must be dismissed because they rely solely upon ATS for subject matter jurisdiction.

403a
carious liability because Plaintiffs alleged no facts indicating that CACI authorized its employees to treat
detainees in an unauthorized manner, or that CACI
employees did so to serve CACI’s interests. Second,
Defendants argue Plaintiffs insufficiently plead facts
as to conspiratorial liability because Plaintiffs point to
no facts showing that their injuries where the result
of an agreement between parties and not the product
of independent actors acting in parallel. Third, CACI
argues that Plaintiffs’ claims fail because the
Amended Complaint sets forth no facts indicating that
CACI personnel were directly involved in causing injury to these particular Plaintiffs. The Court rejects
these arguments for the reasons set forth in order below.
a. Vicarious liability
As an initial matter, the Court rejects Defendants’
argument that Plaintiffs fail to allege facts sufficient
to hold Defendants vicariously liable under a respondeat superior theory. Under the theory of respondeat superior, an employer may be held liable in
tort for an employee’s tortious acts committed while
doing his employer’s business and acting within the
scope of the employment when the tortious acts were
committed. See Plummer v. Ctr. Psychiatrists, Ltd.,
476 S.E.2d 172, 174 (Va. 1996) (internal citations
omitted). An employer may be liable in tort even for
an employee’s unauthorized use of force if “such use
was foreseeable in view of the employee’s duties.”
Martin v. Cavalier Hotel Corp., 48 F.3d 1343, 1351
(4th Cir. 1995) (internal citations omitted); Heckenlaible v. Va. Peninsula Reg’l Jail Auth., 491 F. Supp. 2d
544, 549 (E.D. Va. 1950) (finding a jury question as to

404a
whether correctional officer’s sexual assault on an inmate was within the scope of his employment).
Here, Plaintiffs sufficiently allege that Defendants are vicariously liable for the conduct of CACI employees. Plaintiffs argue that CACI employees Steven
Stefanowicz, Daniel Johnson, and Timothy Dugan tortured Plaintiffs and instructed others to do so. (Am.
Compl. ¶¶ 1, 64-68.) They also allege that Defendants
employed all three and knowingly ratified their illegal
actions. (Id. at ¶¶ 72, 76-80, 90-91.) The Amended
Complaint further alleges that CACI took steps to
cover up the activities of its employees involved in the
Abu Ghraib scandal. (Id. at ¶¶ 79, 81-88.) The
Amended Complaint also alleges that CACI failed to
properly train and supervise its employees and failed
to properly report the torture committed. (Id. at
¶¶ 101-108.) Finally, the Amended Complaint alleges
that Defendants made millions of dollars as a result
of their wrongful behavior. (Id. at ¶¶ 73, 92-93.) Consequently, the Court finds that Plaintiffs make a sufficient showing of vicarious liability to withstand the
motion to dismiss.
Defendants argue that any alleged misconduct by
its employees at Abu Ghraib was not within the scope
of employment because Defendants never authorized
CACI employees to torture detainees. Here, however,
it was foreseeable that Defendants’ employees might
engage in wrongful tortious behavior while conducting the interrogations because interrogations are naturally adversarial activities. As such, Plaintiffs sufficiently plead vicarious liability.

405a
b. Conspiratorial liability
The Court finds that Plaintiffs sufficiently plead
facts to support a conspiratorial liability claim under
Bell Atlantic v. Twombly. In Twombly, the Supreme
Court held that a plaintiff must go beyond “a short
and plain statement of the claim” showing entitlement to relief in order to survive a motion to dismiss.
127 S. Ct. at 1964 (internal citations omitted). The
Court stressed that a successful allegation of conspiracy requires the plaintiff to cross the line between “the
conclusory and the factual” as well as between “the
factually neutral and the factually suggestive.” Id. at
1966 (“Each must be crossed to enter the realm of
plausible liability.”). In that case, the plaintiffs attempted to allege an antitrust conspiracy based on the
facts that the defendant exchange carriers engaged in
parallel conduct to prevent the growth of upstart carriers and agreed not to compete with each other. See
id. at 1962. The Court found that the plaintiffs failed
to state a conspiracy claim because the complaint
lacked enough “factual matter ([when] taken as true)
to suggest that an agreement was made.” Id. at 1966.
The Court found the allegations of parallel conduct insufficient without more because the defendant carriers had independent incentives to act in the manner
that they did that in no way obviated conspiratorial
conduct. See id. at 1971. The Court further found the
agreement not to compete did not suggest a conspiracy
because of a history of monopoly in the field and the
defendant carriers’ likely desire to maintain the status quo. See id. at 1972-73. As such, the Court held
that the plaintiffs’ complaint should be dismissed. Id.
at 1961.

406a
Here, Defendants argue that the present claims
also fail because Plaintiffs point only to parallel conduct which fails under Twombly. This Court rejects
Defendants’ argument for two reasons. First, the
Court finds that Plaintiffs adequately allege specific
facts to create the plausible suggestion of a conspiracy. Unlike the Twombly plaintiffs, who relied solely
on parallel conduct and an agreement not to compete
to state their conspiracy claim, here Plaintiffs point to
at least two suggestive facts that push their claims
into the realm of plausibility. First, Plaintiffs allege
that CACI employees adopted the code phrase “‘special treatment,’ which was code for the torture of the
type endured by Plaintiffs in the hard site.” (Am.
Compl. ¶ 70.) Taking the allegation as true, the use of
code words makes a conspiracy plausible because the
personnel would have to reach a common understanding of the code in order to effectively respond to it.
Second, Plaintiffs also allege that Plaintiff Mr. Rashid
was “removed from his cell by stretcher and hidden
from the International Committee of the Red Cross . .
who visited Abu Ghraib shortly after Mr. Rashid had
been brutally and repeatedly beaten.” (Id. at ¶ 43.)
The act of hiding abuse from a humanitarian organization’s inspection also plausibly suggests a conspiracy, as a cover-up would require the participation and
cooperation of multiple personnel. As such, the Court
finds that these specific allegations together with the
other conduct alleged are enough to state a conspiratorial liability claim.
Second, unlike Twombly, the Defendants here
have no independent motive to act in the alleged manner. In Twombly, the Supreme Court found persuasive arguments against the conspiracy claim in that

407a
there was a history of monopoly in the rather specialized field and because the defendant carriers had an
independent motive to resist upstart carriers in order
to avoid subsidization burdens. See id. at 1971-72.
These alternate, independent motives made the plaintiffs’ conspiracy allegations less plausible. See id.
Here, however, the Court cannot think of any history
or independent motive Defendants might have that
would move Plaintiffs’ conspiracy claims outside of
the realm of plausibility. As an initial matter, torture
during interrogations is historically banned. As far
back as 1949, the Third Geneva Convention demanded that “[p]risoners of war must at all times be
treated humanely.” Geneva Convention Relative to
the Treatment of Prisoners of War art. 13, Aug. 12,
1949, 6 U.S.T. 3316, 75 U.N.T.S. 135. In addition, the
Uniformed Code of Military Justice imposes criminal
punishment for many of the offenses alleged in the
Amended Complaint, including murder, rape, and
cruelty and maltreatment. See 10 U.S.C. §§ 893, 918,
920 (2007). Consequently, the historical explanation
present in Twombly is absent here. Likewise, the
Court can think of no plausible motive Defendants
might have to act independently in the egregious
manner alleged by Plaintiffs. In Twombly, the defendant carriers faced the potential for financial gain as a
result of their actions. See Twombly, 127 S. Ct. at
1971-72. Here, it’s possible that the personnel at Abu
Ghraib acted individually in pursuit of some perverse
pleasure, but this possibility is insufficient to make
Plaintiffs’ conspiracy allegations less than plausible.

408a
c.

Direct involvement

Defendants argue that Plaintiffs’ claims must fail
because Plaintiffs allege no facts implicating Defendants in the conduct that caused injury to these Plaintiffs. The Court denies Defendants’ motion to dismiss
on these grounds because, again, the Amended Complaint identifies Mr. Dugan, Mr. Stefanowicz and Mr.
Johnson, as directing and causing “some of the most
egregious torture and abuse at Abu Ghraib.” (Am.
Compl. ¶ 1.) Plaintiffs also allege that military co-conspirators have testified that Mr. Stefanowicz and Mr.
Johnson were “among the interrogators who most often directed that detainees be tortured.” (Id. at ¶ 66.)
The Amended Complaint alleges that Mr. Stefanowicz
and Mr. Johnson directed and engaged in conduct in
violation of the Geneva Conventions, U.S. Army guidance, as well as United States law. (Id. at ¶ 68.) The
Court finds these factual allegations sufficient to suggest that CACI employees were directly involved in
the injuries caused Plaintiffs.
III. CONCLUSION
The Court denies Defendant’s Motion to Dismiss
on all grounds except the Court grants the Motion to
the extent that Plaintiffs’ claims rely upon ATS jurisdiction. The Court holds that Plaintiffs’ claims are
justiciable because civil tort claims against private actors for damages do not interfere with the separation
of powers. Second, derivative absolute immunity is
inappropriate at this stage because discovery is necessary to determine both the extent of Defendants’ allowed discretion in dealing with detainees and to determine the costs and benefits of granting immunity
in this case. Third, the Plaintiffs’ claims are not

409a
preempted by the combatant activities exception at
this stage because discovery is required to determine
whether the interrogations here constitute “combatant activities” within the meaning of the exception.
Fourth, the Court dismisses Plaintiffs’ claims to the
extent that they rely upon ATS jurisdiction because
tort claims against government contractor interrogators do not satisfy the Sosa requirements for ATS jurisdiction. Fifth, Plaintiffs sufficiently allege facts
supporting vicarious liability because the Amended
Complaint states that Defendants’ employees engaged in foreseeable tortious conduct when conducting the interrogations. Sixth, conspiratorial liability
is sufficiently alleged because facts stating the use of
code words and efforts to conceal abusive treatment
plausibly suggest conspiratorial activity. Seventh,
the Court finds that the Amended Complaint sufficiently alleges the direct involvement of Defendants’
employees in causing Plaintiffs’ injuries because
Plaintiffs point to specific employees who played a direct role in supervising and participating in the alleged conduct. Therefore, it is hereby

410a
ORDERED that Defendants’ Motion to Dismiss
Plaintiffs’ Amended Complaint is GRANTED in part
and DENIED in part. Defendants’ Motion to Dismiss
is GRANTED only to the extent that Plaintiffs’ claims
rely on ATS jurisdiction.
The Clerk is directed to forward a copy of this Order to Counsel.
Entered this 18th day of March, 2009.

___________/s/______________
Gerald Bruce Lee
United States District Judge
Alexandria, Virginia
3/18/09

411a
APPENDIX H
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-1328
(1:08-cv-00827LMB-JFA)
SUHAIL NAJIM ABDULLAH AL SHIMARI; SALAH
HASAN NUSAIF JASIM AL-EJAILI; ASA’AD
HAMZA HANFOOSH AL-ZUBA’E,
Plaintiffs – Appellees,
and
TAHA YASEEN ARRAQ RASHID; SA’AD HAMZA
HANTOOSH AL-ZUBA’E,
Plaintiffs,
v.
CACI PREMIER TECHNOLOGY, INC.,
Defendant and 3rd-Party Plaintiff – Appellant,
and
TIMOTHY DUGAN; CACI INTERNATIONAL, INC.;
L-3 SERVICES, INC.,
Defendants,
v.
UNITED STATES OF AMERICA; JOHN DOES 1-60,
Third-Party Defendants.
-------------------------

412a
UNITED STATES OF AMERICA,
Amicus Curiae,
THE CENTER FOR JUSTICE AND ACCOUNTABILITY; RETIRED MILITARY OFFICERS; EARTHRIGHTS INTERNATIONAL,
Amici Supporting Appellee.
ORDER
The court denies the petition for rehearing and rehearing en banc. No judge requested a poll under Fed.
R. App. P. 35 on the petition for rehearing en banc.
Entered at the direction of the panel: Judge Floyd,
Judge Thacker, and Judge Quattlebaum.
For the Court
/s/ Patricia S. Connor, Clerk

413a
APPENDIX I
STATUTORY PROVISIONS INVOLVED
28 U.S.C. § 1291. Final decisions of district
courts
The courts of appeals (other than the United
States Court of Appeals for the Federal Circuit) shall
have jurisdiction of appeals from all final decisions of
the district courts of the United States, the United
States District Court for the District of the Canal
Zone, the District Court of Guam, and the District
Court of the Virgin Islands, except where a direct review may be had in the Supreme Court. The jurisdiction of the United States Court of Appeals for the Federal Circuit shall be limited to the jurisdiction described in sections 1292(c) and (d) and 1295 of this title.

414a
28 U.S.C. § 1350. Alien’s action for tort
The district courts shall have original jurisdiction
of any civil action by an alien for a tort only, committed in violation of the law of nations or a treaty of the
United States.

415a
28 U.S.C. § 2680. Exceptions
The provisions of this chapter and section 1346(b)
of this title shall not apply to—
(a) Any claim based upon an act or omission of an
employee of the Government, exercising due care, in
the execution of a statute or regulation, whether or
not such statute or regulation be valid, or based upon
the exercise or performance or the failure to exercise
or perform a discretionary function or duty on the part
of a federal agency or an employee of the Government,
whether or not the discretion involved be abused.
(b) Any claim arising out of the loss, miscarriage,
or negligent transmission of letters or postal matter.
(c) Any claim arising in respect of the assessment
or collection of any tax or customs duty, or the detention of any goods, merchandise, or other property by
any officer of customs or excise or any other law enforcement officer, except that the provisions of this
chapter and section 1346(b) of this title apply to any
claim based on injury or loss of goods, merchandise, or
other property, while in the possession of any officer
of customs or excise or any other law enforcement officer, if—
(1) the property was seized for the purpose of forfeiture under any provision of Federal law providing for the forfeiture of property other than as a
sentence imposed upon conviction of a criminal offense;
(2) the interest of the claimant was not forfeited;
(3) the interest of the claimant was not remitted
or mitigated (if the property was subject to forfeiture); and

416a
(4) the claimant was not convicted of a crime for
which the interest of the claimant in the property
was subject to forfeiture under a Federal criminal
forfeiture law..1
(d) Any claim for which a remedy is provided by
chapter 309 or 311 of title 46 relating to claims or suits
in admiralty against the United States.
(e) Any claim arising out of an act or omission of
any employee of the Government in administering the
provisions of sections 1–31 of Title 50, Appendix.
(f) Any claim for damages caused by the imposition or establishment of a quarantine by the United
States.
[(g) Repealed. Sept. 26, 1950, ch. 1049, § 13 (5), 64
Stat. 1043.]
(h) Any claim arising out of assault, battery, false
imprisonment, false arrest, malicious prosecution,
abuse of process, libel, slander, misrepresentation, deceit, or interference with contract rights: Provided,
That, with regard to acts or omissions of investigative
or law enforcement officers of the United States Government, the provisions of this chapter and section
1346(b) of this title shall apply to any claim arising,
on or after the date of the enactment of this proviso,
out of assault, battery, false imprisonment, false arrest, abuse of process, or malicious prosecution. For
the purpose of this subsection, “investigative or law
enforcement officer” means any officer of the United
States who is empowered by law to execute searches,

1

So in original.

417a
to seize evidence, or to make arrests for violations of
Federal law.
(i) Any claim for damages caused by the fiscal operations of the Treasury or by the regulation of the
monetary system.
(j) Any claim arising out of the combatant activities of the military or naval forces, or the Coast Guard,
during time of war.
(k) Any claim arising in a foreign country.
(l) Any claim arising from the activities of the Tennessee Valley Authority.
(m) Any claim arising from the activities of the
Panama Canal Company.
(n) Any claim arising from the activities of a Federal land bank, a Federal intermediate credit bank, or
a bank for cooperatives.

